<html>
<title> - ENHANCING OUR RAIL SAFETY: CURRENT CHALLENGES FOR PASSENGER AND FREIGHT RAIL</title>
<body><pre>[Senate Hearing 113-376]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-376
 
ENHANCING OUR RAIL SAFETY: CURRENT CHALLENGES FOR PASSENGER AND FREIGHT 
                                  RAIL

=======================================================================



                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION

                  AND MERCHANT MARINE INFRASTRUCTURE,

                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
89-623                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN WALSH, Montana
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

RICHARD BLUMENTHAL, Connecticut,     ROY BLUNT, Missouri, Ranking 
    Chairman                             Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
MARK PRYOR, Arkansas                 KELLY AYOTTE, New Hampshire
CLAIRE McCASKILL, Missouri           DEAN HELLER, Nevada
AMY KLOBUCHAR, Minnesota             DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2014....................................     1
Statement of Senator Blumenthal..................................     1
Statement of Senator Blunt.......................................     3
Statement of Senator Cantwell....................................    66
Statement of Senator Klobuchar...................................    71
Statement of Senator Thune.......................................    73
    Prepared statement...........................................    75

                               Witnesses

Hon. Mark Warner, U.S. Senator from Virginia.....................     5
Hon. Joseph C. Szabo, Administrator, Federal Railroad 
  Administration, U.S. Department of Transportation..............     5
    Prepared statement...........................................     7
Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration, U.S. Department of 
  Transportation.................................................    18
    Prepared statement...........................................    20
Hon. Christopher A. Hart, Vice Chairman, National Transportation 
  Safety Board...................................................    28
    Prepared statement...........................................    29
Geoffrey C. Blackwell, Chief, Office of Native Affairs and 
  Policy, Consumer and Governmental Affairs Bureau, Federal 
  Communications Commission......................................    37
    Prepared statement...........................................    39
Prentiss Searles, Marketing and Rail Issues Manager, American 
  Petroleum Institute............................................    43
    Prepared statement of Bob Greco, Group Director, Downstream 
      Operations, American Petroleum Institute...................    45
Edward R. Hamberger, President and Chief Executive Officer, 
  Association of American Railroads..............................    46
    Prepared statement...........................................    48
Hon. Heidi Heitkamp, U.S. Senator from North Dakota..............    67
    Prepared statement...........................................    84
Hon. John Hoeven, U.S. Senator from North Dakota.................    69

                                Appendix

City of Fargo, prepared statement................................    89
Bruce Bennett, President, Stage 8 Locking Fasteners, prepared 
  statement......................................................    90
Response to written questions submitted to Hon. Joseph C. Szabo 
  by:
    Hon. Richard Blumenthal......................................    92
    Hon. Barbara Boxer...........................................   102
    Hon. Heidi Heitkamp..........................................   104
    Hon. John Thune..............................................   105
    Hon. Roger F. Wicker.........................................   108
    Hon. Roy Blunt...............................................   109
    Hon. Kelly Ayotte............................................   110
    Hon. John Hoeven.............................................   111
Response to written questions submitted to Hon. Cynthia L. 
  Quarterman by:
    Hon. John D. Rockefeller IV..................................   112
    Hon. Barbara Boxer...........................................   114
    Hon. Maria Cantwell..........................................   116
    Hon. Heidi Heitkamp..........................................   116
    Hon. John Thune..............................................   119
    Hon. Roger F. Wicker.........................................   119
    Hon. Roy Blunt...............................................   120
Response to written questions submitted to Hon. Christopher A. 
  Hart by:
    Hon. Richard Blumenthal......................................   120
    Hon. Barbara Boxer...........................................   124
    Hon. Heidi Heitkamp..........................................   125
Response to written questions submitted to Geoffrey C. Blackwell 
  by:
    Hon. Richard Blumenthal......................................   125
    Hon. Amy Klobuchar...........................................   127
    Hon. Heidi Heitkamp..........................................   127
Response to written questions submitted to Prentiss Searles by:
    Hon. Richard Blumenthal......................................   128
    Hon. Barbara Boxer...........................................   130
    Hon. Maria Cantwell..........................................   130
    Hon. Heidi Heitkamp..........................................   131
    Hon. John Thune..............................................   132
    Hon. Roger F. Wicker.........................................   133
Response to written questions submitted to Edward R. Hamberger 
  by:
    Hon. Richard Blumenthal......................................   133
    Hon. Barbara Boxer...........................................   135
    Hon. Maria Cantwell..........................................   137
    Hon. Heidi Heitkamp..........................................   140


                       ENHANCING OUR RAIL SAFETY:

                    CURRENT CHALLENGES FOR PASSENGER


                            AND FREIGHT RAIL

                              ----------                              


                        THURSDAY, MARCH 6, 2014

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Richard 
Blumenthal, Chairman of the Subcommittee, presiding.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Let me call this subcommittee meeting 
to order and begin by thanking Chairman Rockefeller, who may 
not be with us this morning, for the honor of taking over this 
assignment. It's a recent one for me and I want to thank 
Senator Warner for his excellent stewardship and leadership of 
this subcommittee. I hope to fill his shoes, in part, and thank 
my colleagues for joining me this morning: Senator Cantwell, 
Senator Heitkamp, Senator Hoeven, and of course, the Ranking 
Member, Senator Blunt, whose leadership on this issue is 
longstanding. And he and I look forward to an era of very close 
bipartisan work together as is characteristic of this committee 
and particularly this subcommittee in general.
    Welcome to our witnesses. By way of warning, we have votes 
at 11:20. I'm told that there will be a single vote and then 
two voice votes. I'm hoping that we can take a brief break, 
ten, fifteen minutes, and then come back and resume the session 
this morning.
    We are here this morning because of safety and reliability 
issues that deeply concern, in fact alarm, much of the American 
traveling public and much of the business community that relies 
on freight. The transportation of products and people is 
absolutely essential to our economy. It's the lifeblood of job 
creation and economic growth.
    So we are at a critical period in the Nation's long and 
storied railroad history and we plan to have a series of 
hearings, this one being simply the first of a number and it 
was scheduled before I became Chairman, but I'm very glad that 
all of our witnesses could come back after the snowstorm 
required its postponement.
    Obviously, there are severe consequences to failures in 
safety and reliability. We've seen them in Metro-North, the 
busiest railroad in the country, and the series of incidents 
have caused not only delays in convenience, economic harm, but 
also injuries and fatalities. Injuries at the Bridgeport 
derailment and crash back in May, and then more recently, on 
December 1, at Spuyten Duyvil in the Bronx of New York where 
four people were killed and there were several injuries.
    But the American public also may not realize, looking 
forward, the severe environmental consequences and economic 
costs that could result from repetitions of these failures in 
safety and reliability. And recently, in The New York Times, I 
saw a map. I'm going to ask that it be shown momentarily, as 
soon as it arrives, but clearly these failures can cause 
pollution problems, as well as other kinds of damages, to 
health and to safety in the general public.
    We're going to focus on the responsibilities of railroads 
to make investments and improve policies and practices; change 
their cultures; and install new leadership, because this record 
has to be improved. We need to invest in the future of our 
railroads and these hearings and the work of this committee 
will explore what can be done, what must be done, to improve 
safety and reliability. But we're also going to focus on the 
responsibilities of our Federal agencies to oversee and 
scrutinize those practices and policies, and the leadership and 
management that has to come from our railroads.
    And I must say right at the beginning that I have been 
disappointed and disturbed by some of the delays and failures 
in rulemaking and oversight and scrutiny that has been imposed 
on these railroads. With seven rules left to finalize from a 
law passed in 2008, the Railroad Safety Act of 2008 still has 
not been implemented years later. And some of those rules are 
pass their deadline in the time that's been given to implement 
them. Rules delayed means safety denied and that is 
unacceptable and intolerable.
    And so, part of what we're going to do here is make sure 
that we impose accountability on Federal agencies. I understand 
that there have been steps in the right direction. The recent 
voluntary operating practices announced by the Department of 
Transportation, that relate to rail safety regarding freight, 
particularly on speed, rerouting, certain kinds of inspections 
of content of those freight cars, are very welcome, but they 
are voluntary. And again, legal standards have to be imposed 
and followed so that they truly protect the public.
    I understand that recently, Operation Classification and 
unannounced inspection indicated that 11 of 18 samples were not 
assigned correctly. Eleven of 18 samples of crude oil, to be 
transported through the United States, simply on a random 
inspection, done voluntarily under Operation Classification by 
PHMSA, showed that there are significant lapses.
    So I think that we need to make sure that the regulatory 
agencies are not victims of regulatory capture as happened, for 
example, in the financial industry in 2008. We saw the 
consequences; they affected not only Wall Street but Main 
Street. The focus affected by that regulatory laxity were 
severely harmed financially and their lives changed forever; so 
too, in Canada, in North Dakota, in New York, and Connecticut. 
The costs can be in lives as well as dollars.
    We have a responsibility to do better. This hearing will 
also look at ways, and future hearings as well, that we can 
prioritize Federal dollars for infrastructure. Members of this 
subcommittee have indicated, and I have as well, very directly 
and pointedly that we need more investment in infrastructure 
and the ways to do it, whether it's an infrastructure bank, a 
railroad trust fund, are going to be part of an effort that we 
will have ongoing and part of legislation that, I hope, will be 
introduced within the next months.
    And again, we're going to work in a very bipartisan way to 
reach conclusions that can actually also achieve passage 
because we need bipartisan work on rail transportation. There's 
nothing Republican or Democratic about it. And the effort to 
prevent laxity, lethargy in enforcement begins here, but so 
does the effort to achieve greater investment. And in that 
bipartisan spirit, I'm going to turn to our Ranking Member, 
Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Well, thank you Chairman Blumenthal. And 
after a week as Chairman, you're already having a major hearing 
and off to quite a start and I look forward to our opportunity 
to work together on this committee.
    I also want to thank Senator Warner for his leadership and 
his continued interest in these areas and for taking time to be 
here today on what he and I thought was an important topic when 
we originally decided we needed to have a hearing on this. And 
again, thanks to you for following through on that and I look 
forward to our opportunity to work together.
    I want to thank all of our witnesses for coming today. We 
have six people: four government witnesses, two private sector 
witnesses. Obviously, this is a topic that has significant 
implications and involves both the government and the private 
sector finding ways to work together. I know I join you in 
being pleased that our colleagues from North Dakota, Senator 
Hoeven and Senator Heitkamp, have--while not on the Committee--
have joined us today and will be functioning as if they were 
acting members of this committee. And certainly, they may 
understand these issues better than anybody else on the 
Committee; certainly as well as anybody else understands.
    There's certainly no doubt that the recent rail accidents 
involving trains transporting crude oil have brought new 
questions of rail safety and transporting this product to the 
forefront. The central issues we are grappling with here is how 
our infrastructure can keep up with the national and global 
needs that we have, specifically the infrastructure we're 
talking about today; rail infrastructure and the twenty-first 
century demand. We're talking about, the new demand we're 
talking about on that infrastructure is energy.
    There's no doubt that infrastructure is a critical 
component of our economy. Again to mention Senator Warner, he 
and I were and are co-sponsoring two pieces of legislation that 
would add just tools to the toolbox. I think all of us have 
talked about this many times; the infrastructure challenge is 
so big, it's hard to imagine putting more things in that 
toolbox than we can use because there are so many different 
ways to do, as you just suggested, Mr. Chairman, what needs to 
be done.
    Quality transportation is, of course, vital to connect 
people and connect products with each other. The Energy 
Information Agency projects that world energy consumption will 
grow by 56 percent between now and 2040. They also project that 
crude oil production will be at 8.5 million barrels a day in 
the United States by the end of this year; 8.5 million barrels 
is 3.5 million barrels higher than we were producing in 2008. 
And so, obviously this is a part of our energy economy that has 
grown dramatically and we expect it to continue to grow. We 
need to look today--one of the things we'll be looking at is 
clearly what impact that has had on rail.
    In 2012, Class I railroads moved more crude oil than ever; 
over 230,000 carloads. Now, that's up from 9,500 carloads just 
4 years ago. And those are numbers that, the kind of numbers I 
have a hard time repeating later because I'll think surely I 
didn't, even though I'm the one reading this information, 
surely I didn't read that right. In four years, we've gone from 
9,500 carloads of crude oil on rail to 230,000 carloads of 
crude oil on rail. And obviously, a dramatic change both in our 
energy profile, but also in how we're moving that energy 
around.
    Now one of the things that obviously benefits from that is 
the ability to send those carloads to a different place than a 
fixed pipeline might send them. But I think, again back to 
infrastructure, whether it's increasing pipeline capacity, rail 
capacity, how we deal with that, that's just going to be an 
important part of the foreseeable future for us unless we walk 
away from the energy opportunity we have.
    This examination of where we are needs to be balanced. It 
needs to understand everything from tank car design, to rail 
infrastructure, to rail safety. And I think, when you look at 
the panel here today, we clearly are prepared to talk about all 
of those things and to look at how we classify hazardous 
materials. And back to the Chairman's comments; how that 
classification is working and how it needs to work better.
    It's also important that we have somebody here from the 
Federal Communications Commission to talk about positive train 
control. Positive train control can only happen if you can have 
the information you need to have and that can only happen if 
you have the towers sited that need to be sited. And this is a 
topic I brought up with Chairman Wheeler in this room when he 
was testifying in his nomination hearing. I think I also 
brought it up with two other members of the Commission that 
have recently been added when they were testifying.
    And now, how are we going to solve this tower siting 
problem and is it possible to do that in a way that meets the 
deadline of the law? And, my personal belief is that if the 
answer is no, it's not possible. So what are we going to do 
about that?
    The private sector companies have invested substantially in 
time and resources and rail safety. Rail safety is at a higher 
level than it has ever been, but what do we want to talk about 
today is what do we still want to do? I know Mr. Szabo, 
particularly with a lifetime of time spent in this industry, 
could probably tell us better than anybody else. I may ask him 
to later. What's happened in the 30 years you've been doing 
this? And if you look at the derailment numbers and all the 
other numbers, there is dramatic improvement. And what do we 
still need to do to make that even better?
    But I think it's important we understand how far we've 
moved in just the last few years. And Chairman, again, thank 
you for holding this hearing and I look forward to working with 
you as the Chairman of this subcommittee.
    Senator Blumenthal. Thanks, Senator Blunt.
    I'd like to ask Senator Warner, since by all rights you 
should have been here if the hearing had taken place when it 
was supposed to, whether you'd like to make any opening 
statement.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. I will be very, very brief in mine. And I 
really appreciate your courtesy for having me back, and Senator 
Blunt as well, we had a great working relationship during my 
tenure. I want to thank all the witnesses. I would have gotten 
this in right under the wire as I moved off the Committee but 
for the snowstorm.
    And, you know, I think there's enough, particularly on the 
tanker car safety, enough economic opportunity, enough money 
being made that we've got to be able to figure out a solution 
set here. And I want to give special kudos to Senator Heitkamp 
who basically gave me tanker car safety 101 and 102 for about 
an hour and a half one day and taught me a lot about this, both 
the challenges that we face and the fact that, you know, 
there's got to be a collaborative way. And particularly 
appreciate the focus from industry.
    I know there has been great progress since we started this. 
I also just want to echo, again, since I will get this done in 
under a minute or I'll never be invited back, echoing what 
Senator Blunt said. There's got to be a way. There's enormous 
asset value created by these thousands and thousands of towers. 
I've said, in my previous life, I would take that obligation 
off of all the railroads if I could have the revenue stream but 
we've got to find a way that the FCC can license this in an 
efficient and effective and expeditious manner or we're not 
going to get the rail safety that I know the Chairman and the 
Ranking Member want.
    Thank you, sir.
    Senator Blumenthal. Thank you very much, Senator Warner.
    Let me begin the questioning before we have to leave for 
votes. And I'm delighted that we have a great turnout this 
morning. So we're going to begin with 5 minutes apiece to each 
of the Senators.
    Mr. Szabo, what can you tell us about so far of the results 
of the Operation Deep Dive look into Metro-North?

   STATEMENT OF HON. JOSEPH C. SZABO, ADMINISTRATOR, FEDERAL 
   RAILROAD ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Szabo. So you want a Q&A before opening statements, Mr. 
Chairman.
    Mr. Chairman. I'd be happy to have any statements that any 
of the witnesses may have.
    Mr. Szabo. OK, opening statements.
    Mr. Chairman, and to Ranking Member Blunt, members of the 
Subcommittee, thank you for this opportunity to testify.
    Over the past decade, train accidents/derailments have 
declined by 47 percent; highway grade crossing accidents are 
down 35 percent; and employee fatalities have dropped by 59 
percent. Meanwhile, intermodal freight traffic has surged 
toward a new record. Amtrak ridership has reached all-time 
highs. While rail became the fastest growing mode of public 
transportation, new records in safety have been achieved four 
out of the past 5 years, and preliminary data indicates all-
time best for Fiscal Year 2013. Better than Fiscal Year 2012, 
previously our safest year on record.
    But we owe it to the public to always do better. That's 
what we expect out of ourselves at FRA, and it's what we expect 
out of the industry that we regulate. So let me share with you 
my vision for driving the next generation of rail safety. And 
it consists of three pillars.
    First is continuing strong oversight and enforcement that 
is data driven. Second is advancing more proactive safety-based 
programs that identify and mitigate risk well in advance of an 
accident. And third is ensuring predictable and reliable 
funding for rail in order to improve infrastructure through 
capital investments and develop new safety technologies through 
robust research and development.
    Our enforcement program is based on the strategic use of 
data. By using statistical modeling, we allocate our resources 
and execute our national inspection plan. It's a disciplined 
approach that has been the foundation of the dramatic drop in 
accidents over the past decade. We also learn from every 
accident and identify root causation to further eliminate risk 
and identify the need for additional regulation.
    In December, we initiated Operation Deep Dive; a 
comprehensive look at Metro-North's entire operation. And we'll 
share with you our report in a couple of weeks after we've 
analyzed all the data. We've got a target date of March 17.
    FRA is also part of a comprehensive strategy for ensuring 
the safe transportation of Bakken crude. In partnership with 
our sister agency PHMSA, we're examining the entire system for 
crude delivery for making sure it's properly classified and 
packaged, to supporting PHMSA's tank car rulemaking, to taking 
steps to further eliminate risk through railroad operations. 
And I would like to recognize AAR for committing to a series of 
immediate voluntary steps that will significantly enhance 
safety.
    The Rail Safety Advisory Committee is currently engaged in 
three tasks regarding the safe movement of hazardous materials, 
train securement, and appropriate crew size. And they have a 
firm April 1 deadline to complete their work. Last month, we 
revised our track safety standards to require railroads to 
adopt a more performance-based approach of rail inspections to 
maintain higher levels of safety. And as we work with the 
industry to advance positive train control, we continue to make 
strides addressing human factors by taking steps to ensure the 
competency of locomotive engineers and conductors.
    But the next level of safety will come from advancing 
proactive safety-based programs, like system safety for 
passenger railroads and risk reduction for freight railroads, 
including programs like Confidential Close Call Reporting. 
While our data-based oversight and enforcement program has 
produced tremendous results, this data comes from accidents 
that have already occurred. Through Close Call Reporting it 
allows us to gather this data before, before an accident 
happens, and develop risk mitigation strategies well in 
advance.
    New regulations will require railroads to do thorough risk 
analysis, to identify hazards, and put in place customized 
plans, including a fatigue mitigation plan to reduce risk. This 
push, over and above our traditional oversight and enforcement, 
will help us drive continuous safety improvement. But the 
sooner we put rail on par with other transportation, with the 
source of dedicated and predictable funding, the sooner we will 
achieve the next generation of safety.
    Capital improvements in advancing next generation 
technology must be a part of the mix. And funding the National 
Cooperative Rail Research Program, work force development 
efforts will ensure a pool of talent with the necessary skills 
and technical capacity.
    Mr. Chairman, I'd also like to thank you, personally, for 
the work you did in helping FRA secure additional resources, 
additional employees, for Fiscal Year 2014. That's a great 
first step for us. It's going to help us better in our 
enforcement program.
    And I look forward to any questions that you have.
    [The prepared statement of Mr. Szabo follows:]

  Prepared Statement of Hon. Joseph C. Szabo, Administrator, Federal 
       Railroad Administration, U.S. Department of Transportation
    Mr. Chairman, Ranking Member, and Members of the Subcommittee, 
thank you for the opportunity to appear before you today, on behalf of 
Secretary Foxx, to discuss the safety of our Nation's railroads. Rail 
is a particularly safe mode of transportation, and one that American 
passengers and shippers are choosing more than ever before. Today, I 
will first give an overview of the railroad industry's safety record 
and the Federal Railroad Administration's (FRA) safety program, 
including our implementation of the Rail Safety Improvement Act of 
2008. Then, I will discuss the U.S. Department of Transportation's 
(DOT) actions in response to recent accidents and present FRA's vision 
to drive the next generation of rail safety.
    FRA's mission is to enable the safe, reliable, and efficient 
movement of people and goods for a strong America, now and in the 
future. We are a data-driven agency. Every regulation, safety advisory 
and emergency order we issue is based on facts and sound research using 
advanced statistical methods and modeling. We closely monitor data and 
trends to identify, reduce, and eliminate risks.
    Two straight years of record-breaking safety performance, along 
with significant reductions in all types of accidents since 2008, are 
strong evidence that FRA's approach to oversight and enforcement is 
effective.
The Railroad Industry's Safety Record and FRA's Safety Program
    FRA's top priority is safety, and Fiscal Year (FY) 2012 was the 
safest year on record, with preliminary data from FY 2013 indicating it 
will be even better than FY 2012's record.
    Since FY 2004:

  <bullet> Total train accidents have declined by 47 percent.

  <bullet> Total derailments have declined by 47 percent.

  <bullet> Total highway-rail grade crossing accidents have declined by 
        35 percent.

    These safety improvements resulted in 13-percent fewer fatalities 
overall (895 fatalities to 779 fatalities--95 percent of which are 
trespassing or grade crossing related), 59-percent fewer employee 
fatalities, and 9-percent fewer injuries (9,367 injuries to 8,534 
injuries) over 10 years. These improvements are impressive in their own 
right, but especially if you consider the regulatory workload that FRA 
received from the Rail Safety Improvement Act of 2008 (RSIA) and 
passenger and freight rail's growth during this same time.

  <bullet> Amtrak set new ridership records in 10 of the last 11 years,

  <bullet> Rail was the fastest-growing mode of public transportation, 
        and

  <bullet> Intermodal freight traffic surged toward a new record.

    RSIA mandated that FRA, as the Secretary's designee, complete an 
unprecedented 42 tasks, including final rules, guidance documents, 
model State laws, studies, and reports as well three types of annual 
reports and hundreds of periodic accident reporting audits.
    Thirty of the 42 tasks are complete, and the rest are in the 
pipeline progressing towards completion. Appendix 1 lists the 
rulemakings, non-periodic reports and studies, guidance, and model 
State laws that FRA has completed as of February 26, 2014.
    The chart and table below illustrate a decade of safety 
improvement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      

                           Ten-year Railroad Safety Trends by Accident/Incident Cause
   *Accident/Incident, Train Accident, and Highway-Rail Incident Numbers Normalized by Million Train-Miles for
      Fiscal Year, Non-Accident Hazmat Releases Normalized by 200 Million Hazmat Ton-Miles for Fiscal Year
----------------------------------------------------------------------------------------------------------------
                        FY 2004  FY 2005  FY 2006  FY 2007  FY 2008  FY 2009  FY 2010  FY 2011  FY 2012  FY 2013
----------------------------------------------------------------------------------------------------------------
Total Accidents/         19.039   18.093   17.525   17.298   16.907   16.873   16.696   16.063   15.167   14.852
Incidents
----------------------------------------------------------------------------------------------------------------
Human-Factor-             1.721    1.648    1.380    1.297    1.230    1.041    0.948    0.995    0.919    0.888
Caused Train
Accidents
----------------------------------------------------------------------------------------------------------------
Track-Caused              1.314    1.398    1.318    1.258    1.094    1.036    0.972    0.954    0.843    0.727
Train Accidents
----------------------------------------------------------------------------------------------------------------
Equipment-                0.548    0.499    0.433    0.418    0.435    0.366    0.370    0.342    0.286    0.271
Caused Train
Accidents
----------------------------------------------------------------------------------------------------------------
Total Signal/             0.692    0.707    0.641    0.506    0.497    0.484    0.494    0.469    0.438    0.430
Misc.-Caused
Train Accidents
----------------------------------------------------------------------------------------------------------------
Highway-Rail              4.024    3.800    3.797    3.523    3.240    2.986    2.900    2.881    2.773    2.685
Incidents
----------------------------------------------------------------------------------------------------------------
Non-Accident              1.387    1.398    1.147    1.221    1.227    1.149    1.063    1.079    0.933    0.932
Hazmat Releases
----------------------------------------------------------------------------------------------------------------

Response to Accidents
    As we use data and research to drive continuous safety improvement, 
we learn from every accident. FRA investigators focus on identifying an 
accident's root causes so we can further eliminate risk and take 
appropriate enforcement action. This is one more facet of our 
comprehensive approach to rail safety.
    The Department, including FRA, has responded aggressively to recent 
accidents that have received widespread attention.
Metro-North Commuter Railroad Company \1\
---------------------------------------------------------------------------
    \1\ A description of Metro-North Railroad is in Appendix 2 to this 
testimony.
---------------------------------------------------------------------------
    As a result of several accidents on Metro-North Commuter Railroad 
Company (Metro-North), FRA issued Emergency Order 29 and Safety 
Advisory 2013-08 on December 11, 2013.

  <bullet> Emergency Order 29 required Metro-North to take immediate 
        action to prevent excessive train speeds by identifying and 
        prioritizing high-risk areas, modifying its existing signal 
        system to ensure speed limits are obeyed, and ensuring a higher 
        level of engagement and communication among operating 
        crewmembers in higher risk locations. To date, FRA has not 
        identified any instances of noncompliance with Emergency Order 
        29.

  <bullet> Safety Advisory 2013-08 helps ensure that all railroads 
        adhere to Federal regulations regarding maximum authorized 
        train speed limits through training, operational testing, and 
        train crewmember communication.

    On December 16, 15 days after a fatal accident in New York, FRA 
commenced Operation Deep Dive, a comprehensive, multi-disciplinary 
safety assessment of Metro-North where technical and human factors 
experts are reviewing safety-critical procedures and processes, 
including operations, mechanical and engineering. The Federal Transit 
Administration is participating with FRA to ensure investments in 
Metro-North are properly prioritized to improve safety.
    The rail safety team is assessing the following:

  <bullet> Track, signal and rolling stock maintenance, inspection and 
        repair practices;

  <bullet> Protection for employees working on rail infrastructure, 
        locomotives and rail cars;

  <bullet> Communication between mechanical and transportation 
        departments at maintenance facilities;

  <bullet> Operation control center procedures and rail traffic 
        controller training;

  <bullet> Compliance with Federal hours of service regulations, 
        including fatigue management programs;

  <bullet> Evaluating results of operational data to measure efficiency 
        of employees' execution and comprehension of all applicable 
        Federal rail safety regulations;

  <bullet> Locomotive engineer oversight;

  <bullet> Engineer and conductor certification; and

  <bullet> Operating crew medical requirements.

    Operation Deep Dive ended February 14, 2014 and FRA will present a 
report of its findings within 30 days afterwards. FRA will meet with 
Metro-North to discuss the findings and appropriate remedial actions. 
Additionally, FRA will discuss best practices and lessons learned from 
Operation Deep Dive with other commuter rail chief executive officers 
(CEOs) through the American Public Transportation Association.
Rail Accidents involving Crude Oil
    Crude oil transportation by rail rose quickly because of increasing 
production in the Bakken region of North Dakota. FRA is paying close 
attention to that region, and accident rates in North Dakota have 
fallen over the past three years, even with increased traffic.
    In response to recent train accidents in the United States and 
Canada involving tank cars carrying crude oil, DOT, including FRA and 
the Pipeline and Hazardous Materials Safety Administration (PHMSA), has 
taken action on multiple fronts to mitigate risks and ensure the safe 
transportation of crude oil, ethanol, and other hazardous materials by 
rail. FRA and PHMSA have related but distinct responsibilities in 
managing the risk from the transportation of hazardous materials. PHMSA 
produces regulations pertaining to the transportation of hazardous 
materials by rail, which are primarily enforced by FRA's safety staff, 
while FRA's staff also acts to enforce comprehensive safety regulations 
for rail transportation.
    On January 16, oil industry representatives and rail industry CEOs 
met with the Secretary and heads of PHMSA, the Federal Motor Carrier 
Safety Administration, and FRA in a ``Call to Action.'' The CEOs were 
asked to develop specific plans to immediately improve the safety of 
crude oil shipments, and recommendations on how to improve safety over 
the long term. After analyzing their plans and suggestions, on February 
20, 2014, Secretary Foxx sent a letter to the Association of American 
Railroads (AAR) with a list of actions to be voluntarily taken 
immediately by industry to dramatically improve the safety of railroads 
transporting crude oil and the communities they move through. AAR 
President and CEO Edward Hamberger signed the agreement that same day, 
and individual railroads are signing on subsequently. The letter from 
Secretary Foxx listed eight commitments:

  1.  By July 1, subscribers will apply HAZMAT routing analysis to 
        trains with 20 or more tank cars loaded with petroleum crude 
        oil (Key Crude Oil Trains). The routing analysis utilizes a 
        computer model to analyze 27 risk factors to determine the 
        safest and most secure route for the product to travel.

  2.  By July 1, subscribers will adhere to a speed restriction of 50 
        mph for all Key Crude Oil Trains, and 40 mph in high-threat 
        urban areas if they are using a DOT 111 tank car.

  3.  By April 1, subscribers will equip all Key Crude Oil Trains on 
        main track with distributive power locomotives or an operative 
        two-way telemetry end of train device to achieve benefits in 
        braking speed and substantially reducing the kinetic energy in 
        trains to prevent pile ups.

  4.  Effective March 25, subscribers will perform at least one 
        internal rail inspection and two track geometry inspections 
        more than is required by current regulations every calendar 
        year on Key Crude Oil Train routes.

  5.  By July 1, subscribers will begin installing wayside defective 
        bearing detectors every 40 miles on Key Crude Oil Train routes 
        to prevent equipment-caused accidents.

  6.  Subscribers will develop an inventory of emergency response 
        resources along Key Crude Oil Train routes. This information 
        will be provided to DOT and emergency responders upon request.

  7.  Subscribers will provide $5 million to develop and provide 
        training on hazardous material transportation and fund training 
        for emergency responders through the end of 2014. Comprehensive 
        training will occur at the Transportation Technology Center, 
        Inc. facility in Colorado with a training program fully 
        developed by July 1.

  8.  Subscribers will continue to work with communities on Key Crude 
        Oil Train routes to address location-specific concerns.

    A copy of the full agreement is included with this testimony. This 
agreement is an important step in improving the safety of crude oil 
transportation by rail. FRA will continue to use its regulatory 
authority to address this issue and act accordingly to maintain public 
safety and confidence.
    Here is a summary of other DOT actions in response to accidents 
involving crude oil and other hazardous materials.
Order and Advisories
    FRA issued Emergency Order 28, and both FRA and PHMSA issued safety 
advisories, held public hearings, and notified shippers and carriers of 
the critical importance of public safety when transporting hazardous 
materials.

  <bullet> FRA's emergency order addresses unattended trains, train 
        securement, the use of locks, communication between train crews 
        and dispatchers, and daily safety briefings for railroad 
        employees and was published August 7, 2013.

  <bullet> A joint FRA-PHMSA safety advisory on related issues was also 
        published August 7, 2013.

  <bullet> A joint FRA-PHMSA follow-up safety advisory was published 
        November 20, 2013.
Rulemakings
    In addition to the emergency order and safety advisories, FRA is 
updating applicable rail safety regulations, and as PHMSA will describe 
in more detail, FRA is collaborating with PHMSA on a rulemaking that 
addresses DOT Specification 111 tank cars. All rulemakings are subject 
to extensive study and analysis.
    But tank cars are only one part of the chain of delivery, and we 
must identify and evaluate all of the risks associated with bulk 
movements of hazardous material, such as ethanol and crude oil, and 
then work to eliminate those risks.

  <bullet> On August 28, 2013, FRA and PHMSA held a public meeting with 
        industry stakeholders to solicit input for a comprehensive 
        review of the Hazardous Materials Regulations applicable to 
        rail. PHMSA and FRA are collaborating to address comments 
        received at the public meeting.

  <bullet> On August 29, 2013, FRA convened an emergency session of the 
        RSAC. During the emergency RSAC meeting, participants 
        established three collaborative working groups to formulate new 
        rulemaking recommendations regarding (1) transportation of 
        hazardous materials by rail, (2) appropriate train crew sizes, 
        and (3) train securement procedures. These working groups are 
        meeting on a regular basis and we expect formal recommendations 
        for consideration by April 1, 2014.
Operation Classification (the ``Bakken Blitz'')
    In August 2013, PHMSA, supported by FRA, launched Operation 
Classification, which involves joint activities at all transportation 
phases to investigate how shippers and carriers are classifying crude 
oil and what actions they are taking to understand the characteristics 
of the material. The operations have primarily targeted shipments from 
the Bakken region and consisted of unannounced spot inspections, data 
collection, and sampling as well as verifying compliance with Federal 
safety regulations. Operation Classification is nearing completion.
    As I have described, rail safety is at an all-time best. Yet, these 
accidents illustrate why we can never be complacent.
Our Vision for the Next Generation of Rail Safety
    Continuous safety improvement requires a comprehensive strategy 
designed to eliminate risk. Here is FRA's strategy, founded on three 
pillars:

  1.  Continuing a rigorous regulatory and inspection program based on 
        strategic use of data;

  2.  Advancing proactive approaches for early identification and 
        reduction of risk; and

  3.  Capital investments, and robust research and development.
Pillar I. Continuing a rigorous regulatory and inspection program
    As stated previously, FRA's approach to rail safety has led to 
unprecedented safety improvements. We will continue this framework for 
safety oversight and enforcement and improve it. Data driven analysis 
will continue to guide workforce planning and inspection activities.
    FRA's regulatory program improves safety by developing rules based 
on facts, incident and accident causation analysis, comparison of 
alternative mitigation measures, and cost-beneficial solutions. FRA 
rulemaking considers current and future industry capabilities, 
compliance burden and cost, and other economic and social realities. 
Within this context, FRA will continue to attempt to meet statutory 
milestones with its available resources.
    State rail inspectors are a force multiplier for FRA's compliance 
and enforcement efforts. The State Rail Safety Participation Program 
consists of states employing safety inspectors in the five rail safety 
inspection disciplines. State programs conduct planned, routine 
compliance inspections; and may undertake additional investigative and 
surveillance activities consistent with overall program needs and 
individual State capabilities. FRA provides on-the-job training to 
State inspectors. We invite additional state participation in this 
important program and view it as an opportunity to improve oversight in 
key states and regions.
Focus Areas
    Safety overall has improved; however, accidents related to human 
error and track defects account for more than two-thirds of all train 
accidents, and trespassing and highway-rail grade crossing incidents 
account for approximately 95 percent of all rail-related fatalities. We 
will allocate resources and work with partners, such as Operation 
Lifesaver, to make improvements in these challenging areas. The 
following rulemakings, reports, guidance documents, and other actions 
are important milestones that will guide our work in these areas:
Human Factors

  <bullet> Final rule to advance nationwide implementation of positive 
        train control (PTC) systems (which prevent overspeed 
        derailments, train-to-train collisions, and other types of 
        accidents often caused by human error) by defining statutory 
        terms and the essential functionalities of PTC systems. FRA 
        also issued two other rules designed to reduce some of the 
        costs of PTC implementation,. PTC systems are a technology that 
        promotes safety improvement through the reduction of certain 
        human-factor-related incidents and will complement FRA's other 
        safety efforts, such as implementation of safety Risk Reduction 
        Programs (RRP) and crash energy management.

  <bullet> Final rule requiring a railroad to have a formal program for 
        certifying train conductors. This will raise the bar of 
        professionalism and ensure that only those persons who meet 
        minimum Federal safety standards serve as conductors.

  <bullet> Proposed rule that would enhance safety by mandating that 
        certain railroads (each Class I railroad, intercity passenger 
        railroad, and commuter railroad) have a Critical Incident 
        Stress Plan that may help mitigate the long-term negative 
        effects of critical incidents upon railroad employees and the 
        impact of performing safety-sensitive duties in the days 
        following such incidents when the associated stress may hinder 
        their ability to perform such duties safely.

  <bullet> Final rule on the hours of service of passenger train 
        employees. This rule draws on detailed research into the causes 
        of train operator fatigue and analysis of thousands of operator 
        work patterns. FRA also published in the Federal Register three 
        lengthy, detailed statements of agency policy and 
        interpretation to clarify the hours of service laws as amended 
        by RSIA.

  <bullet> An FRA-led industry-wide initiative to combat the dangers of 
        electronic device distraction in the railroad workplace as well 
        as an emergency order and then a final rule prohibiting 
        distracted operation of trains.

  <bullet> A proposed rule that would establish minimum training 
        standards for each class or craft of safety-related employee 
        and contractor. The rule would require the qualification and 
        documentation of the proficiency of such employees on their 
        knowledge and ability to comply with Federal railroad safety 
        laws and regulations and the employing railroad company's rules 
        and procedures implementing those laws and regulations. A final 
        rule on minimum training standards and plans is under 
        development.
Track Safety

  <bullet> Final rule to Improve Rail Inspections. Requires the use of 
        performance-based rail inspection methods that focus on 
        maintaining low rail failure rates per mile of track and 
        generally results in more frequent testing; provides a four-
        hour period to verify that certain less serious suspected 
        defects exist in a rail section once track owners learn that 
        the rail contains an indication of those defects; requires that 
        rail inspectors are properly qualified to operate rail flaw 
        detection equipment and interpret test results; and establishes 
        an annual maximum allowable rate of rail defects and rail 
        failures between inspections for each designated inspection 
        segment of track. These changes are intended to reduce the risk 
        of derailments caused by rail failures by improving the 
        accuracy of rail inspections and shortening the time that 
        latent, undetected rail flaws remain in track.

  <bullet> Vehicle/Track Interaction Safety Standards. The final rule 
        was based on research into vehicle/track interaction, and it 
        promotes the safe interaction of rail vehicles with the track 
        over which they operate under a variety of conditions at speeds 
        up to 220 mph. The rule also adds flexibility for safely 
        permitting high cant deficiency train operations \2\ through 
        curves at more conventional speeds so that both freight and 
        passenger trains may better sustain maximum allowable speeds 
        through curved track.
---------------------------------------------------------------------------
    \2\ Cant deficiency involves traveling through a curve faster than 
the balance speed and produces a net lateral force to the outside of 
the curve. http://www.highspeed-rail.org/Documents/
PRIIA%20305%20DocSpec%20and%20other%20NGEC%20Documents/
305%20PRIIA%20Tilt%20
presentation.pdf

  <bullet> New Technology to Improve Track Safety. Through our research 
        and development program we are about to bring to market new 
        technology for avoiding track buckles (sun-kinks). The device 
        measures the neutral temperature of rail and warns the railroad 
        when track maintenance is required to avoid track buckling. We 
        are also developing technology to predict rail temperature 
        variations. This provides railroads information needed to 
        decide the extent and duration of slow orders to reduce safety 
        risk on hot days.
Grade Crossing Safety and Trespass Prevention

  <bullet> Standards requiring railroads to establish and maintain 
        toll-free ``1-800'' emergency notification systems by which the 
        public can telephone the proper railroad about a stalled 
        vehicle or other safety problem at a specifically identified 
        grade crossing.

  <bullet> Regulations requiring 10 states to issue State-specific 
        action plans to improve safety at highway-rail grade crossings.

  <bullet> Model State laws on highway users' sight distance at 
        passively signed crossings and on highway motorists' violations 
        of grade crossing warning devices.

  <bullet> A proposed rule specifying the types of information that 
        railroads would have to report to the Department's National 
        Crossing Inventory.

  <bullet> A five-year strategy to improve highway-rail grade crossing 
        safety, including an audit every two years of Class I 
        railroads' highway-rail grade crossing accident reports to 
        ensure that these railroads are accurately reporting these 
        incidents. Resources permitting, FRA will conduct such audits 
        every five years on other railroads.

  <bullet> Guidance addressing pedestrian safety at or near passenger 
        rail stations,

  <bullet> An FRA-released smartphone application with grade crossing 
        information.
Pillar II. Advancing proactive approaches to reduce risk
    Continuous safety improvement requires a multi-faceted approach. 
The next level of safety will come from advancing proactive safety-
based programs that analyze risks, identify hazards, and put in place 
customized plans to eliminate those risks.

  <bullet> Risk Reduction Programs (RRP) and System Safety Programs 
        (SSP) that help identify accident precursors so that corrective 
        action can be taken in advance. We will issue a final rule 
        before the end of 2014 to require passenger railroads to 
        develop and implement SSPs. A notice of proposed rulemaking 
        that would require freight railroads to establish RRPs is 
        currently under development. Both are designed to require 
        railroads to develop and implement systematic risk-based 
        approaches to ensuring continuous safety improvement.

  <bullet> Confidential Close Call Reporting System (C\3\RS), a 
        voluntary and non-punitive program for railroads and their 
        employees to report close calls. Results from one C\3\RS pilot 
        site indicate nearly a 70-percent reduction in certain 
        accidents. C\3\RS helps develop a positive and proactive safety 
        culture, using detailed data far beyond what is obtained during 
        accident investigations. The magnitude of the information 
        provided from proactive programs like C\3\RS in comparison to 
        traditional data from accidents and injuries is illustrated 
        below:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Programs like Confidential Close Calls Reporting allow us to gather 
data before an accident occurs and to develop risk mitigation 
strategies well in advance.
Pillar III. Capital investments, including robust research and 
        development
    As you know, portions of two important rail laws expired at the end 
of FY 2013: RSIA and the Passenger Rail Investment and Improvement Act 
of 2008 (PRIIA). The President's FY 2014 budget for FRA laid out a 
comprehensive, multi-year reauthorization blueprint for moving forward. 
The fundamental goal of this proposal is to develop a coordinated 
approach to enhancing the Nation's rail system-an integrated strategy 
that addresses safety and passenger and freight service improvements. 
This new approach reflects the complex reality of how rail works in the 
United States-most track is privately-owned and carries a mix of 
passenger and freight trains. Safety is improved not just through 
regulations and inspections but also through capital investments and 
research and development.
    For example, chokepoints often hinder the efficient movement of 
intercity passenger, commuter, and freight trains, while the 
elimination of grade crossings with strategic placement of overpasses 
and underpasses enhances rail, vehicular, and pedestrian safety.
    FRA's reauthorization proposal's key priorities include the 
following:

  <bullet> Modernizing our rail infrastructure. Past generations of 
        Americans invested heavily in building the infrastructure we 
        rely on today. Most segments of the Northeast Corridor were 
        built more than a century ago. Maintaining and modernizing 
        these assets will lower long-term costs and result in a safer, 
        more efficient and reliable rail system.

  <bullet> Meeting the growing market demand. With 100 million more 
        Americans expected by 2050, the national transportation system 
        must be prepared to handle substantial increases in the 
        movement of people and goods. Given the existing capacity 
        constraints on other modes, rail will play an increasingly 
        vital role in balancing America's transportation system by 
        accommodating this growth, resulting in public benefits such as 
        reduced reliance on foreign oil, reduced air pollution, 
        increased safety, and more travel options. The budget 
        incorporates market-based investments in building or improving 
        passenger rail corridors, eliminating rail chokepoints, adding 
        freight capacity, and conducting comprehensive planning.

  <bullet> Successfully implementing PTC. The mandated deadline of 
        December 2015 will likely not be reached by many railroads. 
        Commuter rail operations are cash-strapped and unable to attain 
        certain necessities for implementation, such as communications 
        spectrum. FRA's budget proposes grants for those commuter 
        railroads and research and development for new technologies to 
        improve rail safety. FRA's August 2012 Report to Congress 
        ``Positive Train Control: Implementation Status, Issues, and 
        Impacts'' summarized the major technical and programmatic 
        challenges and obstacles associated with PTC implementation 
        that FRA had identified so far. \3\ Subsequent to the report's 
        submission, a new issue regarding PTC communications towers 
        deployment arose under the jurisdiction of the Federal 
        Communications Commission.
---------------------------------------------------------------------------
    \3\ ``Positive Train Control: Implementation Status, Issues, and 
Impacts''--http://www.fra
.dot.gov/Elib/Details/L03718

  <bullet> Promoting innovation. FRA's vision is for the domestic rail 
        industry to be again world-leading. We want U.S. companies to 
        develop patents for state-of-the-art rail technology, to supply 
        rail operators throughout the world, and to employ the best 
        engineers and railway workers. The United States should be 
        exporting intellectual capital and rail products, not importing 
---------------------------------------------------------------------------
        them.

  <bullet> Mitigating rail's impacts on communities. Improving quality 
        of life by eliminating grade crossings, sealing corridors, 
        reducing noise impacts, and including safety enhancements that 
        allow for service improvements and economic growth.

  <bullet> Research and Development. Implementing new technology will 
        be a key driver for future safety improvement. Here are a few 
        examples of important research:

    <ctr-circle> Track inspection technologies that detect defects 
            before they become failures in service.

    <ctr-circle> Computer modeling capabilities to improve 
            understanding of vehicle/track interaction, wheel and rail 
            profiles, and contact conditions.

    <ctr-circle> Autonomous recording methods to provide more frequent 
            and cost-effective measurements of track condition.

    <ctr-circle> Research to develop new methods for monitoring 
            difficult-to-detect safety issues such as longitudinal rail 
            force, ballast lateral restraint, and ballast condition.

    <ctr-circle> High-speed rail research and development, which has 
            identified several key risk factors for corridors shared by 
            passenger and freight operations. Research to understand 
            these risks and mitigate them is ongoing.

    <ctr-circle> Research on new technologies for improving grade 
            crossing safety. One project that has significant potential 
            is implementation of Intelligent Transportation Systems at 
            grade crossings. FRA is also conducting human-factors 
            research to understand the behavior of highway users when 
            they approach grade crossings. This research is expected to 
            lead to recommendations for improved signage and warning 
            systems. FRA will consider the benefits and costs, and 
            feasible alternatives, for any recommendation.

    <ctr-circle> A research and development program to achieve 
            reliable, long life from concrete ties. The program 
            involves freight railroads, Amtrak, manufacturers, and 
            universities.

    <ctr-circle> The National Cooperative Rail Research Program, which 
            enhances the development of technical skills for a capable 
            workforce to design and operate the next generation of safe 
            railroads.
The Need for Predictable Funding
    An overarching issue that runs across all of these priorities is 
the need for sustained and predictable Federal funding for rail 
programs, similar to the treatment of other modes of transportation. 
Congress has for decades funded highway infrastructure and safety, 
transit, and aviation programs through multi-year authorizations that 
provide guaranteed funding. This enables States, local governments, and 
other stakeholders to plan and make large-scale infrastructure 
investments on a year-to-year basis. Likewise, internationally, other 
major rail systems have been planned and developed through a 
predictable multi-year funding program.
Conclusion
    Thank you for the opportunity to testify and answer your questions 
today. Safety is FRA's number one priority, and we appreciate your 
attention and focus on such an important issue for the American public. 
Our vision for the next generation of rail safety balances a 
comprehensive and effective regulatory framework with innovative, 
proactive ideas and capital investment, including critical research and 
development. We look forward to working with this Committee to improve 
our programs and make the American rail network as safe, reliable, and 
efficient as possible. I will be happy to respond to your questions.
                               Appendix 1
FRA Rulemakings Completed as of March 5, 2014, that Were Mandated, 
        Explicitly or Implicitly, by RSIA \4\
---------------------------------------------------------------------------
    \4\ In addition, FRA commenced a rulemaking to define ``critical 
incident'' for purposes of the mandated rulemaking on critical incident 
stress plans as specifically required by Sec. 410(c)).

   1.  To specify the essential functionalities of mandated PTC 
        systems, define related statutory terms, and identify 
        additional lines for implementation. (Sec. 104).\5\
---------------------------------------------------------------------------
    \5\ In addition, FRA has issued two final rules on PTC, and another 
final rule on PTC is in clearance in the Executive Branch.

   2.  To establish substantive hours of service requirements for 
---------------------------------------------------------------------------
        passenger train employees. (Sec. 108(d)).

   3.  To update existing hours of service recordkeeping regulations. 
        (Sec.108(f)).

   4.  To require State-specific action plans from certain states to 
        improve safety at highway-rail grade crossings. (Sec. 202).

   5.  To require toll-free telephone emergency notification numbers 
        for reporting problems at public and private highway-rail grade 
        crossings. (Sec. 205).

   6.  Increase the ordinary maximum and aggravated maximum civil 
        penalties per violation for rail safety violations to $25,000 
        and $100,000, respectively. (Sec. 302).

   7.  On prohibition of individuals from performing safety-sensitive 
        functions in the railroad industry for a violation of hazardous 
        materials transportation law. (Sec. 305).

   8.  On procedures for emergency waivers. (Sec. 308).

   9.  To require the certification of conductors. (Sec. 402).

  10.  On the results of FRA's study of track inspection intervals and 
        other track issues. (Sec. 403(c)).

  11.  On concrete ties. (Sec. 403(d)).

  12.  To require owners of railroad bridges to implement programs for 
        inspection, maintenance, and management of those structures. 
        (Sec. 417).

  13.  On camp cars used as railroad employee sleeping quarters. (Sec. 
        420).

  14.  Amending regulations of the Office of the Secretary of 
        Transportation to provide that the Secretary delegates to the 
        Administrator of FRA the responsibility to carry out the 
        Secretary's responsibilities under RSIA.
Completed RSIA-Mandated Guidance and Model State Laws \6\
---------------------------------------------------------------------------
    \6\ In addition, FRA has published three guidance documents on the 
hours of service laws as amended by RSIA in the Federal Register.
---------------------------------------------------------------------------
   1.  Guidance on pedestrian safety at or near rail passenger 
        stations. (Sec. 201).

   2.  Guidance for the administration of the authority to buy items of 
        nominal value and distribute them to the public as part of a 
        crossing safety or railroad trespass prevention program. (Sec. 
        208(c)).

   3.  Model State law on highway users' sight distances at passively 
        signed highway-rail grade crossings. (Sec. 203).

   4.  Model State law on motorists' violations of grade crossing 
        warning devices. (Sec. 208).
Completed RSIA-Mandated Non-periodic Reports or Studies
   1.  Report to Congress on DOT's long-term (minimum 5-year) strategy 
        for improving rail safety, including annual plans and schedules 
        for achieving specified statutory goals, to be submitted with 
        the President's annual budget. (Sec. 102).

   2.  Report to Congress on the progress of railroads' implementation 
        of PTC. (Sec. 104).

   3.  Conduct study to evaluate whether it is in the public interest 
        to withhold from discovery or admission, in certain judicial 
        proceedings for damages, the reports and data compiled to 
        implement, etc., a required risk reduction program. (Sec. 109).

   4.  Evaluate and review current local, State, and Federal laws 
        regarding trespassing on railroad property, vandalism affecting 
        railroad safety, and violations of highway-rail grade crossing 
        warning devices. (Sec. 208(a)).

   5.  Report to Congress on the results of DOT research about track 
        inspection intervals, etc. (Sec. 403(a)-(b)).

   6.  Conduct study of methods to improve or correct passenger station 
        platform gaps (Sec. 404).

   7.  Report to Congress detailing the results of DOT research about 
        use of personal electronic devices in the locomotive cab by 
        safety-related railroad employees. (Sec. 405).

   8.  Report to Congress on DOT research about the effects of 
        repealing a provision exempting Consolidated Rail Corporation, 
        etc., from certain labor-related laws (45 U.S.C. Sec. 797j). 
        (Sec. 408).

   9.  Report to Congress on the results of DOT research about exposure 
        of railroad employees and others to radiation. (Sec. 411).

  10.  Report to Congress on DOT study on the expected safety effects 
        of reducing inspection frequency of diesel-electric locomotives 
        in limited service by railroad museums. (Sec. 415).

  11.  Report to Congress on model plans and recommendations, to be 
        developed through a task force to be established by DOT, to 
        help railroads respond to passenger rail accidents. (Sec. 503).
                               Appendix 2
    Metro-North Commuter Railroad Company (Metro-North) is the second 
largest commuter railroad in the nation, with an annual ridership of 
82,953,628.\7\ It is a subsidiary agency of the Metropolitan 
Transportation Authority, a New York State Authority.
---------------------------------------------------------------------------
    \7\ http://web.mta.info/mta/network.htm#statsmnr

  <bullet> Three main lines, the Hudson, Harlem, and New Haven Lines, 
        branch northward out of Grand Central Terminal, located in mid-
        town Manhattan, into suburban New York and Connecticut. Metro-
        North maintains the equipment and infrastructure and operates 
---------------------------------------------------------------------------
        and controls the trains on these lines.

  <bullet> Amtrak operates on the Hudson Line, between Spuyten Duyvil 
        and Poughkeepsie, and on the New Haven Line, between New 
        Rochelle and New Haven.

  <bullet> The West of Hudson Service, the Port Jervis and the Pascack 
        Valley Lines, operates from New Jersey Transit Rail Operations' 
        (NJ Transit) Hoboken terminal, providing service to Rockland 
        and Orange counties. NJ Transit maintains the equipment and 
        operates and controls the trains. Metro-North maintains the 
        infrastructure.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    Senator Blumenthal. Thank you. Thank you very much, Mr. 
Szabo.
    I'm going to interrupt because the votes have been called. 
We should have a ten-minute recess and we'll come back and 
resume.
    Thank you.
    [Pause.]
    Senator Blumenthal. Thank you all for your patience.
    Please proceed.

            STATEMENT OF HON. CYNTHIA L. QUARTERMAN,

        ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS

    SAFETY ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Quarterman. Good morning. Chairman Blumenthal and 
Ranking Member Blunt, members of the Subcommittee, Senators 
Heitkamp and Hoeven, thank you for your leadership on advancing 
rail safety and for the opportunity to appear here today to 
discuss PHMSA's comprehensive approach to ensure the safe 
transportation of crude by rail.
    Safety is the top priority for Secretary Foxx, for the 
Department of Transportation, PHMSA, and all of its sister 
modes. We all work diligently to protect the American people 
and the environment from hazardous material transportation 
incidents.
    As you know, energy production in the United States has 
markedly increased. The use of rail to move crude has increased 
exponentially in the past few years, especially crude from the 
Bakken region. In fact, crude oil production in that area has 
elevated North Dakota to the second largest oil-producing state 
in the Nation. As recently as November 2013, approximately 
600,000 barrels per day of oil produced in North Dakota were 
transported by rail; going from less than 11,000 carloads in 
2009 to close to 400,000 in 2013. This increase in crude 
shipments by rail, and recent incidents, underscore how 
important it is to be ever vigilant in protecting local 
communities and the environment.
    To deal with this challenge, the department has taken a 
comprehensive approach to address the risks associated with 
transporting crude by rail. Together, PHMSA and FRA are 
focusing on regulatory and non-regulatory methods to, in the 
first instance, prevent incidents from occurring by putting in 
place necessary operational controls and improving track 
integrity to lessen the likelihood of an incident. In case an 
incident does occur, we are looking to mitigate the effects and 
ensuring effective emergency response.
    PHMSA and FRA have been working together to issue 
guidelines and rulemakings; participate in rail safety 
committees and public meetings; enhance inspection and 
enforcement; and coordinate with other agencies to improve 
public safety. As one example, this past summer PHMSA, FRA, and 
FMCSA teamed together to implement Operation Classification. 
This was an unprecedented initiative with DOT inspectors 
performing unannounced inspections and testing crude oil 
samples to verify that the materials were being properly 
characterized and classified for transportation.
    In January, Secretary Foxx issued a call to action, asking 
crude oil and rail stakeholders to commit to taking immediate 
steps to improve the transportation of crude oil. The Secretary 
identified some actions the department was considering and 
challenged those industries to take such preventive and 
mitigative steps immediately.
    To date, the call to action has been a success for safety. 
We've received firm commitments from rail and crude oil 
industries to take immediate actions to improve safety. Those 
actions include increased track inspections to prevent 
derailments, and a litany of mitigative steps to reduce speed, 
use alternate routes, improve braking, improve crude oil 
testing and classification, and improve emergency responder 
preparedness and training.
    In addition to regulatory and non-regulatory efforts to 
improve rail safety, we've increased our efforts to improve the 
public awareness and understanding of hazardous materials' 
regulatory requirements. Our efforts include enforcement and 
outreach efforts focused on proper classification and 
characterization, safety and security planning, and ensuring 
emergency responders and the public are aware of hazmat 
transportation requirements.
    As I've stated earlier, PHMSA is committing to improving 
transportation safety and I believe our comprehensive approach 
to addressing safety is working. Our aggressive first step and 
continuing focus on this issue will help to prevent and 
mitigate incidents and move us closer to our goal of zero 
deaths and injuries.
    Thank you, again, for the opportunity to speak today. We 
look forward to continue to work with Congress to address rail 
safety issues, specifically those dealing with the 
transportation of flammable liquids. I would be pleased to 
answer any questions the Committee may have.
    [The prepared statement of Ms. Quarterman follows:]

   Prepared Statement of Hon. Cynthia L. Quarterman, Administrator, 
Pipeline and Hazardous Materials Safety Administration, U.S. Department 
                           of Transportation
    Good morning Mr. Chairman, Ranking Member, and Members of the 
Subcommittee. Thank you for the opportunity to appear today to discuss 
the Pipeline and Hazardous Materials Safety Administration's (PHMSA) 
comprehensive approach to address the risks associated with increased 
bulk shipments of flammable liquids by rail. I would also like to thank 
you for your leadership and for your efforts to advance rail safety. 
While rail safety is improving, high-profile train accidents like the 
ones we've seen in Lac-Megantic, Quebec, Canada; Aliceville, Alabama; 
and Casselton, North Dakota underscore how important it is to be ever-
vigilant in protecting local communities and the environment.
    Safety is the top priority for Secretary Foxx, everyone at PHMSA, 
and the other modes in the U.S. Department of Transportation (DOT). 
PHMSA continues to work diligently to protect the American people and 
the environment from the risks of hazardous materials transportation by 
all modes, including rail. PHMSA works to achieve its safety mission 
through efforts to prevent and mitigate accidents by developing 
regulations and guidance, taking rigorous enforcement actions, 
collaborating with stakeholders, and educating emergency responders and 
the public.
    This testimony will focus on the risks posed by the transport of 
bulk shipment of flammable liquids, including petroleum crude oil, by 
rail and PHMSA's efforts to both prevent and mitigate those risks. 
First, I will provide an overview of the current state of petroleum 
crude oil (crude oil) transportation in the United States. Second, I 
will discuss our comprehensive approach to prevent and mitigate the 
damage caused by rail accidents involving hazardous materials.
I. State of Crude Oil Transportation by Rail
    As energy production in the United States increases, so does the 
transportation of more products in their various forms by multiple 
modes. The epicenter of the increased crude oil production is the 
Bakken Formation, occupying about 200,000 square miles (520,000 square 
kilometers \2\) of the subsurface underlying parts of Montana and North 
Dakota, and Saskatchewan and Manitoba in Canada. Production from the 
Bakken in recent years has elevated North Dakota to the second largest 
oil producing State, and it is one of the most important sources of oil 
in the United States. While most new Bakken drilling and production has 
been in North Dakota, drilling operations also extend into Montana, 
Saskatchewan, and Manitoba. As of 2013, the Bakken produced more than 
ten percent of all oil in the United States. In November 2013, 10,022 
Bakken wells extracted approximately 29 million barrels of oil and 32 
million cubic feet of gas. This equates to over 900,000 barrels of oil 
produced daily (See Table 1).\1\
---------------------------------------------------------------------------
    \1\ Data from the North Dakota Department of Mineral Resources 
website: https://www
.dmr.nd.gov/oilgas/stats/historicalbakkenoilstats.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Approximately 71 percent of all oil produced in North Dakota, or 
around 800,000 barrels per day, was transported by rail in November 
2013, according to the North Dakota Public Service Commission.\2\ 
Corresponding with increased production, the volume of crude oil moving 
by rail has quadrupled in less than a decade (See Table 2--a Class I 
railroad is a railroad having annual inflation-adjusted operating 
revenues for three consecutive years of $250 million or more as the 
figure $250 million is adjusted by applying the railroad revenue 
deflator formula).\3\ While overall train volume has increased, train 
accidents declined by 43 percent, and train accidents involving a 
hazardous materials release are down 16 percent between 2003 and 
2012.\4\
---------------------------------------------------------------------------
    \2\ http://in.reuters.com/article/2014/01/16/usa-rail-regulator-
idINL2N0KQ1WN20140116
    \3\ The Surface Transportation Board Website indicates that the 
inflation-adjusted dollar amount for 2012 (the most recent year for 
which a complete year of annual operating revenue data is available) is 
$452,653,248 or more for a Class I railroad. Figures in table are 
quarterly totals. Source: Association of American Railroads
    \4\ Data from 2003-2012 compiled by FRA Office of Safety Analysis.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Despite this decline in such accidents, there is always the 
potential for low-probability, high-consequence events to occur that 
could have devastating consequences to the public, communities, and the 
environment. Recent incidents in the United States and Canada 
demonstrate the need for a renewed focus on rail safety efforts. PHMSA 
works in partnership with the Federal Railroad Administration (FRA) to 
address and mitigate the risks associated with the rail transport of 
hazardous materials. Here are a few incidents that have sharpened our 
focus on the safe transportation of high-hazard flammable liquids by 
rail.
    On July 6, 2013, a catastrophic derailment involving an unattended 
freight train containing 72 loaded DOT Specification 111 tank cars of 
crude oil occurred in the town of Lac-Megantic, Quebec. The train, 
which was 4,701 feet long and weighed 10,287 tons, was not properly 
secured and rolled down a descending grade, subsequently derailing near 
the center of Lac-Megantic. The locomotives separated from the train 
and came to a stop about a half mile east of the derailment. In the 
course of the accident, 63 tank cars derailed. Several derailed tank 
cars released crude oil, causing fires that killed 47 people, 
extensively damaged the town center, and required the evacuation of 
about 2,000 people from the surrounding area. Transport Canada is 
currently investigating the accident, with the assistance of the 
National Transportation Safety Board (NTSB) and DOT.
    On November 7, 2013, a train carrying crude oil to the Gulf Coast 
from North Dakota derailed in Aliceville, Alabama, spilling crude oil 
in a nearby wetland and igniting into flames. There were a total of 88 
DOT 111 tank cars containing crude oil in the 90-car train. Twenty-six 
DOT Specification 111 tank cars derailed, 21 of which released all or 
part of their contents. The NTSB is currently investigating the 
accident, with the assistance of DOT.
    On December 30, 2013, a train carrying crude oil derailed and 
ignited near Casselton, North Dakota, prompting authorities to issue a 
voluntary evacuation of the city and surrounding area. A collision with 
a disabled train blocking the track caused 20 DOT Specification 111 
tank cars to derail. Estimates indicate that those cars lost 476,436 
gallons of product. NTSB is investigating the accident, with the 
assistance of DOT.
    Accidents like these demonstrate both the inherent dangers of 
transporting hazardous materials and the various factors that may cause 
accidents and the unintentional release of hazardous materials. PHMSA 
strives to prevent these accidents from occurring and, in the event 
they do occur, helps to mitigate the consequences of these types of 
accidents. Train accidents involving hazardous materials releases like 
the ones previously described highlight the need for a robust hazardous 
materials transportation regulatory system, strong enforcement 
capabilities, and wide-reaching communication with and training of 
hazardous materials stakeholders, including the public, hazardous 
materials transporters, and emergency responders.
II. Comprehensive Approach to Prevent and Mitigate Rail Hazardous 
        Materials Accidents and Incidents
    PHMSA's safety mission involves working to ensure that the 
transportation system is functioning as it should. With regard to rail 
safety, PHMSA and FRA have taken a comprehensive approach to mitigating 
the risks posed by the bulk transport of hazardous materials by rail. 
Specifically, PHMSA, in coordination with FRA, is focusing on methods 
to prevent accidents and incidents from occurring and ways to mitigate 
the effects of those events that do occur. On the prevention front, we 
are working together to implement necessary operational controls and 
ensure rail track integrity to lessen the likelihood of accidents. 
PHMSA has requirements in place to mitigate effects of potential 
accidents through appropriate classification of the materials being 
transported; appropriate packaging of the materials, including ensuring 
materials are in the appropriate container; and effectively 
communicating to transportation workers and first responders what 
material is involved so they can handle or respond correctly to any 
accidents associated with the material. This approach is designed to 
prevent the occurrence of a hazardous materials release in the course 
of rail transportation and mitigate the damage caused should a 
hazardous material release occur.
    PHMSA has a variety of regulatory and non-regulatory tools to 
address the risks of the bulk transport of flammable materials, 
including crude oil, by rail. In the wake of increased crude oil 
movements by rail and recent incidents, PHMSA has used many of these 
tools to improve safety. Most recently, PHMSA has issued guidance and 
an advanced notice of proposed rulemaking, participated in rail safety 
committees, held public meetings, enhanced enforcement and inspection 
efforts, and coordinated with other agencies to improve the safety of 
the public.
Regulatory Efforts by PHMSA and FRA
    On May 14, 2010, PHMSA published a final rule (HM-233A) to amend 
the Hazardous Materials Regulations to incorporate provisions contained 
in certain widely used or longstanding special permits that have an 
established safety record.\5\ As part of that rulemaking, PHMSA adopted 
a requirement that would allow certain rail tank cars transporting 
hazardous materials to exceed the gross weight on rail limitation of 
263,000 pounds upon approval by FRA.
---------------------------------------------------------------------------
    \5\ See Federal Register http://www.gpo.gov/fdsys/pkg/FR-2011-01-
25/pdf/2011-1414.pdf
---------------------------------------------------------------------------
    On January 25, 2011, FRA issued a Federal Register notice of FRA's 
approval pursuant to PHMSA's May 14, 2010 final rule.\6\ The approval 
established detailed conditions for manufacturing and operating certain 
tank cars in hazardous materials service, including the DOT 
Specification 111 tank car, which is the tank car used for the 
transportation of flammable liquids, such as crude oil, that weigh 
between 263,000 and 286,000 pounds. These actions provided tank car 
manufacturers with the authority to build a 286,000-pound tank car. 
Rail car manufacturers have used that authority to manufacture an 
enhanced DOT Specification 111 tank car (CPC-1232) under the conditions 
outlined in the January 25, 2011 approval. Specific improvements to the 
car include the following: normalized steel, puncture resistance, head 
shields, and top fitting protection. Should a manufacturer choose to 
design a car outside the conditions of that approval, it can seek 
another approval in accordance with section 179.13 of the Hazardous 
Materials Regulations in title 49 of the Code of Federal Regulations. 
To date, PHMSA and FRA have not received any requests to design a car 
that deviates from the January 25, 2011 approved design.
---------------------------------------------------------------------------
    \6\ See Federal Register http://www.gpo.gov/fdsys/pkg/FR-2011-01-
25/pdf/2011-1342.pdf
---------------------------------------------------------------------------
    Following the publication of the PHMSA final rule and the 
subsequent FRA approval, PHMSA received a petition (P-1577) \7\ from 
the Association of American Railroads (AAR) on March 9, 2011, 
requesting changes to PHMSA's specifications for the DOT Specification 
111 tank car used to transport Packing Group I and II materials \8\ 
(See Table 4 for tank car comparison).\9\ During the summer of 2011, 
the AAR Tank Car Committee (TCC) created a task force (Task Force), 
which included PHMSA and FRA participation, with a dual responsibility 
to develop an industry standard for tank cars used to transport crude 
oil, denatured alcohol, and ethanol/gasoline mixtures and to consider 
operating requirements to reduce the risk of derailment of tank cars 
carrying crude oil classified as Packing Group I and II, or ethanol.
---------------------------------------------------------------------------
    \7\ See http://www.regulations.gov/#!documentDetail;D=PHMSA-2011-
0059-0001
    \8\ ``Packing Group'' designates the hazard level posed by a class 
of materials. Class 3 (flammable liquids) Packing Group I materials 
have a low boiling point and represent a high flammability risk. 
Packing Group II materials have a higher boiling point and a low flash 
point and represent a slightly lower flammability risk.
    \9\ Table 4 provides a comparison of the DOT Specification 111 tank 
car currently authorized in the Hazardous Materials Regulations, the 
minimum standards for the DOT approved tank car pursuant to the January 
25, 2011 Federal Register Notice and the tank car proposed for 
incorporation in petition (P-1577) by AAR.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Task Force worked to address the root cause, severity, and 
consequences of derailments, and its recommendations were finalized on 
March 1, 2012. As a result PHMSA, with FRA's agreement, initiated an 
advance notice of proposed rulemaking (ANPRM) to arrive at a more 
comprehensive solution.
    In May 2012, PHMSA began drafting an ANPRM to consider revisions to 
the Hazardous Materials Regulations to improve the crashworthiness of 
railroad tank cars and identify and address operational improvements. 
The draft ANPRM addressed several Petitions for Rulemaking submitted by 
industry and recommendations issued by the NTSB.\10\ The draft ANPRM 
posed a series of questions to the regulated community designed to 
solicit comments on potential operational and tank car design 
improvements that could improve rail safety, along with the costs of 
these improvements. The draft ANPRM was also designed to build and 
improve on the Task Force recommendations and examined the differences 
in the DOT-approved tank car (pursuant to the January 25, 2011 Federal 
Register Notice) and the tank car proposed in AAR's petition.
---------------------------------------------------------------------------
    \10\ See NTSB recommendations: R-07-4, R-12-5, R-12-6, and R-12-7 
http://www.phmsa
.dot.gov/hazmat/regs/ntsb/rail
---------------------------------------------------------------------------
    Concurrent with completing the first draft of its ANPRM in May 
2012, between April 2012 and October 2012, PHMSA received three 
additional petitions (P-1587, P-1595, and P-1612) and one modification 
of a previously filed petition (P-1612). These petitions were submitted 
by concerned communities and various industry associations requesting 
further modification to the tank car standards. In response to this 
additional information, PHMSA published an ANPRM on September 6, 
2013,\11\ which addressed all of the petitions and NTSB recommendations 
related to rail safety, including tank car and operational standards 
for flammable liquids.
---------------------------------------------------------------------------
    \11\ See Federal Register http://www.gpo.gov/fdsys/pkg/FR-2013-09-
06/pdf/2013-21621.pdf
---------------------------------------------------------------------------
    Public interest in this rulemaking was significant. We received 
comments from local communities, cities and towns, rail carriers, 
shippers, equipment suppliers, tank car manufacturers, environmental 
groups, and the NTSB. PHMSA is reviewing the extensive public comments 
received during the comment period, which ended on December 5, 2013, 
and will use the comments to assess possible future regulatory changes. 
PHMSA, in coordination with FRA, is considering all regulatory avenues 
available to improve rail safety.
    Tank cars are only one part of the chain of delivery, and we must 
identify and evaluate all of the risks associated with bulk movements 
of highly hazardous material, such as crude oil and ethanol, and then 
work to reduce or eliminate those risks.
    In addition to the rulemaking activity by PHMSA, DOT took 
additional regulatory action following the Lac-Megantic derailment. On 
August 7, 2013, FRA, in coordination with PHMSA, issued an emergency 
order \12\ addressing the immediate hazard of death, personal injury, 
or significant harm to the environment, by instituting requirements 
related to attending and securing certain hazardous materials trains 
and cars, including crude oil and ethanol unit trains. The emergency 
order addressed the leading factors identified in preliminary findings 
in the Lac-Megantic investigation, and PHMSA and FRA are conducting 
field inspections and investigations to monitor compliance with the 
emergency order.
---------------------------------------------------------------------------
    \12\ See Federal Register https://federalregister.gov/a/2013-19215
---------------------------------------------------------------------------
    On February 25, 2014, the Department issued another emergency order 
\13\ to improve the safe transportation of crude oil by rail. The 
emergency order requires those who offer crude oil for transportation 
by rail to ensure the product is properly tested and classified in 
accordance with Federal Hazardous Materials Regulations. All Class III 
crude oil shipments must now be designated as Packing Group I or II, 
thereby requiring the use of a more robust tank car. (Previously some 
Class III crude oil shipments were allowed to be designated as Packing 
Group III.) As our efforts in testing crude oil samples have uncovered 
evidence of misclassification, the emergency order highlights the 
importance of properly testing and classifying crude oil prior to 
shipping to ensure the product is being transported in containers that 
are designed to safely store the hazardous material while in transit.
---------------------------------------------------------------------------
    \13\ See DOT website: http://www.dot.gov/briefing-room/dot-issues-
emergency-order-requiring-stricter-standards-transport-crude-oil-rail
---------------------------------------------------------------------------
Non-regulatory efforts
    Concurrent with FRA's August 7, 2013 emergency order, PHMSA and FRA 
published a joint Safety Advisory \14\ that addressed preliminary 
findings of the Lac-Megantic investigation and made the following 
safety and security recommendations: (1) reminding railroads to review 
the adequacy of their crew staffing requirements for trains 
transporting hazardous materials; (2) requiring system-wide evaluations 
to identify particular hazards that may make it more difficult to 
secure a train or pose other safety risks; and (3) requiring that 
procedures be developed to mitigate those risks.
---------------------------------------------------------------------------
    \14\ See Federal Register https://federalregister.gov/a/2013-19211
---------------------------------------------------------------------------
    The joint Safety Advisory also announced an emergency meeting of 
FRA's Railroad Safety Advisory Committee (RSAC) to address rail safety 
concerns, which was held on August 29, 2013.\15\ During the emergency 
meeting, PHMSA and FRA explained the safety requirements in the August 
7, 2013 emergency order and the recommendations in the joint Safety 
Advisory, and proposed that an RSAC working group be formed to address 
hazardous materials transportation requirements. RSAC members discussed 
the formulation of a task statement regarding appropriate train crew 
size, hazard classes, and quantities of hazardous materials that should 
trigger additional operating procedures, including attendance and 
securement requirements. PHMSA continues to participate in FRA's RSAC 
meetings on hazardous materials transport by rail. The RSAC plans to 
provide its recommendations regarding hazardous materials rail safety 
by April 2014 to FRA, who will forward the recommendations to PHMSA for 
further evaluation.
---------------------------------------------------------------------------
    \15\ See Federal Register https://federalregister.gov/a/2013-19471
---------------------------------------------------------------------------
    In addition to participating in the RSAC meetings, PHMSA, as 
mentioned above, has been a participant in and an observer of the TCC. 
This committee is comprised of representatives of the Class I, short 
line, and regional railroads; rail tank car owners, manufacturers, and 
repair facilities; and shippers and customers of hazardous materials by 
rail, as well as participants from PHMSA, FRA, Transport Canada, and 
the NTSB. The TCC works together to develop technical standards for how 
tank cars, including those used to move hazardous materials, are 
designed and constructed. PHMSA also participates as a working member 
of other rail task forces.
    On August 27-28, 2013, before the RSAC meeting, PHMSA and FRA held 
a public meeting to review the requirements in the Hazardous Materials 
Regulations applicable to rail operations.\16\ PHMSA and FRA conducted 
this meeting as part of a comprehensive review of operational factors 
that affect the safe transportation of hazardous materials by rail. 
This meeting provided the opportunity for public input on requirements 
related to rail operations.\17\ PHMSA and FRA are currently reviewing 
the transcript and public comments and will use the comments to inform 
their future possible regulatory changes.
---------------------------------------------------------------------------
    \16\ See Federal Register https://federalregister.gov/a/2013-17201
    \17\ See public comments http://www.regulations.gov/
#!docketDetail;D=FRA-2013-0067
---------------------------------------------------------------------------
    On November 20, 2013, PHMSA and FRA issued another joint Safety 
Advisory to reinforce the importance of proper characterization, 
classification, and selection of a packing group for Class 3 materials 
(flammable liquids) and the corresponding regulations for safety and 
security planning.\18\ This Safety Advisory noted that we expect 
offerors of hazardous material by rail and rail carriers transporting 
hazardous material to revise their safety and security plans as 
required under the Hazardous Materials Regulations, including the 
required risk assessments, to address the safety and security issues 
identified in FRA's August 7, 2013 emergency order and the August 7, 
2013 joint Safety Advisory. FRA has initiated a focused effort to audit 
security plans, specifically at railroads that move unit trains of 
flammable liquids.
---------------------------------------------------------------------------
    \18\ See Federal Register https://federalregister.gov/a/2013-27785
---------------------------------------------------------------------------
    On January 2, 2014, PHMSA issued a Safety Alert warning of the 
variability in certain crude oil and emphasizing that proper and 
sufficient testing to ensure accurate characterization and 
classification should be performed.\19\ Proper characterization and 
classification are integral for the Hazardous Materials Regulations to 
function as they were designed. Characterization and classification 
ultimately determine the appropriate and permitted packaging for a 
given hazardous material. This Safety Alert addressed the initial 
findings of ``Operation Classification,'' a compliance initiative 
(described below) involving unannounced inspections and testing of 
crude oil samples to verify that offerors of the materials have 
properly characterized and classified the hazardous materials. The 
Safety Alert expressed PHMSA's concern that unprocessed crude oil may 
affect the integrity of the packaging or present additional hazards, 
related to corrosivity, sulfur content, and dissolved gas content. The 
alert also noted (1) that preliminary testing had focused on the 
classification and packing group assignments that have been selected 
and certified by offerors of crude oil, and (2) that PHMSA has found it 
necessary to expand the scope of its testing to measure other factors 
that might affect the proper characterization and classification of the 
materials.
---------------------------------------------------------------------------
    \19\ See safety alert http://www.phmsa.dot.gov/staticfiles/PHMSA/
DownloadableFiles/1_2
_14%20Rail_Safety_Alert.pdf
---------------------------------------------------------------------------
Call to Action
    On January 9, 2014, the Secretary issued a ``Call to Action'' to 
actively engage stakeholders in the crude oil and rail industries to 
take immediate steps to improve the transportation of crude by rail. On 
January 16, 2014, the Secretary held a meeting where the Administrators 
of PHMSA, FRA, and the Federal Motor Carrier Safety Administration 
challenged representatives of all stakeholders to identify prevention 
and mitigation strategies that can be implemented quickly.
    Specifically, the ``Call to Action'' discussed (1) operational 
controls and track maintenance measures that could prevent accidents 
and (2) the proper classification and characterization of hazardous 
materials. The meeting was an open and constructive dialogue on how, 
collaboratively, industry and government can make America's railways 
and other modes of transportation for hazardous materials safer, since 
the misclassification of a hazardous material affects more than just 
the railroad industry. During the meeting, the rail and crude oil 
industries agreed to consider potential actions they could take to 
enhance safety, including speed restrictions in high-consequence areas, 
alternative routing, the use of distributive power to improve braking, 
increased track inspections, improvements to crude oil testing and 
classification processes, and emergency response preparedness and 
training. In addition, the participants agreed to return to the TCC for 
discussions on further improvements to the tank car standard. On 
January 22, 2014, the Secretary sent a letter to the attendees 
recapping the meeting and stressing the importance of this issue.\20\
---------------------------------------------------------------------------
    \20\ See Call to Action follow-up letter at http://phmsa.dot.gov/
staticfiles/PHMSA/Down
loadableFiles/Files/
Letter_from_Secretary_Foxx_Follow_up_to_January_16.pdf
---------------------------------------------------------------------------
    In the weeks following the ``Call to Action'' meeting, PHMSA has 
worked closely with industry stakeholders to advance the safety 
initiatives. We have received voluntary agreements from the AAR, the 
American Short Line and Regional Railroad Association, and the American 
Petroleum Institute to consider ways to quickly implement the 
approaches to safety discussed during the meeting.
Enhanced Enforcement and Outreach
    In addition to regulatory and non-regulatory efforts to improve 
rail safety, PHMSA has increased its efforts to improve awareness and 
understanding of, and compliance with, the Hazardous Materials 
Regulations. These efforts include enforcement and outreach activities 
that are focused on proper classification and characterization of 
hazardous materials, development of safety and security plans, and the 
awareness and understanding of Hazardous Materials Regulations. PHMSA 
has focused on addressing the considerable public, media, and 
congressional interest in the subject of crude oil transport by rail.
    As mentioned above, PHMSA launched ``Operation Classification,'' a 
compliance initiative involving unannounced inspections and testing of 
crude oil samples to verify that offerors of the materials have 
properly classified and described the materials being shipped. In 
January 2013, PHMSA and FRA began planning this initiative and 
officially launched ``Operation Classification'' in August 2013. This 
initiative is an ongoing effort, and PHMSA will continue to collect 
samples and test them to determine the characteristics of Bakken crude 
oil, as well as oil from west Texas. To date, PHMSA has taken 58 
samples to collect some preliminary information about the hazards 
associated with these oils. PHMSA has uncovered 11 potential 
violations, primarily related to improper packaging group assignment, 
and plans to release the findings of Operation Classification publicly 
upon conclusion of the effort. PHMSA has initiated enforcement actions 
on potential violators. In addition, as these violations could indicate 
further non-compliance issues, PHMSA continues to expand the scope of 
its investigations. PHMSA will use the results of the findings to 
consider the benefits, costs, and alternatives of any future regulatory 
action.
    On January 17, 2014, PHMSA published a Web Page entitled 
``Operation Safe Delivery: Enhancing the Safe Transport of Flammable 
Liquids.'' \21\ This site describes the Department's efforts to enhance 
the safe transport of flammable materials by rail and serves as a 
valuable resource for enhancing the safe transport of flammable 
liquids. The site will receive regular updates to provide progress 
reports on industry commitments as part of the ``Call to Action'' and 
additional Departmental activities related to rail safety initiatives. 
This site also displays the Department's rail safety action plan. 
Although the site was only recently unveiled, it has already received 
considerable traffic and is an educational resource for industry and 
the general public.
---------------------------------------------------------------------------
    \21\ Website available at http://phmsa.dot.gov/portal/site/PHMSA/
menuitem.6f23687cf7b00
b0f22e4c6962d9c8789/
?vgnextoid=c5ff6d96d8283410VgnVCM100000d2c97898RCRD&vgnextcha
nnel=0f0b143389d8c010VgnVCM1000008049a8c0RCRD&vgnextfmt=print
---------------------------------------------------------------------------
    PHMSA is also diligently responding to both congressional and media 
inquiries on the subject of crude oil transport by rail. Since the 
beginning of 2013, PHMSA has received and responded to over twenty 
letters from Members of Congress requesting information on this topic. 
Finally, PHMSA is coordinating with the Government Accountability 
Office on an audit of the transportation infrastructure of the United 
States used to accommodate increased shale oil and gas production.
III. Closing Remarks
    During my four years as PHMSA's Administrator, I have experienced 
marked changes in our hazardous materials transportation landscape. The 
emergence of the United States as the world's leading energy producer 
has undoubtedly changed our transportation system and provided new 
challenges for PHMSA. I have seen these changes and the evolution of 
the energy industry firsthand. I have also seen the lasting 
consequences that transportation incidents can have on the public and 
local communities nearby. We must prepare for these new and shifting 
demands right now and ensure that we protect our communities and the 
environment. Effective standards and regulations are important 
mechanisms for keeping America's people and its environment safe while 
providing for the transportation of the Nation's energy supplies, and 
we will continue to use our authorities to improve the effectiveness of 
our standards and regulations. PHMSA's oversight and enforcement 
capabilities, along with those of our Federal and State partners, are 
critically important.
    PHMSA and FRA are committed to improving the safety of the 
transportation of hazardous materials by rail and other modes. With 
this in mind, I believe that our comprehensive approach to rail safety 
is working, but we must continue to adapt our approach as we identify 
changing risks. Improvement in tank car integrity is one part of the 
ongoing effort to address the changes in the risks associated with 
transportation of hazardous materials. Furthermore, PHMSA and FRA are 
not alone in our safety efforts. As the ``Call to Action'' 
demonstrated, the rail and crude oil industries are integral partners 
in improving transportation safety, and PHMSA will continue to work 
collaboratively to improve safety. We have a long way to go to reach no 
deaths, injuries, environmental or property damage, or transportation 
disruptions, but I truly believe our efforts are helping prevent 
accidents and will help mitigate their damage.
    In closing, we look forward to continuing to work with Congress to 
address rail safety issues, specifically those dealing with the bulk 
shipment of flammable liquids. Together, we will strive to keep 
America's people and its environment safe while providing for the 
reliable transportation of the Nation's energy supplies. Everyone at 
PHMSA is dedicated and committed to fulfilling our safety 
responsibility to the American people. It is an honor to serve the 
American people and to work with the dedicated public servants at 
PHMSA. Thank you again for the opportunity to speak with you today. I 
would be pleased to answer any questions you may have.

    Senator Blumenthal. Thank you, Ms. Quarterman.
    Mr. Hart.

STATEMENT OF HON. CHRISTOPHER A. HART, VICE CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Mr. Hart. Thank you, Chairman Blumenthal, Ranking Member 
Blunt, and members of the Subcommittee for inviting the NTSB to 
discuss lessons learned from accidents that can help improve 
rail safety.
    Rail safety in America is improving, as we have already 
heard, with total accidents and incidents down almost 23 
percent since 2004. However, a spate of recent accidents 
reminds us that our railroad system can and must be made safer.
    Improving rail safety requires a comprehensive approach 
starting with actions to prevent accidents such as the December 
1 Metro-North rail accident in the Bronx, which resulted in 
four fatalities. This tragedy has led to NTSB recommendations 
that will help prevent future accidents.
    We must also take action to make accidents less severe. 
Last July, a crude oil train derailed near the town center of 
Lac-Megantic, Quebec, triggering an intense crude oil fire; 47 
people died and the town center was destroyed. This tragedy 
demonstrates that until we have figured out how to prevent 
accidents completely, it's also important to mitigate the 
consequences.
    One of the major improvements the NTSB has been 
recommending for decades to help prevent accidents is positive 
train control. The tragic Metro-North accident in the Bronx was 
one type of accident that PTC is designed to prevent. PTC could 
have also prevented at least 25 other freight and passenger 
rail accidents that the NTSB has investigated since 2004. 
Congress has mandated the implementation of PTC by the end of 
2015. This deadline is the law of the land. PTC must be 
implemented by that deadline to prevent future accidents.
    The NTSB has recommended a transparent accounting of the 
railroad industry's actions taken and not taken to meet the 
statutory deadline. The NTSB is very disappointed and concerned 
that the FRA will not proactively release the railroads' PTC 
progress reports. The public interest would best be served by a 
full and transparent accounting of progress toward PTC.
    Another way to prevent accidents is to make sure that the 
Nation's rail infrastructure is adequately maintained. Broken 
rail and other track defects are a major cause of derailments. 
Accordingly, the NTSB continues to call for more robust track 
inspections to identify and fix problems before they cause 
derailments.
    We must also mitigate the consequences of accidents, 
especially those that involve flammable or toxic liquids such 
as crude oil and ethanol. We've already heard that rail 
carriage of both ethanol and crude oil increased more than 440 
percent between 2005 and 2010. In 2012, ethanol was the most 
frequently transported hazardous material in the railroad 
system.
    On December 30, near Casselton, North Dakota, 20 cars of a 
crude oil train derailed spilling about half a million gallons 
of crude oil and igniting a fire that burned for 24 hours. 
Fourteen hundred people were evacuated from their homes. As I 
mentioned earlier, in Lac-Megantic, last July, a crude oil 
train derailment resulted in the deaths of 47 people. In 
coordination with the Transportation Safety Board of Canada, 
the NTSB issued recommendations to the FRA and to PHMSA 
addressing specific improvements related to the safe transport 
of flammable liquids by rail.
    More broadly, the NTSB has publicly stated since 1991 that 
DOT-111 tank cars, which are the primary means of transporting 
crude oil and ethanol by rail, are too easily damaged even in 
low speed derailments. Their continued use to ship flammable 
liquids poses an unacceptable risk to the public. The revised 
DOT-111 design implemented by industry since 2011--the CPC-1232 
specification car needs further changes to improve its 
crashworthiness. An improved Federal tank car design standard 
must include enhanced head shields and tank jackets and 
increased tank shell thickness.
    The NTSB is encouraged that industry stakeholders and PHMSA 
are in broad agreement over the need to improve the DOT-111 
design. We will monitor the PHMSA rulemaking closely, although 
the improvements are long overdue. Next month, we will hold a 
tank car safety forum dealing with the transportation of 
flammable liquids by rail, and we will address tank car issues, 
operations issues, and the emergency response issues.
    Accident mitigation also requires that first responders 
have the training and resources necessary to safely and 
effectively respond to hazardous materials accidents. Railroads 
have a key role in helping prepare first responders and quickly 
responding to hazmat derailments. You've heard reference to the 
announcement by the Association of American Railroads and DOT 
Secretary Foxx of a series of new voluntary freight rail safety 
measures including measures to improve emergency response. As 
you may be aware, railroads and the DOT participate with the 
NTSB in our rail accident investigations and many of the newly-
announced voluntary measures related to issues that we are 
examining in our ongoing investigations.
    Meanwhile, we continue to investigate the Casselton, ND 
accident and the four accidents involving Metro-North. Already 
in 2014 we have issued three safety recommendations to Metro-
North. We will issue additional recommendations if needed 
without waiting on the completion of that final report. Our 
investigators are doing the methodical, comprehensive job that 
the American people expect from the NTSB. We anticipate issuing 
final reports and recommendations addressing more than ten rail 
accidents by the end of this year.
    Mr. Chairman, this concludes my testimony. I look forward 
to answering the Subcommittee's questions.
    Thank you very much for inviting the NTSB to participate in 
this hearing.
    [The prepared statement of Mr. Hart follows:]

   Prepared Statement of Hon. Christopher A. Hart, Vice Chairman, On 
           Behalf of the National Transportation Safety Board
    Good afternoon, Chairman Blumenthal, Ranking Member Blunt, and 
Members of the Subcommittee. Thank you for the opportunity to appear 
before you on behalf of the National Transportation Safety Board (NTSB) 
and to update you on our ongoing work to improve railroad safety by 
investigating railroad accidents and issuing safety recommendations. 
Our nation's economy depends on a safe, reliable rail transportation 
system, and the American public expects and deserves nothing less. 
Recent railroad accidents under active investigation, including fatal 
accidents, remind us of the clear imperative to stay vigilant and stand 
ready to make improvements to the safety of railroad transportation. 
Our Nation's railroad system is safe, but evolving demands on the 
railroad system mean evolving safety challenges, and much work is ahead 
in our shared mission of making our Nation's railroad system as safe as 
it can be.
    Recent events have placed railroad safety at the forefront of the 
national conversation. Last May, in Bridgeport, Connecticut, 76 people 
were injured when a Metro-North Railroad (Metro-North) commuter train 
derailed, fouled the adjacent track, and was struck by a train 
approaching on that adjacent track. Just more than a week later, a 
Metro-North track foreman was struck by a train and killed in West 
Haven, Connecticut. In July, a CSX train operating on Metro-North 
tracks derailed in The Bronx. In December, four people lost their lives 
and 59 others were injured when a Metro-North commuter train derailed 
in The Bronx after entering a curve with a 30-mile-per-hour (mph) speed 
limit at 82 mph. One month later, 2014 dawned with a team of NTSB 
investigators working the scene of a serious railroad accident near 
Casselton, North Dakota, where 20 cars of a 106-car BNSF petroleum 
crude oil unit train ignited after colliding with cars from a derailed 
BNSF grain train.\1\ More than 476,000 gallons of crude oil were 
released in the accident, and the massive fire triggered a voluntary 
evacuation of 1,400 people from the surrounding area and resulted in 
millions of dollars in damage.
---------------------------------------------------------------------------
    \1\ A unit train is a train made up of cars carrying the same 
product.
---------------------------------------------------------------------------
    Our investigations into these accidents continue, and the second 
portion of this written testimony will update the Subcommittee on what 
we have learned so far. Last week, we issued three recommendations to 
Metro-North that Metro-North install signs to clearly warn train crews 
that they are approaching areas of permanent speed restrictions and 
that Metro-North install and review inward-and outward-facing audio and 
video recorders in locomotives and control cars, which is a 
longstanding NTSB recommendation to the Federal Railroad Administration 
(FRA).
Current Safety Issues
    First, I would like to offer some perspectives on safety issues 
including, (1) safety deficiencies in the design of thousands of 
railroad tank cars; (2) the need for widespread implementation of 
positive train control (PTC) systems; (3) the need for installation of 
inward-and outward-facing locomotive cameras; and (4) the need for 
focused, industrywide efforts to foster top-down safety cultures in 
which safety thrives. There is not one approach that will improve rail 
safety, but it must be addressed by implementing varied approaches 
that, when working together, can help drive down the number and 
frequency of accidents or mitigate the severity of accidents.
Railroad Tank Car Design
    The Nation's railroad network is taking on an expanding role--one 
that has profound economic importance--as a major channel for the 
transportation of crude oil and other hazardous products. As the NTSB 
noted recently, the American Association of Railroads' 2012 Annual 
Report of Hazardous Materials Transported by Rail states that crude oil 
traffic has increased by 443 percent since 2005 and that this growth is 
expected to continue for the foreseeable future. According to the FRA, 
the volume of crude oil transported by rail has increased dramatically 
in recent years, from approximately 65,600 carloads in 2011 to 
approximately 257,450 \2\ carloads in 2012--an increase of 292 
percent.\3\ Moreover, not only is more crude oil being transported by 
rail, but some of the crude oil being moved on the Nation's railroad 
system--such as that originating in the Bakken formation--may have more 
volatile properties. Last month, the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) issued a safety alert advising ``the 
general public, emergency responders and shippers and carriers that. . 
.the type of crude oil being transported from the Bakken region may be 
more flammable than traditional heavy crude oil,'' with the results of 
further tests of Bakken crude oil forthcoming.\4\
---------------------------------------------------------------------------
    \2\ The capacity of a tank car is about 30,000 gallons or 675 
barrels of oil.
    \3\ FRA Emerg. Order No. 28, 78 Fed. Reg. 48218, 48220 (Aug. 7, 
2013).
    \4\ PHMSA Safety Alert: Preliminary Guidance from Operation 
Classification (Jan. 2, 2014).
---------------------------------------------------------------------------
    Furthermore, ethanol traffic transported by railroad increased 442 
percent between 2005 and 2010; in 2012, ethanol was the most frequently 
transported hazardous material in the railroad system.\5\ The evolving 
role of our Nation's railroad network in the transportation of 
flammable crude oil and ethanol requires interested parties to take a 
comprehensive approach to eliminate or significantly reduce the safety 
risks. This approach must include improvements to track inspection and 
maintenance programs and the crashworthiness of the tank cars that 
transport these materials.
---------------------------------------------------------------------------
    \5\ FRA Emerg. Order No. 28, 78 Fed. Reg. at 48221; see also NTSB, 
Letter to The Honorable Cynthia L. Quarterman, Administrator, Pipeline 
and Hazardous Materials Safety Administration, U.S. Department of 
Transportation (Jan. 21, 2014), at 7 n. 11-13 (and citations therein).
---------------------------------------------------------------------------
    Indeed, as the volume of flammable materials transported by rail 
grows the Casselton, North Dakota, accident has become an increasingly 
commonplace story--and multiple recent serious and fatal accidents 
reflect substantial shortcomings in tank car design that create an 
unacceptable public risk. The crude oil unit train involved in the 
Casselton accident consisted of railroad tank cars designed and 
manufactured to Department of Transportation (DOT) Specification 111-
A100W1 (DOT-111)--a design that presents demonstrated and serious 
safety concerns when used to transport hazardous materials such as 
crude oil. Specifically, the NTSB has identified vulnerabilities in 
DOT-111 tank car design with respect to tank heads, shells, and 
fittings that create the unnecessary and demonstrated risk that, in an 
accident, hazardous materials could be released and, in the case of 
flammable materials such as crude oil and ethanol, could ignite and 
cause catastrophic damage.\6\
---------------------------------------------------------------------------
    \6\ See, e.g., NTSB, Derailment of CN Freight Train U70691-18 With 
Subsequent Hazardous Materials Release and Fire Cherry Valley, 
Illinois, June 19, 2009, Accident Rpt. No. NTSB/RAR-12/01 (Feb. 14, 
2012), at 88 (concluding that, in accident involving breaches of DOT-
111 tank cars, ``If enhanced tank head and shell puncture-resistance 
systems such as head shields, tank jackets, and increased shell 
thicknesses had been features of the DOT-111 tank cars involved in this 
accident, the release of hazardous materials likely would have been 
significantly reduced, mitigating the severity of the accident.'').
---------------------------------------------------------------------------
    The NTSB continues to find that accidents involving the rupture of 
DOT-111 tank cars carrying hazardous materials often have violent and 
destructive results. For example, on July 6, 2013, a 4,700-foot-long 
train that included 72 DOT-111 tank cars loaded with crude oil from the 
Bakken fields derailed in Lac-Megantic, Quebec, triggering an intense 
fire fed by crude oil released from at least 60 cars. The fire engulfed 
the surrounding area and completely destroyed buildings and property. 
Forty-seven people died. The NTSB is assisting the Transportation 
Safety Board of Canada (TSB) in its investigation of that accident, and 
last month both the NTSB and TSB issued safety recommendations asking 
FRA and PHMSA, as appropriate, to require railroads to evaluate the 
safety and security risks of crude oil train routes and select routes 
that avoid populous and other sensitive areas, require railroads to 
develop comprehensive emergency response plans for worst-case releases 
resulting from accidents, and require shippers to sufficiently test and 
properly classify hazardous materials such as crude oil prior to 
shipment. With respect in particular to the recommendation on 
classification of crude oil, PHMSA's safety alert regarding Bakken 
crude oil underscores the critical importance of accurate 
classification of flammable materials. We look forward to working with 
PHMSA and FRA on implementing these recommendations.
    In addition, the NTSB is investigating, or has investigated, a 
spate of recent similar accidents in the United States that demonstrate 
the destructive results when DOT-111 tank cars containing hazardous 
materials are punctured, including:

  <bullet> The July 11, 2012, Norfolk Southern Railway Company train 
        derailment in a Columbus, Ohio, industrial area in which three 
        derailed DOT-111 tank cars released about 54,000 gallons of 
        ethanol, with energetic rupture of one tank car in a post-
        accident fire.

  <bullet> The October 7, 2011, Tiskilwa, Illinois, train derailment of 
        10 DOT-111 tank cars resulting in fire, energetic rupture of 
        several tank cars, and the release of 162,000 gallons of 
        ethanol.

  <bullet> The June 19, 2009, Canadian National Railway train 
        derailment in Cherry Valley, Illinois, in which 13 of 19 
        derailed DOT-111 tank cars were breached, caught fire, and 
        released about 324,000 gallons of ethanol. The post-accident 
        fire resulted in one death, nine injuries, and the evacuation 
        of 600 houses within half a mile of the accident.

  <bullet> The October 20, 2006, New Brighton, Pennsylvania, Norfolk 
        Southern Railway Company train derailment in which 23 DOT-111 
        tank cars derailed, fell from a bridge, caught fire, and 
        released more than 485,000 gallons of ethanol.

    Federal requirements simply have not kept pace with evolving 
demands placed on the railroad industry and evolving technology and 
knowledge about hazardous materials and accidents. In fact, the current 
American Association of Railroads (AAR) industry standards adopted for 
DOT-111 tank cars ordered after October 1, 2011 that are used to 
transport packing group I and II crude oil, impose a level of 
protection greater than corresponding Federal requirements. \7\ At this 
point, however, the NTSB is not convinced that these modifications 
offer significant safety improvements.
---------------------------------------------------------------------------
    \7\ These new standards, for example, call for DOT-111 tank cars 
that transport flammable liquids in packing groups I and II (the 
highest-risk of the three packing groups, classified according to flash 
and boiling points) to be built with protective ``jackets'' around 
their tanks, constructed of normalized steel at least 7/16 inch thick, 
and call for non-jacketed tanks to be constructed from normalized steel 
(steel that has been subjected to a heat-treating process that improves 
its material properties) at least half an inch thick. See American 
Assoc. of Railroads, Manual of Standards and Recommended Practices: 
Specifications for Tank Cars, M-1002. Corresponding Federal regulations 
require steel thickness of at least 7/16 inch, but they allow for the 
use of non-normalized steel and do not require incorporation of jackets 
or head shields. See 49 C.F.R. part 179, subpart D.
---------------------------------------------------------------------------
    The NTSB continues to assert that DOT-111 tank cars, or tank cars 
of any successor specification, that transport hazardous materials 
should incorporate more effective puncture-resistant and thermal 
protection systems. This can be accomplished through the incorporation 
of additional protective features such as full head shields, jackets, 
thermal insulation, and thicker head and shell materials. Because the 
average service life of a tank car may run 20-30 years, it is 
imperative that industry, the FRA, and PHMSA take action now to address 
hazards that otherwise would exist for another half-generation or 
longer.
    Following the 2011 Cherry Valley, Illinois, accident the NTSB 
recommended that PHMSA improve DOT-111 tank car crashworthiness by:

        [r]equir[ing] that all newly manufactured and existing general 
        service tank cars authorized for transportation of. . .crude 
        oil in Packing Groups I and II have enhanced tank head and 
        shell puncture-resistance systems and top fittings protection 
        that exceeds existing design requirements for DOT-111 tank 
        cars.\8\
---------------------------------------------------------------------------
    \8\ See NTSB, Derailment of CN Freight Train U70691 With Subsequent 
Hazardous Materials Release and Fire, Cherry Valley, Illinois, June 19, 
2009, RAR-12/01 (2012); NTSB Recommendation No. R-12-5 (2012).

    The NTSB also recommended that PHMSA improve requirements for 
bottom outlet valves so that they remain closed during accidents 
involving impact forces \9\ and require improved center sill or draft 
sill attachment designs,\10\ and the NTSB reiterated its prior 
recommendation that PHMSA, in consultation with FRA, require that 
railroads immediately provide emergency responders with accurate, real-
time information on hazardous materials on a train.\11\
---------------------------------------------------------------------------
    \9\ NTSB Recommendation No. R-12-6.
    \10\ NTSB Recommendation No. R-12-7.
    \11\ NTSB Recommendation No. R-07-4.
---------------------------------------------------------------------------
    The importance of providing correct information to first responders 
highlights a related issue. Following the freight train derailment in 
Paulsboro, New Jersey, on November 30, 2012, which is the subject of an 
ongoing NTSB investigation, the NTSB learned of the critical importance 
to first responders of immediate, accurate information about the 
contents of a derailed tank car so that first responders may tailor 
their emergency response in a manner that best protects life and 
property. First responders' ability to make good decisions in 
responding to a hazardous-materials release depends on their clear 
understanding of what is in a tank car. Any improvement to railroad 
tank car safety must proceed hand-in-hand with an improved approach to 
ensuring first responders have adequate information to take appropriate 
life-saving actions. PHMSA indicates it, along with FRA, is working to 
implement this recommendation.
    Although important decisions are clearly ahead for regulators and 
industry, the NTSB is pleased that at least some progress has been 
made. PHMSA published an advance notice of proposed rulemaking (ANPRM) 
on September 6, 2013, for potential safety improvements to DOT-111 tank 
cars, and we remain engaged in that rulemaking proceeding. In NTSB 
comments on the ANPRM dated December 5, 2013, we urged PHMSA to 
promptly address the four recommendations that were included in the 
NTSB report on the Cherry Valley accident, described above, and to 
issue improved and effective regulations that reduce the risks 
associated with DOT-111 tank cars. We will continue to carefully 
monitor PHMSA's progress and will ensure decision-makers have the full 
benefit the lessons the NTSB has learned through its investigations. 
The NTSB also continues to call on industry stakeholders to rise to the 
challenge and explore measures that will improve tank car design in the 
interim. Industry and Department of Transportation leaders met in 
January to discuss development of an industry plan to make certain 
safety improvements.\12\ This dialogue is encouraging, and the NTSB 
will continue to urge regulators and industry stakeholders to follow 
through on any commitments.
---------------------------------------------------------------------------
    \12\ ``Rail, Oil Industries Weigh New Safety Measures in Wake of 
Derailments, Explosions,'' NBC News Investigations, Jan. 16, 2014, 
available at http://investigations.nbcnews.com/_news/2014/01/16/
22328508-rail-oil-industries-weigh-new-safety-measures-in-wake-of-
derail
ments-explosions?lite.
---------------------------------------------------------------------------
Implementation of PTC Systems
    PTC systems help prevent (a) derailments caused by overspeeding, 
(b) train-to-train collisions by slowing or stopping trains that are 
not being operated in accordance with the signal systems and operating 
rules, and (c) injury to track workers. The first NTSB-investigated 
accident that train control technology would have prevented occurred in 
1969, when four people died and 43 were injured in the collision of two 
Penn Central commuter trains in Darien, Connecticut. The NTSB 
recommended in response to that accident that FRA study the feasibility 
of requiring railroads to install an automatic train control system, 
the precursor to today's PTC systems.\13\
---------------------------------------------------------------------------
    \13\ NTSB Recommendation No. R-70-020.
---------------------------------------------------------------------------
    More recently, in 2008, more lives were lost in a PTC-preventable 
accident when a Metrolink commuter train and a Union Pacific freight 
train collided head-on in Chatsworth, California, killing 25 people and 
injuring 102 others. The NTSB concluded that the Metrolink engineer's 
use of a cell phone to send text messages distracted him from his 
duties. PTC would have prevented the tragedy that resulted. In the 
aftermath of the Chatsworth accident, Congress enacted the Rail Safety 
Improvement Act (RSIA) of 2008, which requires each class I rail 
carrier and each provider of regularly scheduled intercity passenger or 
commuter rail transportation to implement a PTC system by December 31, 
2015, on each line over which intercity passenger or commuter service 
is operated or over which poison-or toxic-by-inhalation hazardous 
materials are transported.\14\ In 2012, however, FRA exempted about 
10,000 miles of track from the PTC mandate, and several rail carriers 
and transit authorities have stated that they will not meet the 2015 
deadline.
---------------------------------------------------------------------------
    \14\ Rail Safety Improvement Act of 2008, Pub. L. No. 110-432, 
Sec. 104 (2008).
---------------------------------------------------------------------------
    We continue to see accidents that could be prevented by PTC. The 
December 1 Metro-North accident in the Bronx, which killed four people 
and injured 59 others, would have been prevented by PTC. We also are 
examining the role PTC could have played in the May 28 roadway worker 
fatality. Since 2004 alone, in the 25 PTC-preventable freight and 
passenger rail accidents that NTSB investigated, 65 people died, more 
than 1,100 were injured, and damages totaled millions of dollars.\15\ 
With each PTC-preventable accident, the case for PTC only grows 
stronger, yet progress toward industry-wide implementation has been 
slow.
---------------------------------------------------------------------------
    \15\ These accidents do not include Metro-North accidents.
---------------------------------------------------------------------------
    Implementation of PTC systems was included on the NTSB's Most 
Wanted List when the list was first published in 1990 and has remained 
on the list almost continuously since that time. We may never eliminate 
human error from the railroad system, but PTC provides a level of 
redundancy to protect trains and those on board when human factors, 
such as distraction or fatigue, might otherwise set an accident 
sequence into motion.
    Some rail carriers have installed PTC or are working to meet the 
2015 deadline. However, in August 2013, the Government Accountability 
Office reported to the U.S. Senate that, due to a number of complex and 
interrelated challenges, the majority of railroads will not complete 
PTC implementation by the 2015 deadline.\16\ NTSB files are filled with 
accidents that could have been prevented by PTC, and for each and every 
day that PTC implementation is delayed, the risk of an accident 
remains. For PTC to reach its greatest safety potential, it must be 
implemented on all passenger and freight lines subject to the 
installation requirements specified in the RSIA. Lives depend on it.
---------------------------------------------------------------------------
    \16\ Gov't Accountability Office, Positive Train Control: 
Additional Authorities Could Benefit Implementation, GAO Rpt. No. GAO-
13-720 (August 2013), available at http://www.gao.gov/assets/660/
656975.pdf.
---------------------------------------------------------------------------
    There is much debate by policymakers over whether to extend the 
2015 deadline established by RSIA. If Congress were to delay the 
statutory deadline, railroads that had delayed planning PTC 
implementation would be rewarded and railroads that had moved ahead 
with planning for PTC implementation by the deadline would essentially 
be punished. If the deadline remains unaltered, the NTSB would 
encourage FRA to take appropriate action to ensure railroads are 
complying with all applicable requirements regarding PTC 
implementation.
    Following the head-on collision of two Union Pacific freight trains 
in Goodwell, Oklahoma, NTSB issued the following recommendation to the 
railroads covered under the RSIA mandate:

        Provide positive train control implementation update reports to 
        the Federal Railroad Administration every 6 months until 
        positive train control implementation is complete. The update 
        reports should consist of two sections: components and 
        training. The components section should include a description 
        of the positive train control component to be implemented, the 
        number of components, the number of components completed on the 
        report date, the number of components that remain to be 
        completed, the overall completion percentage, and the estimated 
        completion date. Components are defined as locomotives, wayside 
        units, switches, base station radios, wayside radios, 
        locomotive radios, and any new and novel technologies that are 
        part of a positive train control system. The training section 
        should include the number of safety-related employees and 
        equivalent railroad carrier contractors and subcontractors that 
        need to be trained, by class and craft; minimum training 
        standards for those employees and contractors, meaning the 
        knowledge of and ability to comply with Federal railroad safety 
        laws and regulations and carrier rules and procedures to 
        implement positive train control; the percentage of employees 
        who have completed training; the percentage of employees who 
        remain to be trained; and the estimated date that training will 
        be completed.

    Additionally, the NTSB recommended that FRA:

        Publish the positive train control implementation update 
        reports submitted by all railroads subject to the positive 
        train control provisions of the Rail Safety Improvement Act of 
        2008 and make the reports available on your website within 30 
        days of report receipt.\17\
---------------------------------------------------------------------------
    \17\ See NTSB, Head-On Collision of Two Union Pacific Railroad 
Freight Trains Near Goodwell, Oklahoma June 24, 2012, Rpt. No. NTSB/
RAR-13/02 (June 18, 2013); Recommendations Nos. R-13-23 and R-13-27 
(2013).

    The NTSB believes this information should be made available online 
to ensure a transparent accounting for actions taken and not taken to 
meet the 2015 deadline so that regulators and policymakers can make 
informed decisions. However, because of FRA's lack of sufficient action 
on its recommendation, this week we classified this recommendation as 
``Open--Unacceptable Response.''
Inward-and Outward-Facing Locomotive Audio and Image Recorders
    The December 1, Metro-North accident in The Bronx raised questions 
about the actions of the engineer prior to the crash. The NTSB has 
repeatedly called for railroad carriers to install inward-and outward-
facing audio and image records to answer similar questions that have 
arisen in other accidents. Recorders in locomotives and cab car 
operating compartments are critically important not only because they 
would assist NTSB investigators and others understand what was 
happening in a train in the minutes and seconds before an accident, but 
also because they would help railroad management prevent accidents by 
identifying and responsibly addressing safety issues before they lead 
to injuries and loss of life and allow for the development of material 
that can be a valuable training and coaching tool.
    The Chatsworth tragedy in 2008 again made the case crystal-clear 
for understanding crewmembers' activities in the minutes and seconds 
leading up to accidents. Discussing the strong safety case for a 
requirement for inward-facing cameras in locomotives, the NTSB noted 
that

        [i]n all too many accidents, the individuals directly involved 
        are either limited in their recollection of events or, as in 
        the case of the Chatsworth accident, are not available to be 
        interviewed because of fatal injuries. In a number of accidents 
        the NTSB has investigated, a better knowledge of crewmembers' 
        actions before an accident would have helped reveal the key 
        causal factors and would perhaps have facilitated the 
        development of more effective safety recommendations.

    On the basis of that reasoning, the NTSB recommended that FRA 
require the installation, in control compartments, of ``crash-and fire-
protected inward-and outward-facing audio and image recorders capable 
of providing recordings [for at least 12 hours] to verify that train 
crew actions are in accordance with rules and procedures that are 
essential to safety as well as train operating conditions.'' \18\ The 
NTSB also recommended that FRA ``[r]equire that railroads regularly 
review and use in-cab audio and image recordings . . . to verify that 
train crew actions are in accordance with rules and procedures that are 
essential to safety.'' \19\
---------------------------------------------------------------------------
    \18\ NTSB Recommendation No. R-10-1.
    \19\ NTSB Recommendation No. R-10-2.
---------------------------------------------------------------------------
    The NTSB recently reiterated these important recommendations in its 
report on the collision of a BNSF coal train with the rear end of a 
standing BNSF maintenance-of-way equipment train near Red Oak, Iowa, 
which resulted in fatal injuries to the two crewmembers of the striking 
train. Damage was in excess of $8.7 million. As the NTSB stated in its 
report, the accident again demonstrated the need for in-cab recording 
devices to better understand (and thereby prevent) serious railroad 
crashes that claim the lives of crewmembers, passengers, and the 
public.
    Last week, we issued our longstanding recommendation on this 
subject directly to Metro-North Railroad. An industry-wide FRA-mandated 
approach would be far more effective, but failing that, we will address 
the recommendation on an individual basis.
Safety Culture
    Fostering the development of transparent, top-to-bottom safety 
cultures in transportation is an important priority of the NTSB. 
Creating and nurturing a thriving safety culture within rail carriers 
is even more imperative in light of the expanding role of the Nation's 
railroad system as a main transporter of flammable materials.
    The NTSB held a public forum on September 10 and 11, 2013, on 
successes and challenges associated with creating and maintaining 
strong safety cultures across the transportation modes, including rail. 
Panels of experts from academia, industry, and Federal regulatory 
agencies, such as the FRA, offered their perspectives on the 
significant organizational commitments and managerial work that are 
required to maintain safety cultures across large, complex 
organizations such as transportation carriers.
    As Members of the Subcommittee well remember, organizational 
factors at the Washington Metropolitan Area Transit Authority (WMATA) 
contributed to the fatal June 22, 2009, Metrorail train collision near 
the Fort Totten station in Washington, D.C. The NTSB found that WMATA 
leaders did not take sufficient action to make safety a priority and to 
identify and address safety issues from the top down: the WMATA General 
Manager did not provide adequate information about critical safety 
issues; the WMATA Board of Directors did not seek information about 
critical safety issues; and the Board of Directors did not exercise 
oversight responsibility for system safety.
    While WMATA has addressed many of these issues, the NTSB is 
examining the role of safety culture in the Metro-North accident 
investigations. The NTSB public investigative hearing regarding last 
May's two Metro-North accidents examined the importance of an 
organizational safety culture and the critical role that organizational 
culture plays in preventing accidents. The NTSB learned during the 
hearing that Metro-North has undertaken efforts to foster a stronger 
safety culture but that challenges remain. The then-president of Metro-
North, spoke of the ``challenge'' associated with creating ``a clear 
understanding across the organization that safety is the core value and 
we're not looking for shortcuts, and that we want people to work 
safely.'' \20\ Metro-North officials and labor stakeholders further 
assured the NTSB that Metro-North is taking action to address safety 
issues from the top to the bottom. Organizational issues within the 
railroad industry will continue to be an area of examination as the 
NTSB investigations of the Bridgeport, West Haven, and two Bronx 
accidents continue. In particular, the Bridgeport accident underscores 
the critical importance of regular, vigorous, and robust inspections of 
tracks. Railroad management must afford track workers adequate time and 
opportunity to conduct inspections and make repairs as necessary. As 
part of its ongoing investigation, the NTSB is undertaking a 
comprehensive review of Metro-North track inspections and follow-up 
work and is also looking at the adequacy of the FRA's Track Safety 
Standards.
---------------------------------------------------------------------------
    \20\ NTSB, Board of Inquiry in the Matter of Two Metro-North Rail 
Accidents: Bridgeport Train Derailment on May 17, 2013 and West Haven 
Collision Death of a Metro-North Track Foreman on May 28, 2013, Tr. 
Vol. II at 329 (Washington, D.C., Nov. 7, 2013).
---------------------------------------------------------------------------
    The importance of building relationships between management and 
employees that foster a vibrant safety culture cannot be overlooked. 
Trust is an essential ingredient in those relationships. A culture in 
which front-line employees may openly report operational errors and 
safety issues without fear of reprisal is absolutely critical, and, as 
we have seen in the aviation context, improves safety.
    The NTSB will continue to urge Federal regulators, such as FRA and 
the Federal Transit Administration (FTA), to facilitate establishment 
of appropriate safety cultures. The WMATA accident, in particular, 
underscored the critical need for rail mass transit operators to 
enhance and nourish safety cultures. Our 2014 Most Wanted List 
reaffirms our view that:

        [t]he FTA should consider the elements of safety culture, crew 
        resource management, fatigue risk management, and technology, 
        as well as lessons learned from the rail industry, as it moves 
        forward with [new legislative authority to set and enforce new 
        safety standards and conduct investigations]. Identifying and 
        implementing these will be key to saving lives and preventing 
        injuries.
Updates on Ongoing Investigations
    I would now like to update the Subcommittee on developments in 
several recent investigations that are keeping the NTSB's railroad 
investigators very busy and demonstrate the need for continued 
vigilance in the railroad operating environment.
Metro-North Railroad Accidents
    On December 1, 2013, the NTSB launched an investigative team to The 
Bronx, where a Metro-North Railroad commuter train with approximately 
115 passengers on board derailed shortly after 7:15 a.m. near the 
Spuyten Duyvil station, while going from Poughkeepsie to Grand Central 
Station in New York City. Four passengers died in this Thanksgiving 
holiday weekend accident and at least 59 others sustained injuries 
requiring medical treatment. Metro-North estimated damage in excess of 
$9 million.
    The NTSB issued a preliminary factual report on the accident on 
January 14, 2014. Based on evidence obtained to this point, our 
investigators have found that the accident train was traveling at 
approximately 82 mph when it derailed in the curve on approach to the 
Spuyten Duyvil station. The speed limit for the curve was 30 mph. PTC 
would have prevented this accident. Metro-North does not have a PTC 
system and has stated it will not meet the deadline, but it thought its 
system would be as robust as PTC. This accident clearly demonstrated 
that it was not.
    Investigators have conducted detailed inspections and testing of 
the signal system, train brakes, and other mechanical equipment, and 
thus far have found no anomalies. They found no pre-accident anomalies 
in the track in the derailment area. Investigators have interviewed the 
train crewmembers, including the engineer and first responders and will 
continue to obtain and examine evidence from NTSB headquarters as the 
investigation proceeds. We are receiving excellent cooperation from the 
parties to the investigation: the FRA, Metro-North, the New York Public 
Transportation Safety Board, Teamsters Local 808, the New York Police 
Department, the New York Fire Department, and Bombardier 
Transportation, which manufactured the cars involved in the accident.
    Last week, as I stated earlier, the NTSB issued three safety 
recommendations to Metro-North. We recommended that Metro-North install 
signs to clearly warn train crews that they are approaching areas of 
permanent speed restrictions; install inward-and outward-facing audio 
and video recorders in locomotives and control cars, and regularly 
review and use in-cab audio and image recordings in conjunction with 
other performance data, to verify train crew actions are in accordance 
with rules and procedures that are essential to safety. As our 
investigation proceeds, the NTSB will be prepared to issue additional 
safety recommendations if we determine any further safety improvements 
are necessary pending completion of our investigation.
    The Bronx derailment was the fourth accident involving Metro-North 
property to trigger an NTSB investigation in 2013. Last June, the NTSB 
issued an urgent safety recommendation following the May 28 accident in 
which the track foreman died, calling upon Metro-North to immediately 
implement redundant measures to ensure the safety of track workers \21\ 
(Metro-North indicates it is implementing this recommendation), and the 
NTSB reiterated a safety recommendation to the FRA to require redundant 
signal protection, such as shunting, for maintenance-of-way work crews 
who depend on the train dispatcher to provide signal protection.\22\ 
That recommendation is currently classified as open with an acceptable 
response.
---------------------------------------------------------------------------
    \21\ NTSB Recommendation No. R-13-17.
    \22\ NTSB Recommendation No. R-08-6.
---------------------------------------------------------------------------
    I am pleased to inform the Subcommittee that Metro-North has fully 
cooperated in all these investigations, at a difficult time for the 
railroad and its employees in the wake of several closely-spaced 
accidents. We anticipate and look forward to Metro-North's continued 
cooperation as the investigations proceed.
    Although it is still too early in our investigations of these 
accidents to draw definitive conclusions, we will seek answers to the 
following questions, among others: What caused these accidents? Are 
there common threads among the accidents? What improvements can Metro-
North, regulators, and others adopt that will prevent similar accidents 
from occurring in the future?
    The NTSB tentatively expects to complete our investigations of all 
four accidents involving Metro-North trains or property in the second 
half of this year. We recognize and share the Subcommittee's sense of 
urgency to understand what lessons can be drawn from these accidents 
and to ensure that the railroad industry and its regulators implement 
appropriate safety improvements to prevent recurrences, and if our 
investigation reveals problems that need immediate attention, we will 
not hesitate to issue appropriate recommendations before we complete 
the investigation.
Freight Train Collision and Crude Oil Release near Casselton, N.D.
    As I noted above, the NTSB is investigating the December 30, 2013, 
Casselton, North Dakota, accident that resulted in a significant post-
crash fire that triggered a voluntary evacuation of about 1,400 people 
from the surrounding community.
    The accident sequence began shortly after 2 p.m. when 13 cars of a 
112-car westbound BNSF Railway grain train derailed. One of the 
derailed cars came to rest on the adjacent track. Shortly afterward, a 
BNSF 106-car petroleum crude oil unit train travelling east on the 
parallel track collided with the derailed grain car. The collision 
caused the head-end locomotives and the first 21 cars of the crude oil 
train to derail. Some of the crude oil tank cars were punctured during 
the accident releasing crude oil that ignited and caused the energetic 
rupture of several other tank cars. Dense smoke and concern over 
expanding fires resulted in voluntary evacuation of the surrounding 
area.
    The crews on the two trains were uninjured. No injuries to the 
public were reported. Damage was estimated at $6.1 million.
    On a preliminary basis, we have found that, of the 20 tank cars 
that derailed, 18 tank cars were breached and more than 476,000 gallons 
of crude oil were released. NTSB investigators have completed the on-
scene portion of the investigation, including interviews with the train 
crews and first responders. A broken axle and two wheels were shipped 
to the NTSB materials laboratory in Washington, D.C., for further 
evaluation and analysis, as well as the locomotive event and video 
recorders. The parties to the investigation include the FRA; PHMSA; the 
BNSF; the Brotherhood of Locomotive Engineers and Trainmen; the 
International Association of Sheet Metal, Air, Rail and Transportation 
Workers, formerly known as the United Transportation Union; Trinity 
Rail Car; and Standard Steel, LLC.
Conclusion
    Thank you for the opportunity to appear before you and to provide 
updates on our ongoing investigations as well as NTSB perspectives on 
several compelling safety issues. Please be assured that the NTSB will 
remain engaged on these and all issues affecting transportation safety. 
I look forward to answering the Subcommittee's questions.

    Senator Blumenthal. Thank you, Mr. Hart.
    Mr. Blackwell.

           STATEMENT OF GEOFFREY C. BLACKWELL, CHIEF,

         OFFICE OF NATIVE AFFAIRS AND POLICY, CONSUMER

    AND GOVERNMENTAL AFFAIRS BUREAU, FEDERAL COMMUNICATIONS 
                           COMMISSION

    Mr. Blackwell. Chairman Blumenthal, Ranking Member Blunt, 
and members of the Subcommittee, thank you for the opportunity 
to testify today concerning the FCC's role in enhancing rail 
safety.
    The FCC recognizes that positive train control has the 
power to save lives, prevent injury, and avoid property damage. 
It is the top priority of the FCC to work with all parties to 
help them fulfill their legal obligations and advance the 
deployment of PTC as prescribed by the Rail Safety Improvement 
Act of 2008. At the same time, we recognize the need to balance 
the very legitimate concerns regarding the potential impacts of 
such a major infrastructure deployment on historic properties 
including sites of religious and cultural significance to 
tribal nations.
    This imperative is reflected in the FCC's statutory 
obligations under Section 106 of the National Historic 
Preservation Act as well as the National Environmental Policy 
Act. Regulations developed by the Advisory Council on Historic 
Preservation, require that the FCC review and assess whether a 
proposed communications facility may have an adverse effect on 
historic properties and consult with federally-recognized 
tribal nations as part of the review process. The NHPA and our 
rules require that applicants ascertain prior to initiating 
construction, whether their construction could have a 
significant environmental impact including an adverse effect on 
historic properties.
    A cornerstone of the Commission's implementation of Section 
106 is the Tower Construction Notification System (TCNS). TCNS 
is a secure online system that allows parties constructing 
communications towers to ascertain whether their proposed 
construction would implicate a tribal nation's interest in 
culturally or religiously significant sites. A parallel system, 
E106, exists to facilitate review of towers by State Historic 
Preservation Officers (SHPO). TCNS and E106 provide an easy and 
efficient way to exchange information among FCC staff, tribal 
nations, State Historic Preservation Officers, and applicants.
    In the spring of 2013, the railroads informed us that they 
intended to deploy PTC using a system that required the 
construction of approximately 22,000 wayside poles. We 
immediately sought to develop alternative ways to leverage TCNS 
and E106 to facilitate the deployment of this necessary 
infrastructure while also ensuring compliance with all the 
relevant statutes and our rules.
    The TCNS and E106 systems are tried and true; designed to 
ensure efficient reviews, but were not designed for the sheer 
volume of the PTC wayside antenna structures. TCNS and E106 do, 
however, offer unique efficiencies that will provide many 
advantages to all the parties involved.
    Being mindful of the FCC's trust responsibility to consult 
with tribal governments prior to implementing a regulatory 
action, we took the following steps: First, we consulted with 
the Council on Environmental Quality and the Advisory Council 
on Historic Preservation (ACHP) on the best path forward with 
the conclusion being that the most expeditious is for the 
Commission to tailor its historic preservation review processes 
is to develop a Program Comment. This is a document adopted and 
issued by the Advisory Council that allows the FCC to follow 
alternative historic preservation review processes.
    Second, on September 27, we released a Section 106 Scoping 
Document as an initial step in developing a Program Comment. We 
then held tribal consultations in South Dakota in November, and 
Oklahoma in December. In unprecedented fashion, these meetings 
with tribal officials also included demonstration and 
presentation sessions by the railroads.
    Third, on January 29, we released a draft Program Comment 
which seeks to promote administrative efficiency by providing 
for submission of poles in batches while ensuring that SHPOs 
and tribal nations will receive sufficient information about 
each pole to evaluate its effects on historic properties.
    Comments on the draft Program Comment were due February 12. 
The Program Comment was formally submitted to the Advisory 
Council this past Tuesday, March 4. And under its rules, ACHP 
would act on the Program Comment by mid-April.
    Once adopted, the Commission is prepared immediately to 
begin accepting railroad submissions for the up to 20,000 
additional constructions now expected. Complicating our work to 
create an efficient process for new PTC construction is the 
fact that we must consider more than 10,000 PTC constructions 
that were undertaken without completing the environmental and 
historic preservation review clearly required by Federal laws 
and regulations. This issue has figured prominently in our 
discussions with SHPOs and tribal nations as we seek to create 
an efficient review process.
    Based on those discussions, it is clear to us that issues 
related to prior construction must be resolved at the same time 
as the issues surrounding future PTC infrastructure.
    In closing, let me reiterate that the Commission recognizes 
the importance of PTC to enhancing rail safety and is committed 
to creating an efficient and timely review process. This 
process will ensure full consideration of the effects of PTC 
wayside poles on historic properties including sites of 
religious and cultural significance to tribal nations in a 
manner that allows the railroads to complete construction by 
the statutory deadline.
    Thank you for the opportunity to appear today. I look 
forward to answering any questions you may have.
    [The prepared statement of Mr. Blackwell follows:]

 Prepared Statement of Geoffrey C. Blackwell, Chief, Office of Native 
     Affairs and Policy, Consumer and Governmental Affairs Bureau, 
                   Federal Communications Commission
    Chairman Warner, Ranking Member Blunt, and Members of the 
Subcommittee, thank you for this opportunity to appear before you today 
concerning the Federal Communications Commission's role in enhancing 
rail safety. My name is Geoffrey Blackwell, and I am the Chief of the 
Federal Communications Commission's (FCC) Office of Native Affairs and 
Policy, or ONAP, which is part of the Consumer and Governmental Affairs 
Bureau. ONAP was established in August 2010 to promote the deployment 
and adoption of communications services and technologies throughout 
Tribal Lands and Native Communities and to ensure robust government-to-
government consultation with federally-recognized Tribal Governments 
and increased coordination with Native Organizations, including on 
environmental and historic preservation reviews and related matters. 
Along with other Commission Bureaus and Offices, ONAP is part of the 
internal infrastructure team at the Commission that coordinates closely 
on the matters involved in this hearing.
    The Commission recognizes that positive train control (PTC) is a 
transformative technology that has the power to save lives, prevent 
injuries, and avoid extensive property damage. Clearly, PTC deployment 
is a top priority of all of the agencies and companies represented at 
the table today. It is also a top priority of the Commission to work 
with all parties to help them fulfill their various legal obligations 
and responsibilities and advance the deployment of PTC within the time-
frame prescribed by the Railroad Safety Improvement Act of 2008 (RSIA).
    At the same time, we recognize the need to balance legitimate 
concerns regarding the potential impacts of such a major infrastructure 
deployment on historic properties, including sites of religious and 
cultural significance to Tribal Nations. This imperative is reflected 
in the FCC's statutory obligations under Section 106 of the National 
Historic Preservation Act (NHPA), as well as the National Environmental 
Policy Act (NEPA). Most notably, NHPA regulations developed by the 
Advisory Council on Historic Preservation (ACHP) require that the FCC 
review and assess whether a proposed communications facility may have 
an adverse effect on historic properties, and consult with Federally 
recognized Tribal Nations as part of its review process.
    For example, railroad tracks often follow historical trade and 
navigation routes that have been used for centuries, both by European 
settlers and by Native peoples before and since European settlement. 
Construction along the tracks therefore has the potential to affect a 
number of cultural or religious properties, from traditional burial 
sites to sacred landscapes. Our consultations with Tribal Nations 
revealed such specific histories. According to the Tribal Historic 
Preservation Officer (THPO) of the Quapaw Tribe of Oklahoma, when the 
railroad was constructed through historical Quapaw community lands in 
the southern plains, the soil of multiple burial mounds was bulldozed 
into the right-of-way to build up the track bed. According to the THPO 
of the Mississippi Band of Choctaw Indians, the largest Tribal cemetery 
ever discovered in the state of Mississippi was found under a railroad 
right-of-way. Several THPOs for Tribal Nations resident in both North 
and South Dakota have identified village sites that lie underneath 
existing rail lines. Likewise, Tribal Nations with an interest in the 
Columbia River Gorge have identified sacred sites and petroglyphs that 
are either underneath or alongside the existing tracks. Construction 
along railroad tracks can also affect historic properties that are not 
of cultural and religious significance to Tribal Nations. For example, 
the Pennsylvania, Georgia, Montana, Wyoming, and New Mexico SHPOS have 
identified historic districts in their states that lie astride rail 
lines.
    Accordingly, to address these concerns the Commission is dedicating 
substantial resources to establishing a specially-designed review 
process that would allow the railroads to deploy PTC wayside 
infrastructure by the December 31, 2015, statutory deadline, while also 
ensuring that it meets its statutory obligation to fully consider the 
effects of this infrastructure on historic properties, including sites 
of religious and cultural significance to Tribal Nations.
Background
    RSIA requires that freight and passenger railroads deploy by 
December 31, 2015, interoperable PTC systems along routes transporting 
passengers and certain hazardous cargoes. While the Federal Railroad 
Administration (FRA) is responsible for overseeing the railroads' 
implementation of PTC by the statutory deadline, the FCC plays a role 
in two aspects of PTC deployment. First, the FCC regulates access to 
spectrum, and many railroads are installing PTC systems that require 
licensed spectrum to enable wireless communication. Second, it is well 
established--and has been upheld by the D.C. Circuit--that a Commission 
licensee's construction of a facility (e.g., a communications tower) to 
use Commission-licensed spectrum constitutes a major Federal action and 
Federal undertaking within the meaning of NEPA and the NHPA. Thus, the 
FCC has a legal responsibility to review the environmental and historic 
preservation impacts, including impacts on properties of religious and 
cultural significance to Tribal Nations, of infrastructure projects, 
like PTC, that will provide wireless services using FCC-licensed 
spectrum. It is a common misperception that the responsibility to 
ensure that Tribal Nations have an opportunity to participate in this 
process arises only with respect to the lands upon which Tribal Nations 
currently reside. In fact, the NHPA requires a nationwide scope, and 
Tribal involvement in the FCC process is typically most important on 
non-Tribal lands. These previously inhabited areas are precisely where 
Tribal governments do not presently own the land or have the authority 
to protect their religious and cultural properties, except through the 
NHPA.
Providing Spectrum
    Broadly speaking, the FCC understands that two types of PTC systems 
will be implemented in the United States. While they both use 
frequencies in the 217 to 222 megahertz range, they have different 
spectrum requirements. In the Northeast Corridor, Amtrak and the 
commuter railroads intend to implement Amtrak's Advanced Civil Speed 
Enforcement System (ACSES), via 12.5 kHz spectrum channels. Outside of 
the Northeast Corridor, commuter railroads, Amtrak and the freight 
railroads intend to implement a system developed by the freight 
railroads, Interoperable Electronic Train Management System (I-ETMS), 
via 25 kHz channels.
    Since 2010, FCC staff has been working with freight and commuter 
rails to identify spectrum that is suitable and available for the 
deployment of an interoperable PTC system. PTC-220, a consortium of the 
Nation's seven Class I freight railroads, has acquired a substantial 
block of nationwide spectrum, as well as additional spectrum in dense 
urban markets, for the purpose of implementing PTC systems. FCC staff 
continues to work with PTC-220 and other relevant stakeholders to 
enable more intensive use of PTC-220s spectrum holdings, which will 
allow other railroads, especially commuter railroads, to benefit from 
PTC-220s spectrum holdings and networks. Provided that pending and 
future FRA requirements do not materially impact PTC spectrum needs, we 
believe the seven Class I freight railroads generally have sufficient 
spectrum to deploy PTC. We also believe that an increasing number of 
commuter rails have access to sufficient spectrum to deploy PTC. We 
continue to work actively with those still seeking spectrum.
Environmental and Historic Preservation Review
    The Commission's rules require that applicants ascertain--prior to 
initiating construction--whether a facility they wish to construct 
could have a significant environmental impact, including an adverse 
effect on historic properties. If the facility may have such an impact, 
the Commission's rules require the preparation of an Environmental 
Assessment (EA) and further environmental processing.
    To determine whether there will be an adverse effect on historic 
properties, the rules require the applicant to follow certain 
procedures set forth in the Commission's 2004 Nationwide Programmatic 
Agreement (NPA) with the ACHP and the National Conference of Historic 
Preservation Officers (NCSHPO). Intended to facilitate historic 
preservation review for communications projects, the NPA includes 
procedures for participation of Tribal Nations and, where necessary, 
referral to the Commission for government-to-government consultation. 
The NPA also improved the process for SHPO review and excluded some 
constructions from review under defined conditions. The Commission's 
rules also specify procedures for NEPA compliance. No formal regulatory 
action is required to adapt these procedures for PTC wayside poles, and 
the Commission staff is working with the railroads to make the 
necessary informal adjustments to the process.
    While the Commission's rules include certain exemptions and 
exclusions from NEPA and NHPA review, none currently available would 
categorically exclude the entire PTC wayside pole system. The creation 
of exemptions for infrastructure deployments like PTC would require not 
only consultation and negotiation with ACHP and NCSHPO, the other 
necessary signatories to our NPA under ACHP rules, but also a full 
notice and comment rulemaking proceeding at the Commission, a process 
that could take a year or longer.
    A cornerstone of the Commission's implementation of the NPA is the 
Tower Construction Notification System (TCNS), a secure technology 
solution that allows parties interested in constructing communications 
towers to ascertain whether their proposed construction would implicate 
a Tribal Nation's interest in culturally or religiously significant 
sites in the area of the proposed construction. TCNS is a non-public 
system that facilitates the notification, interactions, and review of 
proposed constructions, while protecting the private nature of both the 
particular applicant's proposed construction and the site of religious 
or cultural significance to a Tribal Nation. Use of TCNS immediately 
narrows the areas of interest of Tribal Nations to only those that they 
have indicated as relevant in this process and currently, every single 
Tribal Nation in the country has set their areas of interest to 
participate in the TCNS system. A parallel system, E-106, exists to 
facilitate review of communications towers by interested state historic 
preservation officers (SHPOs).
    On average the Commission processes more than 10,000applications a 
year for new or collocated communications infrastructure through these 
systems. TCNS and E-106 provide an easy way to exchange information 
among Commission staff, Tribal Nations, SHPOs and applicants.
Facilitating Efficient PTC Infrastructure Deployment
    In the spring of 2013, the railroads informed FCC staff that they 
intended to deploy PTC using a system that required the construction of 
approximately 22,000 wayside poles with antennas along the railroad 
tracks. Through continued discussions with the railroads we concluded, 
and the railroads have agreed, that the Commission's TCNS and E-106 
processes, as they existed, were not suited to ensure efficient review 
of PTC wayside infrastructure on such a large scale. In fact, the 
existing TCNS and E-106 process was originally designed for tower-by-
tower review and does not efficiently scale up to the large scale and 
linear nature of the proposed PTC projects. At the same time, we 
recognized that TCNS and E-106 do offer unique efficiencies that will 
provide many advantages to the railroads, FCC staff, SHPOs, and Tribal 
Nations. Consequently, the Commission immediately sought to develop 
alternative ways to leverage TCNS and E-106 so as to facilitate the 
deployment of necessary infrastructure while ensuring compliance with 
the relevant statutes and our rules. In doing so, we are mindful of the 
Commission's trust responsibility to consult with Tribal governments 
prior to implementing any regulatory action or policy that could 
significantly or uniquely affect Tribal governments, their land and 
resources.
    Complicating our work to create an efficient process for new 
construction of PTC infrastructure is the fact that we must consider 
more than ten thousand PTC infrastructure deployments that were 
undertaken by the railroads without completing the environmental and 
historic preservation review clearly required by Federal laws and 
regulations. This issue has figured prominently in our discussions with 
SHPOs and Tribal representatives, and in consultations with Tribal 
government officials, as we seek to create an efficient review process. 
Based on those discussions, it is clear to us that issues related to 
prior construction must be resolved contemporaneously with the issues 
surrounding future PTC infrastructure construction.
    In May 2013, FCC senior staff advised the major freight railroads 
to defer submission of requests seeking SHPO and Tribal review of 
wayside pole deployments until the FCC could develop a more streamlined 
process specifically tailored to PTC wayside poles. FCC staff has 
consistently advised commuter railroads, which will deploy a limited 
number of wayside poles, to continue using the TCNS and E-106 systems.
The Program Comment
    Upon concluding that our existing processes were not suitable for 
PTC infrastructure review, FCC staff consulted with the 
Administration's Council on Environmental Quality (CEQ) and with the 
ACHP on the best path forward. CEQ confirmed that we could not simply 
exclude PTC wayside poles from the required NEPA review without a 
formal notice and comment rulemaking process to develop a categorical 
exclusion. ACHP similarly confirmed that there was no ready path to a 
broad exclusion from NHPA review. ACHP further advised that the most 
expeditious way for the Commission to streamline its historic 
preservation review process is to develop a ``Program Comment.''
    A Program Comment is a document adopted and issued by the ACHP that 
allows a Federal agency such as the FCC to follow alternative historic 
preservation review processes that address specific needs of an agency. 
Under this approach, the FCC must develop a draft Program Comment and 
propose it to ACHP after consultation with all stakeholders, including 
government-to-government consultation with Tribal Nations. Adoption and 
implementation of the Program Comment does not require a formal FCC 
rulemaking.
    We released a Section 106 scoping document--an initial step in 
developing a Program Comment--on September 27, 2013. We then met with 
Tribal officials and railroad representatives, in Rapid City, South 
Dakota in November 2013, and Tulsa, Oklahoma in December 2013. In an 
unprecedented fashion, in addition to face-to-face consultations 
between Federal and Tribal officials, these meetings also included 
sessions with all interested parties present. At their request, we also 
coordinated with the railroads to facilitate live demonstrations of 
their PTC deployments to Tribal officials.
    As a result of those meetings and consultations, on January 8, 
2014, the Commission advised the Class I freight railroads to begin 
submitting through TCNS and E-106 proposed PTC infrastructure along 
segments of track that were discussed during the Rapid City and Tulsa 
meetings using a Beta version of the process we envision implementing 
in the Program Comment. While the TCNS and E106 systems are not 
designed for public inspection, and thus do not have public view 
versions, we believe it is a good indication of forward progress that 
one of the Class I freight railroads has voluntarily filed information 
in TCNS, and four have filed forms in the E-106 system.
    We began our PTC solutions dialogue with Indian Country in August 
of last year--the earliest practicable date--at the annual meeting of 
the National Association of Tribal Historic Preservation Officers in 
Billings, Montana. We are scheduling additional consultations with 
Tribal Nations in the Pacific Northwest and Southwest to gather input 
on the draft Program Comment and continue the productive conversations 
between the Tribal Nations and the railroads. We also conducted a 
dialogue last week with the Culture and Heritage Committee of the 
United South and Eastern Tribes, and we have conducted numerous other 
meetings with regional and national inter-Tribal organizations.
    FCC staff has also engaged numerous SHPOs on the proposal to create 
a more efficient review process. In particular, we provided information 
to the SHPOs by letter in July 2013, October 2013, and January 2014, 
and we have conducted four teleconferences with the SHPOs in August 
2013, December 2013, and February 2014.
    The FCC publicly released a draft Program Comment on January 29, 
2014. The draft Program Comment would apply to wayside infrastructure 
that will be constructed within existing railroad rights of way for use 
in the implementation and operation of PTC systems. Infrastructure 
eligible for the procedures of the Program Comment may support either 
wayside antennas or base stations, but must not: (1) be taller than 75 
feet; (2) create a foundation hole in excess of 15 inches in diameter 
(unless agreed to in the context of manual excavation); (3) require a 
foundation deeper than 15 feet; or (4) be situated outside the railroad 
right-of-way. Applicants using the proposed Program Comment must ensure 
that associated cultural resource reports are prepared by professionals 
who meet the relevant standards in the Secretary of the Interior's 
Professional Qualifications Standards. Additionally, applicants must be 
willing to support Tribal monitoring activities if requested and to 
compensate Tribal preservation offices for professional services in 
accordance with the ACHP's guidelines. The draft Program Comment seeks 
to promote administrative efficiency by providing for submission of 
poles in batches, rather than pole-by-pole, while ensuring that SHPOs 
and Tribal Nations will receive sufficient information about each pole 
to evaluate its effects on historic properties.
    Comments on the draft Program Comment were due yesterday. The 
Commission expects to submit the Program Comment to ACHP by the end of 
February. Under its rules, ACHP should act on the Program Comment by 
mid-April. Once adopted, the Commission is prepared immediately to 
begin accepting submissions from railroads under its terms.
Collaboration
    Throughout this process, the Commission has been working closely 
with our partners at the Federal Railroad Administration, the National 
Transportation Safety Board, ACHP, CEQ, and the U.S. Fish and Wildlife 
Service to share information and ensure coordination between our 
agencies. As I stated we are also working closely with Tribal Nations 
and their cultural preservation officials, the SHPOs and, of course, 
the railroads subject to the PTC mandate. We will continue our close 
and productive collaboration with all of these parties to ensure that 
the Commission's processes do not inhibit the deployment of PTC by the 
statutory deadline.
    In closing, let me reiterate that the Commission recognizes the 
importance of PTC to enhancing rail safety, and is committed to doing 
what is necessary to allow for an efficient and timely review process 
that ensures full consideration of the effects of PTC wayside poles on 
historic properties, including sites of religious and cultural 
significance to Tribal Nations, in a manner that allows the railroads 
to complete construction by the statutory deadline.
    Thank you for the opportunity to appear today. I look forward to 
answering any questions you may have.

    Senator Blumenthal. Thank you, Mr. Blackwell.
    Mr. Searles.

   STATEMENT OF PRENTISS SEARLES, MARKETING AND RAIL ISSUES 
             MANAGER, AMERICAN PETROLEUM INSTITUTE

    Mr. Searles. Chairman Blumenthal, Ranking Member Blunt and 
members of the Subcommittee, Senators Heitkamp and Hoeven, 
thank you for the invitation to testify on this important and 
timely topic of enhancing rail safety.
    My name is Prentiss Searles. I am the Marketing and Rail 
Issues Manager for the American Petroleum Institute (API). I am 
testifying on behalf of my boss, Bob Greco, who has the flu 
today.
    API represents all segments of the oil and natural gas 
industry with more than 590 members who supply most of the 
Nation's energy. The revolution in North American energy 
development has been possible by technological breakthroughs 
and decades-old methods of energy development which has set 
this Nation on the path to energy security; a concept 
unthinkable just a few years ago.
    The energy policies we choose today will determine if our 
nation will continue its march toward global energy leadership; 
a unique and once-in-a-generation opportunity. America's 
dramatic increase in domestic energy production has 
fundamentally altered the global energy markets and, more 
broadly, the geopolitical landscape for decades to come, all 
while providing a much-needed boost to our economy.
    In order to achieve our Nation's full potential as a global 
energy leader, all of us have to work together to ensure that 
our energy infrastructure is capable of safely, reliably, and 
efficiently transporting ever increasing amounts of 
domestically produced energy whether by truck, barge, pipeline, 
or the focus of today's hearing, rail. Meaningful and lasting 
improvement in rail safety will only come from a holistic and 
collaborative approach to accident prevention, mitigation and 
response. And the oil and natural gas industry will continue to 
work with our colleagues in government, the rail industry, and 
others on continual safety improvement.
    The Memorandum of Understanding, recently released between 
the railroad industry and the Department of Transportation 
which outlines operational changes to improve rail safety, is 
an important step in our shared goal of improving the safety of 
America's freight rail system. While it's true that 99.997 
percent of hazardous materials transported by rail reach their 
destinations without incident, the oil and natural gas industry 
is committed to getting to zero rail incidents. Because, when 
it comes to safety, the only number that matters is zero 
incidents. Getting to zero will take the long-term commitment 
to working collaboratively with all stakeholders and applying 
our best science, research and real world data in a thoughtful 
and a deliberate manner.
    Being a safe steward of our Nation's energy resources and 
providing the leadership in raising the bar on industry 
performance isn't new to the oil and natural gas sector. For 90 
years, API has been the world leader in developing and 
improving equipment and operating standards, 600 and counting 
for oil and natural gas through a collaborative process that 
involves all stakeholders, as well as government regulators. 
This process is accredited by the American National Standards 
Institute, or ANSI, which is the same organization that 
accredits the government's national laboratories.
    We have already assembled the best experts from our 
industry, the railroad scientists and engineers, and others, to 
tackle some of the issues raised by the recent incidents 
involving the transport of crude by rail. PHMSA also committed 
to join our effort to develop a comprehensive standard that 
addresses the classification of crude oil to ensure that we are 
moving that product in the safest manner possible. This 
includes possible safety improvements for material 
characterization, transport classification, and quantity 
measurement of crude oils based on the best available science 
and data. This is part of our industry's longstanding 
commitment to safety.
    In 2011, the oil and natural gas industry helped lead the 
multi-industry effort that led to significant improvements in 
the design of tank cars and we moved forward voluntarily with 
those improvements so that, this year, we are approaching 40 
percent of the crude tank cars in use by our industry that 
exceed the current Federal safety standards. With this 
achievement, please keep in mind, as Administrator Quarterman 
said at last week's House hearing on rail safety, ``Getting a 
new tank car is not a silver bullet. First, we need to prevent 
derailments.''
    In the final analysis, the women and men of the rail and 
oil and natural gas industries, as well as the communities 
traversed by our Nation's freight rails, deserve our laser 
focus on these challenges. Our potential as a global energy 
leader is rooted in our ability to safely transport our game-
changing energy resources safely every time, be it by truck, 
barge, pipeline, or rail.
    We look forward to continuing to work with our colleagues 
in government, in the rail industry, and with others to develop 
a long-term holistic and comprehensive approach to rail safety 
that includes prevention, mitigation and response, and moves us 
closer to what, I think, is our shared goal of zero rail 
incidents.
    Thank you for your time and attention.
    [The prepared statement of Mr. Greco follows:]

     Prepared Statement of Bob Greco, Group Director of Downstream 
                Operations, American Petroleum Institute
    Chairman Blumenthal, Ranking Member Blunt, and members of the 
Subcommittee, thank you for the invitation to testify on the important 
and timely topic of enhancing rail safety.
    My name is Bob Greco, Group Director of Downstream Operations at 
the American Petroleum Institute. API represents all segments of the 
oil and natural gas industry, with more than 590 members who supply 
most of the Nation's energy.
    The revolution in North American energy development has been made 
possible by technological breakthroughs in decades-old methods of 
energy development, which has set this Nation on the path to energy 
security, a concept unthinkable just a few years ago.
    The energy policies we choose today will determine if our Nation 
will continue its march toward global energy leadership; a unique and 
once in a generation opportunity. America's dramatic increase in 
domestic energy production has fundamentally altered the global energy 
markets and more broadly the geopolitical landscape for decades to 
come, all while providing a much needed boost to our economy.
    In order to achieve our Nation's full potential as a global energy 
leader, all of us have to work together to ensure that our energy 
infrastructure is capable of safely, reliably, and efficiently 
transporting ever-increasing amounts of domestically produced energy, 
whether by truck, barge, pipeline, or the focus of today's hearing, 
rail.
    Meaningful and lasting improvement in rail safety will only come 
from a holistic and collaborative approach to accident prevention, 
mitigation and response, and the oil and natural gas industry will 
continue to work with our colleagues in government, the rail industry, 
and others on continual safety improvement.
    The Memorandum of Understanding recently released between the 
railroad industry and the Department of Transportation, which outlines 
operational changes to improve rail safety, is an important step in our 
shared goal of improving the safety of America's freight rail system.
    While it's true that 99.997 percent of hazardous materials 
transported by rail reach their destinations without incident . . . the 
oil and natural gas industry is committed to getting to zero rail 
incidents. Because when it comes to safety the only number that matters 
is zero incidents.
    Getting to zero will take the long-term commitment to working 
collaboratively with all stakeholders and applying all of our best 
science, research, and real-world data in a thoughtful and deliberate 
manner.
    Being a safe steward of our Nation's energy resources and providing 
leadership in raising the bar on industry performance isn't new to the 
oil and natural gas sector. For 90 years, API has been the world leader 
in developing and improving equipment and operating standards--600 and 
counting--for oil and natural gas through a collaborative process that 
involves all stakeholders, as well as government regulators. This 
process is accredited by the American National Standards Institute, or 
ANSI, which is the same organization that accredits the government's 
national laboratories.
    We have already assembled the best experts from our industry, the 
railroads, scientists and engineers and others to tackle some of the 
issues raised by the recent rail incidents involving the transport of 
crude oil. PHMSA also committed to join our effort to develop a 
comprehensive standard that addresses the classification of crude oil 
to ensure we are moving that product in the safest manner possible. 
This includes possible safety improvements for material 
characterization, transport classification, and quantity measurement of 
crude oil based on the best available science and data.
    This is part of our industry's longstanding commitment to safety. 
In 2011, the oil and natural gas industry helped lead the multi-
industry effort that led to significant improvements in the design of 
tank cars. And we moved forward voluntarily with those improvements--so 
that this year we are approaching 40 percent of the crude tank cars in 
use by our industry that exceed the current Federal safety standard. 
With this achievement please keep in mind, as Administrator Quarterman 
said at last week's House hearing on rail safety, ``getting a new tank 
car is not a silver bullet; first we need to prevent derailments.''
    In the final analysis, the women and men of the rail and oil and 
natural gas industries, as well as the communities traversed by our 
Nation's freight rails, deserve our laser focus on this challenge. Our 
potential as a global energy leader is rooted in our ability to safely 
transport our game-changing energy resources safely every time, be it 
by truck, barge, pipeline, or rail.
    We look forward to continuing to work with our colleagues in 
government, in the rail industry, and with others to develop a long-
term, holistic and comprehensive approach to rail safety that includes 
prevention, mitigation, and response and moves us closer to what I 
think is our shared goal of zero rail incidents.
    Thank you for your time and attention.

    Senator Blumenthal. Thank you, Mr. Searles.
    Mr. Hamberger.

STATEMENT OF EDWARD R. HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hamberger. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear here before you today, Ranking Member 
Blunt, members of the Subcommittee. I will be focusing on two 
important aspects of rail safety: moving energy by rail and 
positive train control. But obviously, stand ready to answer 
questions in any other safety area that interests the 
Subcommittee.
    Regarding moving crude by rail, as impressed as Senator 
Blunt is, the 200 some thousand carloads in 2012, 2013 looks to 
be about 410,000 carloads. And I think the 2015 and 2016 will 
continue to show that upward growth. Unfortunately, as we've 
all been discussing, several recent high-profile incidents have 
shaken the public confidence and have raised the question: Can 
railroads, in fact, move crude oil safely?
    I'm here to tell you, unequivocally, the answer to that 
question is yes. Not only can we--we do. 99.997 percent of the 
time, from origin to destination, without an accidental 
release. But we agree with Mr. Searles. The goal has to be 100 
percent. And to that end, we were pleased to sign an agreement 
with Secretary Foxx addressing voluntary action items that we 
hope and believe will continue to improve our safety record.
    When you take a look at how to address risk, there are 
three basic tranches, if you will, basic pots. One is to 
prevent. That's on us, prevention. Next is mitigation. To me, 
that is knowing what's going into the tank car and what is the 
tank car. And then, containment, working with the emergency 
responders in the local communities. The agreement we have with 
Secretary Foxx addresses all three of those.
    Briefly, under that agreement as far as prevention, we are 
going to be doing more frequent track inspections, speed 
restrictions in high-threat urban areas, enhanced braking, and 
the use of a sophisticated routing model, which we use now, 
developed by the Department of Homeland Security and others, 
for our toxic ventilation chemicals. We're going to use that 
now for crude oil as well. These steps are aimed, as they say, 
at accident prevention.
    One other way we, of course, improve safety is by 
investing. You mentioned, Chairman Blumenthal, the need to 
continually invest. We will put $26 billion of private capital 
into our network this year to maintain, expand and improve that 
network. That also improves safety.
    Turning to mitigation, we believe that the current tank car 
standard must be improved. We have adopted many of the 
recommendations from the NTSB. There's a detailed graphic in my 
written statement as to what we have recommended to PHMSA and 
we believe that existing tank cars, again consistent with the 
recommendation through the NTSB, must be retrofitted or phased 
out of moving flammable liquids as aggressively as possible.
    Finally, emergency response is crucial. We already train 
22,000 emergency responders through TRANSCAER, through 
individual actions by the railroads, 2,000 of those out in 
Pueblo, Colorado at the Emergency Response Training Center, 
which we run under contract with the FRA. We've committed to a 
$5 million investment in a very special training module on 
crude oil and a stipend to assist an additional 1,500 emergency 
responders to go to Pueblo for hands-on experience in dealing 
with tank cars carrying crude.
    Turning quickly to PTC, I have testified before this 
committee in the past about the challenges of the technology 
and the scope of PTC. We will not meet the 2015 deadline of 
having all 60,000 miles installed and operational. Not because 
of lack of trying; $4 billion to date, thousands of man-hours, 
but the technology and scope issues are still there. Another 
challenge addressed by our friend from the FCC--and I say our 
friend--we've worked closely with Mr. Blackwell, but it is 
still a challenge.
    As you pointed out, Senator Blunt, the whole point of PTC 
is communications. Communication between the back offices, 
between the locomotive, between the wayside interface units, 
what's coming, what's out there: the infrastructure of 
communication has to be there.
    Right now, we've been put on hold installing the 22,000 
additional poles that we need. But let me emphasize, these are 
poles about 40 feet high, on railroad right-of-way not on 
tribal nation lands, on railroad right-of-way, that has been 
disturbed, in many cases, for 100 or more years. We believe 
that the FCC has the authority to give a program exemption for 
those monopoles on the railroad right-of-way. About 97 percent 
of the 22,000 would be covered by that.
    I appreciate the fact that the FCC has decided not to go 
down that route and has tried to work with us on this Program 
Comment. A draft was delivered to us last evening. Best as we 
can tell, they have accepted several of our recommendations but 
some of the core problems still remain. It is still a pole-by-
pole process, 22,000 of them. Pole by pole, it is still not a 
closed-end timeline. There is no enforceable deadline at the 
end. And third, and the most, I think, troubling, that it is up 
to the railroad to do the study to prove the negative. We have 
to go out and prove that there is no cultural or historic 
interest in a particular site, rather than having those who 
believe that there is an interest come forward with evidence as 
to why they believe there's an interest.
    So we think that--we appreciate the efforts. I've met with 
Chairman Tom Wheeler. Of course, Roger Sherman, Jeff Blackwell, 
who I think has been living this issue for the last 6 months, 
but we've already lost the 2013 construction season, 2014 is in 
jeopardy.
    Thank you for your attention. I apologize, Mr. Chairman, 
for running over.
    [The prepared statement of Mr. Hamberger follows:]

    Prepared Statement of Edward R. Hamberger, President and Chief 
          Executive Officer, Association of American Railroads
    On behalf of the members of the Association of American Railroads, 
thank you for the opportunity to discuss the current state of rail 
safety and specifically the transportation of crude oil by rail. AAR 
freight railroad members account for the vast majority of freight 
railroad mileage, employees, and traffic (including crude oil) in 
Canada, Mexico, and the United States.
    The development of shale oil represents a tremendous opportunity 
for our Nation to move closer to energy independence. The widespread 
benefits this would entail include reduced reliance on oil imports from 
unstable countries whose interests do not necessarily match up well 
with our own; increased economic development all over the country; 
thousands of new well-paying jobs; tens of billions in savings in our 
Nation's trade deficit every year; and substantial amounts of new tax 
revenue for governments at all levels. Rail has a critical role in 
delivering these crucial benefits to our country.
    Let me make clear at the outset that, for our Nation's freight 
railroads, pursuing safe operations is not an option, it's a business 
imperative. Most importantly, it's the right thing to do. Railroads are 
not just faceless corporations from somewhere far away. Rather, your 
neighbors are our neighbors. No matter where you live, chances are good 
that current or former rail industry employees live close by. We have 
an obligation to operate safely for their benefit and for the benefit 
of all members of the communities we serve.
    Unfortunately, several recent serious rail accidents in Canada and 
the United States have led some to question railroads' ability to 
operate safely. We are committed to restoring their confidence and 
demonstrating that nothing is more important to railroads than the 
safety of their employees, their customers, and the communities in 
which they operate.
    Railroads share the deep concern of members of this committee and 
the public at large regarding the safe transport of crude oil. From 
2000 through 2013, a period during which U.S. railroads originated 
approximately 832,000 carloads of crude oil, more than 99.98 percent of 
those carloads arrived at their destination without a release caused by 
an accident. That said, railroads continue to look for ways to be 
safer. As the tragic accident last year in Quebec showed, and as 
reinforced by recent oil spills in North Dakota and Alabama, more work 
must be done to ensure public confidence in the transportation of crude 
oil by rail.
    Working cooperatively with government agencies, our customers, our 
employees, and our suppliers, we're applying what we've learned over 
the past few years as rail crude oil traffic has surged to help ensure 
that our Nation is able to safely and reliably utilize the tremendous 
national asset that domestic crude oil represents. This will be a true 
team effort involving shared responsibility among everyone involved in 
crude oil production, delivery, and consumption.
    Railroads have long been doing their part--including taking actions 
that go beyond what legislation and regulations require--to maximize 
safety, and the industry will continue to take steps to further improve 
safety. As explained later in this testimony, these actions fall into 
three broad categories:
  Accident Prevention
  <bullet> Railroads are continuing to reinvest record amounts--their 
        own funds, not taxpayer funds--back into their infrastructure 
        and equipment. Despite a weak economy, railroads have invested 
        far more back into their networks over the past five years--
        approximately $115 billion--than in any five-year period in 
        history. This year, we project that railroads will invest more 
        than $26 billion in their networks, more than ever before. One 
        of the major aims of these investments is to make the rail 
        network more robust, so that the industry's decades-long record 
        of declining accident rates continues.

  <bullet> Railroads have voluntarily agreed to institute speed 
        restrictions, additional inspections, and other operational 
        modifications for trains carrying large amounts of crude oil.

  <bullet> By July 1, 2014, railroads will begin using a sophisticated 
        statistical routing model that takes into account a variety of 
        variables, including population density, rail traffic volume, 
        track conditions, and availability of alternative tracks, so 
        that trains with large amounts of crude oil can move on routes 
        that pose the least overall safety and security risk.
  Consequence Mitigation
  <bullet> In 2011, the rail industry voluntarily adopted industry 
        standards requiring new tank cars that carry crude oil to be 
        built with additional safety features to reduce the probability 
        of release should an accident occur. This year, railroads have 
        called for even more robust new tank car standards for crude 
        oil.

  <bullet> Railroads have also called for an aggressive retrofit and 
        phase out program for existing tank cars used to carry crude 
        oil.
  Emergency Response
  <bullet> Railroads help communities develop and evaluate emergency 
        response plans, and they train tens of thousands of emergency 
        responders each year. The industry has agreed to spend several 
        million dollars this year to develop an emergency response 
        training program at the Transportation Technology Center in 
        Pueblo, Colorado specifically geared to crude oil spills and to 
        provide tuition assistance for some 1,500 emergency responders 
        from across the country to attend that training.
Crude by Rail Meets Crude Oil Production Demand
    The huge increase in rail crude oil volume is a function of the 
massive, salutary development of North American oil resources in recent 
years, especially ``shale oil.'' U.S. crude oil production peaked in 
1970 at 9.6 million barrels per day, but by 2008 it had fallen to 5.0 
million barrels per day as depletion of older fields outpaced new 
production. Over the past couple of years, however, technological 
advances in the extraction of shale oil, along with relatively high 
crude oil prices, have led to sharply higher U.S. crude oil production. 
The Energy Information Administration (EIA) states that production rose 
to an average of 6.5 million barrels per day in 2012 and 7.5 million 
barrels per day in 2013. Barring unforeseen circumstances, deposits of 
crude oil in shale formations across the country will continue to be 
developed. As a result, the EIA projects that U.S. crude oil production 
will increase to 8.5 million barrels per day in 2014 and 9.3 billion 
barrels per day in 2015.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Much of the recent increase in crude oil production has occurred in 
North Dakota, where crude oil production rose from an average of 81,000 
barrels per day in 2003 to 940,000 barrels per day by the fall of 2013, 
making North Dakota the second-largest oil producing state.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Of course, crude oil has little value unless it can be transported 
to refineries, but most U.S. refineries are located in traditional 
crude oil production areas (Texas, Oklahoma) or on the coasts where 
crude oil transported by tanker is readily accessible (California, 
Washington, New England, Gulf of Mexico). In part because of the long 
process required to obtain permits to build new refineries, it's 
unlikely that new refineries will come on line quickly near the new 
production areas.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Historically, most crude oil has moved from production areas to 
refineries by pipeline. However, in many of the new shale oil 
production areas, the existing pipeline network lacks the capacity to 
handle the higher volumes. Pipelines also lack the flexibility and 
geographic reach to serve many potential markets. Railroads, though, 
have the capacity and flexibility to fill this gap. In fact, the 
ability of a railroad to serve a refinery can make the difference 
between the refinery continuing to operate or closing down.
    Railroads have seen dramatic recent increases in demand to 
transport crude. In 2008, U.S. Class I railroads originated 9,500 
carloads of crude oil. By 2012, carloads had surged to nearly 234,000. 
Final numbers for 2013 aren't in yet, but we estimate that crude oil 
originations on Class I railroads in 2013 were around 408,000 carloads 
and terminations were around 434,000 carloads.\1\ In 2013, crude oil 
accounted for about 1.4 percent of total originated carloads on Class I 
railroads, up from just 0.03 percent in 2008.
---------------------------------------------------------------------------
    \1\ Originations do not exactly equal terminations because some 
crude oil that originates on U.S. Class I railroads might be delivered 
to U.S. short lines or to railroads in Canada for termination and 
because some crude oil that terminates on U.S. Class I railroads might 
originate on railroads in Canada or on U.S. short line railroads.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Assuming for simplicity that a rail tank car holds about 30,000 
gallons (714 barrels) of crude oil, the approximately 408,000 carloads 
of crude oil originated by Class I railroads in 2013 equal around 
800,000 barrels per day, or about 11 percent of U.S. crude oil 
production.
Advantages to Our Nation of Transporting Crude Oil by Rail
    Looking ahead, both pipelines and railroads will be needed to 
provide safe, reliable crude oil transportation for our Nation. In 
addition to the critical fact that railroads provide transportation 
capacity in many areas where pipeline capacity is insufficient, 
railroads offer a number of other advantages for transporting crude 
oil:

  <bullet> Geographical Flexibility. By serving almost every refinery 
        in the United States and Canada, railroads offer market 
        participants enormous flexibility to shift product quickly to 
        different places in response to market needs.

  <bullet> Responsiveness. Rail facilities can almost always be built 
        or expanded much more quickly than pipelines and refineries can 
        be. Essentially, railroads are the only transportation mode 
        that can invest in facilities quickly enough to keep up with 
        production growth in the emerging oil fields.

  <bullet> Efficiency. As new rail facilities are developed, railroads 
        are involved at every step, helping facility owners decide 
        where to locate assets and how to lay out rail infrastructure 
        to maximize safety and efficiency.

  <bullet> Underlying Infrastructure and Equipment. Just over the past 
        few years, railroads have invested tens of billions of dollars 
        to replace and resurface tracks, buy new locomotives, build new 
        terminals and track capacity, hire new employees, and take 
        other steps to enhance their ability to transport crude oil.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Notwithstanding these attributes of rail, railroads recognize that 
if we are to continue down the path of energy independence, other 
transportation modes--including, of course, pipelines--have crucial 
roles to play.
Working to Prevent Rail Accidents
    We all know that, unfortunately, rail accidents happen, despite 
railroads' best efforts to prevent them, and some of those accidents 
have tragic consequences. Railroads take the challenge of moving the 
Nation's crude oil extremely seriously, and they recognize that 
improving safety is an ongoing process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The industry's commitment to safety is reflected in safety 
statistics from the Federal Railroad Administration (FRA). The three 
most common safety measures used by the FRA are train accident rates, 
employee injury rates, and grade crossing collision rates. From 2000 to 
2013, the train accident rate fell 43 percent, with 2013 having the 
lowest rate ever, according to preliminary FRA data. The rail employee 
injury rate fell 48 percent from 2000 to 2013, with 2013 having the 
second-lowest rate ever (behind 2012). The grade crossing collision 
rate fell 42 percent from 2000 to 2013, with 2013 having the second-
lowest rate ever (behind 2012).
    Collisions and derailments, two of the major categories that 
comprise the broader train accidents category, have fallen sharply over 
time as well. For example, according to FRA data, in 2000 there were 
739 derailments involving freight trains on main lines or sidings, 
equivalent to 1.35 per million freight train miles.\2\ In 2013, 
according to preliminary FRA data, there were 378 derailments (a 49 
percent decline), equivalent to 0.70 per million freight train-miles 
(48 percent lower). In 2000, there were 45 collisions involving freight 
trains on main lines or sidings, equivalent to 0.08 per million train-
miles. In 2013, the comparable figures were 28 collisions (down 38 
percent) and 0.05 per million freight train-miles (down 37 percent).
---------------------------------------------------------------------------
    \2\ A train-mile is the movement of a train the distance of one-
mile. For perspective, a million train-miles is roughly equivalent to 
300 train trips across the country.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Railroads are proud that their overall safety record, as measured 
by FRA data, has been trending in the right direction for decades. That 
said, it is an unfortunate reality that rail accidents occur, despite 
railroads' capital and labor intensive efforts to prevent them, and we 
know that some of those accidents have tragic consequences. Given the 
extent and complexity of rail operations--the railroad ``factory 
floor'' is outdoors and approximately 140,000 miles long--
infrastructure and equipment sometimes fail and it is impossible to 
eliminate all risk of accidents. And while railroads respect and 
applaud the professionalism and attention to safety that rail employees 
bring every day to their jobs, human error continues to be a leading 
cause of accidents. Our goal is zero rail accidents, but when accidents 
do occur, we want to minimize and mitigate their negative impacts.
    One of the most important ways that railroads have reduced 
accidents is through significant and consistent investments back into 
their networks. In fact, in recent years, America's freight railroads 
have been reinvesting more private capital than ever before to renew, 
upgrade, and expand their infrastructure and equipment, including a 
record $25.5 billion in 2012 and a comparable amount in 2013. Rail 
spending this year is expected to be even higher. The vast majority of 
these investments have improved rail safety directly or indirectly. In 
fact, for many of these investments, improving safety is the primary 
reason the investments are made.
    Just from 2008 to 2012, Class I railroads spent nearly $26 billion 
in capital expenditures on new crossties (77 million), new rail (2.9 
million tons), and new ballast (nearly 61 million cubic yards). Over 
the same period, they spent billions of additional capital expenditure 
dollars on signal and communications systems, bridges and tunnels, and 
machinery. These and other capital investments, as well as the billions 
of dollars railroads spend on maintenance of their networks each year, 
have made railroads much safer. And as the charts above show, there is 
a clear correlation between rail reinvestments and rail safety 
improvements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

The Role of Safety-Enhancing Technologies
    At a basic level, railroading today seems similar to railroading 
150 years ago: it still consists of steel wheels traveling on steel 
rails. This apparent similarity, however, masks a widespread 
application of modern technology and a huge variety of ongoing 
initiatives to research, test, and apply advanced technologies to yield 
the safety record of continuous improvement experienced by the railroad 
industry.
    Many of these advancements were developed or refined at the 
Transportation Technology Center, Inc. (TTCI), the finest rail research 
facility in the world, in Pueblo, Colorado. TTCI is a wholly owned 
subsidiary of the AAR. Forty-eight miles of test tracks, highly 
sophisticated testing equipment, metallurgy labs, simulators, and other 
diagnostic tools are used to test track structure, evaluate freight car 
and locomotive performance, assess component reliability, and much 
more. The facility is owned by the FRA but has been operated (under a 
competitively bid contract with the FRA) by TTCI since 1984.
    A few of the many examples of safety-enhancing rail technologies 
developed at TTCI or elsewhere that have come into widespread use or 
are in the process of being implemented include:

  <bullet> Wayside detectors that identify defects on passing rail 
        cars, including overheated bearings and damaged wheels, 
        dragging hoses, deteriorating bearings, cracked wheels, and 
        excessively high and wide loads.

  <bullet> Internal rail inspection systems using induction or 
        ultrasonic technology to detect internal flaws in rails which 
        are caused by fatigue and impurities introduced during 
        manufacturing.

  <bullet> Track geometry vehicles that use electronic and optical 
        instruments to inspect track alignment, gauge, curvature, and 
        other track conditions. Processed data from track geometry cars 
        can help railroads determine when track needs maintenance.

  <bullet> New automated detector systems are being tested and 
        evaluated by TTCI to inspect the under carriage, safety 
        appliances and freight car components using machine-vision-
        based car inspection systems.

  <bullet> Ground-penetrating radar that helps identify problems (such 
        as excessive water penetration and deteriorated ballast) that 
        hinder track stability.

  <bullet> Because a relatively small share of freight cars cause an 
        inordinately high percentage of track damage and have a higher 
        than usual propensity to derail, TTCI is working on ways to use 
        optical geometry detectors to identify poorly performing 
        freight car trucks.\3\
---------------------------------------------------------------------------
    \3\ In terms of rail cars, ``truck'' refers to the complete four-
wheel assembly that supports the car body.

  <bullet> Positive train control (PTC) systems, designed to 
        automatically stop or slow a train before certain accidents 
        occur, are being developed and implemented. PTC is discussed 
---------------------------------------------------------------------------
        more fully later in this testimony.

    Railroads and their suppliers will continue to pursue these and 
other technological advances that make rail transportation safer and 
more secure.
    Rail industry safety will also be enhanced by the Asset Health 
Strategic Initiative (AHSI), a multi-year rail industry program that 
will apply information technology processes to improve the safety and 
performance of freight cars and locomotives across North America. In a 
nutshell, AHSI aims to improve safety and reduce costs across the rail 
industry by addressing mechanical service interruptions, inspection 
quality, and yard and shop efficiency. It is based on the recognition 
that improving asset health means more than just focusing on railcar 
and locomotive repair. Rather, it encompasses the entire rolling stock 
health cycle, incorporating prevention, detection, planning, movement, 
and repair.
Modifying Rail Industry Procedures to Enhance Crude Oil Safety
    To enhance the safety of crude oil movements, railroads are 
voluntarily making operational modifications for trains carrying large 
amounts of crude oil. These modifications are the result of 
consultations with Secretary Foxx and other officials at the U.S. 
Department of Transportation (DOT), Administrator Szabo at FRA, 
Administrator Quarterman at PHMSA, and other government policymakers. 
Railroads share their vision for making a safe rail network even safer, 
and we're pleased that we were able to work together to pinpoint new 
operating practices that enhance the safety of moving crude oil by 
rail.
    First, routing. Several years ago, the FRA, PHMSA, the 
Transportation Security Administration, the Federal Emergency 
Management Agency, and the railroads jointly developed the Rail 
Corridor Risk Management System (RCRMS), a sophisticated statistical 
routing model designed to aid railroads in analyzing and identifying 
the overall safest and most secure routes for transporting TIH 
materials. The model uses a minimum of 27 risk factors--including 
hazmat volume, trip length, population density along the route, 
availability of alternate routes, and emergency response capability--to 
assess the overall safety and security of rail routes. The FRA 
regularly audits railroads' use of the RCRMS. Major railroads have 
agreed that, no later than July 1, 2014, they will begin using the 
RCRMS for trains carrying at least 20 carloads of crude oil.
    Second, speed restrictions. Back in August 2013, railroads self-
imposed a 50-mph speed limit for trains carrying 20 or more carloads of 
crude oil. Beginning no later than July 1, 2014, if a train is carrying 
at least 20 cars of crude oil and at least one of those cars is an 
older ``DOT-111'' car (these cars are discussed further in the next 
section), that train will travel no faster than 40 mph when travelling 
within one of the 46 nationwide ``high threat urban areas'' designated 
by the Department of Homeland Security.\4\ In addition, railroads will 
continue to work with communities through which crude oil trains move 
to address, on a location-specific basis, concerns that the communities 
may have.
---------------------------------------------------------------------------
    \4\ In the United States, FRA regulations specify that freight rail 
trackage be classified into one of six track ``classes'' based on track 
quality. The class of a section of track determines the maximum FRA-
allowable speed for that section. Freight train speed on ``excepted'' 
and ``Class 1'' track cannot exceed 10 mph; on Class 2 track, 25 mph; 
on Class 3 track, 40 mph; on Class 4 track, 60 mph; and on Class 5 
track, 80 mph. In practice, it is common for railroads, for a variety 
of reasons, to operate at speeds lower than the FRA maximum. (For 
example, U.S. freight trains rarely, if ever, exceed 70 mph, even on 
the best Class 5 track.) If a track's class does not permit 40 or 50 
mph crude oil trains, those trains will travel no faster than the FRA 
limit. Our understanding is that, on U.S. Class I railroads, most of 
the trackage on which trains with large amounts of crude oil travel are 
Class 4 or 5 tracks.
---------------------------------------------------------------------------
    Third, inspections. Comprehensive FRA regulations dictate the 
various kinds of inspections railroads are required to perform and how 
often. A description of the full range of inspections that railroads 
undertake is beyond the scope of this testimony, but suffice it to say 
that the FRA-mandated inspection regime is comprehensive and thorough.
    New FRA regulations regarding inspections for internal rail defects 
will become effective on March 25th. Railroads have agreed that, going 
forward, for main line tracks on which trains carrying at least 20 
carloads of crude oil travel, they will perform at least one more 
internal rail inspection each calendar year than the new FRA 
regulations require. In addition, railroads will conduct at least two 
automated comprehensive track geometry inspections each year on main 
line routes over which trains with 20 or more loaded cars of crude oil 
are moving.\5\ The FRA regulations do not require railroads to perform 
automated comprehensive track geometry inspections.
---------------------------------------------------------------------------
    \5\ Track geometry includes such parameters as track gauge, 
curvature, alignment, profile, and the cross level of the two rails. 
Track geometry inspections are generally performed by sophisticated 
stand-alone cars that use a variety of sensors, measuring systems, and 
data management systems to create a representation of the track being 
inspected.
---------------------------------------------------------------------------
    Fourth, defect detectors. Railroads will make sure that specialized 
track side ``hot box'' detectors are installed at least every 40 miles 
along routes with trains carrying 20 or more cars containing crude 
oil.\6\ These detectors help prevent accidents by measuring if wheel 
bearings are generating excessive heat, which is a warning that the 
bearings are in the process of failing.
---------------------------------------------------------------------------
    \6\ There may be cases where safety considerations (e.g., a track 
located on a grade) might dictate otherwise. In these cases, detectors 
will be installed as close to 40 miles as conditions allow.
---------------------------------------------------------------------------
    Fifth, braking. By April 1, 2014, railroads will make sure that 
trains operating on main line tracks carrying at least 20 carloads of 
crude oil are equipped either with distributed power locomotives (i.e., 
locomotives placed in locations other than the front of the train) or 
with two-way telemetry end-of-train devices. These technologies allow 
train crews to apply emergency brakes simultaneously from both the head 
end and locations further back in the train in order to stop the train 
faster.
Mitigation Through Enhancing Tank Car Safety
    While railroads pursue continuous improvement in safe operations, 
including most recently the new voluntary actions described above, it's 
important also for tank car standards to evolve to mitigate the 
consequences of an incident when one occurs. Crude oil and thousands of 
other products are transported in tank cars. The total North American 
tank car fleet consists of about 335,000 cars. Railroads themselves own 
less than 1 percent of these cars; nearly all are owned by rail 
customers and leasing companies. The dozens of distinct types of tank 
cars are differentiated by characteristics (pressure or general 
service, insulated or non-insulated, how much they can carry, and so 
on) that make them suitable or not suitable for carrying particular 
commodities. Approximately 228,000 tank cars are so-called ``DOT-111'' 
general service tank cars. These cars are considered the workhorses of 
the tank car fleet. According to the most recent figures, around 98,000 
DOT-111 cars are used to transport crude oil or other flammable 
liquids.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In the United States, Federal regulations pertaining to tank cars 
are set by PHMSA. Transport Canada performs a similar role in Canada. 
In addition, the AAR Tank Car Committee sets industry standards 
regarding how tank cars used in North America are designed and 
constructed. These standards are often above and beyond Federal 
standards. The Tank Car Committee is comprised of railroads, rail car 
owners, rail car manufacturers, and rail hazmat customers, with active 
participation from the U.S. DOT, Transport Canada, and the National 
Transportation Safety Board (NTSB).
    The rail industry has been aggressively searching for ways to 
improve tank car safety. For example, in March 2011, the AAR petitioned 
PHMSA to adopt more stringent requirements for new tank cars used to 
transport certain types of hazardous materials, including crude oil. 
These tougher standards called for more puncture resistance through the 
use of a thicker tank car shell or a jacket, extra protective half-
height (at a minimum) ``head shields'' at both ends of tank cars, and 
additional protection for the fittings on the top of a car that enable 
access to the inside of the car.
    In July 2011, after it had become clear that PHMSA approval of the 
AAR's proposal was not imminent, the Tank Car Committee adopted what 
the AAR had proposed to PHMSA as the basis for new industry standards 
for tank cars used to carry ethanol or crude oil. The new standards, 
referred to as ``CPC-1232,'' apply to new tank cars ordered after 
October 1, 2011. To date, around 18,000 tanks cars have been built to 
this tougher CPC-1232 standard.
    More recently, in November 2013, the rail industry called on PHMSA 
to adopt standards even more stringent than CPC-1232 for new tank cars 
used to transport crude oil and ethanol. The November 2013 proposal 
also called for aggressively retrofitting or phasing out of tank cars 
(including CPC-1232 cars and the older DOT-111 cars) used to transport 
crude oil or ethanol. The November 2013 proposal recognizes that input 
is needed from shippers and tank car manufacturers to determine the 
precise parameters of a phase-out program and to identify the retrofits 
that should be required.
    Since the November 2013 proposal, the rail industry has continued 
to evaluate what other standards might be appropriate to make tank cars 
used to transport certain commodities, including crude oil, more 
robust. For example, railroads now support strengthening tank cars used 
to transport crude oil with thicker, 9/16th inch shells.\7\ Railroads 
also would require that tank cars be equipped with jackets and thermal 
protection, as well as full-height head shields, top fittings 
protections, and bottom outlet handles that will not open in a 
derailment.
---------------------------------------------------------------------------
    \7\ Some railroads also support 9/16th inch tank car shells for 
freight cars carrying ethanol.
---------------------------------------------------------------------------
    The graphic on the next page summarizes proposed rail industry 
standards for tank cars carrying crude oil.
    Through these additional standards and other means, railroads are 
continuing to work with other stakeholders to enhance rail safety and 
provide certainty to all stakeholders. These efforts reflect the rail 
industry's long-standing belief that the safety of crude oil by rail is 
a shared responsibility among all stakeholders in the crude oil supply 
chain.
    The concept of shared responsibility also applies to accurate and 
timely determinations as to the chemical characteristics of the crude 
oil railroads are asked to transport. Under Federal regulations, the 
entity ``offering'' the crude oil to the railroad for transport (e.g., 
the oil producer) is responsible for properly classifying the oil based 
on its level of hazard. On February 25, the FRA issued an executive 
order requiring that crude oil from the Bakken region be tested to 
ensure that it is properly classified before it is transported by rail. 
Railroads support the pursuit of proper classification and labeling of 
petroleum crude oil in tank cars by shippers prior to transport. This 
is essential to ensuring that first responders are able to safely and 
appropriately respond in the event of an accident or incident.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Improving Emergency Response: Partnerships with First Responders and 
        Shippers
    The railroads have extensive emergency response functions, which 
work in cooperation with federal, state and local governments, 
especially since 9/11. Sharing important information about shipments is 
part of that. Upon request, railroads provide appropriate local 
authorities with a list of the hazardous materials, including crude 
oil, transported through their communities. It is simply not true, as 
one sometimes hears, that railroads refuse to provide this type of 
information.
    Significantly, more than 25 years ago, the AAR established what is 
now the Security and Emergency Response Training Center (SERTC), a 
world-class facility in Pueblo, Colorado, that is operated by TTCI. The 
SERTC has provided in-depth hazmat emergency response training to more 
than 50,000 emergency responders and railroad and chemical industry 
employees.
    In 2007, Congress authorized the National Domestic Preparedness 
Consortium (NDPC), a consortium within the Department of Homeland 
Security and funded by FEMA. The purpose of the NDPC is to identify, 
develop, test, and deliver training to the Nation's emergency first 
responder community. Of the NDPC's seven members, only one--SERTC--is 
specifically designed to provide first responder training for rail and 
other surface transportation accidents. No other training center in the 
country possesses comparable infrastructure, including dozens of 
freight and passenger railcars, highway cargo tanks, intermodal 
containers, van trailer, and even a barge. Live simulations deliver 
tactical intervention training with unsurpassed realism.
    Unfortunately, since it was added to the NDPC in 2007, SERTC has 
received only $10 million from FEMA for surface transportation first 
responder training--$5 million in 2009 and $5 million in 2010. We 
understand that budgets throughout the Federal government have been 
challenged in recent years. That said, Congress provided an additional 
$5 million to the NDPC in the 2014 omnibus appropriations act, 
increasing NDPC funding from $93 million to $98 million. FEMA has yet 
to allocate those dollars among the NDPC members. We hope this 
committee would agree that allocating these funds to enhance the 
ability of first responders to respond to crude oil incidents would be 
a sensible step for FEMA to take.
    In addition to SERTC, as part of their regular operations, 
railroads and communities develop and evaluate emergency response plans 
and train more than 20,000 emergency responders each year. Through 
their own efforts and working in conjunction with the Transportation 
Community Awareness and Emergency Response Program (TRANSCAER), 
railroads will continue to work closely with emergency responders in 
the communities they serve so that damage caused by train accidents can 
be minimized.
    In addition to their other ongoing emergency response training 
efforts, the AAR recently announced that railroads will provide 
approximately $5 million by July 1 of this year to develop a 
specialized crude-by-rail training and tuition assistance program for 
local first responders. The funds will be used to design a curriculum 
at TTCI specifically devoted to crude oil emergency response, to 
provide tuition assistance for an estimated 1,500 first responders to 
attend TTCI for training, and to provide additional training to local 
emergency responders closer to home.
    By July 1, 2014, railroads will also develop an inventory of 
resources for emergency responders along routes over which trains with 
20 or more cars of crude oil operate. This inventory will include 
locations for the staging of emergency response equipment and contacts 
for the notification of communities. When the inventory is completed, 
railroads will provide the DOT with information on the deployment of 
the resources and will make the information available upon request to 
appropriate emergency responders.
    Finally, it is sometimes claimed that railroads bear no costs for 
cleanup of oil spills and that the entire response burden falls on 
local responders. That's not true. Emergency responders have control of 
railroad accidents in which crude oil (or any other hazardous material) 
is spilled, but railroads often provide the resources for mitigating 
the accident. As noted above, railroads have emergency response plans 
in place to mobilize the labor and equipment necessary to mitigate 
accidents. Railroads also reimburse local emergency agencies for the 
costs of materials the agencies expend in their response efforts.
Address Safety Concerns, But Don't Lose Sight of the Benefits of 
        Domestic Crude Oil
    The development of crude oil resources in recent years represents a 
tremendous opportunity for this country, including the opportunity to 
move toward energy independence. As a report earlier this year from the 
Congressional Research Service (CRS) notes, ``the prospect of U.S. 
energy independence is grounded in the production growth from tight oil 
formations such as the Bakken Formation in North Dakota and Montana, 
and the Eagle Ford Formation in Texas.'' \8\ CRS says that, ``Relative 
to other fuels, the United States is more dependent upon imports for 
its oil requirements, still accounting for almost 40 percent of 
consumption,'' but ``since June 2005, when crude oil imports reached a 
peak, they have dropped almost 3.3 million [barrels per day], or 23 
percent, through October 2013.''
---------------------------------------------------------------------------
    \8\ ``An Overview of Unconventional Oil and Natural Gas: Resources 
and Federal Actions,'' Congressional Research Service, January 23, 
2014.
---------------------------------------------------------------------------
    It's difficult to overstate the economic and security benefits 
associated with continued growth in domestic crude oil production. Over 
time, it will mean reductions in the Nation's trade deficit of tens of 
billions of dollars every year. It will mean new and better employment 
opportunities for hundreds of thousands of Americans and better 
economic development opportunities for regions all over the country. It 
will mean billions of dollars in new tax revenues for governments at 
all levels. And it will mean less reliance on sources of oil from 
places in the world that are not secure and whose interests do not 
necessarily correspond well to those of the United States. The Peterson 
Institute, a well-respected, nonprofit, and nonpartisan research 
institution devoted to the study of international economic policy, 
recently found that, along with lower energy costs, the growth in 
domestic energy production should increase annual U.S. GDP growth 
between 0.09 and 0.19 percentage points through 2020. That adds up to 
hundreds of billions of dollars in higher GDP.
    As we discuss ways to enhance the safety of transporting crude oil 
by rail, these important benefits should be kept in mind.
Positive Train Control
    The Rail Safety Improvement Act of 2008 (RSIA) requires Class I 
freight railroads to install a fully functioning, nationwide positive 
train control (PTC) network by the end of 2015 on main lines used to 
transport passengers or TIH materials. Specifically, PTC as mandated by 
Congress must be designed to prevent train-to-train collisions; 
derailments caused by excessive speed; unauthorized incursions by 
trains onto sections of track where maintenance activities are taking 
place; and the movement of a train through a track switch left in the 
wrong position. The technology must also be fully interoperable, 
meaning that the system in place on any one railroad must be able to 
seamlessly interface with the system on any other railroad.
    PTC is an unprecedented challenge, both in terms of the 
technologies to be used and the integration of those technologies. A 
properly functioning PTC system must be able to determine the precise 
location, direction, and speed of trains; warn train operators of 
potential problems; and take immediate action if the operator does not 
respond to the warning provided by the PTC system. For example, if a 
train operator fails to begin stopping a train before a stop signal, 
the PTC system would apply the brakes automatically before the train 
passed the stop signal.
    Railroads have been devoting massive resources to PTC. They've 
retained more than 2,200 signal system personnel to implement PTC, and 
to date have spent approximately $4 billion (of their own funds, not 
public funds) on PTC development and deployment. They expect to spend 
that much again--approximately $8 billion in total--before development 
and installation is complete. Hundreds of millions of dollars will be 
spent each year after that to maintain the system.
    PTC's complexity, the enormity of the implementation task, and the 
fact that much of the technology and engineering applications PTC 
requires have had to be developed from scratch mean that, despite 
railroads' best efforts, much work remains to be done. The many 
potential failure points in PTC systems must be identified, isolated, 
and corrected, and the system must be made fully interoperable across 
all of the Nation's major railroads--all without negatively affecting 
existing rail operations.
    Railroads also face serious non-technological barriers to timely 
PTC implementation. Today, the most serious such challenge involves PTC 
antenna structures.
    At its heart, PTC is a massive communications system. Locomotives 
must be able to communicate with the ``back office'' concerning the 
train's speed, location, and many other parameters and receive 
information regarding, among many other things, the locations of other 
trains in the area, possible schedule changes, safety alerts, and so 
on.
    This back-and-forth communication can take place only if a 
sophisticated, comprehensive wireless communications network is in 
place. A key part of this network is a series of thousands of antennas, 
spaced (on average) every few miles along the 60,000 or so miles over 
which PTC is being installed on U.S. freight railroads. These antennas 
are generally around 40-feet tall, and the vast majority are to be 
installed directly adjacent to the tracks on existing railroad rights-
of-way, owned by the railroads themselves, in holes just a few feet 
deep and a couple of feet wide. In total, approximately 22,000 PTC-
related antennas need to be installed.
    The railroad industry began working several years ago with the 
Federal Communications Commission (FCC) to license the wireless 
spectrum necessary for PTC, and to its credit, the FCC has worked 
diligently to address spectrum-related issues. Nonetheless, the 
industry learned just last year that, under the FCC's interpretation of 
Section 106 of the National Historic Preservation Act (NHPA), railroads 
must ascertain, on an antenna-by-antenna basis, if the antennas will 
negatively impact areas of historic, cultural, or religious 
significance.
    At the center of the challenge is the FCC's required notification 
and evaluation process that utilizes the FCC's ``Tower Construction 
Notification System'' (TCNS) for review by Native American tribes. 
Under that system, railroads must input certain information into the 
TCNS. That information is then transmitted to any Native American tribe 
that has expressed interest in the county in which an antenna will be 
located.
    The initial information that railroads must input into the TCNS, 
such as the precise location of the antenna to be installed and its 
height, is relatively straightforward. That information is then 
transmitted to interested tribes through various means, and the tribe 
has up to a couple of months to expresses interest in the proposed 
antenna site. If it does so, it can demand much more comprehensive 
information about that site--such as a complete archaeological 
history--that can be difficult (if not impossible), costly, and time 
consuming for the railroad to obtain. Based on railroads' experiences 
to date, it takes, on average, three to five months between the time 
the railroad initially inputs information into the TCNS and the time 
when all necessary reviews are completed and the antenna can be cleared 
for installation. Multiply this process by 22,000 antennas and it 
becomes very clear why this is such a significant issue.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As stated earlier, the vast majority of PTC antennas are not large 
and are to be installed in small holes on railroads' own rights-of-way. 
Many of the rail lines in question have been in use for decades, often 
for well over 100 years. Generally speaking, the rights-of-way at issue 
have been disturbed countless times in the past as railroads performed 
standard maintenance, installed other types of signal systems, built 
culverts, improved drainage, or undertook any of innumerable other 
activities related to rail operations and infrastructure construction 
and upkeep.
    Once railroads started using the TCNS last year, it quickly became 
clear that the system was woefully inadequate for a deployment on the 
scale of PTC and in the time frame mandated by the RSIA. In fact, 
shortly after railroads began using the TCNS, the FCC asked them to 
stop using it while the agency developed a new process for PTC 
antennas. That was around ten months ago.
    After nearly a year of discussion among various parties, during 
which the installation of wayside antennas ceased, on January 29, 2014, 
the FCC proposed what it calls a ``streamlined'' process for PTC-
related reviews. Unfortunately, we do not believe the ``streamlined'' 
process will lead to a meaningful reduction in the substantial and 
excessive delays associated with PTC antenna installation.
    Under the streamlined system, the FCC would still require an 
antenna-by-antenna evaluation. Perhaps most vexing, even when a tribe 
cannot identify any specific historic or cultural area or property that 
could potentially be impacted at any proposed individual antenna site, 
the tribe can still demand a comprehensive review of the site, which 
could include field work and the preparation of wide-ranging cultural 
resource reports and ethnographic studies. The tribe can also demand 
that railroads dig holes for antenna structures by hand. These demands, 
which the streamlined process allows, extend well beyond what is 
required under the NHPA. Moreover, the streamlined process does not 
establish firm deadlines by which the FCC will resolve disputes 
regarding sites, and it is not clear the agency has the resources to 
manage disputes around potentially thousands of antenna sites.
    Included as an appendix to this testimony is a copy of the AAR's 
recent comments on the FCC's streamlined proposal. As the AAR comments 
make clear, the FCC has ample authority to exempt all PTC-related 
infrastructure no taller than 75 feet located on the railroad right-of-
way and not immediately proximate to a known historic property. We 
respectfully suggest that these antennas should be exempted. If the FCC 
decides not to pursue an exemption, it should put in place a process 
that really does expedite the historic review process, provides 
deadlines on the resolution of disputes, and encompasses all railroads' 
PTC infrastructure on the right-of-way. The existing ``streamlined'' 
process does none of these things.
    Just to be clear, railroads are not seeking exemptions regarding 
PTC antenna installations on Native American reservations or similar 
areas, or in areas that are shown to be of significant historical or 
cultural interest. In these cases, railroads are happy to work with 
state preservation officials and tribes. Rather, railroads respectfully 
suggest that the NHPA was not designed and should not be used to impede 
PTC antenna installation in the way it has come to.
    The bottom line is that without further changes to the FCC approval 
process, the timeline for ultimate deployment of PTC will be delayed 
significantly. The 2013 construction season was lost for PTC wayside 
antennas. A new review process at the FCC will not be in place until at 
least April of this year. If that process takes several months to clear 
locations, the 2014 construction season will also be in jeopardy. 
Railroads will continue to work with the FRA and the FCC in good faith 
to try to find a workable solution to this issue. Please keep in mind, 
though, that these antennas are at the heart of the PTC network, and 
there is no realistic ``work around.'' Until railroads are able to 
install these antennas in large numbers, huge portions of the PTC 
testing and implementation process simply cannot proceed.
    Railroads have been working extremely hard to meet the 2015 PTC 
deadline, and they will continue to aggressively pursue PTC 
implementation. However, due to the significant technological 
challenges associated with PTC development and installation, the eight-
month construction moratorium imposed by the FCC, and the remaining PTC 
regulatory uncertainty, railroads believe that the existing PTC 
implementation deadline of December 31, 2015 will need to be extended. 
Doing so would allow railroads, the FRA, and others to make sure PTC is 
done right.\9\ In the meantime, incremental PTC implementation would 
continue, meaning that more and more of the safety benefits of PTC 
would be coming on line.
---------------------------------------------------------------------------
    \9\ Some of you may have seen an article in the January 29 
Washington Post on delays to the Washington metro's new ``Silver 
Line.'' The article points out that the line's automatic train control 
system has delayed the completion of the project for months and still 
is not working correctly. The metro's train control system is many 
orders of magnitude less complex than what freight railroads are 
implementing. Still, the metro's problems offer a clear example of why 
the rail industry--and policymakers--should be very concerned with PTC 
implementation and the importance of making sure that such a complex 
system operates as intended, no matter how long it takes. Unlike the 
Washington metro, railroads do not have the luxury of simply not 
operating a new line.
---------------------------------------------------------------------------
Conclusion
    Our nation's freight railroads share the urgency of this committee 
and the public at large regarding the need to augment the safe 
transport of products by rail. Railroads will continue to work with the 
Administration, their customers, and other stakeholders as necessary to 
identify additional safety enhancing steps that will make the North 
American rail network even safer.
             Appendix to Mr. Hamberger's Prepared Statement
    Mr. Hamberger submitted to the Committee a copy of ``Comments of 
the Association of American Railroads'' submitted to the Federal 
Communications Commission (FCC) in the matter of ``Comment Sought on 
Draft Program Comment to Govern Review of Positive Train Control 
Facilities under Section 106 of the National Historic Preservation 
Act,'' WT Docket No. 13-240.
    The entire submission can be found at http://apps.fcc.gov/ecfs/
document/view?id=7521073012.

    Senator Blumenthal. Thank you very much, Mr. Hamberger, for 
your comments and all the witnesses.
    We're going to begin a 5-minute round of questions and we 
can do a second round if my colleagues wish to do so.
    You know, I want to thank you, Mr. Hamberger, for your 
comments on the voluntary agreement recently concluded with 
Secretary Foxx, which I welcome, but voluntary agreements are 
no substitutes for enforceable rules any more than they are out 
on the highway here when drivers travel our interstates. And I 
think that the laser focus that Mr. Searles mentioned certainly 
has to be applied with greater rigor and vigor.
    A lot of Americans, I think justifiably, are wondering 
whether the Federal authorities, the Federal watchdog, have 
been asleep or absent. And that goes to the recommendations 
that Mr. Hart mentioned, recommendations, for example, for 
cameras facing inward and outward.
    So let me begin the questioning by saying with respect to 
those recommendations, Mr. Szabo, why haven't they been 
implemented as orders?
    Mr. Szabo. We continue to work through our regulator 
priorities. Obviously, the list starts with the 42 mandates of 
the Rail Safety Improvement Act prioritizing those and 
completing those first. It was an unprecedented number of 
requirements in that Act. And so those additional 
recommendations that come in after what Congress has mandated 
to us get added to the hopper, but we believe that we have a 
responsibility to you to execute those things that you mandated 
of us first and foremost.
    On cameras, we started some good work with AAR with the 
industry and labor. About 10 months ago, based on that in 
November, I directed staff that that was to be a regulatory 
priority for 2014. And in fact, we have already now initiated 
efforts inside the Rail Safety Advisory Committee to start 
drafting those regulations.
    Senator Blumenthal. You know, we're now years after the 
first recommendation from the NTSB on cameras. We are still 
awaiting, as Mr. Hart mentioned, the PTC progress report.
    I've said before, and I'll say it again here, that four 
people might be alive today if some of these recommendations, 
including cameras facing inward and outward, alerters, 
automatic train control, had been implemented.
    Mr. Szabo. Mr. Chairman, if I may, our report on PTC 
implementation, in fact, was delivered to Congress about 18 
months ago, ahead of schedule. And so, we've delivered that to 
you with a set of recommendations that we have asked Congress 
to make.
    Senator Blumenthal. But coming back to the recommendations 
for specific measures that might have prevented many of these 
incidents, my view is that we're behind. We've been lax and 
lagging and the question is why haven't those orders been 
forthcoming from the----
    Mr. Szabo. Yes. And it's a matter, again, of putting things 
into what is a pipeline on regulatory priorities. When you're 
handed 42 in a Congressional mandate, and then additional 
recommendations continue to come in, you know, not only don't I 
have the resources, but if you understand the regulatory 
process----
    Senator Blumenthal. Well, you need a different----
    Mr. Szabo. It starts with us and feeds through a process.
    Senator Blumenthal. You need a different authority. 
Because, for example on cameras, is there a requirement that 
you go through the APA rulemaking process?
    Mr. Szabo. Well, if we're going to mandate it, we have to 
go through a rulemaking process.
    Mr. Chairman. And you need to get a different authority.
    Mr. Szabo. And of course, that's appropriate because, 
Senator, we owe it to everybody to get it right. And that's why 
it requires doing that due diligence.
    You know, certainly you can do things fast, but if you do 
them fast you run the risk of committing errors that actually 
can harm safety or harm capacity in the industry. And so, you 
really have to do your due diligence, make sure that all 
stakeholders have appropriate input, and make sure, when you 
put that reg out, you've got it right.
    Senator Blumenthal. Well, I don't differ with anything that 
you've just said. But the recommendation was made by the NTSB 
in 2008. We're here in 2014, so due diligence has required 6 
years and, in the meantime on that issue, cameras and on others 
where there were deadlines from Congress there still have been 
no regulations.
    Let me turn----
    Mr. Szabo. But Congress did not mandate that in 2008.
    Senator Blumenthal. Not that one, but others.
    Mr. Szabo. And so, those things that you chose to mandate 
were the things that we prioritized first. We feel we owe that 
to you.
    Senator Blumenthal. Let me ask Mr. Hart.
    Will the investigation of Spuyten Duyvil, and the 
Bridgeport incident, and the collection of incidents relating 
to Metro-North, be done by a time-certain?
    Mr. Hart. Yes. We are planning to combine the four Metro-
North accidents into one report to be issued in November.
    Senator Blumenthal. Thank you. My time has expired so I'm 
going to turn to Senator Blunt.
    Senator Blunt. Thank you, Chairman. Ms. Quarterman, why 
don't we have the tank standards yet? I think you all have been 
working on that for two and a half years. And, as quickly and 
briefly as you can explain that, why has it taken that long?
    Ms. Quarterman. Thank you, Senator Blunt. As you may know, 
the process started with both the entire department and PHMSA 
and FRA working very closely with AAR and their tank committee 
looking at advancements to tank car standards. The end of that 
process resulted in a tank car standard that the department was 
not willing to support, and it also did not address some of the 
operational issues that were on the table as part of that tank 
car committee and specialists.
    Senator Blunt. So your outside advisory group came back 
with standards that you didn't think were adequate?
    Ms. Quarterman. The AAR's outside advisory group, correct.
    And so we decided to go forward with a rulemaking process. 
That rulemaking process began in 2012 where we began to draft 
standards. As part of that process, we began to get a series of 
petitions that slowed down our finalizing and advanced notice 
of proposed rulemaking. That advanced notice went out in 
September. We got more than 150,000 individuals commenting on 
that.
    As of December 5, I can tell you that now FRA and PHMSA are 
sequestered together drafting an advanced--a notice of proposed 
rulemaking, we have our regulatory experts in the room, our 
financial experts that have to deal with the regulatory 
analysis that's required on that rule. And we are working 
extremely hard. I think we are close to a first draft. And I 
can tell you, I've never seen a rule drafted faster than that.
    Senator Blunt. I may come back to that if some of my 
colleagues don't answer other questions I have. And Mr. Hart, 
you said that you thought that positive train control, I think 
your quote was said, ``Must be implemented by the end of 2015 
to the maximum extent possible.'' Is that the deadline? When in 
2015 is the deadline?
    Mr. Hart. I'm referring to the Congressional deadline of 
the end of 2015.
    Senator Blunt. Right. And by, ``enacted by the maximum 
extent possible,'' you mean, some railroads would enact this 
and others without penalty wouldn't?
    Mr. Hart. The NTSB would like to see full implementation of 
PTC, but if it can't all be done, we'd like to see as much as 
possible by as many as possible as soon as possible.
    Senator Blunt. Mr. Szabo, do you want to comment on that?
    Mr. Szabo. Yes.
    The current Congressional mandate actually mandates full 
deployment by December 31, 2015 which, in our report to 
Congress, we indicate will not be achievable. We do believe 
that partial deployment is doable and partial deployment will 
provide very real safety benefits, but we need from Congress, 
we need from you, currently FRA does not have the ability to 
make any provisional certifications. It's either it's all done 
or it isn't. And so, we really need from Congress the tools and 
the authority to allow for provisional certification to, in 
fact, help achieve that partial deployment and achieve that 
accountability that Mr. Hart was talking about. Understanding 
the legitimacy of the challenges the industry has, along with 
the good faith effort that they've been making.
    Senator Blunt. You know, I would say, I'm not sure I have a 
final view on this yet, but I would say if we expand the law or 
expand the deadline, and there is some kind of partial 
deployment, I'd strongly encourage you to think about that as a 
trial run rather than having--we've seen what happens when you 
implement a technical system without going through a trial run, 
a trial run where maybe even information is widely shared but 
not where one company has to comply and another company 
doesn't. And you may use that as a laboratory time to test the 
system rather than to say, ``OK, you've worked harder than 
everybody else, so we're going to penalize you by putting you 
under full, positive train control and every other company has 
two more years,'' or something like that.
    Mr. Szabo. Senator, I think your point is very, very valid.
    You know, positive train control will, in fact, be the 
backbone of our future safety efforts relative to human 
factors, but it's critical that we get it right. There's never 
been an undertaking of this magnitude installing PTC anywhere 
else in the world. And so, actually taking a look at those 
places where it can be implemented most easily, ensure that we 
get the bugs out of it as we continue to advance, are best 
going to serve safety and make sure that we don't do anything 
to gum up capacity for the industry. There are a couple of 
threats here in getting it wrong. And so, provisional 
certification will allow us to make sure we get it right.
    Senator Blunt. Well, I'm going to follow the Chairman's 
very well determined lead here and wait for other questions for 
another round.
    Senator Blumenthal. Thanks, Senator Blunt.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding the hearing. And thank you for the witnesses that 
are here and everybody that's working on this issue and for 
your voluntary efforts to date.
    I'm glad my colleagues from North Dakota are here because I 
know you see this issue, you know, from the perspective of your 
state but I want you to understand the perspective of our state 
because practically every newspaper in our state has 
editorialized on this. The state legislature is considering 
legislation. The city of Seattle is considering legislation. 
And the issue is that as this rail transports into our state 
from Spokane down to PASCO through the Columbia Gorge, to say 
nothing of the treachery and the unique environmental aspects 
of the Columbia Gorge, then through Vancouver, then up to 
Tacoma and perhaps on through Seattle, through Everett, up to 
Skagit County for processing. So you hit every population area 
in our state. OK? We're talking about population areas, three 
of them that are larger than your whole state, OK. We're 
talking about waterfronts that are integrated with ferry 
systems and in highly, you know, active waterfronts.
    So when people look at this issue for us, they see the 
volatility of this product moving through major population 
centers. Not one, but every population center in our state, 
save a few. So that's why our state is very anxious about this. 
And that's why, Mr. Chairman, I agree. I don't personally think 
that this is an issue about voluntary, although we appreciate 
voluntary. I think to protect our citizens we have to be clear 
about what it is we're willing to do.
    So I first have a question for Mr. Searles about these DOT-
111 car issues that Mr. Hart has basically said are 
unacceptable public risk. That's what NTSB has said right now. 
They're unacceptable. So my question is when are the companies 
committed to ending the use of these cars?
    Mr. Searles. Thank you for the question, Senator.
    The first thing that we've done is we've stepped in and we 
developed over a 3-year period the upgraded tank car standards. 
So these are the CPC-1232 standard and that took 3 years to go 
in and look at all of the data that was required to understand 
the best approach that could be taken to make these cars safer. 
The industry concluded with consensus on that. And in the 
review of that consensus standard, the DOT led the review to 
determine whether or not we were going to have sufficient 
improvements there. And the conclusion was that we did and thus 
we petitioned the Federal Government to make the CPC-1232 the 
new standard. All of that was data-driven. Since that time, we 
have been building that tank car to the point that we have 40 
percent of the fleet this year will be the new tank car and 60 
percent by the end of 2015. So we have been leaning forward 
beyond what the DOT requirements were and are today. And 
believe that those tank cars are going to be sufficient to be 
able to move the tank car to be able to move the product from 
here forward.
    Senator Cantwell. So what year will all of them be off our 
rails?
    Mr. Searles. We are looking at the tank cars that were 
manufactured before the new standards came out. And in fact, in 
our comments to the ANPRM we asked for the FRA and PHMSA to 
lead a taskforce to review that. Since that time, we have been 
looking at the requirements to determine if retrofits are 
possible and whether or not there are meaningful improvements 
to those tank cars that can be made.
    Senator Cantwell. Well, I guess I would say, since we've 
gone from 4 years ago, having basically nothing by rail on 
crude, to now having something like 480,000 carloads of crude, 
so about 11 trains per day, to our populations centers, this is 
a big deal.
    Mr. Searles. Absolutely.
    Senator Cantwell. So knowing when those cars that are going 
to be off those rails, that NTSB has already said are 
unacceptable, Mr. Chairman, this is a key issue for me and for 
my state. And then, I know I have 30 seconds left, I guess I 
would just say that I don't know when you have a voluntary 
system, not everybody complies with it. What do you do about 
that? And even when people sign a voluntary agreement and then 
have a violation, is there a penalty? Is there a risk against 
that, in stopping that behavior?
    So, Mr. Chairman, I think I'm more in the boat of where you 
are. I think we have to mandate the security that needs to be 
there because these population centers are just, you know--I 
don't know what our cities in jurisdictions are going to--they 
might decide to ban this altogether.
    I think we have to prove that the public is going to be 
safe here and, again, I know I'm out of time, but we haven't 
even gone to this issue of the highly flammable material and 
maybe somebody could tell me what safety precautions are going 
to be made in the future to change a Bakken oil into a 
transportable product that is not as flammable.
    So thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Cantwell.
    Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Mr. Chairman and Ranking 
Member. It's really quite an honor to be here and I am grateful 
for the invitation and grateful for the opportunity.
    I want to kind of start out where Maria left off. And I 
want to assure the Senator from Washington that where we may 
see it differently because we're producing but you're refining, 
you're refining Bakken crude in your state. And we all are 
concerned about safety. This is not a tradeoff of economics 
versus safety. We have to make the transportation of this 
material as safe as what is humanly possible on the rails. I 
don't think there's any doubt about it.
    Now, Mr. Hart, I want to go back to one of your comments, 
because we have focused a lot on the 111s and, you know, I'm 
always amused when people say 40 percent. I think the more 
important question that we have is how many of the 111s have 
been retired? You know, if you look at the 111s transporting 
this material, obviously if you're growing the fleet, which you 
have to in order meet the demand of transporting, of course 
you're going to have a lower percentage of 111s on the rail. 
But the concern is getting the 111s off.
    And Mr. Hart, I think following on that track, you also 
said that you think the 1232s are deficient, if I heard your 
testimony correctly. So I want you to reaffirm that and then I 
want to hear from both the Association of American Railroads 
and from API on what their reaction is to that. And we can talk 
about the regulation after that.
    Mr. Hart. Thank you for the question.
    Yes. I did say that the 1232s are still not adequate. As I 
mentioned, the NTSB is holding a forum on the transportation of 
crude oil and ethanol next month that will talk about not only 
rail cars but a variety of other associated issues, including 
operations and emergency response.
    Senator Heitkamp. I only have so much time, so I really 
want to just focus on getting kind of an immediate reaction to 
the comment about the 1232s. Yes.
    Mr. Hamberger. On behalf of the AAR, we filed comments at 
the PHMSA and the ANPRM recommending that new tank cars be 
built exceeding the 1232. We are requesting that they require 
the full-height head shields, the jacket, thermal protection, 
top fitting protection, high capacity pressure relief valve. So 
we think that the 1232 was a big step above the DOT-111s. 
Knowing what we do now about some of the volatility of some of 
the crude moving, we think we need to go even beyond the 1232s.
    Senator Heitkamp. Interested in API's response.
    Mr. Searles. Thank you.
    I think the information that has been, that AAR's referring 
to, has not been shared that substantiates the benefit of these 
improvements. You're starting to get down into a very narrow 
range of improvement and you go from very small number to an 
even smaller number. And so, we would look forward to having 
those discussions on that. However, I would say that the 1232, 
again, was studied for three years. Actually, it was studied 
for 2 years and then another third year was taken to review how 
sufficient that performance specification would be.
    Senator Heitkamp. So this is shaping up as a regulatory 
fight here, obviously, and it appears that PHMSA and FRA are 
moving in the direction of the Association of American 
Railroads in terms of recommendations on the tank cars. I think 
it's doubtful they're going--as she said already, she thinks 
the 1232s are deficient. That's why they didn't go through the 
process back when you guys requested their weighing-in on 
approving the tank car. This is very problematic from a public 
standpoint, because the public expects that we're going to make 
decisions and they're going to be fact-based.
    Now, we haven't had a major derailment that involved the 
1232s. We've obviously had major derailments that involve the 
111s and, I only have 42 seconds. So I'd like to ask Mr. 
Searles, how many 111s have been taken off the train?
    Mr. Searles. The 111s continue to be the tank car that was 
provided in the regulations.
    Senator Heitkamp. So we need to be careful when we say 40 
percent and it's going to be less because it had to mean we've 
taken these cars off the trains. It just means that we've grown 
the fleet to the point that their percentage involvement is 
dwindling; correct?
    Mr. Searles. The numbers indicate that we are moving in the 
direction that will bring us to these safer tank cars.
    Senator Heitkamp. But, as of today, there hasn't been any 
major movement of 111s off the rails?
    Mr. Searles. Not to my knowledge.
    Senator Heitkamp. Yes.
    Senator Blumenthal. Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Senator Klobuchar. Thank you to 
Senator Blumenthal, also to Senator Blunt, for holding this 
hearing and appreciate all of you being here.
    The country is producing a lot more energy thanks, in very 
large part, to the states like North Dakota; very positive for 
the country in terms of knowledge, job creation, economic 
growth, but having affordable energy and from a national 
security standpoint. But we need the infrastructure to move 
that energy from where we produce it to the markets. That means 
pipelines, but that also means moving it as safely as possible 
by rail and by truck. And that's what today is all about. We 
need to do this safely and we need a comprehensive approach. A 
comprehensive approach that both prevents derailments and if a 
derailment occurs that we minimize the risk of fire or 
explosion. That means that everybody's got a role to play here: 
the regulators, the railroads, and the shippers.
    Obviously, oil companies own most of the cars. And so, you 
know, people, we've got to work together to get this done. And 
so, I'm going to have questions for each of you, which I'm 
obviously not going to get done in this session, but hopefully 
I'll have a follow-up opportunity and, you know, I want to 
start with inspections.
    And I'd like to ask Administrator Szabo, have you increased 
inspections? I know the answer to that is yes, but give us some 
sense of what you're doing. And also, do you need more 
inspectors to meet the demands of the increased volume?
    Mr. Szabo. Well, as I've stated in my testimony, our 
inspection and enforcement program is data driven. And so, we 
actually use statistical modeling to analyze that data and 
determine, you know, our National Inspection Plan and it's 
based on where there is risk.
    One of the reasons why I believe the agreement with AAR is 
so important is because it helps us determine the most safe and 
secure route to be used for the movement of this product using 
the 27 risk factors. And that also gets run through a computer 
analysis to determine the most safe and secure route. But then 
we mandate of the industry additional equipment and track 
inspections along those routes; as well as it allows me to 
better focus limited resources on those routes. Certainly, the 
45 additional employees that we received as part of the 2014 
budget package are going to help us tremendously but, you know, 
the truth of the matter is there can be an endless demand for 
resources.
    I have a responsibility to make sure that I am as smart and 
strategic as possible with the limited resources that you 
choose to provide me.
    Senator Hoeven. But at this point, you are making provision 
for additional inspectors and we certainly want to work with 
you through the appropriations process to see that you're able 
to do that in a sensible way, in a cost-effective, sensible 
way, but we need to make sure we're doing more inspections.
    Mr. Szabo. And, Senator, if I could add one more point 
that's an important piece to that. You know, we do have the 
state inspection partnership. And there are 30 states across 
the Nation that choose to hire their own inspectors. We train 
them. We absorb the cost of training them and certifying them, 
but then states are able to use these inspectors to supplement 
our inspection efforts in their own states and raise the bar 
that much higher.
    Senator Hoeven. Mr. Blackwell, how are we going to or how 
are the railroads going to implement positive train control, 
which is part of the safety solution, if they can't get the 
tower sited on their own right-of-ways? Does that require 
legislation or, I mean, is FCC going to just hold them up 
forever, or does it require legislation? Or what do we have to 
do to get positive train control out there?
    Senator Blackwell. There are, we believe, in our programs, 
on this----
    Pardon me, Senator.
    We believe the Program Comments strike the appropriate 
balance between front loading, the type of information that is 
usually requested and readily available, and with PTC's goals 
and deadlines. And in doing so, we prescribe much-ordered 
deadlines that are already streamlined processes. We don't 
expect that all the applications will take the maximum time 
allowed, but we've accelerated procedures and reduced the 
overall review process by 40 percent. Specifically, this 
includes shortened timeframes for initial responses and 
situations lacking responses. And we've also established a new 
deadline for our FCC review of resolutions and disputes.
    The Program Comment limits the scope of review to a smaller 
area of potential effect from one-half mile to one-quarter 
mile. And it also allows for exclusions of wayside structures, 
similar to nearby existing structures in the right-of-way, for 
wayside structures located within rail yards of at least 1,000 
square feet and from affects on the rails and the track beds 
themselves.
    The Program Comment, like the NHPA and our rules, also set 
standards for requesting additional information requiring 
tribal nations and State Historical Officer----
    Senator Hoeven. Mr. Blackwell, I'm over my time. We'll come 
back to this. But my question, very specifically, is going to 
be either you're going to commit to work with the railroads to 
get this done, or it's going to require legislation. But I am 
over my time and we can certainly come back to that.
    Senator Blumenthal. Thank you, Senator Hoeven.
    Welcome, and thank you to Senator Thune for joining us. If 
it's OK with you, I'm going to ask Senator Klobuchar to do her 
questions and then turn to you.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. Thank you, Mr. 
Chairman. Congratulations. You'll do a great job and you're 
working with a good guy with Senator Blunt. We once shared a 
committee together and I'm looking forward to both of you 
working on this important issue.
    I'm in the neighboring state of Minnesota and we've 
certainly seen the effects of increased rail. We're pleased 
that we have more of our own energy in this country. We think 
it's very important. But, at the same time, we can't lag behind 
for our capacity and our safety standards.
    I get very frustrated by government delay. I'll tell you 
that. So if you could answer your questions quickly, that'll 
show that we're on the right road.
    Ms. Quarterman, have you thought about what this rulemaking 
that's taken two and half years of trying to focus on the cars, 
the tank cars, that carry the most flammable and volatile 
liquid since the severe derailments have involved that to try 
and move that quicker?
    Ms. Quarterman. We've been moving as fast as we possibly 
can. We have been working on these rules very hard. And I will 
say the discussion at the panel among the witnesses today point 
to why, even though we are working fast, we need to be 
strategic and deliberative in our process. As you've seen, the 
tank car standard has evolved over the past several years.
    Senator Klobuchar. Do you think it's safer to have new tank 
cars or retrofitted cars?
    Ms. Quarterman. It depends on what the retrofit is.
    Senator Klobuchar. And do you think that we'll have the 
manufacturing capability to get those cars? I know Burlington 
Northern has just voluntarily agreed to buy 5,000.
    Can we get those off the factory floors fast enough?
    Ms. Quarterman. Well, I recently had a meeting with one of 
those manufacturers and they said they thought they could. I 
think they're eager to do so.
    Senator Klobuchar. OK.
    And, again, as many of us have urged here, just the sooner 
we can get this done, the better. We had a derailment with a 
train loaded with iron ore on December 5 of last year in Two 
Harbors, Minnesota. Seventy-six rail cars piled up and, others, 
17 cars loaded with iron ore pallets parked on an adjacent 
track were hit and derailed. Our reports indicated that, 
actually, it was Canadian National; that they hadn't removed 
the snow and ice from the tracks. As you know, we've had a lot 
recently, despite warning from crew members.
    Do you think the railroads have the appropriate lines of 
communication, and I think this is probably best a question for 
Mr. Hamberger, in place to ensure that crew members can easily 
report these kinds of concerns?
    Mr. Hamberger. I'm unaware of the specific that you're 
talking about but I've always said that when it comes to 
security and safety, the 180,000 crew members that we have are 
the first line of notification of whether something is not 
right if it happens to be a security issue, and the same for 
safety. So I believe every railroad has in place a 
communication systems to get those kinds of safety issues from 
the employees. So, I would think so.
    Senator Klobuchar. OK.
    Well, we'll follow up with you with getting the facts out 
there so we can talk about it further.
    The other thing I hear around our state on issues, things 
that have already been talked about, is that on not having the 
capacity to prepare for and respond to an event like a 
hazardous spill or a derailment. What do you think, Mr. 
Hamberger, that rail companies could do to assist communities 
to ensure that they're properly prepared should a disaster 
occur?
    Mr. Hamberger. Several things that they are already doing, 
and that is: working with the emergency responders and training 
and letting them know what is coming through their communities 
and designing training programs for the most dangerous things 
coming through the communities. But we're also--and the 
agreement with Secretary Foxx, as an industry, taking on an 
inventory of what are the emergency response equipment out 
there; whether it's foam or booms near water supplies and try 
to have that available both for other railroads but also share 
it with appropriate emergency responders so they know what's 
available.
    Senator Klobuchar. Mr. Szabo, do you think we have enough 
track inspectors out there?
    This is something I've heard from our own Department of 
Transportation, as well as some of the workers that aren't on 
the panel today, but I know they're concerned about this. Do 
you think we have enough track inspectors? And what can be done 
to address a shortage? I know, in our state, we only have a few 
of them.
    Mr. Szabo. Well, I think this is similar to the answer that 
I gave Senator Hoeven.
    You know, first off, the 45 additional employees that the 
2014 budget provided for us is going to help. The agreement 
that was signed with AAR requiring them to do additional 
inspections is going to help. My ability to more strategically 
focus on crude routes is going to help; and, you know, 
following our data is going to help, as well as the ability for 
states to supplement through our state partnerships. So you 
know, I think we've got the tools and we just need to execute.
    Senator Klobuchar. OK.
    And I'm out of time here but, Mr. Blackwell, I'll follow up 
on the record about some of the concerns raised by Senator 
Hoeven about trying to move on the PTC implementation and just 
the concern that this is something that could help and that 
this is just taking too long. So we'll follow up on the FCC 
role on what we can do to speed it up.
    Thank you.
    Senator Blumenthal. Thank you, Senator Klobuchar.
    Senator Thune, again welcome and the floor is yours.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And, thank you to 
you and Ranking Member Blunt for holding this hearing on a very 
important subject and I will follow up on Senator Klobuchar's 
issues on PTC but I do want to thank the panel for being here 
today.
    And, you know, one way we could get fewer trains in North 
Dakota is to horizontally drill from South Dakota.
    [Laughter.]
    Senator Thune. Pull some of that energy back down into our 
state.
    Senator Hoeven. We're watching you.
    [Laughter.]
    Senator Thune. You know I've had some experience. I worked 
as the State Rail Director in South Dakota prior to coming to 
this job. And the railroads are so important in our part of the 
country. The reason there's so much interest here, you can tell 
today, is that we're incredibly dependent. So much so that back 
when the Milwaukee Road abandoned the railroads in our state in 
the late 1970s, the State of South Dakota actually acquired the 
railroads, not the power and the rolling stock but the right-
of-way and the track and everything to keep railroads active 
and going. It's the most efficient way to move freight and, 
obviously, critically important to our agricultural economy. So 
for many years, the State of South Dakota actually operated, or 
I shouldn't say operated, but contracted, for operations with 
some railroads and maintain the track and right-of-way; so this 
is a critically important issue in our state and to all the 
states that are represented here.
    I want to ask a question and this would be for Mr. 
Blackwell. And I appreciate it's been talked about a little bit 
already, the effort the FCC's taken to expedite the approval of 
PTC towers and I'm also encouraged that the FCC has issued a 
draft proposal. However, I'm still concerned about how long 
it's going to take before Class I railroads are going to be 
able to take advantage of this process. It's my understanding 
that that draft proposal was submitted to the Advisory Council 
for Historic Preservation this week and that the ACHP will then 
have 45 days to review and approve it.
    Given that timeline, what is the earliest date in which you 
think railroads will be able to begin installing towers under 
the new system?
    Mr. Blackwell. So, maybe a bit of the challenge, if you do 
the math right now, but it would be 45 days from the date of 
the transmittal. We would be ready to begin processing those up 
to 20,000 more. There's absolutely nothing holding everybody 
back now from preparing the information to be ready to go as 
soon as possible.
    Senator Thune. So after a tower is submitted for approval, 
how long do you anticipate it would take for final approval? 
And do you have any estimates on how this will compare to the 
timeline under the current approval process?
    Mr. Blackwell. Well, we did shorten the--by frontloading 
the system with an amount of information that's normally 
routinely gathered, we were able to shorten timelines 
significantly. Overall, it is 40 percent. We did also shorten 
timelines associated with the initial responses, lack of 
responses, and then encouraged the parties that may have 
disputes to come to the FCC. And we have a self-imposed 15 day 
deadline to deal with those.
    Senator Thune. OK.
    This would be a follow-up question for Mr. Hamberger.
    The railroads have run into a lot of obstacles and their 
efforts to meet this 2015 PTC deadline but the FCC approval 
process clearly has become a big impediment to that. Let me ask 
you what your overall assessment is of the FCC's draft proposal 
and do you think it will help expedite the process for that 
approval?
    Mr. Hamberger. I have not personally read what was 
submitted last evening but my lawyers, who have, so this is 
secondhand, advise me that some of our comments submitted in 
the process have been acknowledged but the core issue of not 
having an end date to when a decision has to be reached, there 
is a deadline on expressing an interest, but not on reaching a 
conclusion. And although we can file by county, each individual 
pole still has to be dealt with and the upfront submission of 
data that Mr. Blackwell is talking to is, I believe, it's an 
ethnographic study where we have to show, prove a negative, 
that there is no cultural or historic interest in that site 
pole by pole, by pole. We do not think that this solves the 
problem. Again, recognizing the amount of effort that has gone 
into it and I appreciate Chairman Wheeler's personal interest, 
but we are not there.
    Senator Thune. So in the interim, the FCC has initiated 
this beta process for PTC tower approval in which railroads are 
able to batch these applications, as was mentioned, up to 20 
PTC towers in the same county.
    Have railroads made use of that process?
    Mr. Hamberger. Yes.
    And in several cases they have gotten back automatic 
responses of that, not wanting to go forward in some cases. I'm 
told that not one of those have yet made it through the 
process.
    Senator Thune. Do you like that process? Do you see 
benefits to that process? Do you see limitations to that 
process?
    Mr. Hamberger. We went forward, as Mr. Blackwell indicated, 
in an informal process in dealing with the tribal nations that 
we knew had interest and have erected 10,000 poles. We think 
that the rules that FCC has allow that. They have told us that 
we cannot do that; that we have to work through the TCNS 
process.
    And I think that is a bureaucratic slowdown that is 
adversely affecting our ability to make progress. I was going 
to be delivering our white paper, effective of 12-31-2013, at 
which we had been projecting that we were going to be able to 
meet 40 percent of our implementation by the end of 2015. 
That's what we projected at the end of 2012; that we were going 
to be able to get about 24,000 miles up and running. We can no 
longer make that projection.
    And so I'm not in a position to submit that as part of my 
testimony today. We're still going back to the railroads and 
trying to get what the number might be. And unfortunately, 
until this process plays out, we don't know. We just don't know 
how long it's going to take.
    Senator Thune. And that 45-day clock hasn't started running 
yet.
    Mr. Blackwell. It started running Tuesday.
    Senator Thune. It did, OK. OK.
    So we're talking 45 days, middle of April, and then how 
many days after that to get a final rule?
    Mr. Blackwell. Well, we could start processing the 
applications immediately.
    Senator Thune. OK.
    And you're saying if they are submitting applications, 
doing all the preparatory work right now, that those 
applications could start being processed immediately when that 
45 days runs out?
    Mr. Blackwell. The submission process, under the Program 
Comment, would begin once the Program Comment became final. 
Forty-five days. The ACHP has it for 45 days.
    Senator Thune. OK. All right.
    Mr. Hamberger. That assumes they don't extend.
    Senator Thune. Right.
    Mr. Blackwell. I would clarify something, Senator, about 
the ethnographic studies that Mr. Hamberger just mentioned. 
This draft Program Comment does not require ethnographic 
studies. The reference is to help the railroads prepare 
materials that, based on our experience, are frequently asked 
for in the course of the Section 106 reviews.
    Senator Thune. Well, I guess the only thing I would say, 
Mr. Chairman, is there's a lot of pressure on the railroads, 
obviously, to comply with and to meet the 2015 deadline. And 
there are a number of us on the Committee who are co-sponsoring 
legislation that would extend that by a reasonable amount of 
time so the railroads have the time to comply. But the FCC has 
become a critical component in allowing that process to move 
forward. And I would hope that you will do everything you 
possibly can to expedite this process, because, for a lot of 
reasons, there's a sense of urgency attached to this and I hope 
that that's fully understood there at the Commission.
    Mr. Blackwell. Senator Thune, Senator Hoeven, the FCC is 
committed to tailoring the process in a way that will enable 
the railroads to meet their current statutory deadline fully 
committed.
    Senator Thune. Mr. Chairman, I have a statement I'd like to 
ask consent to have in----
    Senator Blumenthal. Without objection.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Thank you Senator Blumenthal, and Senator Blunt for holding this 
important hearing and I am glad that Senators Hoeven and Heitkamp are 
able to join us today to underscore their first-hand perspective when 
it comes to increased domestic oil and gas production from their home 
state and the recent accident that occurred there.
    The topic of this hearing is particularly timely, as we've seen 
several high-profile accidents in recent months involving both freight 
and passenger railroads, some of which have sadly resulted in the loss 
of life and injuries to rail passengers.
    As a Senator from South Dakota, I am particularly interested in the 
safety issues involved in transporting crude oil from the Bakken 
region, and I am encouraged to see railroads, the oil industry, and the 
various Federal safety agencies working together on this issue--
including improvements when it comes to tank car safety to protect 
against releases of commodities that are increasingly moved via the 
second safest mode of bulk transportation.
    I am also interested in hearing from the Federal Communications 
Commission (FCC) and the Association of American Railroads on the work 
that is being done to speed up the approval process for the 
communications towers that railroads must install to fully implement 
Positive Train Control (PTC), which can certainly assist in reducing 
the incidence of some, but not all, rail accidents.
    While I agree that PTC is an important safety technology that 
railroads should work to install as quickly as possible, I worry that 
the current statutory deadline of December 2015 is unrealistic for most 
passenger and freight railroads. I think this is especially true in 
light of some of the delays that have occurred at the FCC that we will 
hear more about today.
    Along with Senators Blunt, McCaskill, and Pryor, I have introduced 
legislation, which is supported by other members of this committee, to 
extend the 2015 deadline in order to allow the railroads a realistic 
time-frame for full implementation. There are now 12 bipartisan co-
sponsors of this legislation, and I hope that our committee will 
consider this bill in the coming months.
    At the end of the day, we have a shared interest in seeing PTC work 
as intended, and avoiding the unintended consequences of an unworkable 
timetable that could weaken the overall safety of our rail network. We 
all want PTC done right, and I appreciate the perspectives of our 
witnesses on how we can work together to make that happen.

    Senator Thune. Thank you.
    Senator Blumenthal. Thank you, Senator Thune.
    And I think that comment, by Senator Thune, points to a 
very real issue that the FCC has to address. I'm going to be 
meeting later in the day with Chairman Wheeler and certainly 
this topic is high on the agenda.
    I come away from the testimony, so far, with the feeling 
that your agencies collectively and individually need more 
authority to expedite these rules and make this system work 
better.
    Do any of you disagree? And, please, don't hesitate to 
disagree.
    Mr. Hamberger. Mr. Chairman, I'm going to jump in even 
though it's not exactly on the point to your comment because I 
don't want to let stand on the record without responding, but I 
know this is dangerous at the first hearing.
    I'm testifying before you as our new chair, but you talked 
about the inadequacy of voluntary actions. And I submit to you 
that every railroad has a voluntary rulebook which goes beyond 
the requirements of the FRA that really helps deliver the 
safest transportation mode America has. And you talked about 
inward-facing cameras; we're not waiting for the rule. Kansas 
City Southern has already gone through the process; had to go 
through----
    Senator Blumenthal. You may be right, Mr. Hamberger, and I 
apologize for interrupting, but I'm limited in terms of the 
time I have to ask my question.
    Mr. Hamberger. I'm sorry.
    Senator Blumenthal. You may be right about some railroads, 
but certainly not all. Metro-North is not moving ahead with 
cameras. The NTSB has recommended to Metro-North that it have 
those cameras, but we still have not seen them. It took a 
derailment with four fatalities to cause Metro-North to 
implement automatic train control, alerters, and other 
commonsense sensible measures still have not been implemented.
    There is a reason why Congress has mandated certain 
actions. And the rules necessary to enforce those laws still 
have not been issued in many instances despite deadlines that 
have been passed. And I am not, I hope, unfairly criticizing 
the FRA or PHMSA. I know that resources are an issue, but I'm 
asking really for authority; whether the agencies need 
authority to expedite these rules, to issue emergency orders.
    We're talking here about huge and humongous costs in lives 
and dollars, in the creditability and trust in our system, 
potential environmental affect. I was going to hold up--oh, we 
now have the--these issues unite and interlock the entire 
country. As you can see, what happens along those arteries of 
transportation affects the Midwest, the states that are 
represented here by my colleagues from North and South Dakota, 
Missouri, and eventually, potentially Long Island Sound as well 
as Albany, places in New York, the Northeast.
    So there has to be a sense of urgency here that, I think, 
may not be felt by all the railroads in all necessary respects 
about these rules. So, in terms of enforcement of our laws that 
protect safety and reliability, isn't there a need for more 
authority?
    And Mr. Blackwell, you seem to be on the verge of saying 
something. So let me call on you.
    Mr. Blackwell. I was. Thank you, Mr. Chairman.
    We believe that we've identified the most expeditious 
process. We have not placed bureaucratic process above public 
safety. We take our responsibility with respect to public 
safety at the Commission deeply seriously.
    You asked about additional authority. Under the applicable 
statutes and regulations--and Mr. Hamberger suggested that the 
Commission might be able to do a wholesale exemption of 
positive train control. Under applicable statutes and 
regulations, a wholesale exemption of the infrastructures 
associated with PTC from NEPA and the National Historical 
Preservation Act would require negotiation with the Advisory 
Council on Historic Preservation and the National Conference of 
State Historic Preservation Officers and the full notice and 
comment rulemaking of the Commission including consultation 
with tribal nations. And that would take us well beyond the 
December 2015 deadline.
    Senator Blumenthal. Any other comment?
    And let me ask the same question with respect to resources; 
more authority clearly necessary. What about more resources? 
Also necessary; based on what I've heard today and what I've 
heard over years of learning and listening about this process.
    I know that Mr. Szabo would agree because we fought for 
more resources for the FRA. And what we've achieved, I will 
say, still is inadequate in spite of the increase that we 
managed to restore to the budget. So I think that one of the 
lessons of today is that we need both resources and authority.
    Let me ask, in particular, about the Operation 
Classification results so far. As I mentioned at the very 
outset, a very high proportion to samples--I think the majority 
of the samples taken indicated that the packing was 
inappropriate to the content of the crude. I know I'm probably 
misstating, in technical terms, the result but basically in the 
majority of samples, correct procedures were not followed.
    Ms. Quarterman. Within those particular samples that we're 
taking. We started this effort last August and we have gone out 
a series of times doing this testing. And each time we've gone 
out, we have extended the testing that we perform. We started 
by looking first at flash point, initial boiling point. As we 
learned more, we continued to go back and expand the tests. We 
now include vapor pressure and sulfur content. We're beginning 
to do corrosivity tests and flammable gas content. It's a 
learning experience in terms of trying to understand the 
characteristics of this particular crude oil.
    We have to all remember, we're talking about crude oil 
here. We're not talking about a refined product. And crude oil 
varies from region to region and place to place and we want to 
understand exactly what the characteristics of this particular 
crude are. Last week, we were out again. We had a multi-agency 
strike force in North Dakota with members of the FRA, the 
FMCSA, the North Dakota folks as well.
    Senator Blumenthal. Well, let me just interrupt because I 
want to turn to Senator Blunt for our next round.
    On February 4, you released the first round of your test 
results which concluded that 11 of 18 samples, taken from cargo 
tanks delivering crude oil to loading facilities, we're not 
assigned to the correct transportation packing group. As a 
result, you issued notices of violation; $93,000 in fines to 
the shipping companies involved.
    Doesn't that give you a lot of alarm?
    Ms. Quarterman. It does, indeed. And that is why we, the 
Department, issued an emergency order related to classification 
and testing. We amended that order today, after we had some 
questions from operators about the order. And that's why we're 
out on the ground every day despite resource issues. I didn't 
respond to that question but certainly after have those.
    Senator Blumenthal. So maybe voluntary compliance isn't 
working as it should be.
    Ms. Quarterman. Well, I think we have to double-check on 
these things. Absolutely.
    Senator Blumenthal. I may have an opportunity to follow-up 
in a third round, I'm sure, to the chagrin of our witnesses but 
I'm going to turn to Senator Blunt because I've reached the end 
of my time this time.
    Senator Blunt. Thank you. Thank you, Chairman.
    Ms. Quarterman, what, on the strike force, were you testing 
a new rule or was this a rule that the railroad should have, or 
the shipper rather who complies here? The shipper or the 
person----
    Ms. Quarterman. The shipper or offerer is the person who 
needs to comply with the rules.
    Senator Blunt. And was this a new rule?
    Ms. Quarterman. No, it was not a new rule. It's an existing 
rule.
    Senator Blunt. So your view is that in the strike force, on 
a rule that was existing, it had been out there for how long; 
we talking years, months, days?
    Ms. Quarterman. Many, many years.
    Senator Blunt. That they were not complying in how many 
cases out of how many?
    Ms. Quarterman. I believe Senator Blumenthal was talking 
about, what was it, 11 out of 18 in one particular series of 
tests that we did. We've gone out about five or six different 
times and we haven't finished our enforcement actions, 
obviously, so there may be more coming.
    Senator Blunt. So in the total, is this 11 out of 18 or is 
this 11 out of a particular route? I'm interested in knowing 
more about that.
    Ms. Quarterman. It's 11 out of a particular 18. It was one 
trip.
    Senator Blunt. That was the total test in that one trip, 
was 18?
    Ms. Quarterman. That's my recollection, yes.
    Senator Blunt. And in terms of--are you going to change the 
way you require this testing? Is that in your proposed rule 
that we test for different things than we have?
    Ms. Quarterman. It certainly is on the table. We are 
looking at everything related to the movement of crude oil, so 
classification issues are something that we're looking at as 
well.
    Senator Blunt. Yes.
    On the tank cars, I thought Senator Heitkamp made a 
particularly helpful observation about, you know, you obviously 
have a lot more shipping going on so the cars that were out 
there could be out there.
    What I don't understand, Mr. Hamberger, is who owns these 
cars? I think, generally, they have been owned by the shipper 
but does that mean the orange juice cars are owned by the 
orange juice people and the milk cars are owned by the milk 
people. And what does that mean?
    Mr. Hamberger. Tank cars are a bit of an anomaly in that we 
own basically very few tank cars.
    Senator Blunt. ``We'' being the railroads.
    Mr. Hamberger. Being the railroads, yes, sir.
    They're owned either by producers or leasing companies who 
build them and then lease them out to the shippers. In other 
areas, boxcars, you know, automotive bi-levels, tri-levels, 
most of those, many of those at least, are owned by the 
railroads but some of those are also owned directly either by a 
shipper or by a leasing company. But in the tank car area, it 
is almost not, as you mentioned, BNSF did just announce they're 
going to purchase 5,000 but that is not the normal for us.
    Senator Blunt. Right. And I assume that these cars can be 
that the 111, if I'm using the right terminology, could still 
be used for something else even if we decide for--I'm seeing a 
number of heads shaking here. So taking 111s off the railroad 
is a different question than using them for another purpose.
    Mr. Hamberger. That is correct; yes.
    Our recommendation is not to use them for flammable 
liquids.
    Senator Blunt. Right. And Mr. Blackwell, how long have you 
worked for the FCC?
    Mr. Blackwell. Off and on for 15 years, sir.
    Senator Blunt. And how long in the current job?
    Mr. Blackwell. Four years.
    Senator Blunt. And when did the FCC realize that it had 
responsibilities under positive train control that was passed, 
I guess, in 2011?
    Mr. Blackwell. We first learned about the massive number of 
wayside poles, just under a year ago.
    Senator Blunt. So this is not--I can't go back and say what 
did you do though, you just didn't know how involved you were 
going to be? Mr. Hamberger, you want to help me with that?
    Mr. Hamberger. Well, that isn't exactly correct.
    I think Mr. Blackwell may have learned a year ago, but when 
the FCC awarded the spectrum to a group called PLC 220, it's 
the railroad organization that bought the spectrum for PTC, as 
part of that award there's a requirement that you submit to the 
bureau every 6 months what you're doing to make sure that 
you're using that spectrum because otherwise, why, you know, 
why should you get to keep it? So starting in 2009, we 
submitted statements to the FCC telling them what we were doing 
to implement the award of that spectrum including putting up 
poles along their right-of-way.
    Senator Blunt. And, I would say that the recent people that 
have appeared here that are now serving on the FCC seem to be 
much more aware of this and, Mr. Blackwell, I think you would--
the Commission itself is responsible here to this committee and 
you're responsible to the Commission. But what I'm wondering at 
now, and I think I'm right here, you mentioned some dates. You 
said September the twenty-seventh. There was one day and that 
was last year. You're talking September 27, 2013; right?
    Mr. Blackwell. Yes, sir.
    Senator Blunt. And then, January 29, 2014?
    Mr. Blackwell. That was the release of our draft Program 
Comment.
    Senator Blunt. And Senator Thune had you in sometime in 
mid-to-late April 2014. And then, you've got the whole 22,000 
towers to side, even if you group them? I'm having a hard time 
imagining, unless something changes, you get all that agreed 
to, all that done, by the end of 2015, let alone your assertion 
that there's plenty of time for the railroads to comply by the 
end of 2015. You're not going to have 22,000 people out there 
setting individual towers on a given day when you all are 
finally done with this, and 22,000 individual pieces of 
equipment. The idea that we can, the government, can drag its 
feet as long as it has and then suddenly, in the middle of the 
year before this has to be completed, the next year, the 
government can assert that there's plenty of time for the 
railroads to comply now that we've finally come up with our 
rules, I just think is ludicrous.
    Now, let me be sure I understand these poles, too. There 
are 22,000 towers and poles. How many of those would be the big 
tower that I would envision when I think about something like a 
telephone, cellular; any of them?
    Mr. Hamberger. No. The ones that we're talking about are 
what are called monopoles. They could be as high as 60 feet, 
could be as low as 20 feet depending on terrain. Generally 
speaking, go down into the ground six, eight, ten feet, maybe 
two feet diameter of a hole. Ninety-seven percent of them will 
be on the right-of-way of the railroad. Again, not in tribal 
nation land. We understand if it is tribal nation land that 
would be a different consideration. And if we were talking 
about the big radio towers, that obviously is a different 
consideration.
    Senator Blunt. Do we have to build any of those big towers?
    Mr. Hamberger. About 500, apparently.
    Senator Blunt. Five hundred----
    Mr. Hamberger. Of the 22,000?
    Senator Blunt.--cellular type towers and the others are----
    Mr. Hamberger. It's included in the 22,000; 500 in the 
22,000.
    Senator Blunt. So 40 feet, that's somewhere in the 
streetlight, telephone pole----
    Mr. Hamberger. That's my assessment, yes.
    Senator Blunt.--is the size that you're talking about.
    And I'm going to ask one more question and then I'm going 
to be done with this. On the wayside structures you mentioned 
in rail yards, can they build things there that they couldn't 
build in the right-of-way without approval from your 
organization, Mr. Blackwell?
    Mr. Blackwell. Senator Blunt, I should clarify a couple of 
things. Section 106 of the National Historic Preservation Act 
applies nationwide, not just on tribal lands. And it applies 
within the rights-of-way. In fact, these rights-of-way, because 
they're private in nature, there have not been surveys. Folks 
don't know what's in them. But the exceptions to that are 
identified under Program Comment do involve a rail yard. There 
are exceptions for wayside structures similar in nearby 
existing structures in the right-of-way. For wayside structures 
located within rail yards of at least 1,000 square feet--
100,000 square feet, excuse me. And reviews are exempted from 
rails on the track--the review of the--impact for rails on the 
track beds themselves.
    Senator Blunt. Do you think you'll have all, assuming the 
railroad complies with every deadline you've set, do you think 
you'll have all these towers agreed to? When do you think is 
the last time you'll finish the approval process on the 22,000 
towers; the ones that are going to then be built by the end of 
2015?
    I'm going to keep track of this topic and if it's like 
November 2015, whenever it's finally done, I'm going to come 
back and ask you how you thought these towers were all supposed 
to be done by the end of 2015, which is exactly what you said 
here today. I just don't understand how you think there's--I'll 
let you answer the question, then I'm done.
    Mr. Blackwell. Well, there was a reference earlier to the 
base stations, those towers can go through the process right 
now; our regular process. We also developed a process that had 
been mentioned earlier on the beta testing process for railroad 
subdivisions that were demonstrated in our Oklahoma and in our 
South Dakota consultations. The FCC is fully committed to 
tailoring our process in a way that will enable the railroads 
to meet the current statutory deadline, Senator.
    Senator Blunt. I actually don't believe that's possible 
based on the sitings you have to do and the towers that still 
have to sited, but I'm going to watch this pretty closely and 
if the FCC is fully committed as you say they are, to have all 
of these towers in place by the end of 2015, you're going to 
have to be really quick to let them know that they can set 
these towers. Again, I'll just repeat, there aren't 22,000 
crews that are going to, on a given day, each set a tower.
    Senator Blumenthal. Senator Thune.
    Senator Thune. And a question to follow up to that. I mean, 
once the towers are installed, you still have to test, you 
still need interoperability, you have a whole bunch of things 
that have to happen subsequent to that; correct?
    Mr. Hamberger. Correct.
    Senator Thune. So, I mean, this is a--yes. This is a 
process that's going to go on for some time.
    Senator Blumenthal. Thank you for those excellent 
questions, Senator Blunt and Senator Thune.
    And I might just make the observation that even before 
November 2015, I think we may need to have a separate hearing 
on some of the question you've been raising because they are 
profoundly important and they go to the core of safety and 
reliability in both freight and passenger.
    If my colleagues would like, Senator Heitkamp.
    Senator Heitkamp. Yes. Just, quickly.
    You know, this really fits in kind of three categories for 
me. Number one, prevention of derailments. Second category is 
mitigating the consequences of derailments. And then, making 
sure that, in the third category, that we have in fact trained 
professionals who respond to these crises. And I want to just 
briefly hit each one.
    I was surprised, Mr. Szabo, that you didn't talk about 
technology very much when you were asked because I think 
technology is such that you could in fact inspect that track 
every time a train went over the track. And so, you know, I 
just want to lay that--I don't have a lot of time, so I just 
want to lay that marker down that we're interested in the 
relationship that you have with the Association of American 
Railroads so we make sure we get that technology deployed.
    In the category of mitigation, I think, you know, with all 
due respect, PHMSA doesn't have a very good record on this. And 
I know you said you're moving with all due diligence but that's 
not the past history on this. I think there was a lack of 
engagement. In fact, Senator Hoeven along with Senator 
Landrieu, sent a letter in December of 2012 asking where that 
collaboration was, where that discussion was. Now we're here, 
in crisis almost, trying to resolve this issue and I think it's 
a lesson for all of us to respond and react.
    Finally, I want to talk about classification. There hasn't 
been a lot of talk about how this product gets classified, 
except the Chairman raised this.
    I want to ask Ms. Quarterman. Taking a look at the range of 
violations, would it have changed how any of that product was 
actually shipped? It may have changed how people respond to it 
if there's a crisis, and I recognize the need to know exactly 
what that is for the first responders, but would it have 
changed how they shipped that product?
    Ms. Quarterman. I don't have a list of each of the 
violations that are listed there but we're talking here about 
cargo tanks, which are trucks on the highway. And there are 
differences between the tanks that are used for Packing Group I 
packages and Packing Group II packages.
    Senator Heitkamp. I just want to focus on the railroad. I 
want to focus on the rails.
    Ms. Quarterman. Once it went to a rail, whether it would 
have made a difference if the packing group were wrong?
    I don't know what the number was at that time. Packing 
Group I and Packing Group II are very similar.
    Senator Heitkamp. In terms of the requirement on how they 
ship.
    Ms. Quarterman. In terms of the requirement.
    Senator Heitkamp. So we just want to make sure that we're 
laying down the understanding that these classifications are 
relevant and important and must be met. But they may not 
change, in fact, how that product moves under current 
regulation.
    Finally, I want to talk a little bit about classification 
because in my discussions with API and with PHMSA, you know, 
this is facts. I mean, what actually is in the tank or what 
gets produced, it's chemically provable. But yet, we have all 
of this disagreement about what is this, what is this product. 
And I know that API has come up with a pretty extensive outline 
on process in terms of studying this and getting to the point, 
and I know you're currently moving. Are you guys communicating? 
Are you giving us what we need in terms of a process so the 
public can be guaranteed it's moving forward appropriately?
    Yes, API.
    Mr. Searles. Yes, thank you.
    We, indeed, are moving forward with the development of a 
standard that looks at classification of crude oil and what it 
does is look at all of the aspects that need to be resolved. 
There have been several questions that have come from PHMSA and 
we're addressing those and any other questions that come up 
during those meetings. So that is a group of scientists and 
engineers, and railroads and PHMSA will be participating in 
those meetings. In fact, they had somebody at the last meeting.
    Senator Heitkamp. So we're building consensus on how we're 
going to test this or what the standards are going to be, Ms. 
Quarterman?
    Ms. Quarterman. API has stepped forward to put together a 
standards creation body. We are participating in that body. We 
have, since we last met with Secretary Foxx, we have had a 
series of meetings with crude oil representatives including 
API, but also individual shippers to ask them what are the 
characteristics of the crude. And I've had a series of 
conversations over the past month with individual companies. 
Some are providing information on that and we have told them 
what we know about the crude so far.
    And, you know, we did probably as many tests last week as 
we had in the period before, so we will have a lot more 
information after we get the results from that.
    Senator Heitkamp. I think this is headed in the right 
direction.
    I just want to thank both the Chairman and the Ranking 
Member for this extraordinary opportunity to participate and 
ask if it's okay if I submit a statement for the record.
    Senator Blumenthal. Without objection.
    [The prepared statement of Senator Heitkamp follows:]

              Prepared Statement of Hon. Heidi Heitkamp, 
                     U.S. Senator from North Dakota
    Chairman Blumenthal, Ranking Member Blunt--thank you for organizing 
this hearing on the critically important topic of rail safety.
    Right after the Casselton derailment, I spoke with Senators Warner 
and Blunt to request that this committee hold a comprehensive hearing 
to examine rail safety--and they didn't hesitate to commit to 
investigating the topic we will consider today.
    Thank you for the opportunity to participate as a guest of your 
subcommittee and, more importantly, thank you for you leadership and 
responsiveness on this important issue facing the country.
Why We Need This Hearing
    Our country is in the midst of an energy revolution, and North 
Dakota is at the heart of it. Nearly a million barrels of oil are 
produced in my state each day, and additional growth is expected in the 
coming months and years.
    This energy boom is dramatically changing our country. It is 
putting us on the path to North American energy independence and 
helping wean us off of foreign oil. It increasing the competitiveness 
of American manufacturing. And it is providing thousands of jobs and 
creating new wealth in the countryside.
    But with all these benefits come additional costs. And just last 
month in Casselton, North Dakota, we saw what can happen if we don't 
properly manage those costs.
    Transporting crude by rail was so different even just a few years 
ago. Trains in the past would carry little if any crude. And when crude 
was carried by rail, it was in relatively small amounts mixed in with a 
diverse variety of grain and container shipments.
    Shipments of rail by crude have increased exponentially over the 
course of the previous five years. Trains have had to fill in where 
other forms of energy transportation are lacking. According to the 
Association of American Railroads, the number of railcars carrying 
crude oil on major freight railroads in the U.S. grew by more than 
6,000 percent between 2007 and 2013. Now we are seeing entire key 
trains of tanker cars carrying more than half a million barrels of 
crude to market.
    It's past time for industry and regulators to respond appropriately 
to the dramatic changes in the rail freight marketplace. I look forward 
to hearing from the railroads and oil producers today on their thoughts 
for the future of their respective industries. I also look forward to 
hearing the thoughts of the DOT regulators on what they believe we need 
to take to make the shipment of crude safer.
What I Hope to Learn From this Hearing
    I've spoken with many of the officials and agencies here today. We 
have talked about the derailment in Casselton as we seek to find out 
what happened and learn about the steps that we can take to prevent 
them from happening in the future. We have spoken about railcar safety 
standards, train speed limits, accident clean up, routing, training for 
first responders, the packaging of crude, track inspections--the list 
goes on.
    But you get my point--I've been looking into these issues since the 
Lac Megantic derailment in Quebec last summer--even before the 
derailment in Casselton. We were very fortunate no one was hurt as a 
result of the Casselton derailment. But as we saw in Quebec, that isn't 
always the case.
    Today, I hope to get some more insight into these issues and hear 
about them in a public forum. North Dakotans need to know that as 
traffic continues to increase on our rail system, they will be safe in 
their homes and communities. I'm committed to making sure that's the 
case.
    Understandably, rail safety is on the minds of many North Dakotans 
following the Casselton derailment and subsequent explosions--and it's 
certainly an issue I'm very focused on. For many of us in the Senate, 
the Casselton derailment has trained our focus on efforts to improve 
safety for the rail shipments of crude oil--and we need to consider all 
angles to update needed standards and regulations.
    To truly improve safety, we need to work together. An effective and 
comprehensive response will require coordination and collaboration--
from the industry, Federal regulators, and local governments. Everyone 
should want safety to be a top priority. And everyone should want to 
make sure we hit needed deadlines to show that safety is our top 
priority.
    DOT should set that example by leading the way. There are multiple 
jurisdictions within the DOT that are involved with the oversight and 
policy setting for the rail shipment of crude. It will be important 
that DOT provide the leadership to coordinate the activities of the 
multiple agencies involved and play an active role in guaranteeing the 
timely completion of the work of the Pipeline and Hazardous Materials 
Safety Administration (PHMSA) and the Federal Rail Administration (FRA) 
to improve the safety of crude rail transportation.
    I'm grateful to have Secretary Foxx at the helm, whom I believe is 
up to the task.
    Thank you again for the opportunity to contribute to this ongoing 
discussion today.

    Senator Heitkamp. Thank you so much.
    Senator Blumenthal. Thank you for joining us, Senator 
Heitkamp, and thank you for your excellent questions.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I want to follow up with Administrator Quarterman and 
PHMSA. I did write, along with Senator Landrieu, in December 
2012 and asked what you were doing and how soon we would get 
the regulations, understand the regulatory requirements for 
both the shipping industry, the shippers, as well as the 
railroads, so that they could go from the DOT-111 cars to the 
newer 1232 cars or whatever that model is going to be, what 
those requirements are going to be. And so, I come back to you 
today, and we've had some dialogue on it, but when are we going 
to see that standard so that the industry has some certainty 
and so we can move to the new cars as aggressively as possible?
    Ms. Quarterman. As I've said several times today, we're 
working very hard on getting that standard done, but a couple 
of things, I think, are important to remember here. The first 
is that the DOT-111 tank car itself was created in the 1960s 
and has had modifications over that time. So we're talking 
about a standard that could be in effect for decades.
    So we really need to get this right and, as you've heard 
from the panel today, from Vice Chairman Hart about his 
concerns about the 1232, the AAR about their modifications to 
their standards, and we're continuing, even though the 
rulemaking period has closed, to hear comments from many other 
stakeholders suggesting that the new standard should be 
different from either the 111 or the 1232. We really have to 
get all those comments together and look at the data and 
determine what the right new standard is for whatever number 
that new car because that's number one.
    Number two, the other important point to make is, as we 
have all said on this panel; this really requires a 
comprehensive approach. Do we need to improve the 111 tank car? 
Absolutely, we do. And we are working hard to make that happen, 
but that is a mitigative step. We need to first concentrate on 
prevention and do all these other things, like rerouting 
trains, perhaps slowing them down as we have with the AAR 
agreement, looking at braking mechanisms. We need to do all of 
those things together to improve and we're working on that 
hard.
    Senator Hoeven. Ms. Quarterman, of course we do. And that's 
what we've been talking about today. But I'm asking you when 
you're going to move forward with the new standard? That's the 
question I'm asking.
    Ms. Quarterman. Well, as I said earlier, FRA and PHMSA 
folks have been together working on a rule. We have a first 
draft of a rule. They are working on, what we call, a 
regulatory evaluation which is really the cost-benefit 
analysis; an important part of that----
    Senator Hoeven. Your rule has to go to OMB. Has that 
happened yet?
    Ms. Quarterman. It has not happened yet. No, it has not.
    Senator Hoeven. And they've talked about having a proposed 
rule out before the end of the year. Are you anticipating that 
timeline?
    Ms. Quarterman. I'm hopeful to beat that, yes.
    Senator Hoeven. OK. Now I'm going to turn to Mr. Searles 
and Mr. Hamberger.
    How can you two help make this happen in a way where we get 
it right and we get it done? And either one can start.
    Mr. Hamberger. In my humble opinion, one way to do it would 
be to split the rulemaking into two. Address the new tank car 
standard and then deal with the retrofits. There is a two-year 
backlog right now and those cars could be being built to a 
standard that a year from now is not deemed adequate. It seems 
to me that the message should be sent for certainty to, whether 
it's a railroad or shipper, a leasing company, whoever is 
buying a new car that this is the new car standard because it 
does have to last for 25 or 30 years. There is not a great deal 
of difference in the new car standard between some of the 
stakeholders that are talking to PHMSA. So that would be one 
thing that might be a way to show some progress. Because, the 
issue of the retrofit and phase-out, there are different types 
of DOT-111s; some of them actually have a jacket.
    And so, how do you deal with that? And, you know, what 
product is this for? And that, I think, is taking a lot of 
resources but it would just be an unasked-for thought, but 
since you asked that, maybe that would be one way to move 
forward at least on the new tank car standard.
    Senator Hoeven. Mr. Searles.
    Mr. Searles. Yes, thank you.
    I think that there are opportunities to move forward now 
with what we had consensus with 3 years ago. Those are safe 
cars; those are what are being built today; those are the 
things that will be the state-of-the-art. To that end, an 
interim final rule could be put forward today and you wouldn't 
have to worry about consistency and certainty taking place at 
that point. I agree that if you were looking at retrofits and 
those, there is more study that needs to be done. All of this 
needs to be done in a holistic and systematic way, as 
Administrator Quarterman suggested, because classification also 
has an impact to the tank car design. And we need to be able to 
get all of that information so that we are doing the right 
thing at the right time.
    Senator Hoeven. We had a meeting about 30 days ago with the 
regulators, with the railroads and with the shippers and we 
talked about a comprehensive plan with both short-term and 
long-term steps. We need to work together, we need to get it 
right, we need to be comprehensive, and we need to make this 
happen.
    I'd like to thank the Chairman and the Ranking Member, not 
only for holding this hearing but I brought up the positive 
train control issue. Mr. Blackwell, I would strongly recommend 
that FCC put forward a plan to this committee as to how they're 
going to work with the railroads to actually facilitate or to 
empower them to get the PTC in place by the end of 2015. I 
think that there's a lot of confusion here on how that can 
actually happen. And it seems to me, you've got to show the 
path whereby the railroad is able to respond. They have a 
responsibility, obviously, to do it. The one question I'd ask 
is, will there be a different standard for freight and 
passenger trains with PTC or will that be a consistent 
standard?
    Mr. Blackwell. No. The freight train would be able to be 
treated the same--oh, sorry. It'd be the same standard.
    Senator Hoeven. So, it would be the same standard?
    Mr. Blackwell. Same standard, yes.
    Senator Hoeven. Well, I'd strongly urge that some 
visibility on this path--I think Senator Blunt did a marvelous 
job of laying it out. I don't understand how that's going to 
work yet. But if we're going to have a comprehensive plan that 
both prevents derailments to the extent possible and then we 
make sure that we reduce the risk of fire or explosion or other 
risks, as well as having a strong emergency response, we've got 
to have positive train control. So just like we've got to move 
forward on the tank car standards, we've got to move forward 
with things like PTC; as well as the technology, Mr. Szabo. And 
we're going to try to help in terms of making sure that there's 
funding to do it but with both people and technology to 
inspect.
    So, Mr. Blackwell, you were going to say something and I'll 
wrap up here, Mr. Chairman.
    Mr. Blackwell. I was going to say, just to add, Senator, 
that many commuter rails are installing a different type of PTC 
system and can use existing infrastructure to deploy and 
because it's a much smaller order of magnitude are utilizing 
our existing system right now.
    Mr. Szabo. Senator, if I may, just two comments.
    I mean, first off, thank you for bringing up technology as 
did Senator Heitkamp. While I touched on it in my testimony, I 
would truly appreciate additional questions for the record to 
allow me to talk about that quite a bit more because our R&D 
program and advancing technology is going to be a critical 
piece of driving the next generation of safety. And two, the 
debate on PTC. The challenges with siting the towers just adds 
one more reason why my agency needs the power to do provisional 
certification so we can get as many pieces, you know, as much 
deployed as quickly as possible, you know, and get up and 
achieve those safety benefits.
    Senator Hoeven. We'll work with you on that.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thanks, Senator Hoeven.
    I think we're going to want all of you back and we're going 
to want you back soon. We're going to want to drill down--
forgive me for using the oil well analogy.
    [Laughter.]
    Senator Blumenthal. We don't have oil wells in Connecticut 
so I feel safe in using that term. But we do have freight, by 
the way. We have ten private freight railroad companies and 
they're moving ethanol. As a matter of fact, the amount of 
ethanol has grown from zero in 2011, to about 340 loads a month 
over two rail lines in 2012.
    So the issues that have been raised here, in terms of 
moving crude oil and moving fuel, are increasing in urgency and 
importance. And, just to follow up Senator Hoeven's comments, 
you know, a number of you said we need to get it right. Nobody 
disagrees that we need to get it right; we do need to get it 
right, but we need to get it done. And the delays that we've 
seen, for whatever the reasons, are putting people at risk. 
They're putting products and freight at risk, but they're also 
putting people at risk.
    And so, we need to develop a way to make this system work 
better. There has been general agreement that more authority 
and more resources are necessary. There will be questions for 
the record. I'm glad you raised that issue, Mr. Szabo. And I'm 
glad you would welcome them. We're going to keep the record 
open and a number of us will have questions for the record.
    I don't want to prolong this hearing now. I began by 
asking, Mr. Szabo, whether you could tell us anything about the 
results of Operation Deep Dive.
    Mr. Szabo. Yes. I committed that to you. We will have that 
report issued. Our deadline is March 17. We're endeavoring to 
meet that deadline and I promised you a personal briefing and 
that is still my commitment.
    And rest assured, while we're in the process of analyzing 
everything that's in the report, we're not just sitting back 
and waiting. We, in fact, have been in near daily contact with 
Metro-North on things that we believe deserve immediate 
improvement. And while there'll certainly be a, you know, a 
list of recommendations and perhaps other actions coming out of 
the report, we're not waiting for the issuants to issue all of 
those recommendations. We need fixes in real-time.
    Senator Blumenthal. Thank you.
    Well, fixes in real time is the message. And they have got 
to be real fixes in much realer time.
    And thank you all for being here today. Thank you to my 
colleagues, particularly Senator Blunt, for participating and 
thank you to the panel.
    This hearing is closed.
    [Whereupon, at 1:43 p.m., the hearing was adjourned.]
                            A P P E N D I X

                Prepared Statement of the City of Fargo
    Chairman Blumenthal and Ranking Member Blunt,

    In the past eight months there have been four train derailments 
involving cars carrying crude oil, three of which resulted in fire. 
Only one of those events resulted in the loss of life but the potential 
in the others was great.
    The derailment in Lac-Megantic first caught our attention last 
July. Our City Administrator, Pat Zavoral, and I met to discuss 
possible issues related to rail traffic as crude oil trains can be seen 
passing through the City of Fargo several times each day. We reached 
out to BNSF and held a teleconference with them to discuss the issues.
    Our first concern is the monitoring and maintenance of the rail 
lines that pass through Fargo. The shifting soils have long been noted 
to be a problem within our community. We were told the number of trains 
that pass through our community on a daily basis, are over 100 and 
climbing. This emphasizes the need to have a high level of security and 
extra maintenance efforts for the rail lines.
    The speed of trains that travel through our community is a concern 
as well. We recognize the impact that slowing and speeding up have on 
the travel time of the trains, but our main concern is the safety of 
the citizens around the rail lines. We have a full understanding of 
physics and the results of higher speeds and the resulting damage to 
the cars and adjacent properties when trains derail. Speed is a major 
component when we study the anatomy of a crash or derailment and we 
believe that slower speeds in major urban areas are essential to public 
safety.
    We recognize that slower speeds will make for a longer wait time at 
a rail crossing. Continued efforts to upgrade protection at grade 
crossings are essential. Grade crossings need to be looked at all along 
the lines not just within the borders of cities. This is evident to me 
daily, when the driving public will take the risk to quickly pass 
before a train reaches the crossing. Each time an engineer has to take 
emergency measures to slow a train to avoid a potential crash there 
becomes another opportunity to fatigue the parts on the cars and cause 
issues further down the line.
    The construction of the cars that carry crude is another area of 
concern. Everything we are learning about Bakken Crude Oil is that it 
is more flammable, has lower ignition points, and lower flash points. 
It is imperative for the public's safety that this material is treated 
and transported in a manner will commensurate with the volatility of 
the product. As newer, safer cars are built it is important that the 
railroad industry looks closely at the car's features as they put 
trains together.
    Recent discussions about railcar safety have indicated that new 
cars should have more protection at the bulkheads as well as better 
protection for the valves and other assemblies on the cars. The 
suggestions here are welcome, however; it is imperative that as train 
cars are arranged the old design and new designed cars will not be 
placed in close proximity to each other. The concern that we have is 
that an old car involved in a derailment will tear open and potentially 
ignite the crude inside.
    If a new car is the next car in the line, the protection that is 
afforded in that car could potentially be of great danger to responders 
to the incident. It is our fear that the newly designed car may act 
more like a pressurized vehicle if there is direct flame impingement on 
that car. As the crude inside heats and the pressure builds, the 
potential is there for a more violent and catastrophic explosion of 
that car. It would be our hope that only like constructed cars will be 
put in sequence when placing together a crude or ethanol train.
    The causes for all of the past derailments are different, from 
human error to broken equipment to weather. We will never be able to 
predict the next derailment or its cause. I believe it is imperative 
that congress work with the railroad to implement Positive Train 
Control (PTC). This will allow for earlier detection of issues along 
the line and will be able to slow the train traffic in an area if a 
problem is noted.
    This is of particular concern to Fargo as we have several trains 
that pass each other as they pass through our community. If we have a 
derailment of a train within the community, any measures that we can 
provide to prevent a potential issue should be put in place.
    We recognize the impact that the railroad has had in the 
development of our country. We recognize the impact that the railroad 
will have in the future expansion of our economy and interstate 
commerce. We support the use of rail to move products throughout our 
country. The BNSF has been a great partner with the Fargo Fire 
Department and we appreciate the support that we receive from them. As 
you consider measures that regulate railroad industry, we ask that you 
do so with public safety and the safety of first responders in mind.
            Thank you for your time,
                                         Steven J. Dirksen,
                                                        Fire Chief,
                                                     City of Fargo, ND.
Cc: U.S. Senator Heidi Heitkamp
U.S. Senator John Hoeven
U.S. Senator Amy Klobuchar
                                 ______
                                 
            Prepared Statement of Bruce Bennett, President, 
                       Stage 8 Locking Fasteners
    Mr. Chairman and Ranking Minority Member:

    Thank you very much for including my statement in the official 
record of this oversight hearing.
    Stage 8 Locking Fasteners is a small business located in San 
Rafael, California. The company has been designing and manufacturing 
only locking systems for standard and custom fasteners for a wide range 
of industrial application for 30 years. These industrial applications 
include power generation and distribution, automotive, construction 
equipment, farm machinery, and military applications to include 
critical applications on the Family of Medium Tactical Vehicles (FMTV). 
Railroad applications of Stage 8 Locking systems include locomotive 
components, critical track fasteners for crossings, switches and other 
components. All Stage 8 locking systems are designed to improve safety 
while increasing reliability.
    I would like to address a railroad safety issue that could 
ultimately affect the lives and safety of thousands of people. From 
2001 through 2010, the Federal Railroad Administration reported that 
there were some 8,092 derailments on U.S. railroads. The third largest 
cause was mechanical problems with the wheel sets. The remainder were 
caused by track defects, signal failures, miscellaneous and human 
factors. My company, Stage 8 Locking Fasteners, has worked closely with 
the Wheels, Axels, Bearings, and Lubrication (WABL) Committee of the 
American Association of Railroads (AAR) on an important safety device, 
a new Roller Bearing Cap Screw Locking Plate, which has been approved 
as an alternative to the standard locking plate. We have developed this 
system to prevent future derailments caused by loose roller bearings, 
focusing on the failure modes of freight car and passenger car wheel 
sets. We found through testing that vibrations associated with railroad 
use regularly loosened fasteners (e.g., nuts and bolts) in railway 
rolling stock, track and bridge structures. As a result, we have 
developed a safety system that ensures against cap screw fastener 
loosening and the resulting bearing failure. Roller Bearing Cap Screws 
are an important safety device which, when kept tight, significantly 
decrease failures of Roller Bearing components and derailments.
    In 2011, Stage 8 made two very impressive ``hands-on'' 
demonstrations of their new safety system to individuals in the Offices 
of the Federal Railroad Administration (FRA), specifically in the 
Motive Power and Equipment Division within the Office of Safety 
Assurance and Compliance, as well as to the Deputy Associate FRA 
Director. The end result of those meetings was the recognition that the 
safety solution presented to them was indeed an ``excellent solution'' 
in preventing future derailments. However, in both meetings, the FRA 
claimed ``their hands were tied'' because they had no regulatory power 
to influence the disposition of this type of equipment and that it was 
the job of the railroad industry to police their own.
    We are aware that the AAR has adopted a Manual of Standards 
(industry voluntary standards), designed to ensure safe operation of 
railroads and rail cars. One of its standards does mandate the torque 
values when applying the cap screws on the various end caps, on freight 
car wheels, and additionally mandates the breakaway torque, that should 
be there, when they remove the wheels for servicing. It is highly 
questionable the extent to which rail car companies are complying with 
the maintenance and replacement policies under this AAR voluntary 
industry standard. The FRA currently mandates that cars be removed from 
service if an end cap screw is loose, however it is my understanding 
that there is currently no way to check for loose cap screws prior to 
failure, and that this requirement is currently not enforced or 
enforceable. Our new Cap Screw Locking System provides for visual 
inspection which, at a glance, tells if the cap screw remains properly 
torqued.
    This safety locking system would prevent future derailments caused 
by roller bearing failure due to loosening cap screws, focusing on the 
failure modes of freight rail cars, as well as passenger cars. One of 
the company's experts--who was previously a Mechanical Design Engineer 
in the Mechanical Department of the Southern Pacific Transportation 
Company--spent the majority of his time analyzing the causes of 
derailments. He found that vibrations associated with railroad use 
regularly loosened fasteners (e.g., nuts and bolts) in railway rolling 
stock, track and bridge structures. As a result, years later the 
President and Founder of Stage 8 developed a safety system that would 
ensure against fastener loosening and derailments from premature 
rollerbearing failure caused by those loose fasteners.
    The Roller Bearing Manufacturers Engineering Committee (RBMEC) 
reports that 23 percent of all bearing Failure Progression Modes (FPM) 
are coded 'LO' for loose. The Stage 8 Cap Screw Locking system (CSLS) 
prevents loose roller bearings and provides a significant safety 
improvement. Canadian National Railroad internal MD-11 reports further 
support this data.
    Stage 8 subjected its safety locking system to a rigorous field 
test over the period from October 2010 to July 2013. Present at the 
test were John Hyde and Gerry Kubicka from Stage 8, Dr. Todd Snyder 
representing WABL, Dwight Porter, Justin Schrewsberry and shop 
personnel from Progress Rail. Attached is a summary of the test 
results. The highlights of the results are highly significant:

  <bullet> Stage 8 and WABL conducted the tests over 150,000 miles 
        hauling coal from Wyoming to Missouri.

  <bullet> An equal number of wheel sets were equipped with the Stage 8 
        Cap Screw Locking Systems (CSLS) and compared to the legacy cap 
        screw locking systems installed on the other wheel set on the 
        same truck.

  <bullet> Twenty-nine percent of the wheel sets equipped with the 
        standard locking plates were removed from service within 30 
        days prior to the residual torque tests due to various failure 
        reasons and were therefore not available for testing--
        classified as failed and removed.

  <bullet> No Stage 8 wheel sets were taken out of service, for any 
        reason, during the over 150,000 mile test period.

  <bullet> All of the wheel sets equipped with the Stage 8 Cap Screw 
        Locking System retained 100 percent of the initial torque 
        applied

  <bullet> Only 20 percent of the wheel sets equipped with the legacy 
        cap screw locking system retained over 90 percent of the 
        initial torque applied.

  <bullet> 74 percent of the wheel sets equipped with the legacy system 
        retained between 50 percent and 90 percent of the initial 
        torque applied.

  <bullet> 7 percent of the wheel sets equipped with the legacy cap 
        screw locking system suffered total failure.

    The cost-benefit analysis of this technology demonstrates how this 
safety system could save the railroad industry millions of dollars. The 
analysis states:

        The overall cost to the railroad industry of wheel sets due to 
        loosening roller bearing components was a staggering 
        $223,590,820 in 2010 based on the number of wheel sets changed 
        and the $1,940 cost per wheel set. According to a 2009 
        University of Illinois Engineering Department study, 
        derailments caused by loosening resulted in additional annual 
        costs of $6.2 million. Derailment costs are not included in 
        this analysis; however, the safety improvements of the CSLS 
        must be taken into consideration when analyzing the overall 
        advantages of the CSLS.

        It is estimated that installation of the CSLS will be completed 
        on the entire fleet of 1,363,423 freight cars over a period of 
        seven years, at a cost of $30,930,225 per year. This cost would 
        be offset by the savings of $38,580,735 in the first year 
        alone, resulting in the return of the initial investment plus 
        $7,650,511. The overall net savings over the first seven years 
        averages $607.61 per car for each and every car in the fleet. 
        The end result is an annual return of $7 for every $1 invested 
        in equipping a car with the CSLS.

    In March of 2011, Stage 8 presented this system to engineering 
experts in the Federal Rail Administration's Motive Power & Equipment 
Division of the Office of Safety Assurance and Compliance. The FRA 
officials assured us our safety system was an ``excellent solution'' to 
the problem and would certainly prevent future derailments due to loose 
bearings. However, notwithstanding the merits of our safety system, the 
Office of Safety Assurance and Compliance then informed us that the FRA 
could do nothing to ensure the railcar industry takes a hard look at 
this life-saving technology.
    We are astounded that a Federal agency charged with the 
responsibility of ensuring the safety of freight and passenger rail 
transportation admits to not having sufficient regulatory authority to 
take appropriate measures to prevent train derailments and cannot 
enforce existing regulations requiring the removal of wheel sets when 
they do not function properly.
    In the best interests of railroad safety, I would request that, in 
developing any broad rail safety legislation that legislative authority 
be included in the bill instructing the Federal Railroad Administration 
to commence in a rulemaking that would incorporate the current AAR 
safety standards as part of the agency's mandatory rules to enable the 
FRA to enforce these standards. Railroad companies and companies that 
own and operate freight and passenger rail cars would be required to 
comply with specific torque values for the end cap screws at 
installation and during service where it is most needed to ensure 
against premature or catastrophic failure, and upon removal.
    I would also like to request that reports and studies 
substantiating the nature of the problem addressed in my testimony and 
attached to my statement also be included in the hearing record.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Hon. Joseph C. Szabo
    Question 1. The FRA's Operation Deep Dive, which is a 60 day 
comprehensive review of Metro-North's safety practices and standards, 
commenced on December 16, 2013 and was released on March 14, 2014. The 
FRA examined all safety related aspects of Metro-North Railroad 
including track quality, inspection methodology and quality of repair, 
signaling and train control functionality, and protection for on track 
crews. What can you share with us today about what the FRA has learned 
from its comprehensive review about Metro-North's safety culture?
    Answer. FRA learned that Metro-North had an unhealthy safety 
culture. They placed an emphasis on on-time performance, to the 
detriment of safety: track inspections were rushed, Metro-North track 
maintenance standards were not met, and mainline efficiency tests were 
not conducted so as to not adversely impact on-time performance. These 
issues were part of a faulty culture that Metro-North allowed to 
develop.
    FRA learned that Metro-North had no office or department, including 
its Safety Department, that proactively advocated for safety. No Metro-
North office or department actively searched for unsafe conditions and 
practices, and once they were discovered, no one took ownership to 
ensure effective remediation.
    FRA also learned that safety-related training and management 
oversight were deficient across departments.
    FRA provided its detailed findings and recommendations in a report 
to Congress by March 17, 2014.

    Question 2. In a report published on April 17, 2013 the DOT 
Inspector General evinced findings that the FRA was delayed on issuing 
rules that Congress directed in the Rail Safety Improvement Act of 2008 
(RSIA). At the time of the report, FRA had not issued 9 of the 17 final 
rules mandated by RSIA.
    The DOT IG report also found that there were inefficiencies in the 
Railroad Safety Advisory Committee or RSAC process, namely that there 
were breakdowns in communication between FRA and the RSAC on several 
rulemakings and that certain critical documents were not shared with 
the stakeholders sitting on the RSAC.
    Because of these issues, the Inspector General concluded that the 
``delayed promulgation of the RSIA required rules has delayed the 
mitigation of railroad industry safety hazards that Congress intended 
the rules to address.''
    The FRA, in January, did issue final rules for adjacent track work 
and rail integrity. FRA has also announced its plan to begin the 
rulemaking process for inward and outward facing cameras. This leaves 8 
rules left for the FRA to issue. Why hasn't the FRA done everything it 
can to protect passengers?
    Anyone who rides the rail in this country deserves a safe and 
reliable service. I am deeply concerned by the apparent failings at FRA 
to heed important safety recommendations by Congress and the NTSB, our 
Nation's top Federal safety organization. The NTSB has been calling for 
cameras in and on trains since 2008. It's 2014; why have you not acted? 
It's baffling that it took a major derailment in New York in December 
to get the FRA to commit to requiring cameras. I'm concerned that 
regulatory capture is getting in the way of the FRA's work, which is 
absolutely critical to protecting the traveling public. If you can 
simply issue an emergency order requiring cameras, why not do that? 
Commuters deserve more. What is the status of the inward/outward facing 
camera rule? What is the plan? What is the timeline for action? Action 
appears to be missing.
    What is the status of other delayed rules like the training 
standards for railroad employees rule? The FRA should be doing 
everything it can to protect passengers; but the failure to require 
even basic safety recommendations from the NTSB concerns me, many of my 
colleagues and many of the constituents I've spoken with.
    What are inefficiencies in the rulemaking process that you can 
improve to cut down the time it takes to develop new rules? Does the 
RSAC process work? Do you agree that the FRA has a problem with 
regulatory capture--if not, why not?
    Answer. FRA continues to act diligently in completing its 
regulatory workload, placing a priority on those rulemakings that will 
most effectively advance safety, particularly those required by 
Congressional mandate.
    As to how to reduce ``the inefficiencies of the rulemaking 
process'' in general, FRA has to strike a balance between speed and 
quality. ``Quality'' includes adherence to demanding procedural and 
substantive legal requirements. As you know, all three branches of the 
Federal Government--Congress, the courts, and the Executive Branch--
have established certain mandatory procedures and substantive 
requirements related to the rulemaking process (i.e., the development 
and issuance of regulations, including FRA safety regulations). With 
few exceptions, before FRA is permitted to issue a final rule, there 
must be public notice of the proposal and an opportunity for public 
comment; a reasonable response to any public comments; an articulated, 
rational basis for the rule; and consistency of the rule with any 
applicable laws.
    For many FRA rulemakings, other Federal agencies and offices are 
part of the clearance process: these draft rulemaking documents, 
cleared by FRA staff and by me as Administrator, go into a pipeline 
that extends from this agency to the Office of the Secretary of 
Transportation, which circulates the document to other agencies and 
offices within the Department, and then to the Office of Management and 
Budget, where the draft rule is circulated to relevant non-DOT agencies 
and offices.
    Costs and benefits of a draft proposed rule and draft final rule 
must be identified, analyzed, and weighed against each other. This 
evaluation can be very complex, but provides critical information to 
decision makers, reviewers, and the public. It should also be noted 
that the complex nature of the administrative review process for draft 
rulemaking documents means that widening one part of the pipeline 
(e.g., by adding resources) is not enough to expedite issuance of a 
rule if the rest of the pipeline remains narrow; the delay simply 
occurs at a different stage of the process. After FRA issues a final 
rule, FRA's procedural rules provide for the filing of petitions for 
reconsideration, a vehicle through which litigation is often avoided, 
thus conserving administrative and judicial resources. A final rule is 
also subject to judicial review in the U.S. Courts of Appeals and may 
be set aside by the court. (By contrast, NTSB does not issue rules; it 
issues recommendations, and these recommendations are not subject to 
notice and comment, cost-benefit analysis, or judicial review.)
    Regarding inward- or outward-facing cameras, it is important to 
note they would not have prevented the December 1 Spuyten Duyvil 
derailment. FRA acted appropriately with Emergency Order 29 to require 
those measures that had a direct relationship to the accident and would 
provide immediate safety benefits to Metro-North's operation. While 
Congress could have mandated a camera when it passed the RSIA in 2008, 
it chose not to, so congressionally mandated rulemakings were given 
priority in the rulemaking process. FRA does believe that inward-and 
outward-facing cameras can provide value and will assist in accident 
investigations. That is why in the summer of 2013, while giving 
priority to finishing the 42 Congressional mandates established in the 
RSIA, FRA was involved in various camera projects occurring in the 
industry. Based on what we learned, FRA placed this issue on our 
internal rulemaking agenda in November of 2013 for action in 2014. As 
planned, the Railroad Safety Advisory Committee (RSAC) has accepted the 
task of formulating recommendations on the appropriate design and use 
of locomotive-mounted cameras and will begin RSAC working group 
meetings on the topic this summer, with recommendations due early next 
year.
    You asked whether FRA has a problem with ``regulatory capture.'' I 
can assure you that it does not. FRA is a data-driven agency, dedicated 
to achieving its safety mission for the good of the public, and subject 
to the highest ethical standards. FRA works tremendously hard to ensure 
that it prioritizes its rulemaking endeavors to address the most 
safety-critical issues in the timeliest fashion. Given the 42 
individual mandates imposed on the agency in the RSIA, FRA has utilized 
its limited resources in an efficient manner in order to advance and 
address the safety needs of the country and industry in a timely 
fashion. During the five-year period from February 1, 2009, to January 
31, 2014, FRA published approximately 76 major regulatory documents, 
including 66 advance notices of proposed rulemaking, notices of 
proposed rulemaking (NPRMs), and final rules; 3 emergency orders; and 7 
interpretations, for an average of more than 15 major regulatory 
documents per year. We are also actively involved in many pending 
rulemakings, including one on fatigue management, which will address 
the issue of sleep apnea and other fatigue-related issues.
    We believe our approach to handling and prioritizing rulemakings 
has increased the level of safety across the industry. This is 
evidenced by the historically low accident statistics during the last 
ten calendar years. During this period, total derailments decreased 48 
percent, total train accidents decreased 48 percent, and total highway-
rail grade crossing accidents decreased 32 percent. The year 2012 had 
record low numbers of train accidents, and that safety record was 
surpassed in 2013. But we always owe the public better. Our goal is to 
drive continuous safety improvement. We expect this of ourselves and we 
expect it of the industry we regulate.
    You also asked if the RSAC process works. The RSAC process not only 
works, it is vital--especially for the difficult issues, which we tend 
to propose be handled there. It ensures the highest level of 
transparency and provides the highest level of public input. A 
chartered advisory committee under the Federal Advisory Committee Act, 
RSAC includes representatives of stakeholders throughout the railroad 
industry (rail labor, rail management, rail suppliers, rail passengers, 
State rail safety programs, and other organizations), and ensures that 
FRA hears a wide range of opinions early in the rulemaking process so 
that proposals are appropriately vetted early, clarified, and 
communicated. The RSAC's meetings are also open to the general public, 
announced in the Federal Register, and part of the agency's public 
docket system. The RSAC process saves time--especially at the end of 
the process--by making the cost-benefit analysis more accurate, 
minimizing petitions for reconsideration, and creating a rule that is 
understood by the regulated community.
    Regarding the current status of the rulemakings mandated by the 
RSIA, I refer you to a list attached to my prepared testimony, 
enumerating the FRA rulemakings completed as of today (March 6, 2014), 
that were mandated, explicitly or implicitly, by RSIA. Here is the 
status to date of the remaining RSIA-mandated rulemakings:

  1.  The critical incidents final rule was in the final stages of 
        review at FRA.

  2.  The training standards final rule was in review in the Executive 
        Branch.

  3.  The system safety plan final rule was being reviewed within FRA.

  4.  The NPRM on risk reduction plans was being reviewed within the 
        Department of Transportation.

  5.  The NPRM to extend the alcohol and drug rule to maintenance-of-
        way workers had been redesignated by OMB as non-significant and 
        was expected to be published in April.

  6.  The emergency escape breathing apparatus final rule was delayed 
        due to competing priorities and need to reexamine data for an 
        economical option to comply with the RSIA.

  7.  The dark territory rule was being held in abeyance because 
        technology implementation plans expected in railroads' risk 
        reduction and system safety plans will likely make the rule 
        unnecessary for safety. (The mandate is for either a rule or 
        guidance.)

    Question 3. As a result of Metro-North's series of recent accidents 
in the past year, the FRA issued several orders and recommendations to 
Metro-North to improve its safety standards in the short term. FRA 
ordered a safety stand down for Metro-North, directed the railroad to 
implement a confidential reporting system for employees, and issued an 
emergency order to Metro-North to modify its signal system at critical 
curves on the rail line.
    Most of the public orders and recommendations only came after 
Metro-North experienced its 4th major incident. Where was the FRA last 
spring? What actions did you immediately take after the first 
derailment in May 2013 in Bridgeport? The FRA seemed pretty quiet only 
until the December incident--what specific steps did you take 
immediately after the Bridgeport derailment to improve safety and 
reliability at our Nation's largest public transit provider?
    What assurances can you give to us today and to the commuting 
public that Metro-North has a trustworthy level of safety while FRA 
rules are being developed and finalized?
    Is there sufficient reason to have confidence in this railroad in 
the short-term while we develop long-term solutions?
    Answer. Following the May 2013 Bridgeport derailment, on June 2, I 
personally met with Metro-North President Howard Permut to discuss 
concerns about their safety culture and the need to implement a 
confidential close calls reporting program. From May through November 
2013, FRA conducted 245 inspections on the Metro-North system, and 
conducted a focused inspection of Metro-North's Roadway Worker 
Protection. Given that the joint NTSB-FRA investigation is focusing on 
a failure in a compromise joint in the track, FRA increased track 
inspections utilizing FRA track inspectors and an FRA Automated Track 
Inspection Program (ATIP) vehicle, which FRA uses to inspect track to 
determine whether the track conforms with the track geometry standards 
set in FRA's Track Safety Standards (49 C.F.R. part 213) (e.g., proper 
gage). (Between June 3-20, FRA's ATIP car covered the entire Metro-
North territory.)
    On June 26, FRA facilitated a meeting on compromise joints hosted 
by Metro-North. In addition to Metro-North, participating railroads 
included Amtrak, Long Island Rail Road, New Jersey Transit Rail 
Operations, and Port Authority Trans-Hudson. The agenda covered 
compromise-joint protocol including inspection and maintenance, an FRA 
presentation on joint bar inspection technology, and a general 
discussion to identify best practices. This was followed by a second 
meeting with Metro-North, Amtrak, and Long Island Rail Road to discuss 
automated track inspection technology, with FRA again presenting. 
Metro-North indicated it would explore possible utilization of an 
automated ride-monitoring system to supplement periodic track-geometry 
surveys.
    On July 12, in a meeting with Metro-North President Howard Permut, 
FRA stressed that safety must take priority over on-time performance. 
Mud conditions on the Harlem Line were discussed, along with Positive 
Train Control for the New Haven Line, between New Rochelle and New 
Haven (on Amtrak's Northeast Corridor), and Metro-North's 
reconsideration of the possibility of participating in FRA's voluntary 
Confidential Close Call Reporting System (C\3\RS) program. Mr. Permut 
responded by noting the existence of numerous capital projects 
(bridges, stations, catenary, rail, and ties) and the absence or near-
absence of funding from the State of Connecticut and the Federal 
Government.
    Throughout Operation Deep Dive, the FRA teams met regularly with 
Metro-North leadership and staff. Where appropriate and practicable, 
Metro-North immediately implemented corrective actions in response to 
the safety concerns that FRA identified.
    To provide an update to my March 6, 2014, testimony, Metro-North's 
new president has fully accepted FRA's March 17, 2014, Deep Dive 
Report, its findings, and directed actions and recommendations; has 
fully acknowledged the problems confronting the railroad; and has 
committed to working with FRA to restore the railroad to a level of 
safety preeminence. In light of this, FRA has confidence that progress 
is being achieved and will continue to be achieved.
    FRA will be conducting 30-day progress meetings to track Metro-
North's advancement in addressing the safety issues identified through 
Operation Deep Dive and other actions to enhance safety. In addition, 
the FRA Deep Dive teams are returning to the Metro-North to observe and 
document the railroad's actions in response to FRA's findings. Some of 
FRA's directed actions and recommendations can be achieved in the short 
term; for others, more time is needed. The safety culture of the 
organization cannot be changed overnight, but there is reason to be 
confident that safety will be improved in both the short and long term, 
with the management of Metro-North, the railroad's employees, FRA, and 
other interested stakeholders working together.

    Question 4. Following Metro-North's incidents and coming 
immediately in the aftermath of the Spuyten Duyvil derailment, the FRA 
was able to issue several safety directives to Metro-North but was only 
able to issue an Emergency Order for the modification of the railroad's 
signal system. According to your office, Emergency Orders are difficult 
to issue, as there have only been 29 in the FRA's history. An Emergency 
Order for the other safety directives, for instance the confidential 
close call reporting system, could have been extremely beneficial for 
reasons of greater enforcement and oversight to ensure compliance. Does 
the FRA need more authority from Congress to be able to issue Emergency 
Orders more easily? Do you lack authority in other areas that Congress 
should review to help the FRA protect passengers?
    Answer. FRA's existing statutory authority to issue emergency 
orders, as well as other safety orders and regulations, properly 
requires an assessment that addresses all aspects of the public 
interest. The statutory language conferring the authority to issue an 
emergency order reads, in part, as follows:

  (1)  If, through testing, inspection, investigation, or research 
        carried out under [49 U.S.C. chapter 201], the Secretary of 
        Transportation decides that an unsafe condition or practice, or 
        a combination of unsafe conditions and practices, causes an 
        emergency situation involving a hazard of death, personal 
        injury, or significant harm to the environment, the Secretary 
        immediately may order restrictions and prohibitions, without 
        regard to section 20103(e) of this title [i.e., prior notice 
        and an opportunity for comment and oral presentation] that may 
        be necessary to abate the situation.

  (2)  The order shall describe the condition or practice, or a 
        combination of conditions and practices, that causes the 
        emergency situation and prescribe standards and procedures for 
        obtaining relief from the order. * * *

    49 U.S.C. 20104(a). The statute sets a high bar for issuing an 
emergency order, because it is issued without prior public notice and 
an opportunity for public comment. In that sense, it is difficult to 
issue an emergency order. An emergency order represents final agency 
action, which is subject to review both administratively and in the 
U.S. Courts of Appeals. 49 U.S.C. 20104(b), 20114(c).
    FRA's Emergency Order 29 was appropriate to address the immediate 
safety issues identified in the most effective way. In particular, 
Emergency Order 29 required Metro-North to take immediate action to 
prevent excessive train speeds by (1) identifying and prioritizing 
high-risk areas where operating rules required speeds to be reduced by 
more than 20 mph, (2) modifying its existing signal system to ensure 
speed limits are obeyed, and (3) ensuring a higher level of engagement 
and communication among operating crewmembers in higher risk locations. 
To date, FRA has not identified any instances of noncompliance with 
Emergency Order 29.
    Issuance of an emergency order to mandate a C\3\RS program on the 
railroad would have been inappropriate and unproductive. A confidential 
close call reporting program only works if an organization has ``buy 
in'' from employees and management at all levels so that it is 
voluntary, and only if appropriate protections are in place to ensure 
that employees have a confidential, discipline-free method to report 
close call events. It is not a quick fix. It is meant to provide 
valuable data that can be analyzed to improve safety over time.
    Notably, new leadership at Metro-North has agreed to implement a 
C\3\RS program, and FRA is currently in the development and 
implementation of such a program.

    Question 5. According to a 2012 report by the U.S. Government 
Accountability Office (GAO), FRA is only able to inspect about 1 
percent of the Nation's tracks each year with the resources they are 
allocated.
    The agency's rail-safety oversight framework relies on inspections 
to ensure railroads comply with Federal safety regulations. FRA 
inspects railroad infrastructure and operations, identifies safety 
defects, and may cite railroads for violations.
    The GAO has found that the FRA faces three major rail safety 
challenges--(1) implementation of its oversight of mandated safety 
measures and new railroad risk reduction plans, (2) adjusting to 
changing rail traffic flows, and (3) ensuring it has enough inspectors 
for its current and future oversight workload.
    Mr. Szabo: Has the FRA been able to increase the percentage of 
track inspected in one year since 2012? What can be done to increase 
this coverage? How much will the additional funding in the Safety and 
Operations Budget help?
    Answer. In FY 2014, FRA received $184.5 million for its Safety and 
Operations account, an increase of $15 million from FY 2013. This 
increase will allow FRA to hire 45 new staff and should enable FRA to 
have roughly 350 inspectors on board by the end of this fiscal year. By 
strategically using safety data, FRA assigns its inspectors across its 
eight regions and five safety disciplines to help ensure maximum safety 
benefits. To do this, FRA uses a mathematical staffing allocation model 
that is driven by statistical analysis, and then adjusts the allocation 
based on knowledge of local conditions and emerging safety issues.

    Question 6. Does the FRA use any automated inspection technology to 
oversee safety of the U.S. railroads?
    Answer. Yes. The primary automated inspection technology that FRA 
uses to oversee safety of the U.S. railroads is the ATIP program, which 
I described briefly earlier. The broad purpose of the ATIP program is 
to minimize the risk and severity of a train accident, which 
potentially includes a catastrophic hazardous materials incident, by 
accurately collecting and distributing track geometry information and 
intelligence, both to FRA and to the railroads whose track is being 
inspected by FRA. The data collected by the ATIP cars provides 
supplemental assistance to all railroad inspectors through advance 
detection of potential accident-causing hazards by identifying 
noncompliant and unsafe track geometry locations and conditions needing 
evaluation and remediation. ATIP prioritizes its surveys to maximize 
its capability to detect potential accident-causing hazards on higher 
risk routes, such as passenger, hazardous material, and higher speed 
track. The accurate track geometry information is disseminated to FRA 
and respective railroads for evaluation and remediation to minimize the 
risk of a passenger train accident or catastrophic hazardous material 
train accident.
    FRA also anticipates the potential need for ATIP to support 
requests from other U.S. Government agencies for track inspections, 
such as we have gotten in the past. These agencies include the 
Department of Energy (track inspections prior to rail shipments of 
nuclear fuel) and the Department of Defense (route surveys of the 
Strategic Rail Corridor Network, or STRACNET (which is an 
interconnected and continuous rail line network consisting of more than 
36,000 miles of track serving more than 130 defense installations)). In 
addition, FRA provides support for the Department of State.
    The ATIP survey miles for the past four years are listed in the 
table below:


------------------------------------------------------------------------
                                       Amtrak Assessment
   Calendar      ATIP Enforcement     (2010-2012)/ Remote    Total Miles
     Year                              operation (2013)
------------------------------------------------------------------------
2010           52,760               29,245                        82,005
------------------------------------------------------------------------
2011           42,717               34,224                        76,941
------------------------------------------------------------------------
2012           53,225               21,896                        75,121
------------------------------------------------------------------------
2013           40,523               16,561                        57,084
------------------------------------------------------------------------


    Question 7. What technology does the FRA use to detect early signs 
of troubles before they become accidents?
    Answer. FRA is also working with railroads and labor organizations 
to implement voluntary programs to collect information about safety 
issues before they develop into accidents. Railroads that use the 
C\3\RS, for example, let their employees anonymously report unsafe 
track (and other) conditions to supplement FRA's ATIP inspections, 
FRA's regulatory inspections, and the carriers' own track inspections. 
C\3\RS is a key piece of FRA's efforts to proactively improve safety. 
It is designed to improve railroad safety practices by collecting and 
studying confidential close call reports detailing unsafe conditions or 
events, and developing and implementing targeted corrective actions. At 
its core, C\3\RS is voluntary, confidential, and non-punitive. FRA is 
currently engaged in expanding the program nationwide. C\3\RS programs 
are actively running on the Union Pacific Railroad Company, the 
National Passenger Railroad Corporation (Amtrak), New Jersey Transit 
Rail Operations, and the Strasburg Rail Road, and FRA is working with 
additional railroads, including Metro-North, and the Long Island Rail 
Road, to implement program sites.
    FRA also provides oversight of the rail inspection technology 
utilized by the railroads to perform rail inspections through the 
agency's Rail and Infrastructure Integrity Division. The Rail Integrity 
Branch within the Rail and Infrastructure Integrity Division was 
established to provide FRA oversight on railway non-destructive 
inspection technologies for detection of internal rail flaws and for 
other rail-related maintenance programs. This branch performs onsite 
inspections, investigations, and/or evaluations to determine the 
effectiveness of railroads' programs that address the inspection, 
maintenance, and replacement of rail.
    The branch provides oversight into the capabilities of the 
industry's various computerized non-destructive rail-inspection 
systems, the training and experience of the flaw detector car 
operators, and the accuracy of the defect verification/identification 
process utilized by the test car operator. Exposure to all phases of 
these processes has considerably increased total FRA safety oversight 
within the industry.
    As one example of how the Rail Integrity Branch is developing 
expertise that will potentially improve rail inspection technology and 
expand its deployment, the branch oversees waivers issued to CSX 
Transportation, Inc. (CSX), that allow relief from certain provisions 
of the Track Safety Standards. As a condition for granting these 
waivers, CSX has implemented an experimental process for continuous 
test rail inspection that has the potential to minimize risk associated 
with rail-flaw development by allowing the carrier to test its rail 
more frequently, control rail-flaw development, and reduce service 
failure and derailments. The inspection technology is referred to as an 
``ultrasonic computer based test system.'' The project also shows 
significant potential to improve railway safety by increasing 
inspection speed and providing extended system coverage. Based on the 
results of initial trial performance of this technology, FRA believes 
that this experimental rail inspection system may ultimately prove to 
be more capable than the system previously used, in terms of its 
ability to identify rail flaws and to do so quickly. FRA is working 
with CSX to improve this continuous rail inspection process.

    Question 8. Does the FRA have its own means of verifying railroads' 
compliance with the Federal safety standards or does it depend on the 
railroads' own inspection data?
    Answer. FRA inspectors conduct routine inspections to verify 
railroads' compliance with the Federal railroad safety standards and 
the Hazardous Materials Regulations. FRA's inspections are conducted on 
track, signal systems (including signal systems installed on 
locomotives and signal systems installed along the track wayside), 
rolling stock (locomotives and railcars), operating practices, and the 
transportation of hazardous materials. We also carry out regular 
inspections of companies that offer hazardous material for 
transportation by rail (rail shippers) to determine their compliance 
with the Hazardous Materials Regulations. FRA also routinely audits 
railroads' bridge programs, as well as the accuracy of a railroad's 
accident and incident reporting. We also investigate hundreds of 
complaints submitted to FRA each year by private citizens alleging 
violations of Federal rail safety or hazardous materials requirements.
    FRA uses information technology to strategically analyze FRA's 
inspection and accident/incident data in order to identify trends and 
prioritize inspections. FRA's C\3\RS program also uses information 
technology to sort the C\3\RS data and identify emerging risks.
    And, as previously mentioned, FRA conducts an ATIP Program. It 
utilizes a fleet of track geometry vehicles. The ATIP vehicles traverse 
the Nation conducting track-geometry surveys, the results of which are 
shared with the railroad being inspected. The ATIP vehicles identify 
defective conditions and conditions that could eventually develop into 
defects, thus identifying early signs of trouble before they cause 
accidents. Note, however, that FRA's role is to monitor the railroads 
to determine whether their track is in compliance, not to inspect the 
track itself. The duty to inspect for compliance with the Track Safety 
Standards rests on the track owners, which are the railroads. Many 
railroads have their own automated track inspection vehicles to inspect 
their own track.

    Question 9. The FRA regulates railroads across the entire country. 
At NTSB's November hearings on the Metro-North Bridgeport derailment 
and the West Haven accident, a representative from the Long Island Rail 
Road (LIRR) testified that the LIRR conducts inspections at a higher 
rate than Metro-North and also employs automated inspection vehicles 
more frequently.
    At a meeting between Congress members, DOT and the FRA, Mr. Szabo, 
you spoke to the fact that alerter systems are good railroad practice 
and standard on most railroads across the country while Metro-North 
lacked these devices in each train cabin where an engineer operates. 
You stated that you were checking with the American Public 
Transportation Association (APTA) on whether any other railroad didn't 
have alerters as a standard device in each train cabin.
    In your opinion, how does Metro-North's standard of safety compare 
to other railroads' throughout the country? What other areas besides 
the aforementioned does Metro-North lag behind the rest of the Nation's 
railway system? Have you followed up with APTA on whether or not there 
are other railroads without alerters in every train cabin?
    Answer. Operation Deep Dive uncovered an unhealthy safety culture 
on Metro-North, one where an inappropriate overemphasis on on-time 
performance had adversely impacted safety. As resources permit, FRA 
will conduct similar efforts on other commuter operations to determine 
to what extent Metro-North is an outlier in safety culture.
    Overall, passenger railroad operations in this county are very 
safe. Nonetheless, there have been eight passenger fatalities resulting 
from commuter rail train accidents in the last five calendar years. 
However, this represents an improvement over the previous 5 year period 
in which there were 43 passenger fatalities. This safety improvement is 
due to work in many areas, including initiatives to improve accident 
avoidance and survivability. We owe the public a drive for continuous 
safety improvement.
    You also inquired about Metro-North's lack of an alerter in each of 
its train cabs. An alerter is a type of locomotive-mounted equipment 
that is used to assure that the locomotive operator is alert, not 
physically incapacitated, and aware of, and complying with, the 
indications of a signal system or other operational control system. 
Systems like Positive Train Control, or the signal upgrades the FRA 
required of Metro-North under Emergency Order 29, can provide a similar 
level of protection.
    Metro-North has the greatest number of units operating without 
alerters. Current Federal regulations require a working alerter on any 
locomotive, including a control cabin locomotive, ordered on or after 
September 8, 2000, or placed into service for the first time on or 
after September 9, 2002, if the locomotive is the controlling 
locomotive of a commuter or intercity passenger train. See 49 C.F.R. 
238.237. Most carriers have either retrofitted existing equipment, 
provided a similar level of protection through other technology, or are 
in the process of retrofitting their fleet; however, this provision 
does not apply to rebuilt locomotives. There are separate, higher 
requirements for alerters on high-speed passenger trains (i.e., 
traveling at a speed more than 125 miles per hour but less than 150 
miles per hour; e.g., Acela Express); namely, there must be an alerter 
in the controlling cab of any high-speed passenger train. See 49 C.F.R. 
238.447(c) by operation of 49 C.F.R. 238.401. Finally, there are also 
separate requirements for alerters on locomotives used in freight 
service. See 49 C.F.R. 229.140.

    Question 10. On January 15, 2014, the Regional Planning Association 
released a report titled, ``Getting Back on Track: Unlocking the Full 
Potential of the New Haven Line.'' The RPA report concludes that the 
New Haven Line's largest issue is the severity of its aging and 
deteriorating infrastructure. Due to the state of the railroad's 
infrastructure, the New Haven Line (NHL) is extremely underfunded and 
requires tremendous increases in funding to reach a state of good 
repair. At current funding levels of less than $200 million a year, it 
would take 20 years to reach a state of good repair. Connecticut has 
dedicated $1 billion to the railroad in its 2013-2017 capital plan, but 
the RPA concludes that an additional $3.6 billion is needed to replace 
the railroad's obsolete infrastructure by 2020.
    These infrastructure needs, which include deteriorating bridges, 
some over 100 years old, worn track, and outdated signaling and power 
systems, pose threats to safety as seen in the Bridgeport derailment. 
Broken and ill-repaired track has put lives at risk and it's only a 
matter of time before such an incident reoccurs if nothing is done.
    How critical is sound infrastructure to the ensuring safety on the 
Nation's railway system? How many of the existing safety concerns can 
be solved by reaching a state of good repair for the Nation's 
railroads?
    Answer. A sound and safe infrastructure is critical to ensuring the 
safety of train operations. But so too are sound and safe rolling 
stock, sound and safe signal systems, sound and safe operating 
practices, sound and safe safety-critical personnel, and sound and safe 
intermodal intersections with railroad tracks (such as highway-rail 
grade crossings and railroad bridges over navigable waters). All the 
pieces need to be sound and safe to ensure we have a safe railroad 
system. In other words, a state of good repair means we have safe 
track, signal systems, rolling stock, operating practices, safety-
critical personnel, and intermodal intersections.
    One of the keys to ensuring that the Nation's railroad system is 
maintained in a state of good repair is predictable, dedicated funding. 
Congress has for decades funded highway, transit, and aviation programs 
through multi-year authorizations that provide guaranteed funding. This 
enables States, local governments, and other stakeholders to plan for 
and to execute infrastructure investments in a comprehensive and 
efficient manner, with a view towards long-term safety and operational 
improvements.
    Reliance upon inadequate and unpredictable annual appropriations 
has made it extraordinarily difficult for the U.S. rail system to be 
maintained in a state of good repair. The Administration proposes to 
rectify this problem with legislation authorizing mandatory contract 
authority through FY 2018 for rail investment programs. The programs 
would be paid for with resources in a new Rail Account of the 
Transportation Trust Fund that will be funded with revenue from pro-
growth business tax reform.

    Question 11. On December 1st, a Metro-North train derailed 
resulting in four casualties and close to seventy injuries. The train 
was travelling at approximately 82 mph in an area where speed was 
limited to 30 mph. The NTSB investigation is ongoing, but officials 
recently recommended that Metro-North install inward-and outward-facing 
cameras on its trains. The NTSB has called on all railroads to install 
such cameras since a 2008 crash between a passenger and a freight train 
resulted in the death of 25 people. The FRA has recently indicated its 
decision to begin the rulemaking process on this issue.
    Following the December 2013 Metro-North derailment that resulted in 
four casualties and close to seventy injuries, the NTSB recommended 
that Metro-North install inward-and outward-facing cameras. This is 
something the NTSB has been recommending since 2008.
    The FRA announced earlier this year that it would begin the 
rulemaking process for requiring inward-and outward-facing cameras in 
all locomotives and operating cabs. How will this rulemaking help 
address safety concerns? Some have raised privacy concerns with the 
cameras; can these issues be addressed in the rulemaking? Can you 
provide an update on where this rulemaking stands?
    Answer. FRA recognizes the potential value of both inward-and 
outward-facing camera recordings for accident investigation purposes 
and to advance safety. For these reasons, in the summer of 2013, FRA 
became involved in various camera projects occurring in industry, and 
in November 2013 placed the camera rulemaking on FRA's internal 
rulemaking agenda for 2014. Today a task statement pertaining to this 
issue was presented to the RSAC for its consideration, and the task was 
accepted by the RSAC. We expect the RSAC to report its recommendations 
on the issue by April 1, 2015.
    Although FRA recognizes the value of voice and image recordings for 
accident investigation purposes and as part of an operational testing 
program, FRA is also well aware of the significant privacy concerns 
presented by the installation and monitoring of these cameras. 
Accordingly, we must fully understand and address these privacy 
concerns and ensure that the technology is implemented with appropriate 
safeguards and controls in place that address the privacy concerns and 
also achieve the desired safety results. Addressing these concerns 
through the rulemaking process--through the RSAC process in 
particular--will ensure that these issues are appropriately analyzed 
and addressed and that the technology is implemented in as efficient a 
manner as possible.

    Question 12. The FRA has limited budgets and inspectors to address 
safety issues posed by crude transportation. While the volume of crude 
oil being shipped by rail has increased dramatically in the past few 
years, FRA and PHMSA have limited resources to ensure crude oil is 
transported safely. I believe we need to invest more in our 
infrastructure, particularly when it comes to the safety of our 
transportation systems. Mr. Szabo, do your current budgets provide an 
adequate number of inspectors and rail safety employees to cover all of 
the issues posed by the rail safety issues we've seen recently?
    Answer. It is important that FRA receive predictable and dedicated 
funding. I can assure you that FRA will make maximum use of whatever 
resources it is provided. As discussed above, FRA uses a staffing model 
that draws on the latest railroad accident and inspection data to 
strategically allocate its inspectors around the Nation and across 
safety disciplines. For FY 2014, FRA received a larger Safety and 
Operations budget, which will allow FRA to hire 10 new rail safety 
inspectors and 20 rail safety specialists.
    FRA has not requested new staff for FY 2015. However, the Office of 
the Secretary of Transportation (OST) has proposed a new $40 million 
Safe Transportation of Energy Products Fund, which would be available 
to FRA as well as the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) and the Federal Motor Carrier Safety 
Administration (FMCSA) to address issues surrounding the transportation 
of crude oil and other materials. FRA may be able use these funds to 
hire temporary staff as well as to conduct other activities such as 
research and testing.

    Question 13. How would increasing investments in rail safety 
programs help you better address safety needs?
    Answer. In addition to adding new railroad safety staff in FY 2014, 
FRA is increasing its investment in key safety programs. FRA is 
planning on spending an additional $1 million on its C\3\RS program to 
support nationwide implementation. As I said earlier, the program 
allows railroad employees to report close calls on a voluntary, 
confidential basis, without fear of disciplinary action. FRA also plans 
to spend almost $900,000 on high-speed rail safety certification to 
help ensure the safety of high-speed rail projects under construction 
before they enter into operation. Additionally, FRA plans to spend 
close to $700,000 to update its Railroad Safety Information System for 
enforcement of new safety regulations including those mandated by RSIA.
    For FY 2015, FRA requests significant new investment in the 
Nation's rail system--$4.8 billion in FY 2015 and $19 billion over 4 
years--that will directly improve safety. With these resources, FRA 
proposes to fund, among other things, positive train control 
implementation by commuter railroads and Amtrak. Moreover, FRA will 
fund state-of-good-repair work by Amtrak to improve Amtrak's 
reliability and increase the safety of its aging infrastructure. 
Moreover, some program funds would be eligible for grade crossing 
improvement and community rail safety initiatives.

    Question 14. Mr. Szabo, are there other ways that some of your 
costs could be offset?
    Answer. FRA's proposed rail investment program is fully paid for in 
the President's budget. FRA proposes that Congress fund rail programs 
through a 4-year reauthorization bill paid for through a Rail Account 
of the Transportation Trust Fund. The President's budget proposes this 
trust fund spending be supported by revenues generated from reforms to 
the corporate tax code. Details about the change in tax policy are 
listed in the President's budget.

    Question 15. DOT-111 tank cars were involved in the Lac-Megantic, 
Alabama, and North Dakota derailments and explosions. The DOT-111, 
which accounts for 69 percent of the U.S. tank car fleet, has a 
documented history of failure during accidents. AAR has asked DOT to 
adopt tougher standards for new tank cars, as well as requiring the 
retrofit or phase out of tank cars built to less stringent standards. 
API and the Railway Supply Institute (RSI)--who represent tank car 
manufacturers--also support higher tank car standards, but have 
concerns about retrofit costs.
    For several decades, the NTSB has expressed concern about the DOT-
111 tank car. Other stakeholders, including AAR, API, and RSI, have 
sought tougher tank car standards. DOT is almost a year behind on a 
rulemaking, which would propose updates to the DOT-111 standards, and 
does not anticipate issuing a final rule until next year. This is 
unacceptable to me and the thousands of people living in communities 
that see these train cars roll through their towns everyday--
communities along these rail lines deserve more. Again, this seems to 
be another example of regulatory capture; the DOT for all intents and 
purposes outsourced tank car recommendations to industry back in 2011. 
And here we are 3 years and several high profile accidents later, and 
we're still talking about the need for stronger tank cars.
    What is taking so long to issue these rules? Why can't the process 
be sped up? Can we build a tank car strong enough to prevent all of 
these accidents from happening? How important is a comprehensive 
approach to addressing the safety issues posed by transporting crude?
    Answer. FRA is working closely with PHMSA to provide support and 
resources in an effort to expedite the development and issuance of an 
NPRM to address DOT-111 tank cars and also to comprehensively address 
the risks, and mitigate the consequences, of train accidents involving 
hazardous materials in general, and crude oil in particular. The 
Secretary has delegated to the Administrator of PHMSA the statutory 
authority to issue rules pertaining to the transportation of hazardous 
materials by all modes of transportation, including rail and I believe 
PHMSA provided testimony at the February 26, 2014, hearing of the House 
Transportation and Infrastructure Committee, Subcommittee on Railroads, 
Pipelines, and Hazardous Materials which summarizes the specific 
circumstances surrounding the development and progress of this rule.
    You also asked whether it is possible to build a railroad tank car 
strong enough to prevent the release of its contents during any 
accident scenario. The short answer is ``no,'' not given the current 
state of the art. Because improving tank car survivability cannot, by 
itself, prevent rail accidents and unintentional hazardous material 
releases, a comprehensive approach is necessary. Only if the risks of 
transporting petroleum crude oil are comprehensively addressed are real 
safety improvements going to be made. For this reason, FRA, in 
partnership with PHMSA, is aggressively pursuing comprehensive 
improvements to the rail transportation of crude oil, including 
improving railcar survivability through tank car design improvements, 
rail operational practices, and proper testing and classification of 
crude oil before being offered for transportation.
    We need strong tank cars that are highly puncture-resistant during 
train accidents as well as operating measures to prevent train 
accidents from occurring in the first place and to mitigate the 
seriousness of an accident if it does occur. No matter how many rail 
safety regulations are in place or how high the tank car standards are, 
it is necessary to have personnel and equipment in place to deal with a 
train accident and any unintentional release of hazardous material if 
it occurs during railroad transportation. In short, a comprehensive 
approach to the safe transportation of hazardous materials by rail is 
essential.

    Question 16. In July, a train carrying crude derailed and exploded 
in Lac-Megantic, Quebec, killing 47 people and destroying the city's 
downtown. On December 30th, a train in North Dakota carrying crude oil 
struck another train which set off an explosion and required the 
evacuation of more than 1,500 people. On January 7th, a train carrying 
crude and propane derailed and caught fire in New Brunswick, Canada 
forcing an evacuation less than 35 miles from the Maine border.
    A series of freight rail accidents over the past 8 months highlight 
the need for safety plans to be in place so that communities and first 
responders know how to respond when there is a train accident carrying 
crude, propane, or any other hazardous material. Training first 
responders is a good first step to improving the response to incidents, 
and I was glad to see that included in your recent agreement.
    Mr. Szabo, as part of your agreement, AAR committed to rerouting 
trains carrying at least 20 cars of crude oil to the ``safest and most 
secure routes.'' How will these routing decisions impact communities 
that are not currently seeing a large influx of crude-by-rail? Will 
other communities see an increase in crude trains and will additional 
resources be focused on these communities?
    Answer. AAR, on behalf of its member railroads, has committed to 
complying with the route analysis requirements of the Hazardous 
Materials Regulations (49 C.F.R. 172.820(c)-(f) and (i)) when operating 
trains transporting 20 or more loaded railroad tank cars containing 
crude oil. The route analysis rule requires railroads to collaborate 
with State and local officials on the routing of certain hazardous 
materials and to select the routes posing the least overall safety and 
security risk on which to transport those materials. The rule requires 
an evaluation of the safety and security of the routes currently used 
and alternative practicable routes over which a railroad has authority 
to operate. The rule also mandates, at a minimum, the consideration of 
27 specific safety and security risk factors. The identified risk 
factors include operational, infrastructure, and consequence elements, 
such as population centers, environmentally sensitive areas, and 
emergency response capabilities along the routes.
    It is difficult to predict the extent to which compliance with the 
route analysis requirements will alter specific crude rail routes. 
However, compliance with the regulation will ensure that crude oil is 
transported over the safest and most secure rail routes, which will 
reduce the risk of an accident in the first place and help to mitigate 
the effects of an accident should one occur.
    In addition, other commitments from the railroad industry will 
further enhance the resources available to communities through which 
large quantities of crude oil are transported. These additional 
railroad industry agreements are to develop an inventory of emergency-
response resources along routes over which trains carrying large 
quantities of crude oil move; to make the relevant information 
available to appropriate emergency responders; to allocate $5 million 
to develop and provide a hazardous material transportation training 
curriculum applicable to crude oil transportation for emergency 
responders; and to fund a portion of this training through the end of 
2014.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. Joseph C. Szabo
    Question 1. With the number of crude oil rail shipments across the 
country expected to increase over the next several years, what actions 
has the FRA taken to identify rail corridor segments that are more 
susceptible to train derailments, either due to aging or faulty 
infrastructure, geographic terrain, or other means, and what actions 
have been taken to address to address this issue?
    Answer. FRA has taken action on multiple fronts to mitigate safety 
risks on rail corridors. In 2013 and 2014, FRA safety inspectors from 
FRA's five core disciplines--Hazardous Materials, Motive Power and 
Equipment, Operating Practices, Signal and Train Control, and Track--
have performed approximately 3,500 inspections in the subdivisions over 
which unit trains of crude oil are moved.
    Major freight railroads also committed to using the Rail Corridor 
Risk Management System (a risk-based routing analysis tool developed in 
coordination with the Federal Government as part of the implementation 
of the rail routing amendments to the Hazardous Materials Regulations) 
to analyze the safety and security risks of particular routes and to 
ensure that trains transporting large quantities of crude oil are 
operated on the safest and most secure rail routes.
    In response to the Secretary's Call to Action, the Association of 
American Railroads committed to employing speed restrictions in 46 
federally designated high-threat urban areas, implementing train 
braking enhancements using distributed power or two-way telemetry end-
of-train devices, more frequent rail and mechanical inspections, 
installation of wayside defective-bearing-detection equipment, and 
providing resources to enhance emergency response capabilities and 
community awareness along crude oil routes.
    In addition, the American Short Line and Regional Railroad 
Association (ASLRRA) responded to the Call to Action by identifying 
specific actions that it believes small railroads can voluntarily take 
to contribute to a safer national rail network. For example, contingent 
upon securing a 6- to 12-month pilot project grant from FRA, ASLRRA 
plans to create the Short Line Safety Institute that will do the 
following:

  <bullet> Begin with a focus on the transportation of crude oil by 
        small railroads and then expand to the transportation of all 
        commodities for Class III railroads.

  <bullet> Work with FRA to develop and implement pilot safety 
        inspection and evaluation projects for short line railroads.

  <bullet> Work with FRA to evaluate the current safety and compliance 
        attainment levels on small railroads; contract and train expert 
        qualified inspectors; and develop training, assessment, and 
        reporting document systems.

  <bullet> Work with FRA to create benchmarks and objectives to measure 
        the progress and effectiveness of the Short Line Safety 
        Institute safety inspection programs.

    Question 2. What actions are being taken by your agency/
organization to coordinate with state and local agencies on disaster 
preparedness training and emergency response efforts?
    Answer. FRA has provided a grant to the American Chemistry Council, 
which oversees the Transportation Community Awareness and Emergency 
Response (TRANSCAER) program. The TRANSCAER program is a voluntary 
outreach program that focuses on assisting communities to prepare for, 
and respond to, possible hazardous materials transportation incidents. 
TRANSCAER members consist of representatives from the following 
industries: chemical manufacturing, transportation (including 
railroads), distributors, and emergency response (including State and 
local agencies). Through the Department's ``Call to Action,'' both the 
railroad and petroleum industries have renewed their commitment to 
enhancing emergency response communications and training, most recently 
with the American Petroleum Institute (API) joining the TRANSCAER 
program and the railroad industry committing to developing an inventory 
of emergency response resources along routes over which trains 
transporting large amounts of crude oil operate. This inventory, 
relevant information from which will be made available to appropriate 
emergency responders, will include locations for staging emergency 
response equipment along the routes and contacts for the notification 
of communities. In addition, the railroad industry has committed 
approximately $5 million to develop and provide a hazardous material 
transportation training curriculum applicable to petroleum crude oil 
transport for emergency responders and to the fund a portion of the 
cost of this training through the end of 2014.
    FRA hazardous materials inspectors provide basic training to 
states, municipal governments, and local emergency response agencies. 
Knowledge gained from this training enables fire and police agencies to 
identify the type and positioning of hazardous commodities and to 
develop appropriate incident response or containment plans. The 
training provides detailed explanations of regulations pertaining to 
hazardous materials documentation, placement of hazardous materials 
within trains, appropriate packaging, and railroad communication 
protocols. FRA inspectors often demonstrate tank car safety features 
and describe train crew responsibilities to ensure that emergency 
responders know the appropriate railroad personnel to contact for train 
makeup information.
    FRA has also issued a grant to the American Chemistry Council, 
CHEMTREC, and TRANSCAER for the design and delivery of a training 
program focused on the needs of volunteer emergency responders, 
including fire fighters, emergency medical technicians, police 
agencies, and others. The training program will include approaching and 
managing a derailment, tank car recognition and damage assessment, 
chemical properties and hazards, hazard communication, firefighting 
techniques, environmental concerns, and other related topics. FRA is 
often an active participant in the training, conveying valuable 
insights based on experience and lessons learned.
    FRA's eight regional offices have law enforcement liaisons who 
focus on highway-rail grade crossing safety. Regional liaisons have 
been effective in getting rail safety awareness courses included in the 
accreditation process for law enforcement officers. FRA also provides 
information to local judges and prosecutors supporting consistent 
enforcement of highway-railroad safety laws.

    Question 3. What immediate measures can states, municipal 
governments, and local agencies take to mitigate potential disasters?
    Answer. In order to be prepared for the potential consequences of 
any rail accident involving hazardous materials and to mitigate those 
potential consequences, States, municipal governments, and local 
agencies can take advantage of both existing measures in place to 
ensure emergency responders are prepared for such incidents and the 
rail and oil industry's renewed commitments through the Department's 
``Call to Action,'' as noted in my answer to your previous question. 
Through the TRANSCAER program, the railroad and hazardous materials 
shipping industries collaborate and cooperate with communities through 
which hazardous materials are transported. For example, in accordance 
with AAR Circular OT-55-N, railroads are to assist in implementing 
TRANSCAER's community outreach program to improve community awareness, 
emergency planning, and incident response for the transportation of 
hazardous materials. The same industry standard provides for the 
disclosure of certain commodity flow data upon request to local 
emergency response agencies and planning groups. At a minimum, such 
information must include rank-order identification of the top 25 
hazardous commodities transported through the community. Accordingly, 
appropriate emergency response personnel should be in communication 
with any railroads transporting hazardous materials through their 
jurisdictions in order to ensure that they have access to the most up-
to-date information on the commodities being transported through their 
jurisdictions and the extent of emergency response resources available 
along the rail routes.
    States that currently do not have rail safety programs can join 
FRA's State Rail Safety Participation Program. Thirty states currently 
partner with FRA to regulate rail safety. State inspectors provide 
supplemental safety inspections that nonparticipating states do not 
receive. FRA does not reduce its inspection efforts in a state that 
elects to employ rail safety inspectors. Therefore, states that have 
rail safety inspectors receive a net gain in rail safety inspections. A 
larger rail safety inspection force results in correction of more 
safety defects, better response to public complaints and railroad 
accidents, and State expertise to directly address rail safety issues 
with railroad operating and maintenance personnel. Public safety 
concerns about unsafe rail operations can best be met by enhanced rail 
inspection using both State and Federal resources.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                          Hon. Joseph C. Szabo
    Question 1. Can you provide me with an account of the research and 
development activities the FRA is currently engaged in to enhance track 
inspection efforts underway? How are the technologies being developed 
by FRA different than the technologies that are currently deployed by 
the railroad?
    Answer. FRA has conducted research and developed several new track 
inspection technologies, including the following:

  <bullet> the Gage Restraining Measurement System: a train-based 
        system to assess the performance of track components such as 
        crossties and rail fasteners;

  <bullet> the Portable Track Loading Fixture: a handheld device to 
        assess the performance of rail fasteners;

  <bullet> the Joint Bar Inspection System: a machine-vision system to 
        detect rail joint bar defects and failures;

  <bullet> the Portable Ride Quality Measurement System: to identify 
        locations of poor track quality;

  <bullet> the Autonomous Track Geometry Measurement System (ATGMS): an 
        unmanned and cost-effective way of assessing track quality over 
        large rail networks

  <bullet> Ground Penetrating Radar (GPR): a system to detect poor 
        track support; conditions such as foul ballast and waterlogged 
        foundation; and

  <bullet> Rail Defect Inspection Systems.

    In terms of the last category (rail defect inspection systems), we 
have developed a rail defect measurement system that does not require 
contact with the rail. This system does not detect all types of rail 
defects. It was designed to find the most prominent type of defect 
(transverse defect). Future generations of the system may be adapted to 
look for other types of rail flaws. Compared to conventional systems, 
the current system can operate at higher speeds and is not adversely 
affected by rail surface condition. Another rail defect inspection 
system that we are developing will accurately measure the size of 
defects so the appropriate corrective action can be taken. The system 
uses the Computed Tomography (CT) scan technology used in the medical 
field.
    ATIP is used by FRA to inspect track to determine whether it 
conforms to the track-geometry provisions of FRA's track safety 
regulations. The fundamental track geometry inspection technology 
employed in ATIP is used by both FRA and many railroads. The vision for 
the future is to use ATGMS to cover more mileage at lower cost and then 
schedule a manned vehicle with many of the inspection systems described 
above to fully assess the track conditions. The information from the 
ATGMS will be used for planning walking inspections and manned car 
inspections. The comprehensive information collected by the manned cars 
will be used by researchers to better understand the track behavior 
and, when warranted, will provide more guidelines to promote safety.
    FRA develops inspection technologies that are safety focused, with 
the intent to reduce the number of derailments and other types of 
railroad accidents/incidents and unintentional releases of hazardous 
material. Some of these technologies have a side benefit of aiding in 
the maintenance planning for the railroads.
    As to how the technologies being developed by FRA differ from the 
technologies that are currently deployed by the railroad, several of 
the technologies listed above are already in use today by railroads. 
Others are nearing the end of the research and development stage and 
are being transferred to the industry as prototypes.

    Question 2. What level of funding was provided to FRA for research 
and development in the current fiscal year? Does this level of funding 
provide adequate resources to your agency to complete your research and 
development missions?
    Answer. FRA received $35.1 million for FY 2014 for its Railroad 
Research and Development program, and has requested for $35.25 million 
for FY 2015. This amount supports FRA's ongoing research into railroad 
safety issues and the development of technologies that can reduce 
future accidents. The program's areas of focus are track, rolling 
stock, train control and communications, human factors, and railroad 
systems issues. Regardless of funding level, FRA will effectively use 
its budget to undertake meaningful research and development work.
    For FY 2015, FRA also requested new research program funding under 
the Rail Service Improvement Program to expand its work into emerging 
areas facing the rail industry. These include the following:

  <bullet> Upgrades to the Transportation Technology Center ($15 
        million): The Transportation Technology Center (the Center) in 
        Pueblo, Colorado, does not have facilities for testing, 
        evaluating, and demonstrating state-of-the-art high-performance 
        rail infrastructure and equipment. Upgrading the Center will 
        result in faster approvals for new equipment, stronger safety 
        standards, and early identification of reliability issues, 
        saving long-term maintenance costs and ensuring better 
        passenger service.

  <bullet> National Cooperative Rail Research Program ($5 million): 
        Section 306 of Passenger Rail Investment and Improvement Act 
        established this program, managed by the National Academy of 
        Sciences, to provide a rail research program similar to those 
        for aviation, highways, and transit. FRA launched the program 
        in 2012 to develop the intellectual infrastructure needed to 
        advance effective rail policy, and proposes to continue funding 
        the program.

    Question 3. I understand the President's budget would provide 
additional resources for FRA to hire inspectors. These inspectors would 
be in addition to the additional FTEs provided to the FRA in FY14. What 
are the greatest resource needs of the agency and how will additional 
hires--should additional FTEs be provided--be directed at addressing 
current capacity shortfalls at the agency?
    Answer. In its FY 2015 budget, FRA has not requested money to add 
new inspectors or other staff. However, OST has proposed a new $40 
million Safe Transportation of Energy Products Fund, which would be 
available to FRA as well as PHMSA and FMCSA to address issues 
surrounding the transportation of crude oil and other materials. It is 
possible that FRA may use these funds to hire temporary staff as well 
as to conduct other activities such as research and testing.
    In general, FRA strives to maximize the funding it receives, 
regardless of the amount. Regarding full-time equivalents, each year 
FRA rebalances its inspector workforce across the FRA regions and 
across safety disciplines based on analysis by its staffing allocation 
model and professional judgment by top FRA management. This year, FRA 
is particularly attuned to the need to address increased shipments 
crude oil and ethanol.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Joseph C. Szabo
    Question 1. At the hearing you discussed the inspection 
partnerships that the Federal Railroad Administration (FRA) has with 
several states. How many states participate in this program? Can you 
provide a list of these states for the Committee? How many additional 
inspectors are made available through this program? Will these 
inspectors be useful in approving Positive Train Control (PTC) systems?
    Answer. Thirty states currently participate in FRA's State Rail 
Safety Participation Program with 176 State inspector positions 
currently authorized by State programs. Please accept this table titled 
``State Rail Safety Programs'' into the record of this hearing. The 
table provides a breakdown by State, with further details, such as the 
FRA Office of Railroad Safety region that works with the State program 
and the safety discipline of the State inspector(s) (e.g., motive power 
and equipment, operating practices, hazardous materials, and signal and 
train control). State inspectors will not be involved in the process to 
approve PTC systems.

    Question 2. What are the major safety issues accompanying the 
transportation of crude oil by rail and what have been the most common 
types of accidents that have occurred in the last five years?
    Answer. Crude oil, like ethanol, presents unique risks in 
transportation by rail because of flammability and volume of the 
material shipped in unit trains.\1\ Although it is rare to have only a 
single rail car breached that contains a flammable liquid, a breach of 
only a single tank car in a train accident followed by the ignition of 
a self-feeding pool fire \2\ can result in energetic ruptures of 
adjacent tank cars. Further, in derailments of unit trains of crude 
oil, adjacent tank cars containing crude oil will be involved.
---------------------------------------------------------------------------
    \1\ A ``unit train'' is defined as a train in which all the cars 
are shipped from the same origin to the same destination, without being 
split up or stored en route).
    \2\ A ``pool fire'' is a turbulent diffusion fire burning above a 
horizontal pool of vaporizing hydrocarbon fuel.
---------------------------------------------------------------------------
    Also, crude oil facilities are coming online quickly and employing 
personnel with limited experience in loading and securing tank cars for 
transportation. These facilities and their operators are continually 
learning (through FRA and industry outreach activities) how to inspect 
and secure a tank car prior to offering it for transportation.
    Unlike the vast majority of other chemicals shipped by rail, which 
are produced to a specification under the auspices of a rigorous 
quality assurance program, crude oil is a naturally occurring, mined 
material with properties that vary based on location and time of 
extraction. The variability of the properties of crude oil, such as its 
flammability, gas content, corrosivity, and vapor pressure, make it 
difficult to determine the appropriate package for transportation. Tank 
car owners and shippers of crude oil must work together to ensure the 
equipment is not damaged by the crude oil with which it is loaded, by 
selecting compatible interior coatings, (if required), gaskets, and o-
rings for service equipment.
    To answer your other question, about the most common kinds of 
accidents, FRA's accident/incident database indicates that during the 
5-year period between January 1, 2009, and December 31, 2013, 41 
percent of train accidents were caused by defective track, road bed, 
and structures; 37 percent by human factors involving train operations 
or handling equipment, switches and derails; 11 percent by mechanical 
and electrical failures; 1 percent by signal and communications causes; 
and the remaining 10 percent by miscellaneous causes.
    Regarding train accidents in which crude oil was unintentionally 
released, there have been seven in the last 5 years in the United 
States as well as two in Canada. The Canadian accidents occurred at 
Lac-Megantic in Quebec and at Plaster Rock in New Brunswick--the 
Transportation Safety Board of Canada is investigating both. Based on 
the available information, the Lac-Megantic accident was a result of 
improper securement of the crude oil train; the Transportation Safety 
Board of Canada has not released an official report of the findings of 
their investigations. The accident in Casselton, ND, was a result of a 
unit train of crude oil colliding with a grain train fouling (blocking) 
the main line; the grain train had derailed as a result of a broken 
axle. Other U.S. train accidents during the last 5 years involving 
releases of crude oil include the following: Vandergrift, PA 
(mechanical causes); Aliceville, AL (broken rail); and New Augusta, MS 
(broken rail).\3\
---------------------------------------------------------------------------
    \3\ The three other U.S. train accidents in the last 5 years that 
have resulted in the unintentional release of crude oil were at Havre, 
MT (November 1, 2010); Monroe, LA (December 1, 2011); and Parkers 
Prairie, MN (March 27, 2013).

    Question 3. One of the requirements in the Rail Safety Improvement 
Act of 2008 is that PTC technology be interoperable, meaning that the 
systems of different railroads operating over each other's track would 
be able to communicate with one another. How does the FRA plan to 
certify interoperability of the various PTC systems it is required to 
approve? Will certification of interoperability be more difficult if 
some railroads complete installation before others? How many FRA 
employees do you think will be needed to certify PTC systems? Do you 
worry that using these inspectors for this purpose will further limit 
the agency's ability to conduct oversight of rail safety generally?
    Answer. PTC system interoperability will be created primarily 
through two different, but complementary, approaches. One approach is 
for the railroads to select a single common shared industry standard 
technology. Currently, for example, the majority of freight and 
passenger commuter railroads outside of Northeast Corridor (NEC) are 
relying on Interoperable Electronic Train Management System (I-ETMS), 
and the NEC railroads are relying on the Advanced Civil Speed 
Enforcement System (ACSES). The second approach (where different 
railroads elect to implement different technologies) calls for the 
affected railroads to each implement all of the technologies involved. 
For example, freight and passenger railroads that implement both I-ETMS 
and ACSES would run the two systems in parallel. FRA views 
certification as the process of measuring, testing, and evaluating the 
effectiveness of the functions of the system prior to authorizing a 
system for operational use. In both approaches, the FRA certification 
process is focused on ensuring that the implementing railroads have: 
(1) correctly deployed the technology, (2) put in place adequate 
training and maintenance programs to ensure that the railroads can 
safely operate and maintain the systems, and (3) implemented technology 
that performs the required PTC statutory functions.
    The FRA personnel involved in the certification process are looking 
to see that an adequate series of tests and inspections have 
established that safeguards designed into the hardware and software of 
the system are operative, function as intended, and collectively 
constitute acceptable controls; and that the equipment supplier and the 
railroad have successfully implemented these safeguards and controls. 
Production models of a given system design need be tested only to 
verify that all safeguards are present and properly functioning. 
Specifications (procedures, tests, and inspections) for subsequent 
certification reviews must be produced as part of the design process. 
The FRA certification personnel are also verifying that an adequate 
series of tests and inspections is performed according to 
specifications established during the design phase to ensure that the 
required set of safeguards (hardware, software, and procedural) are 
present and operational in the installed equipment, and on all 
communication links. This work also examines the operational procedures 
and administrative structure of the organization that controls the 
equipment, and must establish that the procedural and administrative 
environment supplements and complements hardware and software 
safeguards, and that physical safeguards are appropriate. The FRA 
personnel involved in the certification must also ensure that an 
adequate series of tests and inspections is performed to establish that 
the system has continuous safeguards, that the system can make real-
time checks on its performance, and that the system can search for 
loopholes once the system is operational or after any system 
malfunction, as well as after scheduled or unscheduled hardware or 
software maintenance or modification.
    Certifying computer systems is a very difficult issue. It involves 
an examination of the provided safeguards (hardware, software, 
procedural, and administrative), and ideally, a quantitative estimate 
of the probability of various failure modes. It is almost impossible to 
identify and protect against all possible failure modes of a system. 
The matter of overall equipment configuration becomes especially 
important in large systems containing many computers, either collocated 
or geographically distributed. The overall hardware configuration must 
be examined in order to establish the consequences of a total or 
partial loss of a major component in the system. This becomes more 
difficult when multiple certification requests must be processed 
simultaneously. Completion of the certification process by one railroad 
before another does not necessarily mean that one railroad's 
certification is any more difficult than the other. Depending on the 
specific implementation and the issues being examined, early completion 
of the certification process by one railroad potentially could 
facilitate the certification process of subsequent railroads since 
issues, especially those related to the system specification and 
design, may have already been adequately verified.
    FRA depends heavily on the vendors and railroads in the 
certification process. As a matter of practicality, without the 
proactive participation and good faith efforts of the vendors and 
railroads to ensure system safety through the entire design, 
implementation, and operation of the system, not only would timely 
certification of a system not be possible, but the level of safety 
oversight that would be provided would be inadequate relative to the 
system complexity. FRA staffing needs are therefore heavily dependent 
on the technology deployed, the capabilities of individual inspectors, 
as well as the level of effort and degree of objective safety oversight 
being expended by the vendors and railroads. In order to not detract 
from FRA's other safety inspection activities, FRA established a 
dedicated PTC Branch. The branch, consists of 8 regional specialists 
(GS-13) (1 per region), 2 senior specialists (GS-14), and a supervisor 
(GS-15) dedicated to PTC system certification and safety oversight. 
This group is augmented by a senior scientist (senior level (SL)/
scientific (ST)) and senior electronics engineer (GS-15) as well as two 
senior signal engineers (GS-14) and contract engineer support as 
required.
    The complexity and size of the railroad-specific safety plans to 
support the certification request are immense. The safety plan 
associated with the Electronic Train Management System, for example, a 
simpler predecessor system to the proposed I-ETMS system, contained 
more than 6,000 pages of highly technical information. FRA will receive 
38 safety plans from the railroads, with some of equal or larger size. 
If these safety plans are received simultaneously, FRA staffing will 
not be able to process them concurrently. A best case scenario for the 
review process for a single plan would be 6 to 9 months. Although the 
railroads are working with FRA to coordinate these document reviews, 
this remains a new process with a scope not attempted previously by any 
of the participants--freight railroads, intercity passenger railroads, 
commuter railroads, and FRA.
    FRA approval of the PTC Development Plans (PTCDP), a significantly 
simpler document, took nearly 18 months. The PTC Safety Plans (PTCSP) 
will be more complex and voluminous than the PTCDPs. The FRA review may 
result in changes in the PTCSPs as a result of design, hardware, or 
software issues that would prevent certification, making the timeline 
for approval uncertain. The potential result could be delays in some 
certifications and the ability of the affected railroads to use 
deployed PTC systems.
    Although FRA support of the various railroads often provides a 
window into a railroad's progress, it by no means presents a complete 
picture of what is happening with a program or project. FRA support is 
usually requested when there are issues impeding progress. In 
situations where no FRA support is requested, FRA has only anecdotal 
evidence of progress, or lack thereof.
    For regular, detailed, and unfiltered reporting on a railroad's 
progress with PTC system implementation, it would be necessary to embed 
a dedicated FRA PTC-qualified inspector into each railroad's 
development and deployment team on a full-time basis. With the 
complexity of PTC systems, multiple inspectors may be required. FRA has 
not requested additional staff or funding to provide this level of 
oversight as we believe it is currently not warranted based on the 
railroads' actions and would introduce a high degree of Federal 
intrusion on railroad and vendor autonomy.

    Question 4. Beyond the rail and oil industries, what other 
industries has FRA consulted with, or does it plan to consult with, in 
its efforts to improve tank car safety?
    Answer. FRA's Office of Railroad Safety has regular interactions 
with all segments of the freight rail industry including the railroads, 
labor, shippers of hazardous materials, tank car manufacturers, tank 
car owners, and tank car inspection and repair facilities. These 
meetings are intended to both disseminate information related to our 
enforcement and regulatory objectives as well as understand the 
potential impacts of regulatory amendments and discuss non-regulatory 
measures to improve the safety of transportation of hazardous material 
by rail. For example, tank car manufacturers provided valuable insight 
relative to the possible design enhancements and retrofit options. They 
stressed the importance of developing a practical standard (one that 
will provide the needed improvements and can be built based on the 
current state of the manufacturing practices) as soon as possible to 
provide the certainty to make the needed investments in the next 
generation of tank cars. And in another example, ethanol shippers 
discussed preemptive actions taken to improve the safety in 
transporting denatured alcohol by rail, characterization sampling and 
testing to ensure accurate information is available for first 
responders, standard emergency response tactics, and training of 
emergency response trainers.

    Question 5. What role does FRA play in ensuring Amtrak's compliance 
with historic preservation and tribal consultation requirements under 
Section 106 of the National Historic Preservation Act? Did FRA play any 
role in ensuring Amtrak's compliance with these requirements when PTC 
towers were installed?
    Answer. FRA is responsible for complying with Section 106 of the 
National Historic Preservation Act when providing grants to Amtrak. For 
these grants, FRA works with Amtrak to ensure the appropriate analysis 
and consultation consistent with the legal requirements of Section 106 
is completed. This requirement would apply where the grant funds 
potential installation of any antennas required for PTC, but does not 
apply where antennas required for PTC are installed without grants from 
FRA.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                          Hon. Joseph C. Szabo
    Question. Mr. Szabo, there has been a significant increase in the 
number of rail accidents that have garnered media attention. I realize 
that a number of investigations are ongoing but have there been any 
overarching trends in the causes of these accidents? Also, what, if 
any, would the impact be of some of the legislative proposals before us 
today and those currently being considered by the Federal Railroad 
Administration? Proposals such as Positive Train Control and mandatory 
two man train crews?
    Answer. Media attention is a poor metric for determining 
overarching trends in rail safety. FRA certainly understands the media 
focus on incidents involving passenger trains or the transportation of 
crude oil by rail, given their potential to directly affect the general 
public. With that said, FRA routinely generates analysis of overarching 
trends in rail safety, and those trends indicate that rail continues to 
grow safer as a mode of transportation.
    Growing safer does not mean, however, that there is not room for 
continuous safety improvement. FRA depends on its analysis of trends in 
rail safety to identify where improvements can best be made. FRA 
continues to work to address the leading cause of deaths related to 
railroad operations, which is trespassing on railroad property; and the 
second-leading cause of deaths related to railroad operations, which is 
highway-rail grade crossing incidents. Together, trespassing and grade 
crossing accidents account for more than 90 percent of all rail-related 
deaths. With respect to train accidents (i.e., rail equipment 
accidents/incidents that result in damage to railroad property in 
excess of the dollar reporting threshold and excluding highway-rail 
grade crossing accidents to avoid double-counting; e.g., derailments 
and train-to-train collisions), which have decreased by 48 percent in 
the last 10 years, the most common causes are human factors and track 
issues. FRA continues to work to address these issues. PTC systems will 
serve to prevent and reduce the risk of human factors train accidents 
and incidents. FRA is currently considering the safety effects of 
mandatory two person crews on certain trains. Meanwhile, FRA is 
conducting research on the detection of track defects and improving the 
Automated Track Inspection Program.
    With respect to pending and potential legislative proposals, 
however, it would be inappropriate to comment on them in this forum. If 
you were to request a letter expressing the views of the Executive 
Branch on such legislation, FRA would gladly provide input.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                          Hon. Joseph C. Szabo
    Question 1. As you know, the rail car manufacturers were not 
present in the initial January meeting between the Secretary, the 
railroads, and the oil industry on tank car standard. What type of 
outreach is DOT doing to the manufacturing industry? How will the 
industry be involved in discussions and meetings going forward?
    Answer. It is important to note that the meeting hosted by the 
Secretary was not to discuss tank car standards, but was for the 
purpose of discussing oil classification and testing, and railroad 
operating modifications. In addition, representatives of FRA's Office 
of Railroad Safety met with representatives of the Railway Supply 
Institute (RSI), an industry association representing most of the tank 
car manufacturers and owners, as well as the individual manufacturers. 
RSI discussed the industry's position on tank car design and retrofit 
options for existing tank cars. Individually, manufacturers discussed 
innovative design ideas intended to improve the crashworthiness of tank 
cars and survivability of tank cars in a pool fire. The industry 
clearly understands that the safety of transporting flammable liquid is 
currently a focus issue, but the industry also realizes that tank car 
enhancements must be designed with all specifications of tank cars in 
mind, understanding that all hazardous materials pose a risk to public 
safety and the environment.
    Over the past 4 years, FRA's Tank Car Quality Assurance Team has 
audited all tank car manufacturing, inspection, and repair facilities. 
During these audits, FRA educated the facilities on how to meet the 
performance requirements, ensure the final product meets the 
specifications, identify non-conformances, and prevent reoccurrence of 
non-conformances.
    The Secretary of Transportation issued a letter to Association of 
American Railroads (AAR) President and Chief Executive Officer Edward 
Hamburger urging the AAR's Tank Car Committee (TCC) to develop a 
consensus standard for the next generation general purpose tank car. 
The TCC comprises representatives of Class I, II, and III railroads; 
tank car manufacturers; and shippers. At the spring 2014 TCC meeting, 
AAR hosted a special session intended to develop the consensus 
standard. A consensus could not be reached.
    The manufacturers, individually and in conjunction with the Railway 
Supply Institute, submitted comments to the docket for HM-251 (the DOT-
111 tank car rule). Their comments were reviewed and closely considered 
relative to the Regulatory Impact Analysis and proposed regulatory 
amendments.

    Question 2. Late February, Metrolink commuter railroad held a PTC 
media event in California concerning the status of PTC implementation. 
Would you please provide the Committee with an updated status report on 
Metrolink's implementation of PTC, including development of its 
dispatching system, its PTC back office system, and status of PTC 
revenue service runs across Metrolink territory.
    Answer. Metrolink continues to make significant progress towards 
the completion of PTC implementation, although they have encountered a 
number of technical and other obstacles that have precluded completion 
as originally planned. Perhaps the most significant impediment was the 
inability of the original dispatch system and back office system 
contractor, Aeronautical Radio Incorporated (ARINC), to deliver a 
functioning dispatch system as originally required. The lack of a 
functioning dispatch system that could integrate with the PTC system 
components resulted in Metrolink's recently terminating ARINC for 
cause, and resulted in a 2-year delay in the program. Metrolink 
subsequently engaged Wabtec Corporation to develop the required 
dispatch and back office systems. Once completed, installed, and tested 
(which FRA believes will occur late in the second quarter of calendar 
year 2014 or early in the third quarter of calendar year 2014), 
Metrolink will be able to begin revenue demonstration operations on its 
own territory. Until the Metrolink dispatch and back office system is 
available, the railroad will be unable to conduct revenue demonstration 
operations on Metrolink territories.
    As a risk mitigation measure, and in order to gain experience with 
the Interoperable Electronic Train Management System (I-ETMS), 
Metrolink began revenue demonstration operations over the BNSF 
Railway's (BNSF) San Bernardino subdivision on February 20, 2014, using 
one trainset and three trains per day. Metrolink experienced 
significant technical issues that necessitated placing the revenue 
demonstration on hold pending resolution of these issues. Engineering 
changes to address these issues were recently completed and 
successfully regression tested, with revenue demonstration on BNSF 
scheduled to recommence.
    Assuming there are no additional major technical issues discovered 
during Metrolink's dispatch and back office systems testing, subsequent 
integration and revenue demonstration operations over Metrolink 
territories, or during system testing by Union Pacific Railroad (UP), 
Amtrak, and BNSF, FRA anticipates receipt of the system certification 
request from Metrolink for I-ETMS in the first quarter of calendar year 
2015.
    Metrolink has completed its PTC track database asset mapping and 
validation as well as wayside interface unit verification and 
validation. Metrolink has also completed roughly one-third of the 
required brake testing and is conducting Los Angeles regional 
communications network design and testing with UP; BNSF; Amtrak; PTC 
220, LLC; Transportation Technology Center; and Meteorcomm 
Communications. The majority of the onboard system work has been 
completed on the rolling stock; however, additional hardware and 
software modifications will be required before the onboard systems will 
be fully completed. Employee training has also begun.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                          Hon. Joseph C. Szabo
    Question. Recently, there have been significant public safety 
concerns raised in the New Hampshire towns of Newington, Stratham, 
Greenland, and the City of Portsmouth regarding a pending application 
from Sea-3, Inc. to expand its liquefied petroleum gas (LPG) facilities 
in Newington.
    These communities are concerned about the condition and safety of 
the Portsmouth and Newington Industrial Tracks, given the potential 
danger associated with using them to transport highly flammable 
material. Currently, Pan Am Railways operates 2-3 trains per week, each 
with 7-12 rail cars, which are only allowed to travel 10 miles per hour 
due to track conditions.
    As you know, I recently sent a letter to you requesting that the 
FRA conduct an inspection of the Portsmouth and Newington Industrial 
Tracks, and that given the significant public safety concerns you or a 
representative from the FRA attend a public forum on track safety in 
our state.
    Can you commit to me that you will conduct an inspection of these 
tracks? Are you willing to attend a public forum on track safety in New 
Hampshire?
    Answer. On March 10, 2014, an FRA representative will attend a 
Newington town hall meeting in Newington, New Hampshire. At the 
meeting, the FRA representative will discuss when and how often the 
track and bridges are inspected, what is the current condition of the 
track, who owns the tank cars that the propane is moved in, and who 
checks the structural integrity.
    Previously, on January 23, 2014, an FRA railroad safety inspector 
conducted an inspection of the Portsmouth Branch and Newington 
Industrial track identifying three noncomplying defects to the Track 
Safety Standards. The Portsmouth Branch and Newington Industrial track 
last underwent a Sperry rail test in August 2013.
    During the week of April 28, 2014, the regional track safety 
specialist along with a railroad safety inspector will conduct a 
walking inspection of the entire Portsmouth Branch (10.5 miles), and 
the Newington Industrial track (3.7 miles). On May 14, 2014, the FRA 
Automated Track Inspection Program's track geometry car will conduct a 
field survey of the Portsmouth Branch and the Newington Industrial 
track.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                          Hon. Joseph C. Szabo
    Question 1. The Federal Railroad Administration cites track and 
infrastructure failure as the second leading cause of train derailments 
in the United States. The incorrect interaction between moving vehicles 
and the track is a common cause of derailments. What research has your 
administration conducted to develop track inspection technologies, and 
what work are you doing to develop the next generation of rail defect 
prevention?
    Answer. FRA has conducted research and developed several new track 
inspection technologies including the following:

  a.  Gage Restraining Measurement System: a train-based system to 
        assess the performance of track components such as crossties 
        and rail fasteners;

  b.  Portable Track Loading Fixture: a handheld device to assess the 
        performance of rail fasteners;

  c.  Joint Bar Inspection System: a machine-vision system to detect 
        rail joint bar defects and failures;

  d.  Portable Ride Quality Measurement System: to identify locations 
        of poor track quality;

  e.  Autonomous Track Geometry Measurement System: an unmanned and 
        cost effective way of assessing track quality over large rail 
        networks;

  f.   Ground Penetrating Radar: a system to detect poor track support 
        conditions such as foul ballast and waterlogged foundation; and

  g.  Rail Defect Inspection Systems.

    We have developed a rail defect measurement system that does not 
require contact with the rail. Compared to conventional systems, it can 
operate at higher speeds and is not adversely affected by rail surface 
condition.
    Another rail defect inspection system we are developing will 
accurately measure the size of defects so the appropriate corrective 
action can be taken. The system uses the computed tomography (CT) scan 
technology used in the medical field.

    Question 2. In addition, how will the focus of research conducted 
through the Automated Track Inspection Program (ATIP) evolve to develop 
technical solutions to types of derailments we have seen of late?
    Answer. Currently, FRA's Automated Track Inspection Program 
monitors track geometry by periodically collecting track data to 
confirm that the track conforms to certain requirements of the FRA 
Track Safety Standards. The vision for the future is to use Autonomous 
Track Geometry Measurement Systems (ATGMS) to survey more mileage at 
lower costs. In addition to determining defective conditions, the 
increased coverage would allow track trending analysis; then, a manned 
vehicle with the inspection systems described above could be scheduled 
to fully assess the track conditions. The information from ATGMS will 
be used for planning walking inspections and manned car inspections. 
The comprehensive information collected by the manned cars will be used 
by researchers to better understand the track behavior and, when 
warranted, will provide more guidelines to promote safety.
    Attachment: ``State Rail Safety Programs''
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Hon. Cynthia L. Quarterman
    Question 1. In recent months, DOT officials concluded that eleven 
of eighteen samples taken from cargo tanks carrying Bakken crude were 
not labelled correctly. In addition, it has been revealed that the 
Bakken crude involved in the deadly Lac-Megantic accident was 
inaccurately labeled. Given your ongoing investigation of Bakken crude, 
how big of a problem is misclassification of crude? Is this happening 
frequently?
    Answer. During PHMSA's initial investigations in August 2013, PHMSA 
determined that some facilities were relying on old and broadly generic 
data, instead of conducting actual testing, to determine the proper 
classification and characterization of crude oil.
    (b) By November, 2013, PHMSA found that facilities began to 
periodically test (i.e., flash point and boiling point) crude oil to 
determine the classification and packing group selection in accordance 
with the hazardous materials regulations. Through PHMSA's 
investigations and continuous presence in North Dakota in February and 
March, concurrently, with release of the Secretary's Emergency Order, 
PHMSA documented that industry has increased its efforts to determine 
classification and packing group selection by conducting tests more 
frequently.

    Question 2. You recently announced an amended Emergency Order to 
address the testing of crude. Beyond the Emergency Order and your 
current investigation, what oversight procedures are in place to ensure 
that proper classification is being conducted? What long-term 
procedures need to be addressed to ensure that proper classification 
continues to be addressed?
    Answer. (a) PHMSA continues to have a presence in North Dakota. 
Investigators frequently visit rail loading facilities to oversee 
compliance with the Emergency Order. This includes review and 
collection of shipping papers, train consists, cargo tank load receipts 
laboratory test results, and Safety Data Sheets. In addition PHMSA 
recently hired an investigator to focus on the Bakken region and 
provide direct oversight of operations in North Dakota. In addition to 
regulatory efforts and with regard to longer-term strategies, PHMSA has 
supported the American Petroleum Institute Standards Committee 
initiative to develop industry standards for proper sampling 
techniques, testing criteria, and testing frequency for crude oil. 
PHMSA actively participated in the discussions during working groups 
sessions held thus far and will continue through expected completion in 
July, 2014.
    Furthermore, through the United States--Canada Regulatory 
Cooperation Council the two nations have collaborated on a variety of 
crude oil related efforts. Specifically, the United States and Canada 
have held meetings to discuss classification, testing and sampling 
issues that could have future ramifications on classification 
procedures for crude oil.

    Question 3. How do current requirements for shipping crude by rail 
differ from requirements for shipping by pipeline?
    Answer. The Hazardous Material Regulations set forth the criteria 
for classifying and describing crude oil for transportation, which 
directly correlate to authorized packagings, typically tank cars 
designed to withstand dynamic forces normally incident to 
transportation by rail. The HMR also require hazard communication 
(i.e., placards, shipping papers, emergency response information). For 
transportation by rail, the container and the material are in motion 
along fixed track and rail infrastructure regulated by FRA. The 
Pipeline Safety Regulations focus on the form of the material in 
transport, and crude oil is moved at specified flow rates through fixed 
pipeline infrastructure.

    Question 4. In January, API along with other stakeholders met with 
Secretary Foxx and Administrators Szabo and Quarterman to discuss the 
safe transport of crude oil by rail. At that meeting, DOT asked API to 
consider a number of additional safety measures, including sharing 
testing information. Both DOT and API have previously stated that you 
are working together to provide necessary information. However, on 
March 28, DOT provided a press statement saying,''we still lack data we 
requested and that energy stakeholders agreed to produce. The overall 
and ongoing lack of cooperation is disappointing, slows progress, and 
certainly raises concerns.''
    The recent DOT statement differs drastically from information you 
and your staff have previously and recently provided. What specific 
information have you asked the industry to provide and what information 
is still outstanding? Are discussions for data ongoing with the 
industry? If so, are there hurdles to the industry for providing data 
to DOT?
    Answer. The following questions were posed by PHMSA to API and 
Crude Oil shippers prior to two meetings held in early February 2014:

  <bullet> What tests or methods do you use to determine the properties 
        of the crude oil to include its vapor pressure, flammable gas 
        content, flash point, boiling point, hydrogen sulfide content 
        and corrosive properties prior to offering it in 
        transportation?

  <bullet> Who performs these tests and how frequently are they 
        completed?

  <bullet> When you find high levels of gases in crude, what actions do 
        you require of your oilfield personnel before loading into a 
        transport vehicle? What information about the crude oil 
        properties, if any, is provided by the producers to you prior 
        to transportation? How is this information communicated?

  <bullet> What information do you share with truck and rail carriers 
        about the crude oil properties?

  <bullet> Are there any prescribed limits involving vapor pressure, 
        flammable gas concentration or hydrogen sulfide content above 
        which the crude oil is not placed into transportation? If so, 
        what are these limits and how are they determined?

    While discussions are ongoing and PHMSA has received some testing 
information from individual crude oil companies, the data thus far has 
been limited. As part of its on-going efforts, PHMSA has supported the 
American Petroleum Institute Standards Committee initiative to develop 
industry standards for proper sampling techniques, testing criteria, 
and testing frequency for crude oil. PHMSA has actively participated in 
the discussions during working groups sessions held to date and plans 
to continue up through expected completion in July.

    Question 5. Please provide detailed information on how the industry 
has not been responsive, including information on when and how your 
requests for information have stalled or been denied.
    Answer. The Secretary's Call to Action in January 2014 specifically 
called on the crude oil industry to provide information and data on 
testing and classification procedures. In addition PHMSA held meetings 
with API and Crude Oil shippers in early February 2014 to follow up.
    While discussions are ongoing and PHMSA has received some testing 
information from individual crude oil companies, the data thus far has 
been limited. As part of its ongoing efforts, PHMSA has supported the 
American Petroleum Institute Standards Committee initiative to develop 
industry standards for proper sampling techniques, testing criteria, 
and testing frequency for crude oil. PHMSA has actively participated in 
the discussions during working groups sessions held to date and plans 
to continue up through expected completion in July.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                       Hon. Cynthia L. Quarterman
    Question 1. With the number of crude oil rail shipments across the 
country expected to increase over the next several years, population 
centers and fragile natural resource areas that are home to crude oil 
rail corridors will be more susceptible to rail traffic accidents. What 
actions has PHMSA taken to identify sensitive areas where crude oil 
train derailments could prove to be catastrophic, whether they are 
geographically, environmentally, or otherwise?
    Answer. Part 130 of PHMSA's regulations requires certain rail 
carriers to develop and maintain oil spill prevention and response 
plans as discussed below. These requirements are intended to prevent 
and contain spills of oil during transportation. More specifically, 
with regard to spill response planning, a basic response plan is 
required for oil shipment in a packaging having a capacity of 3,500 
gallons or more and a comprehensive response plan is require for oil 
shipment in a packaging containing 42,000 (1,000 barrels). Crude oil 
trains are currently subject to the basic oil spill response required 
by 49 CFR Part 130.
    PHMSA is committed to improving emergency response and recent 
efforts highlight this focus. On February 10, 2014, PHMSA held an 
emergency responder stakeholder engagement meeting. This discussion 
focused on the level of preparedness emergency responders and public 
safety officials have with regard to the rail transport of crude oil 
unit trains through their communities.
    In addition, on January 16, 2014, Secretary Foxx, FRA Administrator 
Szabo, FMCSA Administrator Ferro, and I issued a ``Call to Action.'' At 
that time, the Department asked crude oil stakeholders to identify 
prevention, mitigation and response strategies that could be 
implemented quickly to enhance the safe transportation of crude by 
rail. In regard to population centers and fragile natural resource 
areas, the following actions have been taken to address the concerns 
you raise:

  <bullet> AAR agreed to, by no later than July 1, 2014, voluntarily 
        expand routing requirements (Sec. 172.820) to trains carrying 
        more than 20 cars of crude oil. In addition, AAR agreed to 
        address risks of unit trains of crude oil by implementing speed 
        restrictions of 50 mph for trains carrying more than 20 cars of 
        crude and implementing speed restrictions of 40 mph for 
        specific trains carrying more than 20 cars of crude in high 
        threat urban areas designated by DHS.

  <bullet> AAR agreed that rail carriers must assess available routes 
        using, at a minimum, the 27 factors listed in Appendix D to 
        Part 172 of the HMR to determine the safest, most secure routes 
        for security-sensitive hazardous materials. These factors 
        address safety and security issues, such as the condition of 
        the track and supporting infrastructure; the presence or 
        absence of signals; past incidents; population density along 
        the route; environmentally-sensitive or significant areas; 
        venues along the route (stations, events, places of 
        congregation); emergency response capability along the route; 
        measures and countermeasures already in place to address 
        apparent safety and security risks; and proximity to iconic 
        targets. The HMR requires carriers to make conscientious 
        efforts to develop logical and defendable systems using these 
        factors.

  <bullet> The American Petroleum Institute (API) agreed to work with 
        the railroads to enhance emergency response training through 
        transportation community awareness and emergency response 
        trainings. In addition, the AAR agreed to inventory crude oil 
        routes and share this information with emergency responders, 
        develop and provide a hands-on training curriculum applicable 
        to crude transport for emergency responders, and work with 
        communities on crude oil train routes to address location-
        specific concerns.

    These immediate actions by the regulated community and PHMSA's 
outreach to emergency responders are an important first step in 
improving emergency response. However, regulatory modifications may be 
necessary. Based on the recent occurrence of more accidents involving 
crude oil, the NTSB has recommended in two Safety Recommendations (R-
14-4 and R-14-5) that PHMSA reconsider the threshold quantity for 
requiring the development of a comprehensive response plan for the 
shipment of oil and that PHMSA work with the FRA to expand hazardous 
materials route planning and selection requirements to include certain 
trains transporting large amounts of flammable liquids. PHMSA agrees 
with NTSB and plans to consider these issues in a future rulemaking.

    Question 2. What actions are being taken by your agency/
organization to coordinate with state and local agencies on disaster 
preparedness training and emergency response efforts?
    Answer. PHMSA launched a comprehensive outreach plan to educate 
industry, first responders, and the general public on the risk and 
proper classification of transporting crude oil. PHMSA has provided 
extensive information on its public website and social media stream to 
include the Secretary's Call to Action, Safety Advisory Notices, 
Amended Emergency Order, a thorough list of questions and answers 
(Q&As) related to transporting crude oil. PHMSA's Hazardous Materials 
Safety Assistance Team (HMSAT) has scheduled a series of public 
workshops and seminars to educate industry and first responders about 
the properties of crude oil and how to be better prepared for 
responding to crude oil incidents. PHMSA also held a meeting with 
various members of the emergency response community to discuss the 
risks crude oil poses and the challenges associated with unit train 
incidents.
    In addition to PHMSA's outreach effort, the Secretary's Call to 
Action has prompted industry to establish rail safety measures for 
transporting crude oil. This includes emergency response. The American 
Petroleum Institute (API), the American Associations of Railroads 
(AAR), and American Short Line & Regional Railroad Association (ASLRRA) 
have committed to assisting state and local communities with the 
development of response plans, sharing of information to include crude 
oil train routes, and providing training for responding to a crude oil 
incident.
    Lastly, since 1993, the HMEP grant program has provided funding to 
States, Territories, and Tribes to ensure local emergency responders 
are prepared and trained to effectively respond to and mitigate the 
consequences of hazmat transportation incidents. With the recent 
emphasis on crude oil shipments, PHMSA has encouraged grantees to 
allocate funding towards emergency preparedness activities such as 
developing/revising response plans, commodity flow studies, and 
response training applicable to a crude oil incident.
    PHMSA looks to intensify its outreach effort under the FY 2015 
proposed Emergency and Preparedness Information for Communities (EPIC) 
initiative that requests more resources to conduct outreach campaigns, 
site visits, and grassroots training with potential state, local, and 
tribal grantees.

    Question 3. What immediate measures can states, municipal 
governments, and local agencies take to mitigate potential disasters?
    Answer. Prompted by the Secretary's Call to Action, states, 
municipal governments, and local agencies are encouraged to reach out 
to the railroad industry to gain better understanding of the frequency 
and quantity of hazardous materials being transported by rail through 
their communities. Knowing this information, states and local agencies 
can adequately prepare by developing response plans and providing 
training for first responders in case of rail incidents involving crude 
oil.
    The Association of American Railroads has a program to provide 
local first responders (upon written request) a list of the top 25 
hazmat commodities transported through their communities on an annual 
basis in order to assist emergency responders with preparing for any 
emergency involving those materials.
    In addition, although not specifically related to transport, Local 
Emergency Planning Committees (LEPCs) under the EPA could provide 
valuable information related to risks in a specific community.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Hon. Cynthia L. Quarterman
    Question 1. Ms. Quarterman, I don't know if you've been to 
Washington--but like many places in the west, our cities grew up 
around--and because of--railroads. It is a legacy that we are proud of. 
But it also means that there is a lot of rail freight moving through 
our population centers. So when people see these unsafe DOT-111 tank 
cars being used to move crude--they are concerned, just like I am 
concerned. Are you able to give us an actual date that the updated tank 
car standards will be finalized?
    Answer. PHMSA in cooperation with FRA, is in the process of 
developing a draft Notice of Proposed Rulemaking, RIN 2137-AE91, 
``Hazardous Materials: Enhanced Tank Car Standards and Operational 
Controls for High-Hazard Flammable Trains.'' You can monitor progress 
at: www.reginfo.gov.

    Question 2. Does your agency have ample staff and expertise to keep 
moving this, and other safety-critical rulemakings, forward?
    Answer. PHMSA staff are subject matter experts in the field of 
hazardous materials transportation and have a high level of expertise. 
However, PHMSA is small agency relative to its national program 
responsibilities to ensure nearly one million shipments of hazardous 
materials arrive safely daily. In the FY 2015 budget, the 
Administration has requested $7 million (over the FY 2014 enacted 
level) additional funding for the hazmat program as well as $40 million 
to ensure the transportation of energy products.

    Question 3. What can we do in Congress to give you the resources to 
make sure these standards are kept up to date and don't get delayed?
    Answer. PHMSA's program operations continue to rely on 20-year-old 
legacy information management systems for data collection, integration, 
and analysis. This reliance on obsolete systems impacts operational 
efficiencies, including regulatory matters. Quality information is 
necessary to improve safety standards. The program would be better able 
to improve overall performance and efficiency if adequate funding were 
provided to consolidate disparate and obsolete data systems used by all 
internal programs that contribute to the extensive rulemaking process. 
In FY 2014, we requested $28.9 million for IT modernization of the 
hazmat safety program over a span of 7 years. To date we have received 
only $11.4 million of that necessary funding.
    PHMSA deals with very complex and technical public safety issues 
that require extensive review, as they should. In addition, there are 
very significant economic impacts associated with safety regulations 
that can require extensive regulatory evaluations (Safety Benefits and 
Cost). The rulemaking process is deliberative because it is crucial to 
receive and analyze input from a wide variety of stakeholders, 
including shippers and carriers, state and local officials, and 
concerned citizens.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                       Hon. Cynthia L. Quarterman
    Question 1. What is the timeline for release of PHMSA's findings 
regarding the chemical makeup of the U.S. crude samples as part of 
Operation Backpressure?
    Answer. PHMSA expects to release results in May 2014.

    Question 2. When will you be sharing the methodology used to arrive 
at your conclusions with producers and third-party independent 
verifiers?
    Answer. PHMSA is prepared to share the methodology that was used 
for testing at the same time it shares the test results in May 2014.

    Question 3. Is it true that the lab used when testing the 
characteristics of Bakken crude is the same lab used by many energy 
industry companies? Does the contracting lab use the same methodologies 
to test crude oil characteristics for PHMSA that they use for testing 
the samples from the oil and gas companies? If that is the case, would 
you say that using the same testing lab improves the ease with which 
oil companies would be able to share crude analysis data with PHMSA to 
support Operation Backpressure?
    Answer. Yes, the testing laboratory PHMSA has contracted with to 
perform tests is widely recognized and used by the industry. However, 
we have established a wall between the work performed for us and their 
industry clients.
    Yes, the contracting laboratory uses the same methodologies to test 
crude oil for energy industry companies as it does for PHMSA, with the 
exception of corrosion testing, which the industry is currently not 
performing.
    No, using the same lab and test methods does not necessarily lead 
to more data sharing, since there are contractual, proprietary, and 
legal issues governing the relationship between the laboratories and 
their clients. This information is protected and not releasable without 
proper authority. Nevertheless, PHMSA has invited producers and 
shippers to share information they have collected and PHMSA has 
recently received some results from some individual producers.

    Question 4. In terms of sample size, I understand that the sample 
size was not incredibly large or diverse in terms of well-site 
diversity. While you of course can't be expected to test every single 
well and shipment, do you view the current testing under way as an 
initial phase of testing? In other words, will you use the results from 
this testing to go back to the Bakken, take several more samples, to 
ensure that they all generally match or fall within some identifiable 
range of the samples you are testing now?
    Answer. PHMSA's plan of sample collection for testing is primarily 
based on the volume of shipments from rail loading facilities. 
According to the AAR, approximately 640,000 barrels of crude are moved 
out of North Dakota via rail per day. All of these facilities store 
crude oil processed from each of the over 10,000 wells in large storage 
tanks prior to loading on rail cars.
    Yes.
    Yes.

    Question 5. As part of the testing, is PHMSA collecting samples 
from multiple points along the line of delivery? Specifically, are 
samples being taken from the well head, the loading point and the 
delivery point?
    Answer. Yes, PHMSA has collected from multiple locations to include 
cargo tank and rail car loading points. PHMSA is currently working with 
producers to identify opportunities to collect samples at or near the 
well heads, as well as other delivery points, including destination 
points.

    Question 6. Your agency recently announced some fines against 
several producers in the Bakken for product mislabeling based on your 
tests and what you determined were shipments that were identified in 
the wrong Packing Group. Since that time I know my staff and staff from 
other offices and Committees have reached out to you, and while we take 
you at your word regarding the mislabeling and testing, it seemed that 
you had no clear answer as to how this product, based on a different 
Packing Group would be handled. Why is that? Do you not have clear, 
identifiable standards that a producer, shipper, third-party trucker 
can access?
    Answer. With regard to packing group, for rail shipments of 
flammable liquids, the packing group can trigger additional 
requirements including the need for a comprehensive security and safety 
plan that address personnel security, unauthorized access, and en route 
security. In addition, a change in packing group can change the package 
which the commodity may be transported in, e.g., the tank cars or truck 
cargo tanks.
    The regulatory requirements for crude oil provide a uniform safety 
system that is globally recognized and harmonized. This regulatory 
system is well known and has been in place for decades. Because of this 
robust regulatory system, nearly one million shipments of hazardous 
materials arrive safely daily.

    Question 7. What are the different requirements that come with 
increasing packing standards from Class I to Class II? Fines were 
recently assigned from your agency for the mislabeling of crude 
carrying tanker cars, and standards should be enforced when they are 
required. However, it is unclear to the stakeholder community what the 
differences are in terms of their responsibilities--other than changing 
the label on the tanker--for Class I and Class II tankers. What are the 
differences between Class I and Class II with regard to operation 
requirements and the need for response plans?
    Answer. The accurate selection of the shipping description is 
important in determining the proper packaging, and the packing group 
can change the tank cars authorized. With regard to packing groups, for 
rail shipments of flammable liquids, the packing group can trigger 
additional requirements including the need for a comprehensive security 
and safety plan that addresses personnel security, unauthorized access, 
and en route security. As much of crude transport is multi-modal, 
assigning the wrong packing group can have serious downstream 
consequences. For example, different cargo tanks are used for packing 
groups I and II flammable liquids.
    With regard to response plans, the threshold for such plans is 
based on the quantity of oil, not packing group. Part 130 of the 
hazardous materials regulations provides the requirements for oil spill 
prevention and response plans. There are two types of response plans: 
Basic and Comprehensive. More specifically with regard to spill 
response planning, a basic response plan is required for oil shipment 
in a packaging with a capacity of 3,500 gallons or more and a 
comprehensive response plan is required for oil shipment in a packaging 
containing 42,000 gallons (1,000 barrels).

    Question 8. Are you at the table with the oil producers, rail 
companies, and suppliers as they continue to game out and work on specs 
for tank cars? If not, why? And why were you not at the table with many 
of these same companies when they worked on new specs and standards 
after the 2009 Illinois ethanol derailment and explosion? I believe the 
new standards agreed upon, without input from PHMSA, were also then 
submitted to your agency for input, but PHMSA has failed to comment 
thus far on those proposed standards. Industry-wide standards that have 
now been in place since 2011.
    Answer. Yes, PHMSA has been continuously involved with development 
of tank car standards. Specifically, PHMSA engineers sit on the AAR 
Tank Car Committee (TCC) in an advisory capacity and participated in a 
2011 task force created with a dual charge to develop an industry 
standard for tank cars used to transport crude oil, denatured alcohol, 
and ethanol/gasoline mixtures, and to consider operating requirements 
to reduce the risk of derailment of tank cars carrying crude oil 
classified as packing group I and II and ethanol. PHMSA and FRA were 
highly involved in this task force and hoped that the activity would 
lead to a comprehensive approach. The task force promised to address 
the root cause, severity, and consequences of derailments and its 
recommendations were finalized on March 1, 2012. The AAR task force did 
not address many of the recommendations provided by PHMSA and FRA.
    After considering the outcome of the AAR task force, PHMSA decided 
to initiate an ANPRM. On September 6, 2013, PHMSA issued an ANPRM 
regarding tank car specifications. The comment period for the action 
closed on December 5, 2013.

    Question 9. While I think it's great to see various industries 
working together to come up with an accepted best-practice, in this 
newly designed tank cars, shouldn't the agency tasked with regulating 
the standards for movement of this product be both engaged on the front 
end, and offer feedback when new standards are adopted? We now have a 
tank car on the tracks since 2011 PHMSA has yet to offer comment on.
    Answer. As mentioned in response to question 8 above, PHMSA has 
been and continues to be involved.
    The Hazardous Materials regulations currently have such a review 
process in place. Section 179.4 requires proposed changes in or 
additions to specifications for tank cars to be submitted to the 
Executive Director--Tank Car Safety, AAR, for consideration by its Tank 
Car Committee. Following this, The Tank Car Committee will review the 
proposed specifications at its earliest convenience and report its 
recommendations through the Executive Director--Tank Car Safety to the 
Department. The recommendation will be considered by the Department in 
determining appropriate action.
    PHMSA engineers sit on the AAR TCC in an advisory capacity and 
participated in a 2011 task force created with a dual charge to develop 
an industry standard for tank cars used to transport crude oil, 
denatured alcohol, and ethanol/gasoline mixtures and to consider 
operating requirements to reduce the risk of derailment of tank cars 
carrying crude oil classified as packing group I and II and ethanol.
    On May 14, 2010, PHMSA published a final rule (HM-233A) to amend 
the Regulations to incorporate provisions contained in certain widely 
used or longstanding special permits that have an established safety 
record. As part of this rulemaking, PHMSA adopted a requirement that 
would allow certain rail tank cars transporting hazardous materials to 
exceed the gross weight on rail limitation of 263,000 pounds upon 
approval of FRA.
    On January 25, 2011, FRA issued a Federal Register notice of FRA's 
approval pursuant to PHMSA's May 14, 2010 final rule. The approval 
established detailed conditions for the manufacturing and operation of 
certain tank cars in hazardous materials service, including the DOT 
Specification 111, that weigh between 263,000 and 286,000 pounds. Taken 
as a whole, the PHMSA rulemaking and the FRA approval serve as the 
mechanism for tank car manufactures to build a 286,000 pound tank car. 
As such, rail car manufacturers currently have the ability to 
manufacture DOT/TC-111 tank cars meeting the CPC-1232 industry standard 
under the conditions outlined in the January 25, 2011 approval.

    Question 10. You mentioned that a Strike Force met in North Dakota 
the week prior to the March 6 hearing that was comprised of PHMSA, FRA, 
and FMCSA. Can you provide my office with details about that meeting? 
Were samples collected? From where? Has such a task force been deployed 
to other oil plays in different regions of the country?
    Answer. PHMSA organized a Multi-Agency Strike Force Operation 
during the week of February 23, 2014, which was the first such strike 
force of its kind deployed specifically in the oil fields. 
Participating agencies other than PHMSA, included the Federal Motor 
Carrier Safety Administration, Federal Railroad Administration, Customs 
and Border Protection, and the North Dakota Highway Patrol Commercial 
Motor Vehicle Enforcement. A total of 23 personnel formed five 
different teams to conduct inspections of crude oil shipments and 
assist each other with the expertise and regulatory jurisdiction 
normally exercised by each participating agency.
    Yes. Samples were collected from 14 petroleum crude oil loading 
facilities located throughout the western part of North Dakota. PHMSA 
investigators collected samples of crude oil from various locations 
including cargo tanks, storage tanks, and pipelines connected to rail 
cars.
    No.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                       Hon. Cynthia L. Quarterman
    Question 1. What are the major safety issues accompanying the 
transportation of crude oil by rail and what have been the most common 
types of accidents that have occurred in the last five years?
    Answer. Transporting petroleum crude oil can be problematic if 
released into the environment because it is both flammable and causes 
environmental damage when spilled. The risk of flammability is 
compounded in the context of rail transportation because petroleum 
crude oil is commonly shipped in large unit trains. In the last five 
years there have been seven major accidents in the United States and 
Canada which involved crude oil. All of these incidents have occurred 
within the last ten months. Due to the investigation process, the type 
of five of these incidents is still to be determined (Four in the 
United States and one in Canada). The other two incidents types were 
Collision (Casselton, ND) and Lack of Securement of a Train (Lac-
Megantic, Quebec).

    Question 2. Do you have concerns about whether industry will 
continue to adopt voluntary safety enhancements if Pipeline and 
Hazardous Materials Safety Administration's final rule ultimately 
obsoletes the $7 billion investment that has been made to manufacture 
cars to the CPC-1232 standard the development in which PHMSA 
participated?
    Answer. PHMSA understands the industry's needs to set best 
practices and industry standards. We encourage the development of such 
practices, however PHMSA has the responsibility of ensuring tank car 
standards continue to meet acceptable safety requirements. When 
considering these standards, PHMSA considers the points of views of 
stakeholders through its rulemaking process.

    Question 3. Beyond the rail and oil industries, what other 
industries has PHMSA consulted with, or plan to consult with, in its 
efforts to improve tank car safety?
    Answer. In addition to the rail and oil industries PHMSA continues 
to consult with tank car owners, tank car manufacturers, emergency 
responders, and other Federal agencies and local government.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                       Hon. Cynthia L. Quarterman
    Question. AAR has stated that rail is the safest way to transport 
crude oil. They contend, and I am quoting here, ``pipelines have 
spilled 55 percent more [hazardous materials] per ton-mile than have 
railroads.'' Do you agree with their assessment, if not what is the 
safest way to transport petroleum products?
    Answer. According to AAR the number of crude oil car loads 
originated by the members increased from 11,000 in 2009 to more than 
400,000 in 2013 with an expected increase. Over the last 10 years, 
while train volume has increased, train accidents have declined by 43 
percent and the number of train accidents involving hazardous materials 
has declined by 16 percent. Despite this decline in accidents, 
derailments can have lasting consequences to the public, communities, 
and environment. PHMSA recognizes opportunities to improve safety and 
are sharply focused on further reducing risks regardless of how this 
product is transported. Whether transported by rail or by pipeline, the 
shipment of crude oil must be done safely and in accordance with our 
regulations. This is a safety issue that applies to all modes of 
transportation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                       Hon. Cynthia L. Quarterman
    Question 1. Are there any precedents where the implementation of 
new regulations on tank cars that ship hazardous materials have also 
impacted an existing fleet?
    Answer. Yes there is. Most recently on January 13, 2009 PHMSA 
issued a final rule that improved the crashworthiness of railroad tank 
cars used to transport poisonous by inhalation (PIH) materials (i.e., 
chlorine and anhydrous ammonia). The final rule required PIH tank cars 
to have better puncture resistance head, side and strengthened valves, 
top fittings and nozzles.
    The final rule also imposed operational requirements and 
prioritized retirement or replacement of existing cars.

    Question 2. The Feb 25th DOT Emergency Order requires that all 
crude oil be classified in Packing Groups 1 and 2. I have heard from 
many oil producers that they already often treat crude oil as Packing 
Group 1 or 2. What type of data did PHMSA collect that led DOT to 
believe the Emergency Order requiring the practice was necessary? Do 
you have figures on how often shippers of crude oil use Packing Group 
3?
    Answer. One of the goals of the Emergency Order is to eliminate the 
use of a non-DOT spec tank standard for transporting bulk quantities of 
crude oil. In light of continued risks associated with petroleum crude 
oil shipments by rail, the further action described in this Amended 
Order is necessary to eliminate unsafe conditions and practices related 
to the classification and packaging of petroleum crude oil that create 
an imminent hazard to public health and safety and the environment.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                        Hon. Christopher A. Hart
    Question 1. The NTSB since has been in Connecticut on the New Haven 
Line investigating each Metro North incident that has occurred over the 
last year. You have done extensive discovery and have interviewed Metro 
North management, employees, and related parties for insight and 
feedback.
    You have also provided progress reports on your findings at NTSB 
held hearings and briefings to Congress. What is the status of NTSB's 
investigation report on the Metro North incidents? When can policy 
makers and other stakeholders except these reports? Why does it take a 
year to complete incident reports? It seems unnecessarily long.
    Answer. The NTSB plans to combine four of the Metro-North 
accidents--the May 17 derailment and collision in Bridgeport, CT; the 
May 28 worker fatality in West Haven, CT; the July 18 CSX trash train 
derailment on Metro-North tracks in The Bronx, New York; and the 
December 1 derailment also in The Bronx--in to one report that will be 
presented to the Board in mid-November 2014.
    As the investigations have progressed, we issued four safety 
recommendations to Metro-North and reiterated one safety recommendation 
to the FRA. These recommendations provide an early glimpse in to the 
investigation of the safety shortfalls we identified to date and can 
also be used by policymakers who are examining ways to improve safety 
at Metro-North.
    The NTSB has 10 rail investigators in our Office of Rail, Pipeline, 
and Hazardous Materials Investigations (RPH) who are currently 
investigating 23 rail accidents. We investigate all relevant aspects of 
all railroad accidents; operations, mechanical, signals, track, and 
human performance. Although we attempt to complete each investigation 
within 1 year, limited resources challenge our ability to reach that 
goal. The final reports will fully explain the various issues related 
to each accident, and will also provide policymakers with a great deal 
of information that will assist in their efforts to improve railroad 
safety.

    Question 2. At one point, you mentioned that if a common thread 
such as safety culture can be traced through each of Metro North's 
accidents, the NTSB would consider consolidating each incident into one 
report. Have you made a decision on whether or not to do this?
    Answer. As stated previously, the NTSB will consolidate 4 Metro-
North accidents in to one report that will be presented to the Board in 
mid-November 2014.

    Question 3. One year seems like long to publish an investigation 
report. Can you accelerate this process? Does NTSB have a resource 
problem?
    Answer. The NTSB had been under a hiring freeze due to 
sequestration. The FY 2014 budget has allowed us to begin hiring 
actions again, with a priority on RPH positions. We hope to add 4 
people to the RPH office over the next few months, and these resources 
will help with the workload.
    The hiring freeze, which has left us unable even to replace those 
who retire, has impacted all modal offices at the NTSB, and even after 
hiring new staff, the training time will result in the new staff not 
being available to lead their own investigations for at least one year. 
The effects of sequestration will be felt for several years, and if 
sequestration is implemented again, the NTSB will face the same 
resource constraints and potentially delay accident reports even 
further.
    I am happy to talk with you further about the needs of the NTSB.

    Question 4. What type of follow up does the NTSB do once they issue 
a recommendation to the FRA or an individual operator such as Metro-
North? The NTSB first recommended that the FRA requires cameras in 
2008--what follow up has occurred since that time with FRA? The NTSB 
should not have to recommend something twice but I would hope there is 
an ongoing dialogue with agencies and operators about their 
recommendations.
    Answer. We agree that it seems unnecessary to issue recommendations 
multiple times, but too often, we see no action on recommendations by 
the recipient. After issuing a recommendation, the NTSB tracks the 
progress via correspondence with the recipient. I can provide you with 
the correspondence history on any recommendation in which you are 
interested.
    In the case with redundant worker protections, like shunting, the 
NTSB issued that recommendation to the FRA in 2008, but six years 
later, this recommendation has not been implemented despite indications 
that the FRA would implement it.

    Question 5. The NTSB has made several recommendations to the FRA, 
Metro North, and the Nation's railroads in general following the string 
of Metro North accidents in 2013. Following the May 28, 2013 accident 
that resulted in the death of track foreman Robert Luden, the NTSB 
recommended the installation of shunting systems. The NTSB has also 
made recommendations for inward and outward facing cameras for the 
Nation's railroads as well as recommended to the FRA to issue an 
adjacent track rule which it now has.
    Mr. Hart, What other recommendations does the NTSB have to improve 
safety on the Nation's railroads in the short-term that can be 
implemented immediately and cost effectively?
    Answer. The focus of the NTSB is to issue recommendations to 
improve safety without conducting a cost-benefit analysis; therefore, 
it is difficult for me to discuss the cost effective component. 
However, there are several recommendations to the FRA that have been 
open for a number of years that would be relatively quick to implement. 
For example, the NTSB has recommended that the FRA develop and publish 
a guide for crewmembers on the hazards of using certain types of 
medications while on the job (R-00-002). This recommendation has been 
open since 2000 and despite the wealth of information that is available 
about the side effects of various drugs, no new regulations have been 
implemented.

    Question 6. What should we be focusing on as Federal regulators to 
improve safety on the Nation's rail system in the long run?
    Answer. There is no one ``silver bullet'' to improve rail safety, 
but at the NTSB, we have seen some themes in our investigations that, 
especially when taken together, go a long way to making our railroads 
safer. Current safety issues, or overarching trends, include: safety 
deficiencies in the design of thousands of railroad tank cars; the need 
for widespread implementation of positive train control (PTC) systems; 
the need for installation of inward-and outward-facing locomotive 
cameras; the need for improved medical programs; and the need for 
focused, industrywide efforts to foster top-down safety cultures in 
which safety thrives. There is not one approach that will improve rail 
safety, but it must be addressed by implementing varied approaches 
that, when working together, can help drive down the number and 
frequency of accidents or mitigate the severity of accidents.

  1.  Improved Tank Car Design. The NTSB has called for more robust 
        tank cars for over 20 years. More recently, the accidents in 
        Lac-Megantic, Quebec, Casselton, ND, and New Augusta, MS, and 
        in Casselton, ND illustrate the continuing need for these 
        improvements. Enhanced head shields, jackets, and thicker 
        shells could reduce or mitigate the severity of these 
        accidents.

  2.  Technology. The NTSB has called for positive train control (PTC) 
        or its predecessor technology for over 40 years. This 
        technology would prevent or mitigate head-on collisions, 
        roadway worker fatalities, and other accidents that are the 
        result of human factors deficiencies. PTC preventable accidents 
        continue happening with the most recent occurring on December 
        1, 2013, in The Bronx, NY, which killed four people and injured 
        59 others. Since 2004, in the 25 PTC preventable accidents that 
        the NTSB investigated, 65 people died, more than 1,100 were 
        injured, and damages totaled millions of dollars. 
        Unfortunately, we have been told by the railroad industry that 
        many railroads will not meet the 2015 deadline for 
        implementation. The NTSB has recommended that railroads provide 
        PTC implementation update reports to the FRA every 6 months 
        until PTC implementation is complete. The NTSB believes the FRA 
        should make this information available online to ensure a 
        transparent accounting for actions taken and not taken to meet 
        the 2015 deadline so that regulators and policymakers can make 
        informed decisions.

  3.  Inward-and Outward Facing Audio and Image Recorders. The December 
        1, Metro-North accident in the Bronx raised questions about the 
        actions of the engineer prior to the crash. The NTSB has 
        repeatedly called for railroad carriers to install inward-and 
        outward-facing audio and image records to answer similar 
        questions that have arisen in other accidents. Recorders in 
        locomotives and cab car operating compartments are critically 
        important not only because they would assist NTSB investigators 
        and others understand what happened in a train in the minutes 
        and seconds before an accident, but also because they would 
        help railroad management prevent accidents by identifying and 
        responsibly addressing safety issues before they lead to 
        injuries and loss of life and allow for the development of 
        material that can be a valuable training and coaching tool.

  4.  Improved Medical Programs. Updating medical exams to include a 
        review of drug-to-drug interaction, screening for sleep 
        disorders, and thorough physical examinations; improved testing 
        for color discrimination capabilities; and more frequent checks 
        for personnel with chronic conditions. The most recent NTSB 
        investigations illustrating this trend include Goodwell, OK and 
        Red Oak, IA. Additionally, there is preliminary evidence to 
        support the need for improved medical programs in current on-
        going investigations.

  5.  Top-down Safety Cultures. Fostering the development of 
        transparent, top-to-bottom safety cultures in transportation is 
        an important priority of the NTSB. Creating and nurturing a 
        thriving safety culture within rail carriers is even more 
        imperative in light of the expanding role of the Nation's 
        railroad system as a main transporter of flammable materials 
        and the continual increase in passenger ridership.

      The NTSB held a public forum on September 10 and 11, 2013, on 
        successes and challenges associated creating and maintaining 
        strong safety cultures across the transportation modes, 
        including rail. Panels of experts from academia, industry, and 
        Federal regulatory agencies, such as the FRA, offered their 
        perspectives on the significant organizational commitments and 
        managerial work that are required to maintain safety cultures 
        across large complex organizations such as transportation 
        carriers.

      Currently, the NTSB is examining the role of safety culture and 
        the critical role that organizational culture plays in 
        preventing accidents at the Metro-North Railroad. As we 
        continue the on-going investigations into five Metro-North 
        accidents, including the Bridgeport, CT, derailment on May 17 
        where 76 people were injured, the West Haven, CT, roadway 
        worker fatality on May 28, the derailment of a CSX train along 
        Metro-North tracks on July 18, the derailment on December 1 in 
        The Bronx where four people were killed, and most recently, an 
        additional roadway worker fatality on March 10, 2014, in 
        Manhattan, NY, we will examine organizational issues that 
        likely impact the safety performance at Metro-North. The 
        importance of building relationships between management and 
        employees that foster a vibrant safety culture cannot be 
        overlooked. Trust is an essential ingredient in those 
        relationships. A culture in which front-line employees may 
        openly report operational errors and safety issues without fear 
        of reprisal is absolutely critical, and, as we have seen in the 
        aviation context, improves safety.

  6.  Maintenance Issues. The Metro-North Bridgeport accident 
        underscores the critical importance of regular, vigorous, and 
        robust inspections of tracks. Railroad management must afford 
        track workers adequate time and opportunity to conduct 
        inspections and make repairs as necessary. As part of an 
        ongoing investigation, the NTSB is looking at the adequacy of 
        the FRA's Track Safety Standards.

    Question 7. What has your research showed about the importance of 
inward and outward facing cameras? Why is this such a critical tool for 
protecting passengers?
    Answer. Inward-and outward-facing video and audio recorders can 
provide vital information to investigators about what happened during 
an accident. This information can also be incorporated in to company 
training programs, which will improve passenger safety.

    Question 8. The NTSB investigates railroads across the entire 
country. At NTSB's November hearings on the Metro North Bridgeport 
derailment and the West Haven accident, a representative from the Long 
Island Railroad (LIRR) testified that the LIRR conducts inspections at 
a higher rate than Metro North and also employs automated inspection 
vehicles more frequently.
    At a meeting between Congress members, DOT and the FRA, 
Administrator Szabo spoke to the fact that alerter systems are good 
railroad practice and standard on most railroads across the country 
while Metro North lacked these devices in each train cabin where an 
engineer operates. He stated that he was checking with the American 
Public Transportation Association (APTA) on whether any other railroad 
didn't have alerters as a standard device in each train cabin.
    In your opinion, how does Metro North's standard of safety compare 
to other railroads throughout the country?
    Answer. Our on-going Metro-North accident investigations only focus 
on those specific accidents and do not enable us to generate an overall 
safety rating for Metro-North's total operations or to compare its 
overall safety with other railroads. That being said, we will likely 
issue recommendations as a result of these investigations that can be 
applied at other railroads to improve the safety throughout the 
country.
    Also, positive train control (PTC) is a technology that includes 
the role of the alerter, and the NTSB has been on the record for more 
than 40 years calling for PTC to be implemented throughout the rail 
industry. Accidents like the December 1, fatal accident could have been 
prevented or mitigated by PTC.

    Question 9. What other areas besides the aforementioned does Metro 
North lag behind the rest of the Nation's railway system?
    Answer. Our investigations have identified and will continue to 
identify safety shortcomings of Metro-North. The four recommendations 
issued up to this point clearly point to areas of improvement for 
Metro-North in the areas of worker protections, in-cab audio and video 
recorders, and speed control.
    We will not hesitate to act on other safety shortfalls at any time 
as the investigations proceed.

    Question 10. On December 1, a Metro-North train derailed resulting 
in four casualties and close to seventy injuries. The train was 
travelling at approximately 82 mph in an area where speed was limited 
to 30 mph. The NTSB investigation is ongoing, but officials recently 
recommended that Metro-North install inward-and outward-facing cameras 
on its trains. The NTSB has called on all railroads to install such 
cameras since a 2008 crash between a passenger and a freight train 
resulted in the death of 25 people. The FRA has recently indicated its 
decision to begin the rulemaking process on this issue.
    Following the December 2013 Metro-North derailment that resulted in 
four casualties and close to seventy injuries, the NTSB recommended 
that Metro-North install inward-and outward-facing cameras. This is 
something the NTSB has been recommending since 2008. What safety 
benefits does the NTSB see in requiring these cameras? Are some rail 
agencies already using this technology?
    Answer. In 2008, the NTSB recommended inward-and outward-facing 
audio and image recorders after the deadly rail accident in Chatsworth, 
CA, and we recently reiterated that recommendation in Goodwell, OK. 
This important crash protected information would assist investigators 
in reconstructing accident scenarios. Also, it could help railroad 
management prevent accidents by identifying and responsibly addressing 
safety issues before they lead to injuries and loss of life and allow 
for the development of material that can be a valuable training and 
coaching tool. In the future, image technology may well play a role in 
identifying fatigued engineers and allowing interventions.
    TO THE FEDERAL RAILROAD ADMINISTRATION: Establish an ongoing 
program to monitor, evaluate, report on, and continuously improve 
fatigue management systems implemented by operating railroads to 
identify, mitigate, and continuously reduce fatigue-related risks for 
personnel performing safety-critical tasks, with particular emphasis on 
biomathematical models of fatigue. (R-12-17)
    TO THE FEDERAL RAILROAD ADMINISTRATION: Conduct research on new and 
existing methods that can identify fatigue and mitigate performance 
decrements associated with fatigue in on-duty train crews. (R-12-18)
    In the investigation of the 2012 Goodwell, OK, head-on train 
collision, the NTSB made the following recommendation to all Class I 
railroads:
    Install in all controlling locomotive cabs and cab car operating 
compartments crash-and fire-protected inward-and outward-facing audio 
and image recorders. The devices should have a minimum 12-hour 
continuous recording capability. (R-13-26)
    The NTSB continues to believe that inward-and outward-facing audio 
and image recorders improve the quality of accident investigations and 
provide the opportunity for proactive steps by railroad management to 
improve operational safety.
    On February 18, 2014, in the wake of several accidents at Metro-
North Commuter Railroad, the NTSB issued the following two 
recommendations to Metro-North:

        Require the installation, in all controlling locomotive cabs 
        and cab car operating compartments of crash-and fire-protected 
        inward-and outward-facing audio and image recorders capable of 
        providing recordings to verify that train crew actions are in 
        accordance with rules and procedures that are essential to 
        safety as well as train operating conditions. The devices 
        should have a minimum 12-hour continuous recording capability 
        with recordings that are easily accessible for review, with 
        appropriate limitations on public release, for the 
        investigation of accidents or for use by management in carrying 
        out efficiency testing and systemwide performance monitoring 
        programs. (R-14-08)

        Regularly review and use in-cab audio and image recordings in 
        conjunction with other performance data, to verify that train 
        crew actions are in accordance with rules and procedures that 
        are essential to safety. (R-14-09)

    Some commuter and freight railroads have installed or are 
installing these cameras, and their use is a condition of employment. 
Voluntary installation is an excellent step forward, but we are not 
confident that all railroads will install cameras unless they are 
required by rule.

    Question 11. In July, a train carrying crude derailed and exploded 
in Lac-Megantic, Quebec, killing 47 people and destroying the city's 
downtown. On December 30th, a train in North Dakota carrying crude oil 
struck another train which set off an explosion and required the 
evacuation of more than 1,500 people. On January 7th, a train carrying 
crude and propane derailed and caught fire in New Brunswick, Canada 
forcing an evacuation less than 35 miles from the Maine border.
    A series of freight rail accidents over the past 8 months highlight 
the need for safety plans to be in place so that communities and first 
responders know how to respond when there is a train accident carrying 
crude, propane, or any other hazardous material. Training first 
responders is a good first step to improving the response to incidents, 
and I was glad to see that included in your recent agreement. Mr. Hart, 
based on your response to safety incidents generally, what more should 
be done to ensure emergency responders are able to quickly and 
appropriately respond to these types of incidents?
    Answer. The NTSB has issued recommendations to the FRA and PHMSA to 
require the railroads to immediately provide to emergency responders 
accurate, real-time information regarding hazardous materials on a 
train in the event of an accident. These recommendations were issued in 
2007 as a result of an accident in Anding, MS, and we continue to see 
other rail accidents in which timely information to first responders 
results in a lack of coordinated response and can endanger the 
responders and the communities through which these trains travel.
    More can be done by railroads to provide real-time data on train 
manifests, especially when the manifest is available electronically. We 
look forward to working with you to ensure that our first responders 
are armed with up-to-date information in the aftermath of an accident.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                        Hon. Christopher A. Hart
    Question 1. What actions are being taken by your agency/
organization to coordinate with state and local agencies on disaster 
preparedness training and emergency response efforts?
    Answer. The NTSB believes there should be better coordination 
between first responders and the railroads travelling through their 
communities. To that end, the NTSB has issued recommendations to the 
FRA and PHMSA to require the railroads to immediately provide to 
emergency responders accurate, real-time information regarding 
hazardous materials on a train in the event of an accident. These 
recommendations were issued in 2007, but we continue to investigate 
rail accidents in which timely information to first responders results 
in a lack of coordinated response and can endanger the responders and 
the communities through which these trains travel.
    More can be done by railroads to provide real-time data on train 
manifests, especially when the manifest is available electronically. We 
look forward to working with you to ensure that our first responders 
are armed with up-to-date information in the aftermath of an accident.

    Question 2. What immediate measures can states, municipal 
governments, and local agencies take to mitigate potential disasters?
    Answer. The accident in Paulsboro, NJ, in November 2012, is an 
example in which first responders were not adequately trained to 
respond to the toxic release and did not have the necessary resources 
(air monitoring equipment, fire suppression equipment, etc.). Local and 
state governments should contact the railroad operators in their 
community and work to improve emergency responders' training and 
identify how resources will be provided and managed in the event of 
derailments involving hazardous liquids. It should include first 
responder training and routine refresher training. Also, public 
education programs for communities through which railroads transport 
hazardous materials can be developed. Lastly, municipalities should 
adequately identify and analyze risks, or adequately provide for 
response to releases of hazardous materials that are transported 
through communities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                        Hon. Christopher A. Hart
    Question 1. Local stakeholders have raised concerns about the 
conditions of the ground in and around Casselton that could potentially 
affect track quality or integrity. Is the NTSB, in its review of the 
Casselton Derailment, testing ground quality near the Casselton 
Interchange to determine whether or not it was a factor contributing to 
the derailment?
    Answer. The NTSB accident investigation is ongoing with many 
factors being reviewed. As part of the investigation, track conditions, 
including ground and subgrade, and maintenance records will be reviewed 
for their condition as well as for compliance with current FRA 
regulations and BNSF Railway established maintenance procedures.

    Question 2. When will the NTSB's investigation be completed? Will 
NTSB issue recommendations to the regulators based on these findings? 
Or will the independent agency reiterate previous recommendations that 
have not been acted upon--such as the recommendations from the findings 
of the 2009 Cherry Valley derailment?
    Answer. The NTSB goal is to complete its investigation of the 
Casselton, ND, accident in about one year. However, if we identify 
safety issues that need more immediate action, we can issue safety 
recommendations at any time before the report is complete. An example 
is found in safety recommendation R-14-10 issued on April 7, 2014, to 
the American Association of Railroads requiring that second-hand use 
axles undergo non-destructive testing specifically designed to locate 
internal material defects in axles.
    Regarding the Cherry Valley, IL, tank car recommendations, the NTSB 
is closely following the rulemaking actions at PHMSA, and we will 
comment on those efforts to ensure our lessons learned are part of the 
record on tank car design.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                         Geoffrey C. Blackwell
    Question 1. One key aspect to implementing PTC is providing the 
necessary spectrum. Various types of equipment owned by many different 
railroads must be able to communicate on any track equipped with PTC. 
It would be most efficient to utilize a single radio frequency band 
across the entire PTC system to minimize the cost of radio receivers 
and network equipment. A consortium of the Union Pacific, Norfolk 
Southern, CSX, and BNSF railroads, has purchased licenses to some 
frequencies in the 220 MHz range. Along with Amtrak and other 
railroads, the consortium has requested additional 217-222 MHz spectrum 
and appropriate license and rule changes, claiming 220 MHz will be 
insufficient in congested urban areas. Although frequencies may be 
available in various bands, the railroads prefer the 217-222 MHz range 
due to compatibility with current infrastructure and the radio 
communication technology they have chosen to employ. Because of 
uncertainty over spectrum needs, the FCC issued a public notice seeking 
comments from stakeholders on May 5, 2011, but has not instituted a 
formal rulemaking process regarding PTC radio spectrum issues.
    Mr. Blackwell, what is the status of the FCC's rulemaking for PTC 
radio spectrum? What did the FCC glean from the public comment period? 
Has progress been made based on the findings from the public comments? 
When can we expect a final rule on PTC spectrum?
    Answer. The Commission has not initiated a rulemaking with respect 
to PTC spectrum, focusing instead on directly helping the railroads 
secure the necessary spectrum. Also, Congress did not direct FCC to 
provide spectrum to commuter rails, or any railroads, in the Rail 
Safety Improvement Act of 2008. The public record from the 2011 Public 
Notice indicated that most commuter rails did not know how much 
spectrum they needed to deploy PTC and lacked familiarity with how to 
secure spectrum in the secondary markets by lease or acquisition. As a 
result, the Commission has worked to educate the commuter rails and the 
American Public Transportation Association (APTA) about securing 
spectrum in the secondary markets. In addition, we have granted 
substantial technical relief to enable PTC system implementation. In 
fact, Commission staff has been working closely with the freight and 
commuter railroads to identify available spectrum suitable for PTC 
deployment.
    We will continue to work with all parties on this issue and believe 
that we will be able to help the remaining railroads identify and 
secure sufficient spectrum for their PTC deployments. In fact, with the 
Commission's assistance, approximately 75 percent of the commuter 
railroads have acquired or are in discussions to lease spectrum. In 
lieu of a rulemaking, therefore, the Commission will continue to assist 
all railroads to acquire the necessary spectrum they need through 
secondary market transactions and technical relief.

    Question 2. As part of PTC implementation, railroads must install 
tens of thousands of new antenna structures nationwide to transmit PTC 
signals. The Federal Communications Commission (FCC) maintains that all 
PTC antenna structures are subject to the National Environmental 
Protection Act (NEPA) and the National Historic Preservation Act 
(NHPA). The location of each antenna must be submitted to the FCC so 
Native American tribes can determine if the installation will 
negatively impact areas of historic, cultural or religious 
significance.
    In January 2014, the FCC released a proposal that was intended to 
expedite the review of PTC infrastructure.
    Mr. Blackwell, has the FCC processed this level of applications 
before? Do you agree with Mr. Hamberger's assessment? What additional 
challenges might the agency face in processing the applications 
quickly?
    Answer. The Tower Construction Notification System (TCNS) is a 
secure technology solution that allows parties interested in 
constructing communications towers to ascertain whether their proposed 
construction would implicate a Tribal Nation's interest in culturally 
or religiously significant sites in the area of the proposed 
construction. A parallel system, E-106, exists to facilitate review of 
communications towers by interested State Historic Preservation 
Officers (SHPOs). On average, the Commission processes more than 10,000 
applications a year for new or collocated communications infrastructure 
through these systems, which were originally designed for tower-by-
tower review.
    When the railroads informed FCC staff of the extent of construction 
necessary to deploy PTC in the spring of 2013, and after continued 
discussions with the railroads, we concluded (and the railroads agreed) 
that the Commission's TCNS and E-106 processes, as they existed, were 
not suited to ensure efficient review of PTC wayside infrastructure on 
such a large scale. At the same time, we recognized that TCNS and E-106 
offer unique efficiencies that will provide many advantages to the 
railroads, Commission staff, SHPOs, and Tribal Nations. In consultation 
with Advisory Council on Historic Preservation (ACHP) and the 
Administration's Council on Environmental Quality (CEQ), the Commission 
moved forward with drafting a Program Comment intended to streamline 
existing procedures and promote administrative efficiency for review of 
PTC wayside infrastructure.
    The Commission does not agree with the overall assessment of the 
program comment by Mr. Hamberger and the Association of American 
Railroads (AAR). In fact, many of the changes made to the Program 
Comment prior to submission to ACHP were based on comments from AAR and 
the individual railroads. Commission staff is fully committed to 
working with the railroads subject to the PTC deployment deadlines. We 
expect the procedures proposed in the Program Comment to materially 
reduce the time it will take railroads to complete required reviews of 
PTC infrastructure. Specifically, overall time limits for review are 
reduced by 40 percent and appeals must stop at the end of 90 days in 
most cases. The Program Comment is currently under review by ACHP, and 
we look forward to working with the railroads to help them take 
advantage of the new procedures once ACHP has completed its review.
    The existing poles constructed without NHPA and NEPA review pose 
the most significant challenge to moving forward expeditiously. The 
Commission is currently in discussions with the relevant stakeholders, 
including the railroads, Tribal Nations, and SHPOs, regarding multiple 
mitigation proposals so that we can help expedite resolution of the 
pre-construction issues and move forward toward completion of PTC 
deployment.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                         Geoffrey C. Blackwell
    Question. Mr. Blackwell, railroad companies are waiting on the 
Federal Communications Commission (FCC) to approve the siting, 
construction and replacement of an estimated 22,000 communication 
towers and antenna structures before they can move forward on 
implementation of positive train control (PTC) technology. What is the 
FCC doing to make this approval process more efficient? Aside from 
extending the deadline to allow more time for implementation, are there 
steps that the FCC could do to speed up the approval process?
    Answer. Commission staff is fully committed to working with the 
railroads subject to the PTC deployment deadlines. We have drafted a 
Program Comment intended to streamline existing procedures and promote 
administrative efficiency for review of PTC wayside infrastructure. We 
expect the procedures proposed in the Program Comment to materially 
reduce the time it will take railroads to complete required reviews of 
PTC infrastructure. Specifically, overall time limits for review are 
reduced by 40 percent and appeals must stop at the end of 90 days in 
most cases. The Program Comment is currently under review by the 
Advisory Council on Historic Preservation (ACHP), and we look forward 
to working with the railroads to help them take advantage of the new 
procedures once ACHP has completed its review.
    The draft program comment also includes a provision for individual 
railroads to enter into voluntary alternative arrangements with State 
Historic Preservation Offices (SHPO5) and Tribal Nations. One railroad 
has approached the Commission with ideas that might form the basis for 
such alternative arrangements, and we are working with that railroad to 
advance those ideas.
    Another issue is the roughly 10,000 poles that have already been 
constructed without the required review pursuant to Section 106 of the 
National Historic Preservation Act (NHPA) and the National 
Environmental Protection Act (NEPA). The Commission is currently in 
discussions with the relevant stakeholders, including the railroads, 
Tribal Nations, and SHPOs, regarding multiple mitigation proposals so 
that we can help expedite resolution of the pre-construction issues and 
move forward to completion of PTC deployment.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Heidi Heitkamp to 
                         Geoffrey C. Blackwell
    Question. Please explain the challenges regarding PTC 
implementation before your agency and the steps that you are taking to 
address them.
    Answer. Commission staff is fully committed to working with the 
railroads subject to the PTC deployment deadlines. We have drafted a 
Program Comment intended to streamline existing procedures and promote 
administrative efficiency for review of PTC infrastructure. We expect 
the procedures proposed in the Program Comment to materially reduce the 
time it will take the railroads to complete required reviews of PTC 
infrastructure. Specifically, overall time limits for review are 
reduced by 40 percent and appeals must stop at the end of 90 days in 
most cases. The Program Comment is currently under review by the 
Advisory Council on Historic Preservation (ACHP), and we look forward 
to working with the railroads to help them take advantage of the new 
procedures once ACHP has completed its review.
    The draft program comment also includes a provision for individual 
railroads to enter into voluntary alternative arrangements with State 
Historic Preservation Offices (SHPOs) and Tribal Nations. One railroad 
has approached the Commission with ideas that might form the basis for 
such alternative arrangements, and we are working with that railroad to 
advance those ideas.
    Another challenge is the roughly 10,000 poles that have already 
been constructed without the required review pursuant to Section 106 of 
the National Historic Preservation Act (NHPA) and the National 
Environmental Protection Act (NEPA). The FCC is currently in 
discussions with the relevant stakeholders, including the railroads, 
Tribal Nations, and SHPOs, regarding multiple mitigation proposals so 
that we can help expedite resolution of the pre-construction issues and 
move forward with PTC deployment.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Prentiss Searles
    Question 1. ``Operation Classification'' is focused, in part, on 
classification and packing group assignments for Bakken crude. Tests 
are being conducted to measure the chemical properties of the crude. 
PHMSA recently urged API to share information on the composition of 
Bakken crude oil. Last week, PHMSA issued an emergency order requiring 
that crude oil shippers conduct ``sufficient testing'' before transport 
and they must cease shipping crude oil using the least restrictive 
hazardous materials packaging standards (known as Packing Group III).
    DOT has been testing Bakken crude and has found that there are 
ongoing concerns with the proper testing and classification of the 
crude oil. Mr. Searles, Federal regulations to test materials have been 
in place for many years and prior testimony from API has indicated that 
you have also been testing crude for years. How frequently do your 
members currently test materials? How do testing practices vary across 
companies? What oversight processes do companies have in place to 
maintain records of that data?
    Answer. API is developing a standard of best industry practices 
with regard to sampling and testing for classification of crude oil for 
rail transportation. The frequency of testing is dependent upon many 
different factors and must account for the variability of the material. 
Some criteria to determine the frequency of testing include:

  <bullet> History of source of crude oil

  <bullet> Stability of crude oil source

  <bullet> New crude production or changes in production operations

  <bullet> Type of rail car loading facility

    Testing practices are prescribed in standards published by API, 
ASTM and ISO. These standardized procedures stipulate the necessary 
steps for testing of crude oil and allow for little variability. 
Testing data can be supplied from multiple sources over different time 
frames. Nevertheless, documentation has to be retained by the shipping 
party for a minimum of two years.

    Question 2. DOT-111 tank cars were involved in the Lac-Megantic, 
Alabama, and North Dakota derailments and explosions. The DOT-111, 
which accounts for 69 percent of the U.S. tank car fleet, has a 
documented history of failure during accidents. AAR has asked DOT to 
adopt tougher standards for new tank cars, as well as requiring the 
retrofit or phase out of tank cars built to less stringent standards. 
API and the Railway Supply Institute (RSI)--who represent tank car 
manufacturers--also support higher tank car standards, but have 
concerns about retrofit costs.
    For several decades, the NTSB has expressed concern about the DOT-
111 tank car. Other stakeholders, including AAR, API, and RSI, have 
sought tougher tank car standards. DOT is almost a year behind on a 
rulemaking, which would propose updates to the DOT-111 standards, and 
does not anticipate issuing a final rule until next year. This is 
unacceptable to me and the thousands of people living in communities 
that see these train cars roll through their towns everyday--
communities along these rail lines deserve more. Again, this seems to 
be another example of regulatory capture; the DOT for all intents and 
purposes outsourced tank car recommendations to industry back in 2011. 
And here we are 3 years and several high profile accidents later, and 
we're still talking about the need for stronger tank cars.
    Several companies have proposed using only newer tank cars and BNSF 
Railroad has stated that they will order even stronger tank cars. Would 
you agree that these actions will make transporting hazardous materials 
safer? Do your members have concerns about the cost implications for 
acquiring new cars? What is the industry doing to protect communities?
    Answer. The oil and gas industry is focused on a holistic approach 
to safety, which includes efforts relating to prevention, mitigation, 
and response. One component of mitigation is tank car design. Our 
members have been building state-of-the-art tank cars since 2011 based 
on designs that were developed over the course of several years through 
the evaluation of decades of data. Tank car design must be evaluated 
holistically so that changes to the tank cars do not result in 
unintended increases in risk elsewhere in the transportation process. 
Our industry is currently undertaking an integrated risk assessment so 
that we can understand what elements of the supply chain deserve more 
focus. Safety is a core value of the oil and gas industry, as such, we 
are evaluating tank car designs from a safety perspective.

    Question 3. In recent months, DOT officials concluded that eleven 
of eighteen samples taken from cargo tanks carrying Bakken crude were 
not labelled correctly. In addition, it has been revealed that the 
Bakken crude involved in the deadly Lac-Megantic accident was 
inaccurately labeled. What changes has the industry made to ensure the 
proper classification of crude?
    Answer. At a minimum, API member companies are required to test and 
classify their product according to Federal regulations. However, our 
members also understand the need to assess any potential new issues and 
as a result API is developing a standard that addresses the 
classification and loading of crude oil into rail tank cars so that we 
ensure that the industry has a standard set of recommended practices. 
We have also encouraged our members to supply sample data to PHMSA.

    Question 4. What issues led to the initial misclassification of 
crude? Is this happening frequently?
    Answer. The tragedy at Lac-Megantic is currently being studied 
extensively by safety experts. When that review is complete, API will 
work with other stakeholders to address any issues that contributed to 
the accident. However, we will point out, that the product was moved in 
a tank car that was designed for the higher packing group product 
(Hazard Class 3, Packing Group I) and the emergency response for that 
product whether it was a PG I, PG II or PG III, would have been the 
same, regardless. Tank cars are not normally run at 65 mph anywhere in 
the country (U.S. or Canada).

    Question 5. DOT recently announced an amended Emergency Order to 
address the testing of crude. What oversight procedures are in place to 
ensure that proper classification is being conducted? What long-term 
procedures need to be addressed to ensure that proper classification 
continues to be addressed?
    Answer. DOT oversees the transportation of crude by rail and ensure 
that proper classification is being conducted. The API standard will 
address this process and will ensure that the industry has a standard 
set of recommended practices for the classification and loading and 
unloading of crude oil into rail tank cars.

    Question 6. What steps, if any, can be taken before shipment to 
address the volatile content of Bakken crude?
    Answer. API members strive to follow all government regulations 
regarding the proper classification of crude oil, including testing for 
initial boiling point and flash point. Additionally, companies 
undertake a variety of processes prior to the loading of crude oil into 
tank cars depending on their business practices. As part of this 
process, produced crude oil moves from the well to an oil and gas 
separator (or heater treater) where gas, oil, and water are separated.
    API is currently developing a standard for the classification, 
loading, and unloading of crude oil into rail tank cars that will 
assess the characteristics of crude oil to determine which attributes, 
in addition to those already in the regulations, may need to be 
considered to develop the best handling procedures.

    Question 7. In January, API along with other stakeholders met with 
Secretary Foxx and Administrators Szabo and Quarterman, to discuss the 
safe transport of crude oil by rail. At that meeting, DOT asked API to 
consider a number of additional safety measures, including sharing 
testing information. Both DOT and API have previously stated that you 
are working together to provide necessary information. On March 28, DOT 
provided a press statement saying, ``we still lack data we requested 
and that energy stakeholders agreed to produce. The overall and ongoing 
lack of cooperation is disappointing, slows progress, and certainly 
raises concerns.''
    The recent DOT statement differs drastically from information you 
provided to the Committee. What specific information have you been 
asked to provide and what information is still outstanding? Are 
discussions for data ongoing with DOT? If so, are there hurdles to the 
industry for providing data to DOT? When will the industry provide all 
requested information to the DOT?
    Answer. There are three separate data collection efforts underway 
by: North Dakota Petroleum Council (NDPC), AFPM and individual 
companies. Generally there are seven characteristics of crude oil being 
collected (e.g., flash point, initial boiling point, vapor pressure, 
light end analysis, API gravity, sulfur, and H<INF>2</INF>S).
    API member companies are submitting data to PHMSA and sharing it 
with API. More than 150 samples have been submitted to PHMSA thus far 
and API continues to encourage our members to submit data to PHMSA. API 
is compiling the data shared by our members and members have met 
individually with PHMSA to discuss their data.
    In addition to the individual proprietary data, the North Dakota 
Petroleum Council (NDPC) has contracted to a third party to conduct 
quality assurance tests that will study the range and variability of 
Bakken crude oil qualities (ND and MT). They will collect 150 total 
samples--101 well and 49 rail and that data is from both well sites and 
rail facilities from a significant geographic area. The results will 
also be provided to PHMSA as a complement to the proprietary data that 
individual companies are already sharing. NDPC has provided updates to 
PHMSA on their progress.
    AFPM is collecting data from the loading rack and the refinery 
gate. AFPM has provided updates to PHMSA on their collection effort. 
Industry will look forward to collaborating with PHMSA to review the 
crude oil quality data compiled through Operation Classification and 
the industries data collection efforts.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                            Prentiss Searles
    Question 1. What actions are being taken by your agency/
organization to coordinate with state and local agencies on disaster 
preparedness training and emergency response efforts?
    Answer. In 2013, API published the Oil and Natural Gas Industry 
Preparedness Handbook. This Handbook, created in coordination with API, 
other industry trade associations (AFPM, ILTA, AGA, INGAA, SOCMA, PMAA, 
NATSO) and government partners (DOE, DHS, DOI, DOT, EPA, NSS, NASEO), 
is focused on preparing industry and government partners for incidents 
involving oil and natural gas operations from an all hazards 
perspective. API continues to promote the importance of planning for 
preparedness, mitigation and response through education, communication, 
the development of partnerships and the necessity of drills and 
exercises. API, as well as our members and other industry trades, meet 
regularly with federal, state and local partners to stress the 
importance of continuous communication and the development of plans to 
ensure the ready supply of oil and natural gas to first responders, 
communities and critical services. API also works internally with 
members, as well as with public partners, to document and share the 
expertise that exists within industry related to oil spill response, 
spill mitigation and clean up.

    Question 2. What immediate measures can states, municipal 
governments, and local agencies take to mitigate potential disasters?
    Answer. API designed the Oil and Natural Gas Industry Preparedness 
Handbook as a tool for industry, as well as for states, municipal 
governments, and local agencies. The strategy advocated for in the 
Handbook applies to all parties involved in incident response; 
communication and education prior to a response. The largest section of 
the Handbook is specific guidance for state and local partners. This 
section provides guidance on a few specific but critical areas. The 
first is to know who the critical partners are in your area upon which 
key resources or services depend. This includes roles and 
responsibilities, as well as the people who are empowered to make 
decisions in a crisis. The second is to know what not to do. This is as 
important to the private sector as it is to governments. Understanding 
the laws and regulations that can impede response, those that can 
facilitate response and those that may not take effect until a response 
occurs should be known and understood prior to a response. Thirdly, it 
is critical for all parties to understand what matters in an event. For 
localities and states, this is often identification of where critical 
resources and services are sourced, or where critical assets are 
located. Lastly, all of the previous concepts should be combined and 
integrated into exercises to ensure all parties understand these 
concepts, know what is needed, and to identify gaps in knowledge and 
process.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Prentiss Searles
    Question 1. Mr. Searles, Federal officials and your industry seem 
to agree on one thing: that Bakken crude is light, sweet, and more 
combustible than most other crudes. This is obviously a factor in these 
explosions, and the correct labeling of these shipments is critically 
important. I believe some fines have already been assessed for 
misclassification.
    Misclassification means that first responders don't know what to 
expect when they approach a disaster site. And in a trade dependent-
state like Washington, our rail lines run through major population 
centers. Consequences from an accident would be high--which is one of 
the reasons cities and newspapers across our state have expressed 
concern about the safe movement of crude. Could you tell us what steps 
your industry is taking to reduce the volatility of Bakken crude prior 
to transport?
    Answer. API members strive to follow all government regulations 
regarding the proper classification of crude oil, including testing for 
initial boiling point and flash point. Additionally, companies 
undertake a variety of processes prior to the loading of crude oil into 
tank cars depending on their business practices. As part of this 
process, produced crude oil moves from the well to an oil and gas 
separator (or heater treater) where gas, oil, and water are separated.
    API is currently developing a standard for the classification, 
loading, and unloading of crude oil into rail tank cars that will 
assess the characteristics of crude oil to determine which attributes, 
in addition to those already in the regulations, may need to be 
considered to develop the best handling procedures.

    Question 2. Could you tell us what steps your industry is taking to 
better understand the characteristics of crude prior to shipment?
    Answer. API has established a group of physical chemists who are 
specialists in crude oil properties. They are reviewing different 
properties of crude oil to determine in addition to those already 
required by PHMSA, those most suitable for classifying and 
characterizing the material for rail transportation. Furthermore, these 
specialists are also looking at the science behind crude oil properties 
used for rail car selection in order to identify those parameters that 
could impact rail car design.
    Guidance on this subject is being included in the development of 
the API standard, a process which is open to all stakeholders such as 
the railroad industry, tank car builders/owners and lessors, PHMSA, 
Transport Canada, as well as crude oil producers.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                            Prentiss Searles
    Question 1. A consensus seems to be emerging that steps needs to be 
taken to fortify existing tanker cars or to build new and safer cars. I 
understand your members own roughly half of the tanker cars used to 
carry crude. The other half are owned by rail car leasing companies. 
Can you tell me at what stage in the depreciation schedule producer 
owned rail cars are? In other words, in general, how long have these 
cars been in service?
    Answer. The vast majority of tank cars in crude service were built 
after 2001 (over 80 percent) and approximately half of those cars were 
built in 2012 and 2013 so they are likely to not have been fully 
depreciated at this point.

    Question 2. If DOT-111s are phased out, the productive life of some 
of these assets will be shortened significantly. Would the American 
Petroleum Institute support changes to the tanker car depreciation 
schedules as an incentive for oil producers to invest in new tanker 
cars?
    Answer. We have no position on that proposal at this point.

    Question 3. At what stage of the depreciation schedule are the DOT-
111 tanker cars in the current fleet? More specifically, what is the 
percentage of tankers cars that are nearing their life's end? What 
percentage of tanker cars are in the middle or early part of the 50 
year productivity window?
    Answer. The vast majority of tank cars in crude oil service are in 
the middle or early part of the 50-year productivity window. Over half 
of those are in the first few years of service life.

    Question 4. At the meeting you and I attended with Secretary Foxx, 
API committed on behalf of the industry to provide PHMSA with data 
regarding the crude in the Bakken. To date, what information has API 
been able to provide to PHMSA?
    Answer. There are three separate data collection efforts underway 
by: North Dakota Petroleum Council (NDPC), AFPM and individual 
companies. Generally there are seven characteristics of crude oil being 
collected (e.g., flash point, initial boiling point, vapor pressure, 
light end analysis, API gravity, sulfur, and H<INF>2</INF>S).
    API member companies are submitting data to PHMSA and sharing it 
with API. More than 250 samples have been submitted to PHMSA thus far 
and API continues to encourage our members to submit data to PHMSA. API 
is compiling the data shared by our members and members have met 
individually with PHMSA to discuss their data.
    In addition to the individual proprietary data, the North Dakota 
Petroleum Council (NDPC) has contracted to a third party to conduct 
quality assurance tests that will study the range and variability of 
Bakken crude oil qualities (ND and MT). They will collect 150 total 
samples--101 well and 49 rail and that data is from both well sites and 
rail facilities from a significant geographic area. The results will 
also be provided to PHMSA as a complement to the proprietary data that 
individual companies are already sharing. NDPC has provided updates to 
PHMSA on their progress.
    AFPM is collecting data from the loading rack and the refinery 
gate. AFPM has provided updates to PHMSA on their collection effort. 
Industry will look forward to collaborating with PHMSA to review the 
crude oil quality data compiled through Operation Classification and 
the industries data collection efforts.

    Question 5. Is it true that many of your members use the same 
contracting labs that are used by PHMSA to test the qualities and 
characteristics of Bakken crude? To your knowledge, do contracting labs 
use identical methodologies for multiple clients when testing for 
characteristics such as vapor pressure, viscosity, corrosiveness, 
boiling point and flash point? If that is the case, do you believe that 
oil companies testing crude oil are in a strong position to share data 
with PHMSA as part of Operation Backpressure?
    Answer. We do not know what labs PHMSA is using for its Operation 
Classification studies and I cannot speculate on whether they are using 
the same labs as the oil companies. To my knowledge, many of the test 
procedures for testing crude oil properties are the same, though some 
of the test procedures can have significant reproducibility variance.

    Question 6. At the end of this process, if additional requirements 
are mandated to further improve the safety of tanker cars beyond the 
1232 good faith tanker specifications--do you commit to cooperating in 
good faith to meet those standards?
    Answer. API will continue to cooperate to ensure that the most 
appropriate tank cars are chosen and that approach is based on the 
proven and available models. It is our understanding that API's members 
and the petroleum industry in general has been purchasing the CPC-1232 
standard tank car and we have already committed to adding the safety 
valves once they are designed and engineered (i.e., the low trigger, 
high-flow pressure relief device and the enhanced bottom outlet valve 
handle).

    Question 7. In your opinion, are the DOT-111 cars currently in use 
sufficiently safe for the transportation of crude?
    Answer. Under normal operating conditions, the existing DOT-111 
tank cars are safe. However, our members understand that in situations 
where prevention fails, there is a need to mitigate incidents. That 
said, our members continue to review whether there are possible 
improvements that would mitigate incidents if the tank cars are 
derailed. If we identify improvements and those are approved by DOT, it 
will be imperative that enough time is given to implement the changes 
so that the U.S. continues to benefit from our country's crude oil 
renaissance while simultaneously implementing changes that would 
improve safety.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            Prentiss Searles
    Question. Can you explain for the Committee the logistics and 
ownership of tank cars when it comes to that fleet and how long it 
would take to cycle the existing fleet of new and older model DOT-111 
tank cars?
    Answer. There are approximately 100,000 DOT-111 rail tank cars in 
the U.S. fleet moving flammable liquids like crude oil and ethanol.\1\ 
Of that fleet, there are over 42,000 in crude oil service and more than 
14,000 of those tank cars are built to the petition car standard.\2\ 
The Railway Supply Institute has publically stated that there are 
another 37,800 tank cars that will be built to the petition car 
standard for crude oil service that will be delivered by December 
2015.\3\ There will be approximately 80,000 cars in crude oil service 
by that time. Tank cars are unique in that they are not owned by the 
railroads, they are owned by tank car leasing companies and shippers. 
Tank cars have an operating life of 30-50 years.
---------------------------------------------------------------------------
    \1\ Third Quarter 2013 Data from AAR 11/9/13 Fleet Analysis
    \2\ AAR NTSB Presentation, 4/22/2014
    \3\ RSI NTSB Presentation, 4/22/2014
---------------------------------------------------------------------------
    The impact on each API member will vary depending on their business 
model and on the final PHMSA rule and timeframe. Specifically, the 
extent and complexity of a modification, whether companies purchase 
cars or lease them, the size of each fleet, the number of cars 
backordered, the make-up of the total fleet, the availability of 
materials, and access to repair shop or manufacturer capacity will all 
determine timing.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                            Prentiss Searles
    Question. What would the impact of completing the Keystone XL 
pipeline be on the amount of petroleum products that are currently 
being transported by rail?
    Answer. API does not forecast, but when considering this question, 
the following may help better explain the options available to ship 
crude oil from Canada or our upper Plains states to domestic 
refineries--where we can take a raw material and make more valuable 
products. The Keystone XL pipeline is neither the only pipeline being 
considered, nor the only means available to ship Canadian or domestic 
crude oil. KXL is but one of 6 major pipeline proposals to bring 
Canadian crude to market. In addition, 100,000 barrels per day (bpd) of 
its capacity is set aside for Bakken crude production (according to the 
Department of State). However, Bakken production, is expected to 
increase by about 700,000 bpd by 2017 and by 1 million bpd by 2020.\4\ 
The expected increase in Bakken production is seven to ten times larger 
than the set-aside Bakken capacity of KXL. . Rather, it may serve to 
reduce the increase in rail traffic that would occur absent KXL by 14 
percent in 2017 and 10 percent in 2020.
---------------------------------------------------------------------------
    \4\ ICF, 2014
---------------------------------------------------------------------------
    It is important to keep in mind that the decision to ship crude to 
market via pipeline or rail is multifaceted. It is not a matter of 
pitting one mode against the other mode. Rail provides flexibility, 
shorter times to come on line. Pipeline approvals take time as we 
certainly have seen with KXL now, nearly 6 years under review. The 
Department of State found the proposed KXL to be the preferred means to 
bring Canada's crude from Alberta to our refineries in the Gulf along 
that route. Rail offers the option to deliver crude to refiners not 
served by pipelines, to help our domestic refiners utilize our own 
domestic production, rather than purchasing their crude from more 
distant, less friendly sources.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Edward R. Hamberger
    Question 1. On January 15, 2014, the Regional Planning Association 
released a report titled, ``Getting Back on Track: Unlocking the Full 
Potential of the New Haven Line. The RPA report concludes that the New 
Haven Line's largest issue is the severity of its aging and 
deteriorating infrastructure. Due to the state of the railroad's 
infrastructure, the New Haven Line (NHL) is extremely underfunded and 
requires tremendous increases in funding to reach a state of good 
repair. At current funding levels of less than $200 million a year, it 
would take 20 years to reach a state of good repair. Connecticut has 
dedicated $1 billion to the railroad in its 2013-2017 capital plan, but 
the RPA concludes that an additional $3.6 billion is needed to replace 
the railroad's obsolete infrastructure by 2020.
    These infrastructure needs, which include deteriorating bridges, 
some over 100 years old, worn track, and outdated signaling and power 
systems, pose threats to safety as seen in the Bridgeport derailment. 
Broken and ill-repaired track has put lives at risk and it's only a 
matter of time before such an incident reoccurs if nothing is done. How 
critical is sound infrastructure to the ensuring safety on the Nation's 
railway system?
    Answer. AAR has often testified that one of the most important ways 
that railroads have reduced accidents is through significant and 
consistent investments back into their networks. Since the enactment of 
Staggers, America's freight railroads have been reinvesting more 
private capital than ever before to renew, upgrade, and expand their 
infrastructure and equipment, including a record $25.5 billion in 2012 
and $25.1 billion in 2013. The vast majority of these investments have 
improved rail safety either directly or indirectly. For many of these 
investments, safety is the primary reason the expenditures were made. 
From 2008 to 2012 alone, Class I railroads spent nearly $26 billion in 
capital expenditures on new crossties (77 million), new rail (2.9 
million tons), and new ballast (nearly 61 million cubic yards). Over 
the same period, they spent billions of additional capital dollars on 
signal and communications systems, bridges and tunnels, and machinery. 
These and other investments, as well as the billions of dollars 
railroads spend on maintenance of their networks each year, have made 
railroads much safer. This assertion is borne out by the fact that from 
1980 to 2013, the train accident rate fell 79 percent, the rail 
employee injury rate fell 84 percent, and the grade crossing collision 
rate fell 81 percent.

    Question 2. How many of the existing safety concerns can be solved 
by reaching a state of good repair for the Nation's railroads?
    Answer. Clearly, a railroad in a state of good repair is safer than 
a railroad with significant amounts of deferred maintenance. Thanks 
largely to the $550 billion freight railroads have reinvested back into 
their networks since 1980, America's freight railroads are in better 
condition today than ever before. And because a financially viable 
railroad is in a much better position to reinvest in its network and in 
risk reduction strategies than a financially challenged railroad, it is 
critically important that the regulatory structure under which 
railroads operate recognize the need for railroads to continue to earn 
sufficient revenues to allow them to reinvest heavily back into their 
systems.

    Question 3. DOT-111 tank cars were involved in the Lac-Megantic, 
Alabama, and North Dakota derailments and explosions. The DOT-111, 
which accounts for 69 percent of the U.S. tank car fleet, has a 
documented history of failure during accidents. AAR has asked DOT to 
adopt tougher standards for new tank cars, as well as requiring the 
retrofit or phase out of tank cars built to less stringent standards. 
API and the Railway Supply Institute (RSI)--who represent tank car 
manufacturers--also support higher tank car standards, but have 
concerns about retrofit costs.
    For several decades, the NTSB has expressed concern about the DOT-
111 tank car. Other stakeholders, including AAR, API, and RSI, have 
sought tougher tank car standards. DOT is almost a year behind on a 
rulemaking, which would propose updates to the DOT-111 standards, and 
does not anticipate issuing a final rule until next year. This is 
unacceptable to me and the thousands of people living in communities 
that see these train cars roll through their towns everyday--
communities along these rail lines deserve more. Again, this seems to 
be another example of regulatory capture; the DOT for all intents and 
purposes outsourced tank car recommendations to industry back in 2011. 
And here we are 3 years and several high profile accidents later, and 
we're still talking about the need for stronger tank cars.
    AAR recently called for additional changes to the proposed tank car 
standard. What prompted this change and how will those changes increase 
safety?
    Answer. In 2011, AAR petitioned PHMSA to adopt more stringent 
requirements for DOT-111 tank cars used to transport packing group I 
and II materials. That petition proposed that new tank cars used to 
transport those materials must have thicker shells than required by the 
current regulations, with current shell thicknesses permitted only for 
tank cars constructed of normalized steel and equipped with jackets and 
thermal protection. In addition, the petition proposed that tank cars 
be equipped with enhanced top fittings protection, reclosing pressure 
relief devices, and half-height head shields. Subsequently, AAR adopted 
an interchange standard (CPC-1232) with the same requirements 
applicable to tank cars used to transport crude oil and ethanol, 
effective for cars ordered after October 1, 2011.
    AAR now supports even more stringent standards for new tank cars 
used to transport these materials. Furthermore, AAR proposes additional 
requirements for tank cars transporting flammable liquids, including 
packing group III flammable liquids, retrofits of existing cars in 
flammable liquid service, and an aggressive phase-out of cars that 
cannot meet retrofit requirements. The phase-out program must take into 
account factors such as manufacturing capacity, the demand for new DOT-
111 cars, shop capacity for any retrofits that will be undertaken, and 
the number of DOT-111 cars that need to be phased out of flammable 
liquid service. Input is needed from shippers and tank car 
manufacturers to determine the precise parameters of a phase-out 
program and identify retrofits that should be required.
    The discussion of new tank car standards takes place in the context 
of the accident that took place on July 6, 2013, in Lac-Megantic, 
Quebec. The Lac-Megantic accident has no parallel in recent times and 
over the last several decades the railroads' overall safety record has 
improved dramatically. Indisputably, railroads provide an efficient and 
safe way to transport hazardous materials such as crude oil and other 
flammable liquids.

    Question 3. In July, a train carrying crude derailed and exploded 
in Lac-Megantic, Quebec, killing 47 people and destroying the city's 
downtown. On December 30th, a train in North Dakota carrying crude oil 
struck another train which set off an explosion and required the 
evacuation of more than 1,500 people. On January 7th, a train carrying 
crude and propane derailed and caught fire in New Brunswick, Canada 
forcing an evacuation less than 35 miles from the Maine border.
    A series of freight rail accidents over the past 8 months highlight 
the need for safety plans to be in place so that communities and first 
responders know how to respond when there is a train accident carrying 
crude, propane, or any other hazardous material. Training first 
responders is a good first step to improving the response to incidents, 
and I was glad to see that included in your recent agreement.
    As part of your agreement, AAR committed to rerouting trains 
carrying at least 20 cars of crude oil to the ``safest and most secure 
routes.'' How will these routing decisions impact communities that are 
not currently seeing a large influx of crude-by-rail? Will other 
communities see an increase in crude trains and will additional 
resources be focused on these communities?
    Answer. Since this aspect of the industry's commitments to USDOT 
will not take effect until July 1, 2014, it is premature to speculate 
on how the use of the RCRMS tool may impact crude oil routing 
decisions. That said, railroads seek to operate safely everywhere, and 
their safety record indicates that they succeed the vast majority of 
the time.

    Question 4. As part of PTC implementation, railroads must install 
tens of thousands of new antenna structures nationwide to transmit PTC 
signals. The Federal Communications Commission (FCC) maintains that all 
PTC antenna structures are subject to the National Environmental 
Protection Act (NEPA) and the National Historic Preservation Act 
(NHPA). The location of each antenna must be submitted to the FCC so 
Native American tribes can determine if the installation will 
negatively impact areas of historic, cultural or religious 
significance.
    In January 2014, the FCC released a proposal that was intended to 
expedite the review of PTC infrastructure.
    How would the FCC's proposed process affect the ability of 
railroads to meet the Dec. 31, 2015 deadline? What are the major 
hurdles to efficiently moving forward on installation?
    Answer. The FCC elected to draft a program comment for 
consideration by the Advisory Council on Historic Preservation 
(``ACHP''). The railroad industry argued to the FCC that the FCC should 
recommend to the ACHP that a program comment exempt most PTC wayside 
infrastructure from Section 106 review under this standard. Such an 
approach would not require the FCC to pursue a rulemaking under its own 
rules. This approach would ensure that Tribal Nations and the State 
Historic Preservation Offices would be able to focus their attention on 
those poles that are most likely to implicate historic preservation 
concerns, while not causing unreasonable delay to PTC deployment. 
Unfortunately, the draft program comment that the FCC submitted to the 
ACHP created a process based on the FCC's existing location-by-location 
approach and, if adopted by the ACHP, would not streamline the review 
process in a meaningful way.
    While the railroad industry would not have been able to make the 
2015 deadline even if there had been no delay attributable to the FCC, 
the delay in installation of the antennas has set back the timeline for 
rolling out PTC. Last May, AAR projected that by December 31, 2015, the 
industry would have rolled out PTC on 40 percent of the route mileage 
required to be equipped with PTC. AAR has now reduced that December 31, 
2015, projection to 20 percent of the PTC route mileage and lacking a 
date certain by which approval to install PTC antennas will be granted, 
the industry cannot make any additional projections.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Edward R. Hamberger
    Question 1. In your testimony before the Subcommittee, you 
mentioned that in light of recent accidents involving crude oil 
shipments, railroads are considering expanding the application of a 
number of procedures used for trains carrying toxic/hazardous materials 
to trains carrying large amounts of crude oil.
    Examples of such procedures include speed restrictions, more 
frequent train inspections, and the use of the Rail Corridor Risk 
Management System--developed jointly with the Federal government to aid 
railroads in identifying the safest and most secure rail routes. When 
will the railroads make this determination?
    Answer. Pursuant to the agreement with Secretary Foxx, railroads 
will adhere to speed restrictions for key crude oil trains within the 
limits of high-threat urban areas by no later than July 1, 2014; 
perform at least one additional internal rail inspection than is 
required each year by Federal regulation effective March 25, 2014; and 
begin using the Rail Corridor Risk Management System by no later than 
July 1, 2014.

    Question 2. What procedures expected to be used by crude oil trains 
are different than those procedures currently used by trains shipping 
toxic and hazardous substances, and which procedures currently used by 
trains shipping toxic and hazardous substances can be used by crude oil 
trains?
    Answer. AAR Circular OT-55-N specifies recommended railroad 
operating practices for the transportation of all hazardous materials, 
including crude oil. Earlier this year, USDOT Secretary Foxx called for 
the industry to identify steps that might be taken to address the new 
and unique challenges associated with crude oil transportation. In late 
February, the industry agreed to a series of additional voluntary 
actions for crude oil, including increased track inspections, upgraded 
braking systems, routing protocols, speed limits in certain areas, 
deployment of trackside safety technology and emergency response 
enhancements.

    Question 3. In your testimony before the Subcommittee, you 
mentioned that upon request, railroads provide appropriate local 
authorities with a list of the hazardous materials, including crude 
oil, transported through their communities. Why is it not general 
practice to automatically distribute this information to local 
authorities so they can implement the appropriate mitigation and 
emergency preparedness procedures in case of a disaster?
    Answer. AAR members provide bona fide emergency response agencies 
or planning groups with specific commodity flow information covering 
hazardous commodities transported through the community. The railroad 
industry considers this to be restricted information of a security 
sensitive nature and the recipient of the information must agree to 
release the information only to bona fide emergency response planning 
and response organizations and not distribute the information publicly 
without the railroad's express written permission.

    Question 4. What actions are being taken by your agency/
organization to coordinate with state and local agencies on disaster 
preparedness training and emergency response efforts?
    Answer. All major railroads have teams of full-time personnel whose 
primary focus is hazmat safety and emergency response. Railroads also 
have teams of environmental, industrial hygiene, and medical 
professionals available 24 hours a day, seven days a week, and 365 days 
a year to provide assistance during hazmat incidents. Railroads also 
maintain networks of hazmat response contractors and environmental 
consultants, strategically located throughout their service areas, who 
can handle virtually any air, water, waste or public health issue. 
These contractors, who are on call at all times of the day and night, 
have multiple offices and equipment storage locations and a vast array 
of monitoring equipment, containment booms, industrial pumps, and other 
spill response and heavy equipment. Finally, railroads have 
comprehensive ``standard of care'' protocols that ensure that impacts 
to the community--such as evacuations--are addressed promptly and 
professionally.
    In addition to relying on their own personnel, railroads have a 
long history of working closely with state and local emergency first 
responders and emergency planners in many different ways. Each year, 
railroads actively train well over 20,000 emergency responders 
throughout the country. This training ranges from general awareness 
training to much more in-depth offerings. The precise parameters of 
these emergency response training programs vary from railroad to 
railroad.
    In addition to individual railroad activities, some railroad hazmat 
training efforts fall under the auspices of the Transportation 
Community Awareness and Emergency Response Program (TRANSCAER). 
TRANSCAER is a national inter-industry partnership focused on assisting 
communities to prepare for, and to respond to, hazmat incidents. 
TRANSCAER offers classroom and hands-on training; emergency planning 
assistance; support for community drills and exercises; technical 
information, reference, and training materials; and national 
conferences and workshops for sharing best practices. TRANSCAER 
provides this training at no cost to emergency responders and has 
developed a well-earned reputation for quality and effectiveness.
    The rail industry is also deeply involved in improving our Nation's 
emergency response capability through its support of the Security and 
Emergency Response Training Center (SERTC), a world-class training 
facility that is part of TTCI in Pueblo, Colorado. The AAR established 
SERTC in 1985. Its original mission was to train railroad personnel to 
safely handle accidents involving tank cars carrying hazardous 
materials. Over time, though, its scope has been broadened to also 
serve the public sector emergency response community, other industries, 
government agencies, and emergency response contractors from all over 
the world.
    SERTC's primary focus is still freight rail safety, but SERTC also 
offers training covering other surface transportation modes. It 
recently implemented emergency response and planning programs related 
to passenger rail and mass transit. The Transportation Security 
Administration has been using SERTC for employee training since 2006. 
In fact, more than 2,100 TSA participants have trained at SERTC to date 
in such areas as ``Railroad 101,'' hazmat transportation, and safety 
compliance. FBI and National Guard personnel have also been trained at 
SERTC. Over the years, SERTC has provided in-depth, realistic, hands-on 
hazmat emergency response training to more than 50,000 local, state, 
and tribal emergency responders and railroad, chemical, and petroleum 
industry employees. Many railroads regularly provide financial 
assistance to emergency responders in their service areas to attend 
SERTC. Instructors at SERTC average more than 30 years of emergency 
response experience.

    Question 5. What immediate measures can states, municipal 
governments, and local agencies take to mitigate potential disasters?
    Answer. They should take advantage of the variety of opportunities 
railroads provide to help local emergency responders. As noted above, 
railroads have a long history of working closely with state and local 
emergency first responders and emergency planners in many different 
ways. These consist of a combination of some or all of the following:

        Safety Trains. Several railroads utilize ``hazmat safety 
        trains'' and other training equipment that travel from 
        community to community to allow for hands-on training for local 
        first responders.

        Training Centers. Several railroads operate centralized hazmat 
        training sites where they train employees, first responders, 
        customers, and other railroad industry personnel in all aspects 
        of dealing with hazmat incidents.

        Local Firehouse Visits. In aggregate, railroads visit hundreds 
        of local firehouses each year to provide classroom and face-to-
        face hazmat training.

        Table Top Drills. Railroads regularly partner with local 
        emergency responders to conduct simulations of emergency 
        situations in which general problems and procedures in the 
        context of an emergency scenario are discussed. The focus is on 
        training and familiarization with roles, procedures, and 
        responsibilities.

        Self-Study Training Courses. Railroads make available self-
        study programs for emergency responders that allow students to 
        learn proper procedures at their own pace.

    Some railroads also provide related web-based training on hazmat 
and general rail safety issues.
    Railroads also regularly provide hazardous materials training to 
their customers and short line railroad partners. These comprehensive 
rail industry efforts point to the seriousness with which railroads 
take their responsibilities regarding the safety of the communities 
they serve.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Edward R. Hamberger
    Question 1. Mr. Hamberger, I think we are all in agreement that the 
voluntary crude-by-rail operating agreement is a step in the right 
direction.
    But city councils in places like Spokane and Bellingham, mayors, 
and Washington's major newspapers are telling me that they simply don't 
have enough information about what is being moved by rail to give them 
confidence that it is moving safely. The Spokesman Review expressed it 
pretty clearly, saying it was ``vital that feds create oil-by-rail 
safeguards,'' and speaking of the new agreement, ``if that result is 
also voluntary, then it won't bring much comfort.'' I agree with them, 
and hope--expect--your industry to allay their concerns by answering 
their questions about train movements in Washington communities and 
nationwide. Very frankly, the consequences are high for Washington 
state. We have rail lines, with at-grade crossings, running through the 
hearts of our major cities, so a crude derailment could be 
catastrophic.
    I think that is why folks are asking if voluntary agreements are 
strong enough. It is obviously impossible to completely eliminate all 
risk in these situations. But I think we all agree that we need to 
reduce it significantly to prevent another disaster like we witnessed 
in Lac-Megantic or Casselton, North Dakota. That includes improved tank 
car safety, oil classification, and rail operations. And on the 
operations side, I'm just not convinced that a voluntary, opt-in 
initiative is enough to hold bad actors accountable, considering the 
potential consequences of a derailment in one of our population 
centers.
    What penalties exist for railroads that don't sign the voluntary 
agreement?
    Answer. All Class I railroads have signed the voluntary agreement.

    Question 2. What penalties exist for railroads that opt-in to the 
voluntary agreement, and then violate it (whether they cause an 
accident or not)?
    Answer. The voluntary steps that were agreed to by freight 
railroads are memorialized in a letter of agreement to DOT containing 
the details of the steps. The signatures of the senior railroad 
officials affixed to the letter affirm the individual railroads' firm 
commitment to abide by the terms of the agreement. AAR does not expect 
there to be any compliance issues, but FRA inspectors can monitor 
compliance and FRA can undertake additional measures if compliance 
issues arise.

    Question 3. If industry is behind these voluntary procedures--do 
you believe we should be thinking about making them into a statute, or 
imposing fines for violating them?
    Answer. There would be no safety advantage. Class I signatories 
will comply and FRA can monitor compliance.

    Question 4. If no, why not?
    Answer. There would be no safety advantage.

    Question 5. If the good actors are already opting-in, does making 
the voluntary standards into law come at a cost?
    Answer. All Class I railroads have signed the voluntary agreement.

    Question 6. If accidents keep occurring even once this agreement is 
fully implemented, is your industry prepared to go further to reduce 
risk?
    Answer. There is every reason to expect the measures undertaken 
will reduce the probability of a crude oil release.

    Question 7. Mr. Hamberger, I think we are all pleased that your 
industry is working on new, specialized crude-by-rail training as part 
of the voluntary operating agreement. I believe that includes tuition 
assistance for 1,500 first responders to attend training in Colorado in 
2014. Obviously, there are a lot of communities, probably hundreds in 
Washington state, that are affected by crude traffic--so I'm a little 
worried that 1,500 nationwide is only a drop in the bucket.
    In Washington, rail lines run through the heart of our biggest 
cities--so this issue really hits home to my constituents. They want to 
see this product moving safely, and they want to know that their first 
responders have received adequate training from industry experts on how 
to respond.
    Has the industry considered making a commitment to extending 
additional funding for future years, to ensure that this training 
reaches a large number of first responders? If no, why not?
    Answer. It is important to understand that the training at TTCI 
represents only a fraction of the railroads' commitment to emergency 
response training. Railroads have a long history of working closely 
with state and local emergency first responders and emergency planners 
in many different ways. In addition, each year, railroads actively 
train well over 20,000 emergency responders throughout the country. 
This training ranges from general awareness training to much more in-
depth offerings. The precise parameters of these emergency response 
training programs vary from railroad to railroad.
    Local responders should take advantage of the variety of 
opportunities railroads provide. These consist of a combination of some 
or all of the following:

        Safety Trains. Several railroads utilize ``hazmat safety 
        trains'' and other training equipment that travel from 
        community to community to allow for hands-on training for local 
        first responders.

        Training Centers. Several railroads operate centralized hazmat 
        training sites where they train employees, first responders, 
        customers, and other railroad industry personnel in all aspects 
        of dealing with hazmat incidents.

        Local Firehouse Visits. In aggregate, railroads visit hundreds 
        of local firehouses each year to provide classroom and face-to-
        face hazmat training.

        Table Top Drills. Railroads regularly partner with local 
        emergency responders to conduct simulations of emergency 
        situations in which general problems and procedures in the 
        context of an emergency scenario are discussed. The focus is on 
        training and familiarization with roles, procedures, and 
        responsibilities.

        Self-Study Training Courses. Railroads make available self-
        study programs for emergency responders that allow students to 
        learn proper procedures at their own pace.

    Some railroads also provide related web-based training on hazmat 
and general rail safety issues.
    Railroads also regularly provide hazardous materials training to 
their customers and short line railroad partners. These comprehensive 
rail industry efforts point to the seriousness with which railroads 
take their responsibilities regarding the safety of the communities 
they serve.

    Question 8. Mr. Hamberger, as you know, especially in the West, we 
have freight rail lines running through the hearts of our cities--
Seattle, Spokane, Tacoma, and Vancouver, just to name a few in my 
state. That makes my constituents concerned when they look at crude 
moving by rail. Consequences could be very high if there was to be a 
derailment in one of our population centers.
    What is your industry doing to invest in these population centers, 
far from the Bakken? I don't mean just normal maintenance. But is the 
railroad industry developing new standards for track and track types 
for areas where track runs through cities? Put another way: is there an 
engineering solution (not operations) you are developing as an industry 
to substantially lower the risk of any derailment in population 
centers?
    Answer. While railroading today seems similar to railroading 150 
years ago, this apparent similarity masks a widespread application of 
modern technology and a huge variety of ongoing initiatives to 
research, test, and apply advanced technologies to yield the safety 
record of continuous improvement experienced by the railroad industry.
    Many of these advancements were developed or refined at the 
Transportation Technology Center, Inc. (TTCI), the finest rail research 
facility in the world, in Pueblo, Colorado. TTCI is a wholly owned 
subsidiary of the AAR. Forty-eight miles of test tracks, highly 
sophisticated testing equipment, metallurgy labs, simulators, and other 
diagnostic tools are used to test track structure, evaluate freight car 
and locomotive performance, assess component reliability, and much 
more.
    A few of the many examples of safety-enhancing rail technologies 
developed at TTCI or elsewhere that have come into widespread use or 
are in the process of being implemented include: wayside detectors that 
identify defects on passing rail cars, including overheated bearings 
and damaged wheels, dragging hoses, deteriorating bearings, cracked 
wheels, and excessively high and wide loads; internal rail inspection 
systems using induction or ultrasonic technology to detect internal 
flaws in rails which are caused by fatigue and impurities introduced 
during manufacturing; track geometry vehicles that use electronic and 
optical instruments to inspect track alignment, gauge, curvature, and 
other track conditions; ground-penetrating radar that helps identify 
problems (such as excessive water penetration and deteriorated ballast) 
that hinder track stability; and positive train control systems that 
are designed to automatically stop or slow a train before certain 
accidents occur. Railroads and their suppliers will continue to pursue 
these and other technological advances that make rail transportation 
safer and more secure.
    Separately, in response to USDOT Secretary Foxx's challenge to the 
rail industry to identify steps that might be taken to address the new 
and unique challenges associated with crude oil transportation, the 
industry announced in February 2014:

  <bullet> Effective March 25, 2014, railroads began performing one 
        additional internal-rail inspection each year above those 
        required by new FRA regulations on main line routes over which 
        trains moving 20 or more carloads of crude oil travel. 
        Railroads will also conduct at least two high-tech track 
        geometry inspections each year on main line routes over which 
        trains with 20 or more loaded cars of crude oil are moving.

  <bullet> Not later than July 1, 2014 railroads will begin installing 
        additional wayside wheel bearing detectors if they are not 
        already in place every 40 miles along tracks with trains 
        carrying 20 or more crude oil cars, as other safety factors 
        allow.

    Question 9. Mr. Hamberger, a number of commodity groups and 
shippers have come into my office in recent months with concerns that 
increasing crude-by-rail shipments is negatively impacting their 
businesses.
    This includes service issues regarding: (1) timely delivery of 
their products, (2) timely availability of rail cars, or (3) reduced 
rail capacity for non-crude shipments in a way that appears to 
eliminate rail as a viable transportation alternative. These concerns 
come on top of significant delays--in part caused by crude-by-rail 
growth and congestion--to the Amtrak Empire Builder between Seattle/
Portland and Chicago. What steps is the rail industry taking to ensure 
sufficient access and reliable service for the broad range of commodity 
groups that have historically relied on rail service?
    Answer. The recent winter presented rail service challenges that 
were far worse than usual in many parts of the country. Railroads are 
working around the clock to overcome these challenges. It remains the 
railroads' goal to provide service at the high levels their customers 
expect.
    Having said this, AAR projects that the Nation's freight railroads 
will spend approximately $26 billion in 2014 to build, maintain, and 
upgrade their nationwide rail network. This year's projected record 
investments continue a decades-long trend of private railroad dollars 
that sustain America's freight rail network. The result is a rail 
network that is the best in the world, serving and expanding to meet 
both freight and passenger railroads.
    Freight railroads have invested approximately $550 billion of their 
own money into the rail network since 1980, including $118 billion in 
the past five years alone. From upgrades to bridges and tunnels to new 
tracks and facilities, freight rail infrastructure is constantly 
maintained and upgraded to meet the demands of an evolving economy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                          Edward R. Hamberger
    Question 1. The industry has been very cooperative with regulators 
throughout this process, and has even asked for the regulators to issue 
rules to give them more certainty. It is not often that you have an 
industry calling for more regulation. It is even rarer that the 
regulators don't response quickly to give the industry the certainty it 
needs. Related to this issue, can you tell me what areas of concern you 
have regarding the upcoming rules? Do you think that PHMSA and the FRA 
could go too far in responding to derailment Casselton? Are you 
convinced the regulators are on the right track? Or is it too early to 
know?
    Answer. Since DOT has not issued a notice of proposed rulemaking, 
AAR does not know the direction DOT might go in.

    Question 2. Can you please outline the steps the railroad industry 
has committed to taking in order to improve rail safety?
    Answer. The nation's major freight railroads recently joined 
Transportation Secretary Anthony Foxx in announcing a rail operations 
safety initiative that will institute new voluntary operating practices 
for moving crude oil by rail. Additional issues relating to the safe 
transport of crude oil discussed in January with Secretary Foxx, such 
as tank car standards and proper shipper classification of crude oil, 
are being addressed separately. The voluntary initiative addresses 
crude by rail safety in eight important areas: routing analysis for 
crude trains; lowering crude train speeds in some areas; accident 
prevention through inspections; accident prevention with additional 
wayside technology; local emergency responder training and tuition 
assistance; railroad emergency response capabilities; and braking 
systems.

    Question 3. Will these changes be costly? And will they ultimately 
be passed on to your customers?
    Answer. Railroads take the challenge of moving the Nation's crude 
oil extremely seriously, and they recognize that improving safety is an 
ongoing process. Railroads are proud that their overall safety record, 
as measured by FRA data, has been trending in the right direction for 
decades. Having said this, AAR has no estimate of the cost of these 
changes.

    Question 4. To what extent do the different railroads disagree on 
what needs to be done to improve rail shipment of crude?
    Answer. There is no disagreement. Class I railroads all agree that 
actions falling into three categories are necessary to continue to 
improve safety. They are: accident prevention, consequence mitigation 
and emergency response. Likewise, Class I railroads all signed the 
recent letter of agreement with DOT laying out a series of voluntary 
crude oil action items.

    Question 5. If the railroads agree to industry wide standards to 
enhance the safety of the shipments of crude, will the industry have 
any issue with the regulators following the lead of industry in 
mandating these standards through rulemaking?
    Answer. Nothing in the voluntary crude oil agreement with USDOT 
would preclude the government from issuing additional safety 
regulations at any time. However, there is an advantage to industry 
standards. Industry can update its standards much quicker than DOT can 
change its standards. Thus, industry standards can offer the public a 
safety advantage where feasible.

                                  <all>

</pre></body></html>
